No. 19-___
IN THE

Supreme Court of the United States
————
NEW YORK REPUBLICAN STATE COMMITTEE,
v.

Petitioner,

SECURITIES AND EXCHANGE COMMISSION,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
JASON TORCHINSKY
Counsel of Record
SHAWN SHEEHY
CHRIS WINKELMAN
JONATHAN LIENHARD
DENNIS W. POLIO
HOLTZMAN VOGEL JOSEFIAK
TORCHINSKY PLLC
45 North Hill Drive, Suite 100
Warrenton, VA 20186
(540) 341-8808
jtorchinsky@hvjt.law
Counsel for Petitioner
September 16, 2019
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTIONS PRESENTED
On August 25, 2016, the United States Securities
and Exchange Commission (hereinafter “Respondent”
or “Commission” or “SEC”) approved Rule 2030,
reproduced here as Appendix H (also, the “Rule”). Rule
2030 regulates the political contributions of those
members of the Financial Industry Regulatory
Authority (“FINRA”) who act as “placement agents.”
Rule 2030 prohibits a placement agent from accepting
compensation for soliciting government business from
certain candidates and elected officials within two
years of having contributed to such an official’s
electoral campaign or to the transition or inaugural
expenses of a successful candidate. Rule 2030’s prohibitions raise the following constitutional and
Administrative Procedure Act questions:
1. Whether Rule 2030 violates the First Amendment by (a) imposing different contribution limits on
candidates running for the same office, and/or (b)
restricting otherwise lawful political activity despite
the SEC’s failure to identify one instance where a
lawful political contribution alone led to quid pro quo
corruption.
2. Whether the SEC has the authority to impose
restrictions by regulation on the First Amendment
rights of placement agents to make or solicit federal
political contributions that are otherwise lawful under
the Federal Election Campaign Act.
3. Whether Rule 2030 is arbitrary and capricious
because it restricts otherwise lawful political activity
despite the SEC’s failure to identify one instance
where a lawful political contribution alone led to
fraudulent or manipulative practices.
(i)

ii
PARTIES TO THE PROCEEDING
Petitioner New York Republican State Committee
(“NYGOP” or the “Petitioner”) is the state party
organization of the Republican Party for the State of
New York. It is composed of members from within the
State of New York, many of whom are precluded from
providing it with financial support due to the Rule. It
also represents individuals who are, have been, or are
considering running for elected office and who are
harmed by Rule 2030 because it subjects them to
different political contribution limits than those
imposed on other candidates. Petitioner has its
headquarters at 315 State Street, Albany, NY 12210.
Petitioner was also a petitioner before the United
States Court of Appeals for the D.C. Circuit (the “D.C.
Circuit”).
Respondent, the United States Securities and
Exchange Commission (hereinafter “Respondent” or
“Commission” or “SEC”) is a federal agency created
pursuant to the Securities Exchange Act of 1934, 15
U.S.C §§ 78a, 78d. Respondent’s headquarters are
located at 100 F Street, N.E., Washington, D.C. 20549.
Respondent was the respondent before for the D.C.
Circuit.
The Financial Industry Regulatory Authority, Inc.
(“FINRA”) was also a respondent in the D.C. Circuit,
but FINRA was dismissed from the case by order of
that Court on June 12, 2018.

iii
CORPORATE DISCLOSURE
Pursuant to Rule 26.1 of Federal Rules of Appellate
Procedure, no parent corporation or any publicly held
corporation owns more than 10 percent of the
Petitioner’s ownership interests.

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ...............................

i

PARTIES TO THE PROCEEDINGS ..................

ii

CORPORATE DISCLOSURE .............................

iii

TABLE OF AUTHORITIES ................................

viii

INTRODUCTION ................................................

1

OPINIONS BELOW ............................................

2

JURISDICTION ..................................................

3

STANDARD OF REVIEW...................................

3

CONSTITUTIONAL AND REGULATORY
PROVISIONS INVOLVED ..............................

3

STATEMENT OF THE CASE ............................

3

A. Statutory and Regulatory Background ....

3

B. The SEC’s Political Contributions Rules .

6

C. Procedural History....................................

11

REASONS FOR GRANTING THE PETITION..

14

I. PETITIONER HAS STANDING TO
MAINTAIN THIS APPEAL......................

14

A. Petitioner Has Direct Standing ..........

14

B. Petitioner Has Associational Standing
On Behalf Of Its Candidates ...............

15

C. Petitioner Has Associational Standing
On Behalf Of Its Contributors ............

16

(v)

vi
TABLE OF CONTENTS—Continued
Page
II. THE D.C. CIRCUIT’S DECISION
PRESENT ISSUES OF NATIONAL
IMPORTANCE THAT SHOULD BE
RESOLVED BY THIS COURT ................

17

A. The Rule Violates The First Amendment To The U.S. Constitution ...........

17

1. This Court Has Never Permitted A
Campaign Finance Regime That
Imposes Different Contribution
Limits On Candidates Campaigning For The Same Office ................

18

2. The D.C. Circuit’s Opinion Contradicts This Court’s Precedent In
McCutcheon ....................................

21

B. Congress Did Not Vest The SEC With
The Authority To Regulate Federal
Contribution Limits.............................

27

C. The Rule Is Arbitrary and Capricious

32

CONCLUSION ....................................................

34

APPENDIX
APPENDIX A: JUDGMENT, Court of Appeals
for the District of Columbia Circuit (June 18,
2019) ...............................................................

1a

APPENDIX B: MANDATE, Court of Appeals
for the District of Columbia Circuit (August
13, 2019) .........................................................

3a

vii
TABLE OF CONTENTS—Continued
Page
APPENDIX C: OPINION, Court of Appeals
for the District of Columbia Circuit (June 18,
2019) ...............................................................

4a

APPENDIX D: SEC Notice of Filing a
Proposed Rule Change to Adopt FINRA Rule
2030 and FINRA Rule 4580 to Establish
“Pay-To- Play” and Related Rules, Exchange
Act Release No. 34-76767, 80 Fed. Reg.
81650 (December 30, 2015) ............................

33a

APPENDIX E: SEC Order Instituting Proceedings to Determine Whether to Approve
or Disapprove Proposed Rule Change to
Adopt FINRA Rule 2030 and FINRA Rule
4580 to Establish “Pay-To-Play” and Related
Rules (March 29, 2016) ..................................

98a

APPENDIX F: SEC Final Order Approving
a Proposed Rule Change to Adopt FINRA
Rule 2030 and FINRA Rule 4580 to
Establish “Pay-To- Play” and Related Rules,
81 Fed. Reg. 60,051 (Aug. 31, 2016) .............. 138a
APPENDIX G: AFFIDAVIT OF EDWARD
COX, Court of Appeals for the District of
Columbia Circuit (July 25, 2018) .................. 225a
AFFIDAVIT OF FRANCIS J. CALCOGNO
(July 25, 2018) ............................................ 234a
APPENDIX H: FINRA RULE 2030 (No
Date) ............................................................... 237a

viii
TABLE OF AUTHORITIES
CASES

Page(s)

Blount v. SEC,
61 F.3d 938 (D.C. Cir. 1995) ..................... 13, 24
Buckley v. Valeo,
424 U.S. 1 (1976) ................................. 18, 21, 27
Citizens United v. FEC,
558 U.S. 310 (2010) ................................... 4, 22
Davis v. FEC,
554 U.S. 724 (2008) ............................. 18, 19, 20
Fiero v. FINRA,
660 F.3d 569 (2d Cir. 2011) ......................

5

Friends of the Earth, Inc. v. Laidlaw
Envtl. Servs. (TOC), Inc.,
528 U.S. 167 (2000) ...................................

14

Galliano v. U.S. Postal Serv.,
836 F.2d 1362 (D.C. Cir. 1988) ............. 3, 30, 31
Ga. Republican Party v. SEC,
888 F.3d 1198 (11th Cir. 2018) .................

12

L.A. v. Taxpayers for Vincent,
466 U.S. 789 (1984) ...................................

16

Lavin v. Husted,
689 F.3d 543 (6th Cir. 2012) .....................

26

McConnell v. FEC,
540 U.S. 93 (2003) ..................................... 22, 32
McCutcheon v. FEC,
134 S. Ct. 1434 (2014) ..............................passim
New York Republican State Comm. v. SEC,
927 F.3d 499 (D.C. Cir. 2019) ..................passim

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Nixon v. Shrink Mo. Gov’t PAC,
528 U.S. 377 (2000) ...................................

23

Ognibene v. Parkes,
671 F.3d 174 (2d Cir. 2011) ......................

17

PETA v. USDA,
797 F.3d 1087 (D.C. Cir. 2015) .................

15

Ragsdale v. Wolverine World Wide, Inc.,
535 U.S. 81 (2002) .....................................

33

Randall v. Sorrell,
548 U.S. 230 (2006) ....................... 22, 24, 27, 30
Riddle v. Hickenlooper,
742 F.3d 922 (10th Cir. 2014) ...................

18

Shays v. FEC,
414 F.3d 76 (D.C. Cir. 2005) .....................

16

Taxation with Representation of
Wash. v. Regan,
676 F.2d 715 (D.C. Cir. 1982) ...................

15

Tex. Democratic Party v. Benkiser,
459 F.3d 582 (5th Cir. 2006) .....................

15

United States v. Playboy Entm't Grp.,
529 U.S. 803 (2000) ...................................

26

United States v. Quinones,
313 F.3d 49 (2d Cir. 2002) ........................

3

Wagner v. FEC,
793 F.3d 1 (D.C. Cir. 2015) .......................

25

Weissman v. Nat’l Ass’n of Sec. Dealers, Inc.,
500 F.3d 1293 (11th Cir. 2007) .................

5

x
TABLE OF AUTHORITIES—Continued
CONSTITUTION

Page(s)

U.S. Const. amend. I ...................................passim
Colo. Const. Art. XXVIII, § 3(1)(b) ...............

17

STATUTES
5 U.S.C. §706(2)(A)-(C) .................................

3

15 U.S.C. §78o-3(b) .......................................

5

15 U.S.C. §78o-3(b)(6)..................................passim
15 U.S.C. §78o-3(k)(2)(C) .............................

11

15 U.S.C. §78s(b)(1) ......................................

6

15 U.S.C. §78s(b)(2)(C) ............................... 1, 6, 29
15 U.S.C. §78ff(a) .........................................

11

18 U.S.C. §201 ..............................................

32

18 U.S.C. §201(b) ..........................................

26

18 U.S.C. § 608(b) (1975)..............................

28

26 U.S.C. § 6096 ...........................................

29

28 U.S.C. § 1254 ...........................................

3

47 U.S.C. § 315(b) .........................................

28

52 U.S.C. §30104 ..........................................

32

52 U.S.C. §30105 ..........................................

32

52 U.S.C. §30106(b)(1).................................. 3, 30
52 U.S.C. §30109 ..........................................

28

52 U.S.C. §30116 ..........................................

32

52 U.S.C. §30116(a) ...................................... 4, 28
52 U.S.C. §30116(a)(1)(A).............................

21

xi
TABLE OF AUTHORITIES—Continued
Page(s)
52 U.S.C. §30116(c) .................................. 4, 11, 28
52 U.S.C. §30118 .......................................... 4, 28
52 U.S.C. §30119 ...................................... 4, 28, 30
52 U.S.C. §30119(a) ......................................

25

52 U.S.C. §30119(b) ......................................

25

52 U.S.C. §30121 .......................................... 4, 28
52 U.S.C. §30121(a)(1)..................................

17

52 U.S.C. §30122 ..........................................

26

52 U.S.C. §30125(b)(1)..................................

30

52 U.S.C. §30125(b)(2)(B)(ii) ........................

30

52 U.S.C. §30125(e)(1)-(2) ............................

30

N.Y. Penal Law § 200.04 (McKinney 2016) ..

33

ADMINISTRATIVE RULES AND
REGULATORY MATERIALS
17 C.F.R. §275.206(4)-5(a)(1) .......................

6

17 C.F.R. §275.206(4)-5(a)(2) .......................

6

17 C.F.R. §275.206(4)-5(a)(2)(i)(A) ...............

7

17 C.F.R. §275.206(4)-5(b)(1) .......................

7

17 C.F.R. §275.206(4)-5(f)(6) ........................

6

17 C.F.R. §275.206(4)-5(f)(9) ........................

7

FINRA, Regulatory Notice 14-50 (November
2014), http://bit.ly/2kI4f1M ......................

11

xii
TABLE OF AUTHORITIES—Continued
Page(s)
Political Contributions by Certain Investment
Advisers, 75 Fed. Reg. 41,018 (July 14,
2010) ..........................................................

7, 8

Price Index Adjustments for Contribution
and Expenditure Limitations and Lobbyist Bundling Disclosure Threshold, 80
Fed. Reg. 5750 (Feb. 3, 2015) ...................

5

Price Index Adjustments for Contribution
and Expenditure Limitations and Lobbyist Bund-ling Disclosure Threshold, 84
Fed. Reg. 2504 (Feb. 7, 2019) ...................

21

SEC Final Order Approving a Proposed
Rule Change to Adopt FINRA Rule 2030
and FINRA Rule 4580 to Establish “PayTo- Play” and Related Rules, 81 Fed. Reg.
60,051 (Aug. 31, 2016) .............................passim
Rule 2030 .................................................passim
Rule 2030(a) .............................................. 9, 25
Rule 2030(b) ..............................................

25

Rule 2030(b)(1) ..........................................

10

Rule 2030(b)(2) .......................................... 10, 14
Rule 2030(c)(1) ..........................................

11

Rule 2030(g)(1)(C) .....................................

9

Rule 2030(g)(2) ..........................................

8

Rule 2030(g)(2)(D) .....................................

25

Rule 2030(g)(4) ..........................................

8

xiii
TABLE OF AUTHORITIES—Continued
Page(s)
Rule 2030(g)(8) ..........................................

9

Rule 4580 ..................................................

7

SEC Notice of Filing a Proposed Rule
Change to Adopt FINRA Rule 2030 and
FINRA Rule 4580 to Establish “Pay-ToPlay” and Related Rules, Exchange Act
Release No. 34-76767, 80 Fed. Reg. 81650
(December 30, 2015) ............................ 2, 7-8, 31
OTHER AUTHORITIES
Comment of Allen Dickerson, Center for
Competitive Politics, SR-FINRA-2015056, (Jan. 20, 2016) ................................... 11, 12
Comment of H. Christopher Bartolomucci,
Bancroft PLLC, on behalf of the New
York Republican State Committee and
the Tennessee Republican Party (Jan. 20,
2016) ..........................................................

12

Comment of Molly M. Diggins, Monument
Group Inc. (Dec. 15, 2014) ........................

16

Peter Overby, How Picking Mike Pence As
VP Might Cost The Trump Campaign
Donations, NPR (July 16, 2016), http://
n.pr/29Q9ACf ............................................

19

INTRODUCTION
“There is no right more basic in our democracy
than the right to participate in electing our political
leaders.” McCutcheon v. FEC, 134 S. Ct. 1434, 1440-41
(2014) (plurality op.). Thus, Congress has always
reserved for itself the constitutionally sensitive task of
regulating contributions to candidates for federal
office and has never sought to limit contributions for
state or local officials. This is fitting, for any restriction
on the people’s right to influence who will govern
them should come from the representatives closest
and most responsive to the people, not from unelected
bureaucrats.
Nevertheless, the SEC contends that its grant of
authority to combat fraudulent practices and protect
investors under the Exchange Act, allows it to promulgate campaign finance rules by regulation for
thousands of people. Specifically, Rule 2030 prohibits
regulated placement agents from contributing more
than a de minimis amount to certain elected officials
and prohibits those agents from asking others to make
contributions. While FINRA has authority to propose,
and the SEC authority to approve, rules “to prevent
fraudulent and manipulative acts and practices,” to
promote “a free and open market,” and to protect
participants in that market, 15 U.S.C. §78o-3(b)(6),
that general authority does not allow FINRA or the
SEC to stifle protected First Amendment activity.
Rather, Congress expressly forbids FINRA from trying
“to regulate by virtue of any authority conferred by
this chapter matters not related to the purposes of this
chapter,” id., and requires the SEC to disapprove any
such proposed rule as inconsistent with the requirements of the Exchange Act, 15 U.S.C. §78s(b)(2)(C).
Thus, while the SEC’s end may be laudable, its chosen

2
means exceed its statutory boundaries and are
unconstitutional.
Rule 2030 exceeds the SEC’s authority for three
principle reasons. First, neither the text nor structure
of the Exchange Act suggests that Congress granted
the SEC the power to regulate lawful political speech.
Second, Congress has consistently reserved for itself,
or left for state legislatures, the constitutionally
sensitive task of setting limits on campaign contributions, never delegating that authority to the FEC,
much less the SEC. Had Congress intended to provide
such authority to an agency, it would have spoken
clearly. Third, the Exchange Act’s proviso commands
the SEC to stay in its lane—without regulating
matters unrelated to securities transactions. The
Court thus should reject the SEC’s position that the
Exchange Act’s generic grant of authority to combat
fraud is also a license to restrict fundamental First
Amendment rights.
There are no factual disputes in this case. Even
the concurring opinion below agreed with the facts,
arriving only at a different conclusion. New York
Republican State Comm. (“NYRSC”) v. SEC, 927 F.3d
499, 512 (D.C. Cir. 2019) (Sentelle, J., concurring). As
a result, this case is an ideal vehicle for this Court to
address key First Amendment and regulatory legal
questions presented.
OPINIONS BELOW
Petitioners challenged the SEC’s Final Order
Approving a Proposed Rule Change to Adopt FINRA
Rule 2030 and FINRA Rule 4580 to Establish “Pay-ToPlay” and Related Rules, 81 Fed. Reg. 60,051 (Aug. 31,
2016); App. 138a-224a, in the United States Court of
Appeals for the D.C. Circuit.

3
The opinion of the D.C. Circuit is reported at 927
F.3d 499 (D.C. Cir. June 18, 2019).
JURISDICTION
This Court has jurisdiction to review the D.C.
Circuit’s opinion and order under 28 U.S.C. §1254.
STANDARD OF REVIEW
Rule 2030’s Political Contribution Prohibition must
be set aside if it violates the Constitution, exceeds
the agency’s statutory authority, or is “arbitrary,
capricious, an abuse of discretion, or otherwise not in
accordance with law.” 5 U.S.C. §706(2)(A)-(C).
Further, questions pertaining to constitutionality
are reviewed de novo. See United States v. Quinones,
313 F.3d 49, 60 (2d Cir. 2002).
CONSTITUTIONAL AND REGULATORY
PROVISIONS INVOLVED
Appended are the relevant portions of Rule 2030.
The First Amendment to the United States Constitution is incorporated by reference throughout the
petition.
STATEMENT OF THE CASE
A. Statutory and Regulatory Background
Federal campaign finance regulation has long been
the exclusive province of Congress and the FEC—the
agency that Congress has given sole jurisdiction to
“administer, seek to obtain compliance with, and
formulate policy with respect to,” federal campaign
finance laws. 52 U.S.C. §30106(b)(1); see also Galliano
v. U.S. Postal Serv., 836 F.2d 1362, 1368 (D.C. Cir.
1988) (Ginsburg, J.). This Court has described the
comprehensive nature of this regulatory scheme:

4
Campaign finance regulations now impose
unique and complex rules on 71 distinct
entities. These entities are subject to separate
rules for 33 different types of political speech.
The FEC has adopted 568 pages of regulations, 1,278 pages of explanations and
justifications for those regulations, and 1,771
advisory opinions since 1975.
Citizens United v. FEC, 558 U.S. 310, 334 (2010)
(citations omitted).
Although Congress has left many aspects of campaign finance regulation to the discretion of the FEC,
setting limits for contributions to federal candidates
and to the federal accounts of political party committees is a power that Congress has consistently reserved for itself. Since Congress first enacted FECA in
1971, through its extensive revisions in the Bipartisan
Campaign Reform Act of 2002 (“BCRA”), contribution
limits have been set by statute, not regulation. See 52
U.S.C. §30116(a). Likewise, Congress has reserved for
itself the decision whether, when, and how those statutorily prescribed limits may be altered. Id. §30116(c).
When Congress has seen fit to make exceptions to the
standard limits, or enact a federal law impacting state
and local political contributions, it has done so itself.
See, e.g., id. §§30118, 30119, 30121. Congress has
crafted one such exception for federal government
contractors, who may not make political contributions
to federal candidates, political parties, or political
action committees while they are in the process of
negotiating or performing a federal contract. Id.
§30119. Congress likewise has prohibited foreign
nationals from making contributions or expenditures
to influence federal, state, or local elections. Id.
§30121. But Congress has never enacted a comparable

5
restriction for finance professionals who provide their
services to public pension funds or other governmental
clients. Instead, these individuals remain subject to
the standard statutory contribution limit, which currently is fixed at $2,700 per candidate per election.
See Price Index Adjustments for Contribution and
Expenditure Limitations and Lobbyist Bundling Disclosure Threshold, 80 Fed. Reg. 5750, 5751 (Feb. 3,
2015). For elections at the state and local level,
campaign contribution limits and other restrictions
on participation in the political process have been
determined by state and local governments.
To transact securities business with the public, all
securities firms must be registered with FINRA. See
Fiero v. FINRA, 660 F.3d 569, 576 (2d Cir. 2011).
FINRA helps “conduct the day-to-day regulation and
administration of the United States’ stock markets,
under the close supervision of the [SEC].” Weissman v.
Nat’l Ass’n of Sec. Dealers, Inc., 500 F.3d 1293, 1296
(11th Cir. 2007) (en banc). FINRA thus “perform[s] a
variety of vital governmental functions” including
“statutorily delegated adjudicatory, regulatory, and
prosecutorial functions.” Id.
Congress has granted FINRA the authority to propose rules to the SEC regarding the regulation of the
securities industry. See generally 15 U.S.C. §78o-3(b).
FINRA’s rules must be “designed to prevent fraudulent and manipulative acts and practices, to promote
just and equitable principles of trade,” to “perfect the
mechanism of a free and open market and a national
market system, and, in general, to protect investors
and the public interest.” §78o-3(b)(6). FINRA’s power,
however, is expressly cabined by the Exchange Act,
which provides that FINRA’s rules must not be
designed “to regulate by virtue of any authority con-

6
ferred by this chapter matters not related to the
purposes of this chapter or the administration of the
association.” Id.
FINRA’s proposed rules cannot “take effect unless
approved by the Commission.” 15 U.S.C. §78s(b)(1).
The SEC must disapprove any proposed rule that
is not “consistent with the requirements of” the
Exchange Act. §78s(b)(2)(C). Once a rule has been
approved by the SEC, it becomes binding law.
B. The SEC’s Political Contribution Rules
Rule 2030 relates to and was preceded by the SEC’s
own political contribution rule, which has limited the
rights of investment advisers to engage in certain
First Amendment conduct since 2010. Rule 2030 is
triggered when an investment adviser or any of its
“covered associates” makes a political contribution
to an “official of a government entity,” 17 C.F.R.
§275.206(4)-5(a)(2), which includes any state or local
government official or candidate running for that
elective office:
if the office: (i) [i]s directly or indirectly
responsible for, or can influence the outcome
of, the hiring of an investment adviser by
a government entity; or (ii) [h]as authority
to appoint any person who is directly or
indirectly responsible for, or can influence the
outcome of, the hiring of an investment
adviser by a government entity . . .
§275.206(4)-5(f)(6). When the SEC Rule is triggered,
an investment adviser is barred for two years from
receiving compensation for advisory services provided
to the government entity whose public official received
the political contribution. §275.206(4)-5(a)(1). There
are only limited exceptions to the Rule’s two-year ban,

7
including what the Commission characterizes as a “de
minimis exception” under which an individual may
contribute:
to officials for whom the covered associate
was entitled to vote at the time of the contributions and which in the aggregate do not
exceed $350 to any one official, per election,
or to officials for whom the covered associate
was not entitled to vote at the time of the
contributions and which in the aggregate do
not exceed $150 to any one official, per
election.
§275.206(4)-5(b)(1).
The SEC Rule also prohibits any investment adviser
covered under the rule from paying any person to
solicit a government entity for investment advisory
services on behalf of the investment adviser unless
that person is a “regulated person,” as defined under
the SEC Rule. A broker-dealer registered with FINRA
qualifies as a “regulated person” only if FINRA imposes on its members restrictions on their political
contributions and solicitation of contributions that the
Commission finds are at least as stringent as the Rule.
§§275.206(4)-5(a)(2)(i)(A), (f)(9). Recognizing the vital
role placement agents play in connecting local governments with suitable investment options, the SEC
repeatedly delayed the enforcement of this aspect of
the Investment Adviser Rule until Rule 2030 was
finally in place. See Political Contributions by Certain
Investment Advisers, 75 Fed. Reg. 41,018, 41,042
(July 14, 2010).
On December 24, 2015, FINRA submitted its proposed Rules 2030 and 4580, which comprise the Rule,
to the SEC for approval. See 80 Fed. Reg. 81,650, App.

8
33a-34a. Rule 2030 is modeled on the SEC Political
Contribution Rule and “impose[s] substantially equivalent restrictions on member firms engaging in
distribution or solicitation activities [as] those the
SEC Pay-to-Play Rule imposes on investment advisers.” App. 36a. Rule 2030 targets those member firms
that “engage in distribution or solicitation activities
with government entities on behalf of investment
advisers.” App. 37a. FINRA stated that the SEC had
found that solicitors—who act as agents of the investment advisers to locate investment advisory clients—
and placement agents—agents who find investors—
were often used as intermediaries to influence the
award of investment adviser contracts. App. 38a
(citing 75 Fed. Reg. at 41,037). FINRA thus asserted
that Rule 2030 is intended to permit member firms to
act as placement agents while also deterring pay-toplay practices. Id.
Rule 2030 covers all FINRA members except those
members whose activities would cause the member to
qualify as a municipal adviser under the Exchange
Act. See Rule 2030(g)(4). Rule 2030’s prohibitions
also apply to “covered associates,” which includes any
person of a covered member who supervises, directly
or indirectly, the distribution or solicitation activities
of a government entity; any person of a covered
member who engages in solicitation or distribution
activity with a government entity; any general partner, managing member, or executive officer of a
covered member, or other similar person; and, finally,
any political action committee that is controlled by a
covered member or associate. See Rule 2030(g)(2).
Rule 2030 prohibits contributions to any person
who, when the contribution was made, was an incumbent or candidate for a public office that is directly or

9
indirectly responsible for, or can influence, a state
or local government decisions to hire investment
advisers. See Rule 2030(g)(8). Rule 2030 extends to
any office that can appoint a person who is directly or
indirectly responsible for, or can influence, the hiring
of an investment adviser. Id. Rule 2030 also covers
contributions to any such person’s election committee.
Id. The prohibition also covers any contributions that
are made for inaugural committee expenses for a
successful candidate for state or local office. See Rule
2030(g)(1)(C); App. 45a-46a.
Rule 2030 imposes a two-year ban on covered members from engaging in solicitation or distribution
activities, for compensation, on behalf of investment
advisers who are providing or seeking to provide
investment advisory services to a government entity
when the covered member or one of its covered
associates makes a political contribution to an official
of the government entity. This includes any person
who at the time a contribution is made is not a covered
associate, but who becomes a covered associate within
two years of making the contribution. See Rule 2030(a);
App. 109a. Thus, Rule 2030 discourages political activity not only by FINRA members who are currently
covered associates, but also any individuals who
anticipate that they may seek to engage in such work
within the next two years.
In addition to the two-year compensation ban tied
to contributions to candidates, covered members and
their covered associates are flatly prohibited from
soliciting or coordinating with any person or political
action committee to make any contribution to an
official of a government entity where the member is
already engaged or is seeking to engage in distribution

10
or solicitation of securities on behalf of an investment
adviser. See Rule 2030(b)(1).
Covered members and their associates are also prohibited from soliciting or coordinating with any person
or political action committee to make any payments to
a state or local political party committee in a state
where the covered member is engaged or is seeking to
engage in the distribution or solicitation activities on
behalf of an investment adviser. See Rule 2030(b)(2).
According to FINRA’s transmittal to the SEC, this
provision is violated only if the contribution to the
political party or political action committee was in fact
earmarked for an official. See App. 52a. But the Rule
itself does not contain such a limiting principle.
Further, FINRA’s explanation is contrary to the language of the Rule. The Rule first prohibits covered
associates from coordinating or soliciting any person
or PAC from making contributions to an official. Rule
2030(b)(1). But Rule 2030’s prohibition on funding
political party committees is broader because it prohibits the solicitation or coordination of payments to
political party committees. Rule 2030(b)(2). As FINRA
explains, a “payment” is broader than a contribution
because a payment “does not include limitations on the
purposes for which such money is given (e.g., it does
not have to be made for the purpose of influencing an
election).” App. 51a, n.41 (emphasis added). Thus, a
payment to a political party committee that is not
earmarked to a specific official, or even for a specific
election, could result in severe penalties for the donor
and his employer.
Moreover, contributing to or soliciting for candidates and parties extends beyond merely writing a
check or asking someone else to do the same. As
FINRA explains, even placing a covered member’s or

11
associate’s name on fundraising literature is now
illegal. App. 50a, n.40. Nor can a covered member or
associate sponsor a conference where an official is a
guest speaker if the event involves fundraising for the
official. Id. Thus, merely associating with a group that
supports a covered official can run afoul of federal law.
Even inadvertent violations of these prohibitions
may lead to disgorgement of fees and a temporary or
even lifetime ban from the securities industry. See
App. 190a; 15 U.S.C. §78o-3(k)(2)(C). And those who
willfully transgress Rule 2030 can face fines of up to
$5,000,000 and a prison term of up to 20 years.
§78ff(a).
There are narrow exceptions to Rule 2030’s two-year
ban. A covered associate who is a natural person can
make contributions of no more than $350 per election
to government officials for whom the associate is
entitled to vote, and no more than $150 per election to
other government officials. See Rule 2030(c)(1). Unlike
the contribution limits set by Congress and limits set
by many states, the SEC’s contribution limits are not
indexed to inflation. See 52 U.S.C. §30116(c).
C. Procedural History
In November 2014, FINRA requested comments on
the Rule as proposed. See FINRA Reg. Notice 14-50.1
One commenter argued that FINRA failed to justify
its contribution limits as a statutory or First Amendment matter, SR-FINRA-2015-056, Comment of Allen
Dickerson, Center for Competitive Politics (Jan. 20,
2016), and that Rule 2030 violated the First Amend-

1

FINRA, Regulatory Notice 14-50 (November 2014), http://
bit.ly/2kI4f1M.

12
ment by banning the solicitation or coordination of
contributions to political parties. Id.
After FINRA submitted its Rule to the SEC, state
Political Parties, including Petitioner, submitted a
comment to the SEC regarding Rule 2030. They
argued first that the Rule is ultra vires because Congress did not empower FINRA to regulate federal
elections through political contribution limits. Comment of H. Christopher Bartolomucci, Bancroft PLLC,
on behalf of the New York Republican State Committee and the Tennessee Republican Party (Jan. 20,
2016). Second, the Parties contended that Rule 2030
violates the First Amendment by forcing member
firms and their covered associates to choose between
their First Amendment rights to support candidates
and “continuing to work with investment advisers who
are seeking work from public pensions.” Id. Finally,
the Parties noted that Rule 2030 establishes a campaign finance regime where covered officials running
for a non-covered office will face lower contributions
limits than their non-covered opponents. Id.
The Commission approved Rule 2030 on August 25,
2016. The Commission stated that Rule 2030 would
discourage member firms and covered associates “from
engaging in quid pro quo corruption that may create
market distortions—when, for example, an investment adviser is chosen on the basis of a placement
agent’s political contributions rather than the adviser’s merit.” App. 192a.
Petitioner timely filed their petition in the U.S.
Court of Appeals for the Eleventh Circuit on October
20, 2016. On April 26, 2018, the Eleventh Circuit held
that the Georgia Republican Party lacked standing to
challenge the SEC Order. See Ga. Republican Party v.
SEC, 888 F.3d 1198 (11th Cir. 2018). The Eleventh

13
Circuit further held that it was not the proper venue
to consider the challenges raised by the New York
Republican State Committee or the Tennessee Republican Party. The court transferred those Petitioners’
case to the D.C. Circuit.
Petitioner New York State Republican Committee
petitioned the D.C. Circuit for review of the SEC’s
order approving Rule 2030, on the grounds that:
(1) the SEC did not have authority to enact the Rule;
(2) the order adopting the Rule is arbitrary and
capricious because there was insufficient evidence it
was needed; and (3) the Rule violates the First
Amendment to the Constitution of the United States.
NYRSC, 927 F.3d 499. The SEC challenged Petitioner’s standing to bring the case and defended Rule
2030 against Petitioner’s arguments. Id. at 504. The
D.C. Circuit held that Petitioner had standing but
denied its petition on the merits. Specifically, the D.C.
Circuit held that the SEC acted within its authority in
adopting Rule 2030; adopting Rule 2030 was not
arbitrary and capricious because the SEC had sufficient evidence it was needed; and Rule 2030 does not
violate the First Amendment in view of Blount v. SEC,
61 F.3d 938 (D.C. Cir. 1995). NYRSC, 927 F.3d at 512.
Senior Circuit Judge Sentelle dissented, opining that
he would have dismissed the petition for lack of
standing. Id. at 512-14.

14
REASONS FOR GRANTING THE PETITION
I. PETITIONER HAS STANDING TO MAINTAIN THIS APPEAL
To establish standing, a party must demonstrate
that: “(1) it has suffered an ‘injury in fact’ that is
(a) concrete and particularized and (b) actual or
imminent, not conjectural or hypothetical; (2) the
injury is fairly traceable to the challenged action of the
defendant; and (3) it is likely, as opposed to merely
speculative, that the injury will be redressed by a
favorable decision.” Friends of the Earth, Inc. v.
Laidlaw Envtl. Servs. (TOC), Inc., 528 U.S. 167, 18081 (2000). To establish associational standing, an association must demonstrate that “its members would
otherwise have standing to sue in their own right, the
interests at stake are germane to the organization’s
purpose, and neither the claim asserted nor the relief
requested requires the participation of individual
members in the lawsuit.” Id. at 181. Petitioners readily satisfy these requirements, both on their own and
in their capacity as representatives of their members
and supporters.
A. Petitioner Has Direct Standing
Rule 2030 injures the Petitioners directly by preventing them from receiving contributions thereby
harming their associational rights and economic
interests. Specifically, Rule 2030 makes it unlawful for
covered associates to coordinate with or to solicit any
person or committee to make any payment to a political party, like Petitioners, of a state or locality where
the covered member is “engaging in, or seeking to
engage in, distribution or solicitation activities on
behalf of an investment adviser.” Rule 2030(b)(2).
These prohibitions cause Petitioners precisely the

15
kinds of associational and economic injuries that
courts repeatedly have held sufficient to give organizations standing in their own right. See, e.g., Taxation
with Representation of Wash. v. Regan, 676 F.2d 715,
722-23 (D.C. Cir. 1982), rev’d on other grounds, 461
U.S. 540, 723 (1983) (it was “clearly evident that [the
nonprofit organization] will be harmed if its contributors cease giving it money.”).
Moreover, expenditures of scarce time and financial
resources to inform candidates about the ramifications
of Rule 2030 go beyond those Petitioner would normally expend to educate its members about campaign
finance and political speech restrictions. App. 231a.
By forcing Petitioner to divert these scarce resources,
Rule 2030 has inhibited Petitioner’s ability to pursue
its day-to-day mission of promoting its candidates and
their messages. App. 231a-232a. Petitioner’s injuries
would be redressed if the Court vacates Rule 2030 and
lifts its restrictions on supporters of political parties.
Thus, “[b]ecause [NYGOP] has expended resources to
counter these injuries, it has established Article III
organizational standing.” PETA v. USDA, 797 F.3d
1087, 1095 (D.C. Cir. 2015).
B. Petitioner Has Associational Standing
On Behalf Of Its Candidates
Petitioner also has associational standing on behalf
of its candidates. See Tex. Democratic Party v.
Benkiser, 459 F.3d 582, 587 (5th Cir. 2006) (holding
that political party had “associational standing on
behalf of its candidate”). Numerous NYGOP candidates running for election have been harmed by
having to run in competitive environments in which
the delicate competitive balance has been tipped by
Rule 2030. App. 232a-233a. These candidates face
obstacles related to raising campaign funds and

16
recruiting supporters to solicit contributions on their
behalf. One covered associate would have contributed
more than $350 to several NYGOP candidates
including Molinaro if not for Rule 2030’s restrictions.
Comment of Molly M. Diggins, Monument Group Inc.
(Dec. 15, 2014).
Rule 2030 places a covered official at a particular
disadvantage against an incumbent member of Congress. FINRA-regulated placement agents can give at
most $350 to the covered official’s campaign but can
contribute up to $2700 to his competitor. App. 230a.
That is why the courts have made clear that “because
[campaign finance] regulations shape the environment in which Plaintiffs must operate as officeholders
and candidates,” candidates have standing to “bring
suit challenging those rules.” Shays v. FEC, 414 F.3d
76, 82 (D.C. Cir. 2005) (quotation omitted).
C. Petitioner Has Associational Standing
On Behalf Of Its Contributors
Finally, Petitioner has standing to challenge Rule
2030 on behalf of its members, supporters, and donors
whose First Amendment rights are inhibited by Rule
2030. Francis Calcagno is a supporter of the NYGOP
and is just one of thousands of people to whom Rule
2030 applies. App. 235a-236a. He has contributed to
NYGOP candidates in the past, and if Rule 2030 were
not in effect, he would contribute more than the $350
limit to NYGOP candidates in this election cycle. Id.
Calcagno would also ask his friends, family, and other
contacts to contribute to the NYGOP and its candidates but for the fact that Rule 2030 prohibits that
conduct. Id. Thus, Calcagno has adequately supported
an injury that Rule 2030 has imposed on both him and
the NYGOP. Nothing more is required for standing.
L.A. v. Taxpayers for Vincent, 466 U.S. 789, 803 (1984)

17
(“[A]ppellees certainly have standing to challenge the
application of the ordinance to their own expressive
activities.”).
II. THE D.C. CIRCUIT’S DECISION PRESENT
ISSUES OF NATIONAL IMPORTANCE
THAT SHOULD BE RESOLVED BY THIS
COURT
A. The Rule Violates The First Amendment To The U.S. Constitution
Unchanged, the D.C. Circuit’s decision allows any
federal agency with a mandate to fight corruption
in its regulatory area to impose contribution limits
on candidates for both federal and state office by
regulation. This is more of an intrusion into State
affairs than Congress itself took, prohibiting states
only from allowing foreign contributions. 52 U.S.C.
§30121(a)(1). In fact, states have enacted a kaleidoscope of contribution limits, with some states imposing
no contribution limits and therefore permitting unlimited contributions to state candidates (e.g. Virginia), to
some states imposing low contribution limits to state
candidates (e.g. Colorado, Colo. Const. Art. XXVIII,
§3(1)(b) (limiting individuals to $200 to state legislative candidates), and some localities impose bans on
government contractors from making contributions
to candidates for local office. (e.g. New York City,
Ognibene v. Parkes, 671 F.3d 174, 178 (2d Cir. 2011)).
It is one thing for Congress to preempt a state legislature’s authority to enact contribution limits governing
state elections through legislation related to foreign
relations. It is a completely different matter for a federal agency to preempt a state legislature’s decision
governing contribution limits in a state election by
regulation.

18
Compounding this problem is that the D.C. Circuit’s
decision also interferes with Congress’s considered
statutory campaign finance regime. In enacting the
federal contribution limits, Congress was already infringing the First Amendment rights of individuals.
Buckley v. Valeo, 424 U.S. 1, 23 (1976). The D.C.
Circuit’s decision now permits regulatory agencies to
further infringe—in an unequal manner—the First
Amendment rights of those contributors over whom
the regulatory body oversees. As has already occurred,
App. 230a, permitting regulatory agencies to impose
their own contribution limits on individuals whom
they regulate inexorably leads to different contribution limits for different candidates campaigning for
the same office. This Court has never permitted this
result. Davis v. FEC, 554 U.S. 724, 738 (2008); See also
Riddle v. Hickenlooper, 742 F.3d 922, 931 (10th Cir.
2014) (Gorsuch, J., concurring). Congress already infringed the constitutional rights of contributors when
it enacted FECA. Now the SEC and FINRA want to
infringe the constitutional rights of contributors and
candidates within their regulated community in an
unequal manner through administrative regulations
that directly override a statutory limit. This is not
permissible under the Constitution. This Court should
grant certiorari and reverse.
1. This Court Has Never Permitted A
Campaign Finance Regime That Imposes Different Contribution Limits
On Candidates Campaigning For
The Same Office
The Supreme Court has “never upheld the
constitutionality of a law that imposes different
contribution limits for candidates who are competing
against each other.” Davis, 554 U.S. at 738. Nor has it

19
upheld a law that prevents certain candidates running
for one office from receiving contributions from certain
individuals. Yet that is precisely what the Rule does,
as it prevents placement agents from making $2,800
contributions to candidates like the NYGOP’s James
O’Donnell (who is a covered official who campaigned
for Congress in 2018), but not from making the same
contribution to his incumbent opponent. App. 230a.
That the Rule imposes different contribution limits
on candidates competing for the same office is a
problem. In the 2016 presidential campaign, a similar
contribution rule imposed by the MSRB and the SEC
tilted the playing field against the Republican ticket,
as many municipal securities dealers could contribute
up to $2,800 to Clinton-Kaine, but far less to TrumpPence because of Pence’s service as Indiana’s governor.2 If this Court does not intervene, Rule 2030 will
impose the same unconstitutional handicap on candidates in 2020. See App. 232a-233a.
The D.C. Circuit casts Davis as standing for the
proposition that the asymmetrical contribution limits
regime that Congress imposed was unconstitutional
because the government attempted to justify the limits
as “level[ing] electoral opportunities for candidates of
different personal wealth.” App. at 26a. NYRSC, 927
F.3d at 511. But this Court has recognized only one
legitimate interest in limiting campaign contributions:
preventing corruption or the appearance thereof.
Davis, 554 U.S. at 741.

2

Peter Overby, How Picking Mike Pence As VP Might Cost
The Trump Campaign Donations, NPR (July 16, 2016), http://
n.pr/29Q9ACf.

20
The D.C. Circuit’s premise, therefore, leads to a conclusion that this Court prohibits. That court concluded
that the Rule’s imposing different contribution limits
upon candidates competing for the same office was a
“feature” not a “flaw.” NYRSC, 927 F.3d at 512. This
is because FINRA and the SEC had adduced evidence
that office holders with the ability to award contracts
are more susceptible to corruption and the appearance
of corruption. Id. Accordingly, the D.C. Circuit concluded that a lower contribution limit and ban on
soliciting contributions for political parties are justified when enacted by a regulatory agency.
This conclusion is contrary to this Court’s categorical statement and holding: “We have never upheld
the constitutionality of a law that imposes different
contribution limits for candidates who are competing
against each other….” Davis, 554 U.S. at 738.
This Court rejected BCRA’s asymmetrical campaign
finance regime because allowing it would constitute
“the unprecedented step of imposing different contribution and coordinated party expenditure limits on
candidates vying for the same seat [which is] is
antithetical to the First Amendment.” Id. at 743-44
(emphasis added). The SEC’s contribution limits enacted by regulation do exactly this and worse. Like the
BCRA’s Millionaire’s Amendment, the SEC’s contribution limits impose different contribution limits on
candidates campaigning for the same federal office.
But unlike the BCRA’s Millionaire’s Amendment, the
SEC’s contribution limits impose different contribution limits on candidates campaigning for the same
federal, state, and local office. Left undisturbed, the
Decision will permit this practice to continue in all
elections nationwide.

21
2. The D.C. Circuit’s Opinion Contradicts This Court’s Precedent In
McCutcheon
Congress has already significantly curtailed the
constitutional right to support federal candidates
through campaign contributions by limiting such contributions to $2,800 per candidate per election and
states have done the same for their own races.
Buckley, 424 U.S. at 23; 52 U.S.C. §30116(a)(1)(A);
Price Index Adjustments for Contribution and Expenditure Limitations and Lobbyist Bundling Disclosure Threshold, 84 Fed. Reg. 2504, 2506 (Feb. 7, 2019).
If FINRA and the SEC want to impose even more
stringent restrictions on the First Amendment rights
of covered members and covered associates by regulation, then they must prove that those restrictions are
authorized by law, and necessary to further a sufficiently important interest, and that they do so in a
sufficiently tailored manner. FINRA and the SEC do
not and cannot satisfy this standard.
At the outset, there can be no serious dispute that
the Rule severely burdens First Amendment rights. It
forces placement agents to choose between exercising
their constitutional right to support candidates through
political contributions and continuing to work as
placement agents. Under the Rule, the only way for a
placement agent to do the latter is to forgo the former.
FINRA itself characterizes its exception to this rule
as “de minimis”—and with good reason, as it allows
only covered associates—and not covered members—
to contribute only $350 per election to candidates for
whom they are entitled to vote, and only $150 per
election to any other candidate. 81 Fed. Reg. at 60,055,
App. 10a. Those limits are “substantially lower than
… limits [that courts] have previously upheld,” and

22
are lower even than limits that courts have struck
down. Randall v. Sorrell, 548 U.S. 230, 253 (2006)
(plurality op.). FINRA and the SEC therefore bear an
exceedingly high burden in establishing the constitutionality of the Rule. Cf. McConnell v. FEC, 540
U.S. 93, 141 n.43 (2003) (“the associational burdens
imposed by a particular piece of campaign-finance
regulation may at times be so severe as to warrant
strict scrutiny”).
As this Court recently reiterated, there is “only
one legitimate governmental interest for restricting
campaign finances: preventing corruption or the
appearance of corruption.” McCutcheon, 572 U.S. at
206-07. Further, there is only one type of corruption
that campaign finance restrictions may target: quid
pro quo corruption. Id. at 191. “Spending large sums
of money in connection with elections, but not in
connection with an effort to control the exercise of an
officeholder’s official duties, does not give rise to such
quid pro quo corruption.” Id. at 206-07. “Nor does the
possibility that an individual who spends large sums
may garner ‘influence over or access to’ elected officials
or political parties.” Id. at 208 (quoting Citizens
United, 558 U.S. at 359). In short, “[i]ngratiation
and access … are not corruption,” and thus are not
things that campaign finance restrictions may target.
Citizens United, 558 U.S. at 360.
While Rule 2030 does not target the spending of
“large sums of money” it does target fully disclosed
federal political contributions of $2,800 or less and
similar amounts at the state and local levels. Even
setting aside that massive problem, this Court has
never recognized “promot[ing] just and equitable
principles of trade,” “perfect[ing] the mechanism of a
free and open market,” or “protect[ing] investors and

23
the public interest,” 81 Fed. Reg. at 60,057, 60,063,
App. 167a, as reasons for restricting the right to make
political contributions.
The SEC, therefore, attempts to squeeze the Rule
into the Supreme Court’s case law by portraying it as
an effort to combat quid pro quo contributions to
officials by covered members and their associates
when those same members and associates act as
placement agents for investment advisers seeking to
obtain business from the very government entities to
which the covered members and associates contributed. See 81 Fed. Reg. at 60,065, App. 191a. Such
argument is doomed by its sheer implausibility where
disclosed contributions within the limits established
by FECA and state laws are concerned. The SEC does
not demonstrate instances in which a covered associate has made a fully disclosed federal campaign contribution of $2,800 or comparable state contribution
“in connection with an effort to control the exercise of
an officeholder’s official duties.” McCutcheon, 572 U.S.
at 206-07. Instead, the SEC attempts to justify the
Rule through the kind of “mere conjecture” that courts
“have never accepted . . . as adequate to carry a First
Amendment burden,” Nixon v. Shrink Mo. Gov’t PAC,
528 U.S. 377, 392 (2000), asserting that “the proposed
rule change advances this government interest by
seeking to halt an existing pay-to-play problem, even
though, in terms of a record, ‘no smoking gun is
needed.’” 81 Fed. Reg. at 60,057, App. 167a (emphasis
added). But such “speculation … cannot justify …
substantial intrusion on First Amendment rights.”
McCutcheon, 572 U.S. at 218.
The SEC, therefore, acknowledges that the Rule is a
broad prophylactic measure deterring constitutionally
protected conduct when the government has no legiti-

24
mate interest in doing so. See 81 Fed. Reg. at 60,057,
App. 167a-168a (recognizing the “prophylactic” purpose of the Rule).
Congress has already enacted a broad prophylactic
restriction on campaign contributions, limiting them
to $2,800 per federal candidate per election, and
states have enacted analogous legislation modeled on
FECA. FECA’s contribution limit “remain[s] the primary means of regulating campaign contributions.”
McCutcheon, 572 U.S. at 209. If FINRA or the SEC
want to subject covered associates to more stringent
restrictions “layered on top” of that statutory limit, id.
at 221, they must provide evidence that the existing
limit is insufficient to address quid pro quo corruption,
or its appearance, when it comes to placement agents.
FINRA and the SEC have, however, failed to offer “any
special justification that might warrant a contribution
limit so low or so restrictive as to bring about the
serious associational and expressive problems” that
the Rule creates. Randall, 548 U.S. at 261.
The D.C. Circuit asserts that it satisfied McCutcheon
when it reviewed the MSRB’s political contribution
rule in Blount v. SEC, 61 F.3d 938. There, the D.C.
Circuit applied strict scrutiny and upheld the MSRB’s
political contribution rule. Id. at 944-47. According to
the court below, that satisfies McCutcheon.
McCutcheon requires more, and Petitioner urged
more. What the D.C. Circuit needed to review was
whether FINRA’s additional prophylactic contribution
limit—in addition to the federal contribution limit—
was authorized by law and justified to prevent corruption or the appearance thereof. McCutcheon, 572 U.S.
at 206, 221. This requires that the SEC demonstrate
that Congress’s base limits on candidates for federal
office—$2,800 per election—are insufficient at pre-

25
venting corruption, or its appearance, from covered
associates to covered officials. McCutcheon, 572 U.S.
at 210, 221 (stating that when the government
restricts speech it is the government’s burden to
justify its actions and that when the government
places restrictions in addition to the base contribution
limits, the additional restriction must be justified).3 To
be clear, Petitioner does not deny the existence of
pay-to-play schemes. Instead, the SEC’s evidence is
insufficient because it does not address the precise
question here: why the SEC needs an additional
campaign finance limit—$350/$150 de minimis contribution limit—on top of Congress’s $2,800 per election
as the base limit. See McCutcheon, 572 U.S. at 216-18
(ruling that the aggregate contribution limit was
unconstitutional because the stated need for them
involved scenarios that were either already illegal
under current law or “divorced from reality”). The SEC
does not adduce any evidence that Congress’s prophylactic ban on disclosed contributions above $2,800 per
election was ineffective.
The McCutcheon Court struck down aggregate contribution limits because there were no “real-world
examples of circumvention of the base limits,” and
3

An analogy to Wagner and the federal contractor ban is
unpersuasive. The federal contractor ban does not impact candidates differently, it only prohibits certain individuals from
contributing to any and all candidates for federal office. 52 U.S.C.
§30119(a). Second, federal contractors can establish separate
segregated funds. Compare id. §30119(b) (allowing contributions
from the separate segregated fund of a federal contractor) with
FINRA Rule 2030(a)-(b) and (g)(2)(D) (prohibiting covered members and associates, including PACs controlled by covered members and associates from contributing to covered officials). Third,
the federal contractor ban is supported by a century of evidence.
Wagner v. FEC, 793 F.3d 1, 10-14 (D.C. Cir. 2015) (en banc).

26
“speculation” about circumvention of the base limits
alone could not “justify the substantial intrusion on
First Amendment rights at issue in th[e] case.” 572
U.S. at 217-18; see also Lavin v. Husted, 689 F.3d 543
(6th Cir. 2012) (declaring unconstitutional an Ohio
statute prohibiting candidates for Ohio Attorney General or county prosecutor from accepting campaign
contributions from Medicaid providers because there
was no evidence of corruption by state or county
prosecutors). Because the SEC likewise fails to provide
evidence that placement agents have been corrupting
candidates with legal, fully disclosed campaign contributions, FINRA’s Rule fails because it does not identify a problem requiring the Rule, nor does the SEC
demonstrate that its means ameliorate it.4
Additionally, the SEC also must adduce evidence
that FINRA’s Political Contribution Rule is closely
drawn. McCutcheon, 572 U.S. at 210, 221. A regulation
is closely drawn if it does not unnecessarily abridge
First Amendment rights. Id. at 199. If a plausible less
restrictive alternative is presented, it is the SEC’s
burden to prove that the alternative will be ineffective.
United States v. Playboy Entm't Grp., 529 U.S. 803,
816 (2000); see also McCutcheon, 572 U.S. at 220-21
(holding that more closely drawn alternatives existed
to achieve anti-circumvention interests than the
4

The SEC hypothesized before the D.C. Circuit that if 100
“covered associates” contribute $2,700, “the member firm may
still be credited with a $270,000 contribution.” (Opp.n Br. at 43).
But if the covered associates conspired to contribute $270,000 to
get the corporation credit to obtain a contract award, this might
violate the prohibition on contributions in the name of another,
52 U.S.C. §30122, and potentially constitute bribery. 18 U.S.C.
§201(b). Furthermore, absent evidence of this actually happening, it also seems divorced from reality and this Court should not
credit it. McCutcheon, 572 U.S. at 216.

27
“indiscriminate” ban of all contributions to candidates
above an annual aggregate limit). There is no evidence
in the record demonstrating how FINRA arrived at
the $350 contribution limit for covered associates to
contribute to covered officials for whom the associate
can vote, and $150 contribution limit for covered
associates to contribute to other officials. By contrast,
Congress, through ample evidence, arrived at the
$1,000 per election contribution limit as the tipping
point between the lawful exercise of First Amendment
rights and large campaign contributions that are
corrupting. See Buckley, 424 U.S. at 26-28. Congress
had ample evidence that the problem of corruption is
in large campaign contributions. Id. at 28. The SEC
does not adduce evidence that $351 from a covered
associate to a covered official is a large campaign
contribution. That the SEC does not adduce this
evidence is unsurprising given that “the legislature is
better equipped to make such empirical judgments, as
legislators have ‘particular expertise’ in matters
related to the costs and nature of running for office.”
Randall, 548 U.S. at 248.
B. Congress Did Not Vest The SEC With
The Authority To Regulate Federal
Contribution Limits
This Court can declare the Rule unlawful because it
is ultra vires and avoid the constitutional issue. If the
Court leaves the Decision unaltered, then any federal
government agency can impose contribution limits on
those persons within its regulated community.
Congress has reserved the role for enacting contribution limits and prohibitions for itself, fixing by
statute all limits on campaign contributions. This was
so back when Congress first enacted FECA, and it
remains so today, after Congress extensively revised

28
FECA through BCRA. Compare 18 U.S.C. §608(b)
(1975), with 52 U.S.C. §30116(a). Although Congress
has given the FEC broad and exclusive jurisdiction to
enforce the statutorily prescribed contribution limits,
see id. §30109, Congress has not granted the FEC
discretion to increase or decrease those limits on its
own initiative. Instead, that, too, is a judgment that
Congress itself has made, dictating by statute the
precise circumstances and way its contribution limits
may be adjusted. See id. §30116(c)). Congress also has
reserved for itself the power to establish exceptions to
its statutorily fixed limits. For instance, Congress has
prohibited national banks, corporations, labor organizations, and their officers or directors from making
any contributions in connection with elections for
federal offices. Id. §30118. Congress also has prohibited foreign nationals from making any contributions
in connection with any election. Id. 52 U.S.C. §30121.
And Congress has imposed restrictions on the circumstances under which people who contract their services to the government may make contributions,
prohibiting them from doing so while they are negotiating or performing under a government contract. Id.
§30119. Congress has not imposed any comparable
restriction on investment advisers who are providing
or seeking to provide their services to public pension
funds. And, in each of these instances, Congress
applied its restrictions to all candidates for federal
office and not one set of rules for incumbents and
another for challengers.
In the rare instance when Congress wants agencies
other than the FEC to participate in the enforcement
or administration of campaign finance laws, it says
so directly. See, e.g., 47 U.S.C. §315(b) (delegating to
Federal Communications Commission authority to
enforce proper sponsorship identification in political

29
advertising); 26 U.S.C. §6096 (delegating authority to
Internal Revenue Service to administer “check off
program” that funds Presidential Election Campaign
Fund).
FINRA’s Political Contribution Rule vastly exceeds
FINRA’s authority to propose and the SEC’s authority
to approve rules that “prevent fraudulent and
manipulative acts and practices,” “promote just and
equitable principles of trade,” “perfect the mechanism
of a free and open market and a national market
system,” or “protect investors and the public interest.”
Id. Rather, Congress expressly forbids FINRA
“to regulate by virtue of any authority conferred
by this chapter matters not related to the purposes of
this chapter . . . ,” id., and requires the SEC to
disapprove any such proposed rule as inconsistent
with the requirements of the Exchange Act, 15 U.S.C.
§78s(b)(2)(C). Campaign finance is not a matter
related to the purposes of the Exchange Act; it is
outside both the SEC’s expertise and its statutory
authority. The Commission thus lacks the power to
impose broad prophylactic prohibitions on conduct so
far outside its statutory mandate—particularly when
that conduct is protected by the Constitution and
limited beyond what Congress authorized in FECA.
Not a single line of the Exchange Act mentions the
regulation of campaign finance because Congress
never delegated to any agency the sensitive undertaking of determining the point at which campaign
contributions pose a risk of corruption or the appearance thereof. Congress consistently has reserved this
role for itself. It makes sense Congress that would
reserve these judgments for itself rather than delegate
them to executive agencies, “as legislators have
‘particular expertise’ in matters related to the costs

30
and nature of running for office.” Randall, 548 U.S. at
248.
Moreover, Congress has never imposed contribution
limits on state and local races, which would raise
serious federalism concerns. Rather, Congress has
been careful not to override state limits on contributions and expenditures that are devoted solely to state
and local races. Thus, while BCRA limits the amount
of money a state or local party can spend on federal
election activity, see, e.g., 52 U.S.C. §30125(b)(1),
Congress elucidated that these restrictions do not
apply to expenditures related “solely to a clearly
identified candidate for State or local office.” 52 U.S.C.
§30125(b)(2)(B)(ii). Likewise, while federal officeholders are subject to certain BCRA restrictions related to
their ability to solicit funds for other elections, this
restriction does not apply if the federal officeholder is
fundraising for his own race for state or local office. 52
U.S.C. §30125(e)(1)-(2).
All of that would make the Rule difficult enough to
defend had it been promulgated by the FEC. After all,
Congress may have granted the FEC “exclusive[]”
“responsibility for the civil enforcement of matters
specifically covered by” FECA and BCRA, Galliano,
836 F.2d at 1368; see 52 U.S.C. §30106(b)(1), but
Congress has not granted the FEC discretion to displace Congressional judgment on the appropriate
limits of political contributions with the agency’s own
judgment. Yet that is what the SEC and FINRA do in
Rule 2030: By forcing placement agents to choose
between providing their services or making political
contributions at the amounts permitted by FECA, the
rule has the same practical effect as the restriction
that Congress chose to impose only on government
contractors. See 52 U.S.C. §30119.

31
That Rule 2030 has been promulgated by the SEC
and FINRA makes this an even easier case, as
Congress has not granted the SEC or FINRA any
authority to regulate federal campaign contributions
or other campaign finance-related activities. Instead,
FINRA claimed this power under its general grant of
authority to propose rules “designed to prevent fraudulent and manipulative acts and practices, to promote
just and equitable principles of trade, and, in general,
to protect investors and the public interest.” 80 Fed.
Reg. 81,650, 81,656 (Dec. 30, 2015), App. 192a (citing
15 U.S.C. §78o-3(b)(6)); 81 Fed. Reg. at 60,058.
Giving this provision an expansive view, the SEC
agreed with FINRA’s finding that the proposed rule
change is consistent with the Exchange Act. 81 Fed.
Reg. at 60,062-63, App. 138a-244a. This boundless
view of SEC authority would strain credulity even
without the constitutional sensitivities or Congress’
“comprehensive” and “first-amendment-sensitive” contribution limits regime. Galliano, 836 F.2d at 1368,
1370.
Any attempt to fit the regulation of political contributions and solicitation in under the SEC’s authority
to “protect[s] investors and the public interest,” 15
U.S.C. §78o-3(b)(6), stretches the statutory language
beyond its breaking point. The authority to target
“fraudulent and manipulative acts and practices” does
not give these financial regulatory agencies the authority to set contribution limits on political races or
prohibit other political activity. Id.
If a statutory grant of authority like the statutes at
issue here, which are for enacting regulations to
“perfect the mechanism of a free and open market” or
“to protect investors and the public interest,” 15 U.S.C.
§78o-3(b)(6), are read to include the power of imposing

32
campaign contribution limits for all federal, state, and
local elections, then any federal agency can do the
same within its regulatory ambit. While the Exchange
Act gives the SEC the authority to regulate how
placement agents do their job and to punish them for
actual fraud or bribery, the Act does not grant the SEC
the authority to regulate their lawful political speech.
Those matters are left to state and federal legislators,
the experts at “weigh[ing] competing constitutional
interests” inherent in any decision related to how
we participate in electing our political leaders.
McConnell, 540 U.S. at 137. To return the SEC and
FINRA to their proper sphere, this Court should
therefore grant certiorari.
C. The Rule Is Arbitrary and Capricious
Finally, even assuming that authority to regulate
“fraudulent and manipulative practices” includes
authority to create new campaign finance regimes,
FINRA and the SEC have failed to justify this new
prophylactic ban on otherwise lawful speech. At the
outset, it is important to recognize that the Rule’s
application to candidates for federal office targets only
those instances in which covered associates make fully
disclosed federal political contributions in amounts
less than $2,800 to federal candidates or make fully
disclosed donations to political party committees federal accounts. Everything else already is prohibited
directly by the campaign finance statutes and is therefore squarely within the enforcement jurisdiction of
the FEC and the Department of Justice. See 52 U.S.C.
§§30116, 30104, 30105. Moreover, similar contribution
and disclosure requirements are imposed by states
under state law, and “pay-to-play” conduct is already
prohibited by both state and federal law, see, e.g., 18
U.S.C. §201 (prohibiting payment of bribes to federal

33
officials); N.Y. Penal Law §200.04 (McKinney 2016)
(prohibiting bribes to state officials). Thus, Rule 2030
is necessarily premised on the notion that making
fully disclosed contributions within state and federal
limits is likely to result in some sort of “fraudulent and
manipulative” act or will otherwise harm markets or
the “public interest.” 15 U.S.C. §78o-3(b)(6).
Yet, neither the SEC nor FINRA can identify with
any specificity what “fraud” might result from the
modest, publicly- disclosed contributions the Rule
precludes. And FINRA offers only speculation that the
Rule will cause more qualified advisers to offer their
services, 81 Fed. Reg. at 60,063, 60,065 App. 121a,
122a, 135a, 167a, 169a, 192a, 199a, 203a, and provide
government entities better advice, id. This fails
scrutiny. Ragsdale v. Wolverine World Wide, Inc., 535
U.S. 81, 93 (2002) (“When the generalizations fail to
hold in the run of cases,” however, “the justification for
the categorical rule disappears.”
In short, the Rule is unauthorized, unjustified, and
massively overbroad in a way that raises grave First
Amendment concerns. Because FINRA and the SEC
exceeded their statutory authority and acted arbitrarily and capriciously in promulgating it, the Rule
cannot be sustained. This Court should grant certiorari and reverse.

34
CONCLUSION
For the forgoing reasons, petitioners respectfully
request that the Court grant this petition.
Respectfully submitted,
JASON TORCHINSKY
Counsel of Record
SHAWN SHEEHY
CHRIS WINKELMAN
JONATHAN LIENHARD
DENNIS W. POLIO
HOLTZMAN VOGEL JOSEFIAK
TORCHINSKY PLLC
45 North Hill Drive, Suite 100
Warrenton, VA 20186
(540) 341-8808
jtorchinsky@hvjt.law
Counsel for Petitioner
September 16, 2019

APPENDIX

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
[Filed: June 18, 2019]
————
No. 18-1111
————
NEW YORK REPUBLICAN STATE COMMITTEE AND
TENNESSEE REPUBLICAN PARTY,
Petitioners,
v.
SECURITIES AND EXCHANGE COMMISSION,
Respondent.
————
On Petition for Review of a Final Order
of the Securities & Exchange Commission
————
September Term, 2018
————
Before: PILLARD, Circuit Judge, and GINSBURG and
SENTELLE, Senior Circuit Judges
————
JUDGMENT
This cause came on to be heard on the petition for
review of an order of the Securities & Exchange
Commission and was argued by counsel. On consideration thereof, it is

2a
ORDERED and ADJUDGED that the petition for
review is denied, in accordance with the opinion of the
court filed herein this date.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Ken Meadows
Deputy Clerk
Date: June 18, 2019
Opinion for the court filed by Senior Circuit Judge
Ginsburg.
Dissenting opinion filed by Senior Circuit Judge
Sentelle.

3a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
[Filed: August 13, 2019]
————
No. 18-1111
SEC-34-78683
————
NEW YORK REPUBLICAN STATE COMMITTEE AND
TENNESSEE REPUBLICAN PARTY,
Petitioners,
v.
SECURITIES AND EXCHANGE COMMISSION,
Respondent.
————
September Term, 2018
————
MANDATE
In accordance with the judgment of June 18, 2019,
and pursuant to Federal Rule of Appellate Procedure
41, this constitutes the formal mandate of this court.
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Ken R. Meadows
Deputy Clerk

4a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
————
No. 18-1111
————
NEW YORK REPUBLICAN STATE COMMITTEE AND
TENNESSEE REPUBLICAN PARTY,
v.

Petitioners,

SECURITIES AND EXCHANGE COMMISSION,
————

Respondent.

Argued November 15, 2018
Decided June 18, 2019
————
On Petition for Review of a Final Order
of the Securities & Exchange Commission
————
Edmund G. LaCour Jr. argued the cause for petitioners. With him on the briefs were H. Christopher
Bartolomucci and Jason B. Torchinsky.
Jeffrey A. Berger, Senior Litigation Counsel, Securities and Exchange Commission, argued the cause for
respondent. With him on the brief was Michael A.
Conley, Solicitor.
Carter G. Phillips, Joseph Guerra, Tobias S. LossEaton, and Michael L. Post were on the brief for
amicus curiae Municipal Securities Rulemaking
Board in support of respondent.

5a
Before: PILLARD, Circuit Judge, and GINSBURG and
SENTELLE, Senior Circuit Judges.
Opinion for the Court filed by Senior Circuit Judge
GINSBURG.
Dissenting opinion filed by Senior Circuit Judge
SENTELLE.
GINSBURG, Senior Circuit Judge: In 2016 the Securities and Exchange Commission adopted Rule 2030,
which regulates the political contributions of those
members of the Financial Industry Regulatory Authority
(FINRA), a self-regulatory association of broker-dealers,
who act as “placement agents” – i.e., individuals and
firms that investment advisers hire to help them secure
contracts advising a government entity. The Rule
prohibits a placement agent from accepting compensation for soliciting government business from certain
candidates and elected officials within two years of
having contributed to such an official’s electoral campaign or to the transition or inaugural expenses of a
successful candidate. The New York Republican State
Committee (NYGOP) and the Tennessee Republican
Party petition for review of the SEC’s order approving
Rule 2030, on the grounds that: (1) the SEC did not
have authority to enact the Rule; (2) the order adopting the Rule is arbitrary and capricious because there
was insufficient evidence it was needed; and (3) the
Rule violates the First Amendment to the Constitution
of the United States. The SEC challenges the petitioners’ standing to bring the case and defends the Rule
against these arguments.
We hold the NYGOP has standing and deny its
petition on the merits. The SEC acted within its
authority in adopting Rule 2030; doing so was not
arbitrary and capricious because the SEC had suffi-

6a
cient evidence it was needed; and the Rule does not
violate the First Amendment in view of our holding in
Blount v. SEC, 61 F.3d 938 (1995), in which we upheld
a functionally identical rule against the same challenge.
I. Background
The SEC adopted the challenged rule in response to
longstanding concerns about so-called “pay-to-play”
activity in the public pension market. We therefore
begin by laying out what prompted the SEC’s decision
to regulate the contributions of placement agents to
candidates and incumbents for elected office.
A. Pay-to-Play and Public Funds
In many instances, local and state government
officials responsible for holding and managing public
funds, such as pension funds and tuition plans, are
also responsible for choosing investment advisers to
manage plan assets. Political Contributions by Certain
Investment Advisers, Investment Advisers Act Release
No. IA–3043, 75 Fed. Reg. 41018, 41019/1 (July 14,
2010).1 By 2010 an increasing number of enforcement
actions had revealed that some of these elected officials
chose investment advisers based upon whether the
would-be adviser had given them money or donated to
their campaign. 75 Fed. Reg. at 41019/3-20/3; id. at
41039 n.290. For example, the SEC brought cases against
the former Treasurer of the State of Connecticut and
other defendants, alleging the Treasurer had allocated
pension fund investments to fund managers in exchange
for political contributions and other payments made
1

Henceforth, for the sake of simplicity, we follow the lead of
the SEC in using the term “public pension plan” to refer to any
investment program “sponsored or established” by a government
entity, “regardless of whether they are retirement funds.” 75 Fed.
Reg. 41018 n.3.

7a
through the Treasurer’s “friends and political associates.” Id. at 41020/1.
Concerned that these practices distort the market
for investment advisory services, the SEC adopted a
rule in 2010 regulating the political contributions of
firms and individuals registered under the Investment
Advisers Act of 1940, which prohibits any adviser from
engaging “in any act, practice, or course of business
which is fraudulent, deceptive, or manipulative.” 15
U.S.C. § 80b-6(4); see 17 C.F.R. § 275.206(4)-5. This
“Advisers Act rule” makes it unlawful for an investment adviser to provide services “for compensation
to a government entity within two years after a
contribution to an official of the government entity is
made by the investment adviser or any covered associate of the investment adviser.” 17 C.F.R. § 275.206(4)5(a)(1). The rule was “modeled on” Rule G-37 of the
Municipal Securities Rulemaking Board (MSRB), 75
Fed. Reg. at 41020/3, which the SEC had approved in
1994 and which imposes a similar two-year “time-out”
upon a dealer in the municipal securities market
who has donated to a covered official. Self-Regulatory
Organization - Municipal Securities Rulemaking Board,
Exchange Act Release No. 34-33868, 59 Fed. Reg.
17621, 17622/3-25/3 (Apr. 13, 1994). The SEC modeled
its rule upon MSRB Rule G-37 in part because we had
upheld that rule against a first amendment challenge
in Blount, and in part because the SEC believes G-37
was successful in “significantly curb[ing] pay to play
practices in the municipal securities market.” 75 Fed.
Reg. at 41020/3, 41023/3; see also Order Approving a
Proposed Rule Change To Adopt FINRA Rule 2030
and FINRA Rule 4580 To Establish “Pay-To-Play” and
Related Rules, Exchange Act Release No. 34 78683, 81
Fed. Reg. 60051, 60065/1 (Aug. 31, 2016).

8a
The SEC understood the Advisers Act rule would
not address all instances of pay-to-play corruption. In
particular, it was aware of several cases in which an
investment adviser did not contribute directly to a
candidate or incumbent but instead acted through a
placement agent. See 75 Fed. Reg. at 41037/3-38/1;
Notice of Filing of a Proposed Rule Change To Adopt
FINRA Rule 2030 and FINRA Rule 4580 To Establish
“Pay-to-Play” and Related Rules, Exchange Act Release
No. 34-76767, 80 Fed. Reg. 81650, 81651/1 (Dec. 30,
2015). For example, a placement agent who funneled
contributions to the New York State Comptroller secured
contracts for its client to advise $250 million worth of
pension fund investments. 81 Fed. Reg. at 60065/3; 75
Fed. Reg. at 41019/3-20/3. The SEC was therefore
“concerned that a rule that failed to address the use of
[placement agents] would be ineffective were advisers
simply to begin using . . . placement agents” to get
government clients. 75 Fed. Reg. at 41037/3.
Instead of barring investment advisers from hiring
placement agents, however, the SEC allowed an adviser
to retain a placement agent who is a member of the
FINRA, 17 C.F.R. § 275.206(4)-5(a)(2)(i)(A); 15 U.S.C.
§ 78c(a)(26), if the FINRA would impose restrictions
upon its members that were “substantially equivalent
[to] or more stringent” than the SEC’s parallel rule for
investment advisers. 17 C.F.R. § 275.206(4)-5(f)(9)(ii);
see Ga. Republican Party v. SEC, 888 F.3d 1198, 1200
(11th Cir. 2018); 81 Fed. Reg. at 60063/3 (noting the
FINRA had agreed to “prepare rules for [the SEC’s]
consideration that would prohibit its [placement agent]
members” from engaging in pay-to-play activity).
B. FINRA Rule 2030
In 2015 the FINRA proposed Rule 2030, which is
modeled after the Advisers Act rule and MSRB Rule

9a
G-37. 81 Fed. Reg. at 60053/1, 60057/2. Rule 2030(a),
subject to some exceptions, prohibits a FINRA member
from
Engag[ing] in distribution or solicitation activities for compensation with a government
entity on behalf of an investment adviser that
provides or is seeking to provide investment
advisory services to such government entity
within two years after a contribution to an
official of the government entity is made by
the covered member or a covered associate.
In other words, if a placement agent makes a contribution to a government official who can influence a
government entity’s choice of an investment adviser,
see Rule 2030(g)(8) (defining “official”), then the placement agent must wait two years before he or his firm
can accept payment for soliciting that government
entity on behalf of a client. The “two-year time-out” is
intended to serve as a “cooling-off period during which
the effects of a political contribution on the selection
process can be expected to dissipate.” 81 Fed. Reg. at
60053/1.
Rule 2030(b) prevents circumvention of this primary
prohibition by forbidding a covered member or a
“covered associate” of a member from “solicit[ing] or
coordinat[ing] any person or political action committee” to make any contributions to a covered official. See
also Rule 2030(g)(2) (defining “covered associate”). The
covered member or associate is also forbidden from
“soliciting or coordinating any person or political
action committee to make any payment to a political
party of a state or locality of a government entity with
which the covered member is engaging in, or seeking
to engage in, distribution or solicitation activities
on behalf of an investment adviser.” Rule 2030(b)(2)

10a
(cleaned up). Put another way, a placement agent may
not solicit contributions for a political party and later
be paid to serve as a placement agent for the state or
locality of that party.
Rule 2030(c)(1) sets forth an exception to the Rule
for de minimis contributions, allowing an associate of
a FINRA member firm to contribute up to $350 to a
candidate or incumbent if he or she is eligible to vote
for that person; otherwise the limit is $150.
When the SEC approved FINRA Rule 2030 in 2016,
the NYGOP, along with the Tennessee and Georgia
Republican Parties, filed a joint petition in the
Eleventh Circuit for review of the SEC order. 81 Fed.
Reg. at 60051; Ga. Republican Party, 888 F.3d at 1201.
The Eleventh Circuit held the Georgia party did not
have standing to challenge the order and transferred
the case to this court based upon the applicable venue
statute. Id. at 1205 (citing 15 U.S.C. § 78y(a)(1)).
II. Analysis
A. Standing
In order to bring their challenge, the petitioners
must establish they have satisfied the “constitutional
minimum” for standing to sue, which requires that (1)
they have suffered an injury-in-fact, (2) caused by the
challenged conduct; and (3) a favorable decision is
likely to redress that injury. Lujan v. Defs. of Wildlife,
504 U.S. 555, 560-61 (1992). If any one of the petitioners has standing to raise a claim, then this court has
jurisdiction over that claim without regard to whether
any other petitioner also has standing. Carpenters
Indus. Council v. Zinke, 854 F.3d 1, 9 (D.C. Cir. 2017).
Although we are typically skeptical about a petitioner’s standing where, as here, neither petitioner is

11a
regulated by the challenged rule, Lujan, 504 U.S. at
561-62, we hold the NYGOP has met its burden by
advancing “specific facts” to support its claim to have
suffered an injury-in-fact. Id. at 561; Sierra Club v.
EPA, 292 F.3d 895, 899 (D.C. Cir. 2002). The NYGOP
has submitted the affidavit of Francis Calcagno, a
placement agent covered by Rule 2030, stating that “if
Rule 2030 were no longer in effect,” then he “would
solicit contributions for the NYGOP from [his] friends,
family, and other contacts.” Add. to Pet’rs’ Br. 18-19.
An organization is obviously “harmed if its contributors cease giving it money.” Taxation with Representation
of Wash. v. Regan, 676 F.2d 715, 723 (D.C. Cir. 1982)
(holding a nonprofit has standing to bring a first
amendment challenge against restrictions denying tax
deductions to its contributors), rev’d on other grounds,
461 U.S. 540 (1983). Hence, we hold the NYGOP’s
reduced ability to raise funds due to Rule 2030 constitutes a concrete and particularized injury for purposes
of Article III standing.
The SEC claims Taxation is inapplicable because
the tax statute challenged in that case affected the
entire donor base of a nonprofit organization, whereas
the NYGOP has not shown placement agents affected
by Rule 2030 constitute more than a minority of its
potential contributors. As the petitioners point out,
however, this argument addresses only the degree of
their injury. As we have long held, even a slight injury
is sufficient to confer standing; the size of the harm
therefore poses no jurisdictional barrier to the NYGOP’s
claim. See Tax Analysts & Advocates v. Blumenthal,
566 F.2d 130, 138 (D.C. Cir. 1977).
The SEC next invokes Clapper v. Amnesty International USA, 568 U.S. 398 (2013), to argue the
petitioners’ risk of harm is too speculative because it

12a
relies upon the decisions of third parties not before
us. In Clapper, the Supreme Court held that certain
attorneys and organizations did not have standing
to challenge a provision of the Foreign Intelligence
Surveillance Act of 1978 because they failed to show
their claimed injury – namely, that their communications with overseas clients and contacts would be
intercepted by the Government – was “certainly impending.” Id. at 410-14. As the Supreme Court later clarified,
however, a plaintiff is not limited to establishing
injury-in-fact by showing that a harm is “certainly
impending”; it may instead show a “substantial risk”
that the anticipated harm will occur. See Susan B.
Anthony List v. Driehaus, 573 U.S. 149, 158 (2014). We
have, therefore, determined that “the proper way to
analyze an increased-risk-of-harm claim is to consider
the ultimate alleged harm . . . as the concrete and
particularized injury and then to determine whether
the increased risk of such harm makes injury to an
individual citizen sufficiently ‘imminent’ for standing
purposes.” Attias v. Carefirst, Inc., 865 F.3d 620, 627
(D.C. Cir. 2017).
We have already determined that the NYGOP’s
reduced ability to raise funds is a concrete and particularized harm to the organization. The question
now is whether the NYGOP has shown it faces a
“substantial risk” of this harm materializing.
We hold the NYGOP has met its burden. To be sure,
Calcagno has not shown with literal certainty that his
contacts would have donated to the NYGOP upon his
request. But Clapper does not require certainty; instead,
it understandably holds a plaintiff’s risk of harm
cannot be based upon a “highly attenuated chain of
possibilities.” 568 U.S. at 410. Unlike in Clapper, where
the chain comprised several links, “requir[ing] the

13a
assumption that independent decisionmakers” – the
Attorney General, the Director of National Intelligence,
and judges of the Foreign Intelligence Surveillance
Court – “would exercise their discretion in a specific
way,” Attias, 865 F.3d at 626, here the plaintiff’s standing requires only the single inference that at least one
of Calcagno’s family, friends, or contacts would have
donated a few dollars to the NYGOP had Calcagno
asked him or her to do so. In our view, that inference
is eminently reasonable – indeed, irresistible; the
increased risk of at least some harm as a result of the
SEC’s decision to adopt Rule 2030 is therefore
substantial and not speculative. Cf. id. at 628-29
(contrasting the substantial risk of identity theft posed
by a data hack with the “long sequence of uncertain
contingencies” in Clapper). We do not believe that a
practical application of Article III requires more than
the affidavit before us.
In short, we hold the NYGOP has Article III
standing to pursue this case. The NYGOP’s reduced
ability to raise funds due to Rule 2030 constitutes a
non-speculative injury-in-fact, which would be redressed
were we to grant its petition.
B. Authority of the SEC
We turn now to the petitioners’ challenge to Rule
2030 as an ultra vires regulation of campaign finance.
Pursuant to Section 15A of the Securities Exchange
Act of 1934, the SEC “shall approve” a rule proposed
by the FINRA – the only registered national securities
association, see Self-Regulatory Organization Rulemaking, SEC. EXCH. COMM’N (Mar. 5, 2019), https://
www.sec.gov/rules/sro.shtml – if it is “consistent with
the requirements of [the Act].” 15 U.S.C. § 78s(b)(2)(C)(i).
Section 15A also authorizes the FINRA to make rules to
“prevent fraudulent and manipulative” practices, “to

14a
promote just and equitable principles of trade,” and to
“remove impediments to and perfect the mechanism of
a free and open market and a national market system,
and, in general, to protect investors and the public
interest.” 15 U.S.C. § 78o-3(b)(6); see also 81 Fed. Reg.
at 60062/3-63/1.
The SEC says Rule 2030 comes within this authority
because pay-to-play transforms the process by which
government officials select investment advisers into
one in which political contributions, rather than the
competence and cost of investment advisers, drive the
award of contracts. See 81 Fed. Reg. at 60063/1-65/3.
As a result, public pension funds are more likely to be
managed by less qualified investment advisers and to
pay higher fees, to the detriment both of the funds’
beneficiaries and of taxpayers. Id. at 60065/2; 75 Fed.
Reg. at 41022/2-3. Indeed, pay-to-play presents a
familiar agency problem in which the agent, who selects
advisers for the fund, has an interest that diverges
from that of his principals – the beneficiaries. This is
not a self-correcting problem: Investment advisers and
placement agents who decline to pay are put at a competitive disadvantage. See Blount, 61 F.3d at 945-46.
We agree with the SEC’s view of its authority. As we
said in Blount, 61 F.3d at 945, regulating pay-to-play
practices in the municipal bond market is within the
authority of the SEC to reduce distortion in financial
markets:
“Pay to play” practices raise artificial barriers
to competition for those firms that either
cannot afford or decide not to make political
contributions. Moreover, if “pay to play” is
the determining factor in the selection of an
underwriting syndicate, an official may not
necessarily hire the most qualified under-

15a
writer for the issue . . . . “Pay to play” practices
undermine [just and equitable] principles [of
trade] since underwriters working on a
particular issuance may be assigned similar
roles, and take on equivalent risks, but be
given different allocations of bonds to sell –
resulting in differing profits – based on their
political contributions or contacts.
Id. This reasoning, of course, is not limited to the
market for municipal securities at issue in Blount; it
applies with equal force to the pension funds at risk of
corruption in this case. See 81 Fed. Reg. at 60063/2-3
(“[P]ublic pension plans are particularly vulnerable to
pay-to-play practices”).
The petitioners first complain this view of the SEC’s
authority is too expansive. In support, they cite
California Independent System Operator Corp. v.
FERC, 372 F.3d 395 (2004) (CAISO), in which we held
the Federal Energy Regulatory Commission (FERC)
exceeded its statutory authority when it ordered a
state-created utility corporation to adopt a method for
selecting members of its board, in derogation of the
method prescribed by a state statute. The FERC
claimed it was acting pursuant to its authority to
regulate a “practice” affecting a rate collected by a
public utility, id. at 399, but after analyzing the
meaning of that word in the Federal Power Act, id. at
398-401, we concluded the “breathtaking scope” of the
FERC’s interpretation was unreasonable. Id. at 401.
The petitioners here do not explain how CAISO
bears upon the present case. To be sure, both cases
involve a federal agency accused of acting outside the
bounds of its authority, but there the similarity ends.
The reasoning in CAISO is addressed to the specific
provisions of the Federal Power Act, and the petition-

16a
ers do not explain how it might in any meaningful way
affect our analysis of the Exchange Act. Nor do the
petitioners marshal any evidence to draw into question our observation in Blount that there is a “selfevident” connection “between eliminating pay-to-play
practices and the Commission’s [twin] goals of ‘perfecting the mechanism of a free and open market’ and
promoting ‘just and equitable principles of trade.’” 61
F.3d at 945.
The petitioners argue in the alternative that the
Congress surely “could not have intended to delegate
a decision of such . . . significance to an agency.” Pet’rs’
Reply Br. 14 (quoting FDA v. Brown & Williamson
Tobacco Corp., 529 U.S. 120, 160 (2000)). Rather, the
argument goes, the Congress has reserved to itself the
authority to determine when a political contribution
poses a risk of corruption, because it has chosen to set
limits directly through the Federal Election Campaign
Act of 1971 (FECA). As evidence that the Congress
intends to dictate when limits may be adjusted or
imposed, the petitioners cite a provision of the FECA
that specifies contribution limits shall increase based
upon changes in the price index, 52 U.S.C. § 30116(c),
as well as FECA provisions that bar contributions
from certain groups, such as national banks and foreign
nationals, §§ 30118, 30121, but not from placement
agents.
Because none of these provisions bears upon the
SEC’s authority to uproot pay-to-play corruption in
financial markets, we take the petitioners’ argument
to be that provisions of the later-enacted FECA work
an implied repeal – a term the petitioners understandably reject – of the SEC’s pre-existing authority
to regulate pay-to-play activity under Section 15A of
the Exchange Act.

17a
As the SEC points out, however, the Supreme Court
has instructed that when “statutes are capable of
coexistence, it is the duty of the courts, absent a clearly
expressed congressional intention to the contrary, to
regard each as effective.” J.E.M. Ag Supply, Inc. v.
Pioneer Hi-Bred Int’l, Inc., 534 U.S. 124, 143-44 (2001);
see also Radzanower v. Touche Ross & Co., 426 U.S.
148, 154 (1976) (describing “two well-settled categories of repeals by implication: (1) where provisions in
the two acts are in irreconcilable conflict . . . ; and
(2) if the later act covers the whole subject of the
earlier one . . . . But, in either case, the intention of the
legislature to repeal must be clear and manifest”)
(cleaned up). We do not take this duty lightly. See FTC
v. Ken Roberts Co., 276 F.3d 583, 593 (D.C. Cir. 2001)
(“Because we live in an age of overlapping and concurring regulatory jurisdiction, a court must proceed with
the utmost caution before concluding that one agency
may not regulate merely because another may”) (internal
quotation omitted). In our view, that the Congress has
increased the contribution limits to keep pace with
inflation and that it has prohibited certain groups
from making contributions is not evidence of a “clear
congressional intention” to preclude the SEC from
limiting campaign contributions that distort financial
markets.
Finally, the petitioners make a related but distinct
claim, based upon Galliano v. U.S. Postal Service, 836
F.2d 1362 (D.C. Cir. 1988), that the “first-amendmentsensitive” provisions of the FECA limiting individual
contributions “displace” any authority the Exchange
Act may have conferred upon the SEC to set further
restrictions. Pet’rs’ Br. 33-34 (citing Galliano, 836 F.2d
at 1370). In Galliano, we held the United States Postal
Service could not enforce its statutory authority to
prevent “false representations” in the mail by impos-

18a
ing certain disclosure requirements for political mail
on top of those specifically required by the detailed
disclosure provisions of the FECA, which reflect a
delicate “balance of interests . . . deliberately struck by
Congress” in light of the first amendment considerations involved in regulating campaign finance. 836
F.2d at 1370. Similarly, as the SEC emphasizes, we
were concerned that the procedures used by the Postal
Service to adjudicate whether a defendant had made a
“false representation” through the mail would have
bypassed the “precisely drawn” dispute resolution
process prescribed by the FECA. Id. at 1371.
At the outset, we note that in Galliano, which was
decided prior to Blount, we were at pains to analyze
the authority of the Postal Service in a manner that
“reduce[d] constitutional doubt,” id. at 1369, with respect
to two questions: (1) whether the Postal Service’s effort
to “regulate solicitations for political contributions”
was consistent with the First Amendment and (2) “if
so, then as a matter of first amendment due process,
[whether] such solicitations may be regulated without
a prior judicial determination of the existence vel non
of first amendment protections.” Id. at 1370 n.7
(cleaned up); see also Ken Roberts Co., 276 F.3d at 593
(describing Galliano as “relying on the First Amendment and the canon of constitutional doubt in holding
that the [FECA] partially preempted the postal
fraud prescriptions”). Although the First Amendment
is surely implicated in the present case as well, Blount,
as described below, has since clarified that the SEC’s
pay-to-play rules are not constitutionally infirm under
the law of this Circuit. Moreover, our concern in
Galliano with “first amendment due process” is simply
not relevant here. Whereas we were concerned in
Galliano about whether there would be sufficient
judicial review of the Postal Service’s case-by-case

19a
determinations of what is a misrepresentation and
what is protected speech, id. at 1369, 1370 n.7, here
we review only a facial challenge to whether the bright
line of Rule 2030 violates the First Amendment. We
are not therefore compelled by Galliano to resolve the
allegedly overlapping authority of the SEC and the
FEC by holding only one of them may regulate in a
way that touches upon political contributions.
Galliano might nevertheless have given the petitioners some traction had the Supreme Court not later
decided POM Wonderful LLC v. Coca-Cola Co., 573
U.S. 102 (2014), which supersedes some of this court’s
reasoning in Galliano. (Indeed, it is unclear to what
extent Galliano has survived that decision.) The Court
in POM held that labeling regulations implementing
the Food, Drug, and Cosmetic Act (FDCA) do not
preclude a business from bringing a claim against a
competitor for unfair competition arising from false
or misleading advertising in violation of the Lanham
Act. As the SEC rightly claims, the reasoning in
POM weighs heavily in its favor. The Court began its
analysis with the text of the two statutes, noting
neither contains an express limitation on Lanham Act
claims, which is “of special significance because the
Lanham Act and the FDCA have coexisted” for 70
years. Id. at 113. Similarly, neither of the relevant
statutes in this case contains a provision limiting the
reach of the other, and the first pay-to-play rule
adopted by the SEC (MSRB Rule G37) has coexisted
with the FECA for 25 years. Furthermore, in determining that the Congress did not “intend the FDCA
to preclude Lanham Act suits,” id. at 121, the Court
reasoned that the two statutes “complement each other
in major respects . . . . Although both statutes touch on
food and beverage labeling, the Lanham Act protects
commercial interests against unfair competition, while

20a
the FDCA” and hence, we might add, the labeling
regulation implementing it, “protects public health
and safety.” Id. at 115. Similarly, the FECA and the
Exchange Act, as instantiated by the SEC’s pay-toplay rules, can peacefully coexist: Although both regimes
touch upon political contributions, the FECA is meant
to protect elections from the perceived untoward effects
of over-limit campaign contributions by whomever
made, whilst the Exchange Act, as implemented by
Rule 2030, is meant to protect the financial markets
from the perceived untoward effects of over-limit
contributions made by placement agents. See Blount,
61 F.3d at 944 (“[I]n Buckley and Austin the legislature was interested in clean elections, whereas here
the SEC is interested in clean bond markets”).
In so holding, we reject the petitioners’ argument
that the FECA is incompatible with the Exchange Act
because the general $2,700 contribution limit set by
the FECA serves as a “safe haven.” Pet’rs’ Reply Br.
18; see Galliano, 836 F.2d at 1370. This argument is
not tenable after POM: The Court there considered
and rejected a similar contention, reasoning that the
implementing regulations of the FDCA should not be
viewed as a “ceiling on the regulation of food and
beverage labeling” because the “Congress intended
the Lanham Act and the FDCA to complement each
other.” Id. at 119. Just as the Court observed in
POM that “[i]t is unlikely that Congress intended the
FDCA’s protection of health and safety to result in less
policing of misleading food and beverage labels than in
competitive markets for other products,” id. at 116, so
too we think it unlikely the Congress intended the
FECA’s protection of the electoral process to result in
less policing of corruption and inefficiency in the
financial markets.

21a
We are similarly unpersuaded by the petitioners’
argument that the FECA leaves no room for the SEC
to impose its own restrictions simply because the
FECA is more detailed. As the Court said in POM, the
“greater specificity [of one law] would matter only if
[the two laws] cannot be implemented in full at the
same time.” 573 U.S. at 118. Because, as shown above,
the Exchange Act and the FECA can both be fully
implemented without conflict, it matters not that the
FECA is more detailed.
Finally, the petitioners’ assertions to the contrary
notwithstanding, the “exclusive jurisdiction” of the
FEC to enforce the FECA, see 52 U.S.C. § 30106(b)(1),
is no bar to our conclusion that the SEC may enforce
the Exchange Act to reduce distortion in financial
markets. Rule 2030 does not purport to give the SEC
the ability to enforce provisions of the FECA. Cf. POM,
573 U.S. at 116-17 (explaining that although the FDA
has exclusive authority to enforce the FDCA, “POM
seeks to enforce the Lanham Act, not the FDCA or its
regulations”).
C. Arbitrary and Capricious
In their next line of attack, the petitioners claim the
order adopting Rule 2030 is arbitrary and capricious,
in violation of the Administrative Procedure Act, 5
U.S.C. § 706(2)(A), because the SEC has not shown the
Rule targets corruption beyond that already prevented
by federal and state laws against bribery or by the
FECA.
We do not believe the federal and state laws prohibiting bribery are adequate to address pay-to-play
activity, as the petitioners suggest. Laws against
bribery “deal with only the most blatant and specific
attempts of those with money to influence governmen-

22a
tal action,” Wagner v. FEC, 793 F.3d 1, 15 (D.C. Cir.
2015) (quoting Buckley v. Valeo, 424 U.S. 1, 27-28
(1976)); “corruption and its appearance are no doubt
more widespread in the contracting process than our
criminal dockets reflect.” Id.; see also id. at 25.
Nor is the FECA a solution to the problem: The SEC
adopted Rule 2030 precisely because it was aware of
several instances in which a placement agent’s contribution to a government official – lawful under the
FECA – influenced that official’s decision to award an
advisory services contract. See 75 Fed. Reg. 41019/220/3, 41037/3. In adopting the Rule, the agency explained
that placement agents played a “central role” in several
pay-to-play scandals involving FECA-compliant contributions to officials in New York, Connecticut, and
California. 81 Fed. Reg. at 60065/3; see also 75 Fed.
Reg. 41019/2-20/2; id. at 41019/3 n.17; id. at 41039/3
n.290.
The petitioners minimize the significance of this
evidence, arguing the SEC’s examples do not show
that “most, many, or even more than a few publicly
disclosed $2,700 federal contributions or similar contributions made to state and local officials by placement
agents will involve the kind of quid pro quo arrangement” the Rule aims to prevent. Pet’rs’ Br. 44. That is
true, but it would make no sense to require the SEC to
show that quid pro quo arrangements are, as the
petitioners put it, “rampant,” id.: A contribution is
corrupting even if it cannot be traced to the subsequent award of a contract for advisory services because
in this market “a contribution brings the donor merely
a chance to be seriously considered, not the assurance
of a contract.” Blount, 61 F.3d at 945. (Indeed, it could
hardly be otherwise whenever a candidate or incumbent receives several contributions from as many

23a
would-be advisers.) Not surprisingly, in Blount the
record contained “no evidence of specific instances of
quid pro quos,” yet we rejected the same argument in
the form that the harms being targeted by MSRB Rule
G-37 were “merely conjectural.” 61 F.3d at 944. As we
explained then in analyzing whether MSRB Rule G-37
violated the First Amendment, the contributions at
issue “self-evidently create[d] a conflict of interest”
and, although actual corruption is difficult to detect,
the “risk of corruption is obvious and substantial.” Id.
at 944-45. Accordingly, “no smoking gun is needed
where . . . the conflict of interest is apparent, the
likelihood of stealth great, and the legislative purpose
prophylactic.” Id. at 945; see also Buckley, 424 U.S. at
29-30 (rejecting a challenge to the contribution limit in
the FECA that “most large contributors do not seek
improper influence,” because it is too “difficult to
isolate suspect contributions”).
D. The First Amendment
We turn, finally, to the petitioners’ contention that
Rule 2030 violates the First Amendment. As a threshold matter, however, we must determine the standard
to which the Rule should be held. The petitioners, of
course, urge us to subject Rule 2030 to strict scrutiny
on the ground that we are reviewing an action by
the SEC as opposed to the Congress, which they say
alone has the “expertise” to weigh the first amendment
considerations involved. Pet’rs’ Br 52. This novel theory
runs up against our precedent holding the “closely
drawn” standard, which is “a lesser but still rigorous
standard of review” prescribed by the Supreme Court,
“remains the appropriate one for review of a ban on
campaign contributions,” Wagner v. FEC, 793 F.3d at
5-6 (citing several Supreme Court cases, the most
recent of which is McCutcheon v. FEC, 572 U.S. 185,

24a
197 (2014) (plurality opinion)). We therefore ask
whether Rule 2030 is closely drawn to serve a “sufficiently important” governmental interest. Id. at 7-8.
As the SEC points out, we answered this question
when we upheld MSRB Rule G-37 against the first
amendment challenge in Blount. Because MSRB Rule
G-37 is identical in every constitutionally relevant
way to FINRA Rule 2030, Blount compels our holding
for the SEC in this indistinguishable case. Then, as
now, the Supreme Court has said that “preventing
corruption or the appearance of corruption are the only
legitimate and compelling government interests thus
far identified for restricting campaign finances,’” FEC
v. Nat’l Conservative Political Action Comm., 470 U.S.
480, 496-97 (1985)); Blount, 61 F.3d at 944; see also
Wagner v. FEC, 793 F.3d at 8, 22 (restrictions on the
first amendment right to make political contributions
may be particularly necessary in the “contracting
context,” which “greatly sharpens the risk of corruption and its appearance” because “there is a very
specific quo for which the contribution may serve as
the quid: the grant or retention of the contract”). We
determined MSRB Rule G-37 survives even strict
scrutiny because the rule restricts only a “narrow
range of . . . activities for a relatively short period of
time.” Blount, 61 F.3d at 947-48; see also Wagner v.
FEC, 793 F.3d at 26 (“The availability of other avenues
of political communication can thus be relevant,
although it is of course not dispositive”). Rule 2030
contains identical safeguards and therefore survives
our review today; its restrictions are closely drawn to
further a compelling governmental interest, as can be
seen in the specific instances of quid pro quo conduct
identified by the SEC. See Part II.C above; 81 Fed.
Reg. at 60066/1-2.

25a
Rather than attempt to twist the logic of Blount in
their favor, the petitioners advance two reasons for
thinking our precedent is no longer good law. First,
they invoke the plurality opinion in McCutcheon for
the proposition that “Blount relied heavily on several
strands of reasoning that the Supreme Court has since
rejected.” Pet’rs’ Br. 50. Under the petitioners’ blinkered reading of that opinion, the present case runs
afoul of the Court’s admonition that a “‘prophylaxisupon-prophylaxis approach’ requires that we be particularly diligent in scrutinizing the law’s fit.” 572 U.S.
at 221.
McCutcheon, of course, involved an aggregate limit
on political contributions that was “layered on top [of
the base limits prescribed by the FECA], ostensibly to
prevent circumvention of the base limits.” Id. But the
holding of McCutcheon is not that a belt and braces
approach is necessarily unconstitutional, but that the
court must be “particularly diligent in scrutinizing the
law’s fit” with the governmental interest it is supposed
to serve. Id. And so we did in Blount by applying strict
scrutiny, a standard even more exacting than the
“closely drawn” standard we apply now, to evaluate
the first amendment claim against MSRB G-37. 61
F.3d at 943-48.
Second, the petitioners would have us distinguish
Blount because this court was not there asked to
consider the “disparate impact that a restriction like
Rule 2030 will have on candidates running for the
same seat” where one candidate is a covered official
and the incumbent (or another candidate) is not. Pet’rs’
Br. 52. In support of their claim that this disparity
necessarily makes the Rule unconstitutional, the petitioners quote dicta from two cases but disregard their
reasoning: Davis v. FEC, 554 U.S. 724, 738 (2008), and

26a
Riddle v. Hickenlooper, 742 F.3d 922, 929 (10th Cir.
2014).
The operative question in both cases was not simply
whether the challenged rule had a disparate effect, but
whether the difference was “justified by the primary
governmental interest proffered in its defense.” Davis,
554 U.S. at 738 (cleaned up); see Riddle, 742 F.3d at
928. In Davis, the Supreme Court held the Millionaire’s Amendment to the Bipartisan Campaign Reform
Act, which raised the contribution limit for a candidate
if a rival candidate expended more than a certain
amount of personal funds, could not withstand first
amendment scrutiny. 554 U.S. at 740-41. Although the
Court noted it has “never upheld the constitutionality
of a law that imposes different contribution limits for
candidates who are competing against each other,” id.
at 738, the Court invalidated the law not because of
the disparate effect upon the candidates, as the petitioners suggest, but because the Government’s interest
in “level[ing] electoral opportunities for candidates of
different personal wealth” is not a “legitimate government objective,” id. at 741:
Because § 319(a) imposes a substantial burden
on the exercise of the First Amendment right
to use personal funds for campaign speech,
that provision cannot stand unless it is justified by a compelling state interest. No such
justification is present here.
Id. at 740 (internal quotation omitted). In contrast,
the Court has repeatedly – and, indeed, in the same
case – recognized that the prevention of “corruption
and the appearance of corruption” can justify an abridgment of first amendment rights as long as the limits
are “closely drawn” to serve that important interest.
See id. at 737; McCutcheon, 572 U.S. at 191-92; FEC

27a
v. Nat’l Conservative Political Action Comm., 470 U.S.
at 496-97.
Riddle, in which the Tenth Circuit invalidated a
Colorado statute as a violation of the Equal Protection
Clause of the Fourteenth Amendment to the Constitution of the United States, 742 F.3d at 930, is likewise
no help to the petitioners. The state law at issue set a
lower limit on contributions to write-in candidates
($200) than to major-party candidates ($400). Id. at
924, 926. The court determined those limits were “illconceived” to advance the State’s claimed interest in
preventing corruption or its appearance: “The statutory classification might advance the State’s asserted
interest if write-ins, unaffiliated candidates, or minorparty nominees were more corruptible (or appeared
more corruptible) than their Republican or Democratic
opponents. But the Defendants have never made such
a suggestion.” Id. at 928. In stark contrast, the SEC,
in keeping with our observation in Wagner v. FEC, 793
F.3d at 22-23, persuasively counters that an elected
official who can influence the award of contracts is
indeed more susceptible to corruption than an opponent who cannot exert the same influence. Accordingly,
we agree with the SEC that any disparate effect from
Rule 2030 is a feature, not a flaw, of the narrow
tailoring of the Rule; hence the Rule is indeed closely
drawn to fit the important governmental interest
behind it.
III. Conclusion
For the reasons set out in Part II above, we hold the
NGYOP has standing to sue. On the merits, we
conclude the SEC (1) had the authority to adopt Rule
2030, (2) has justified doing so based upon both specific instances of quid pro quo corruption and upon the
inherent tendency toward an appearance of corruption

28a
arising from the targeted contributions of placement
agents; and (3) has shown the Rule does not violate the
First Amendment because it was closely drawn to
advance a sufficiently important governmental interest.
For those reasons the petition for review is
Denied.

29a
SENTELLE, Senior Circuit Judge, dissenting: I do
not join my colleagues in the judgment denying this
petition, not because I would grant the petition, but
because I would dispense with it by dismissal for want
of jurisdiction. As the Supreme Court reminds us, in
order to bring an action in federal court a petitioner
carries the burden of establishing that it has standing
to bring the action. See, e.g., Susan B. Anthony List
v. Driehaus, 573 U.S. 149, 158 (2014). To establish
standing, the petitioners would have to show (1) that
they have suffered an injury-in-fact; (2) that injury
was caused by the challenged conduct of the defendant
or respondent; and (3) that a favorable decision in the
litigation would likely provide redress for the injury.
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560–61
(1992). Petitioners have failed to meet the first and
most basic step of this three-part constitutional minimum, as well as the second. First, they have established no injury-in-fact.
The majority opinion sets forth the facts underlying
this litigation. I have no quarrel with their understanding of the facts, but reach a different legal
conclusion based on the facts before the court. I therefore will make reference to the facts only as necessary
to support my legal reasoning. As the majority acknowledges, neither petitioner’s conduct is regulated by the
respondent’s action, Rule 2030, and therefore they do
not claim the near-automatic standing of a regulated
entity. Petitioners assert instead that NYGOP has
established standing on the theory that an organization is “harmed if its contributors cease giving it
money.” See Taxation with Representation of Washington
v. Regan, 676 F.2d 715, 723 (D.C. Cir. 1982), rev’d on
other grounds, 461 U.S. 540 (1983). While this may be
a valid theory, it simply does not apply to this case.
Neither of petitioners has shown that any contributor

30a
has stopped contributing because of the action of the
Securities and Exchange Commission.
For a harm to meet the standard for the first
requirement of standing, it must be an actual or at
least “certainly impending” injury. Clapper v. Amnesty
Int’l USA, 568 U.S. 398, 401 (2013). The Supreme
Court has, as the majority notes, given a slightly
relaxed construction to the effect of the “certainly
impending” standard by recognizing that a petitioner
may cross the bar of the first standing requirement by
establishing a “substantial risk” that the anticipated
harm will occur. See Susan B. Anthony, 573 U.S. at
158. Nonetheless, the very language of the Supreme
Court in Susan B. Anthony establishes that for the
risk of an anticipated harm to substitute for actual
injury at the first step of the standing analysis, that
risk must not only exist but be substantial. Petitioners
have not carried the burden of establishing a substantial risk.
In an attempt to meet its weighty burden, NYGOP
has submitted the affidavit of Francis Calcagno, a
placement agent covered by Rule 2030. Calcagno
cannot attest to any injury-in-fact that has occurred to
the petitioners, but only swears that if it were not for
the SEC’s rule he would solicit contributions for the
NYGOP from his friends, family, and other contacts.
As the majority recognizes, he cannot attest with
certainty that any of his contacts would contribute to
petitioners in the absence of the rule.
Petitioners argue that the affidavit brings them
within the precedent of Taxation with Representation.
However, that case only held that standing is established for an organization “if its contributors cease
giving it money.” Calcagno’s affidavit establishes no
such facts. At most, it establishes that he believes that

31a
if it were not for the rule he would speak to unnamed
contacts, friends, and relatives on behalf of the petitioners, and that some of those unnamed contacts,
friends, or relatives could contribute. This is not the
establishment of a substantial risk. This is at most
speculation.
Many cases hold that speculation is not the same
as establishing injury-in-fact for purposes of standing.
“Although imminence is concededly a somewhat elastic
concept, it cannot be stretched beyond its purpose,
which is to ensure that the alleged injury is not too
speculative for Article III purposes—that the injury is
certainly impending.” Clapper, 568 U.S. at 409 (citing
Lujan, 504 U.S. at 565 n.2). Thus, we have repeatedly
reiterated that “threatened injury must be certainly
impending to constitute injury in fact, and [] allegations of possible future injury are not sufficient.” Id. at
398 (internal quotations omitted).
Petitioners’ argument for standing does not survive
examination as required by Clapper. Their “theory of
future injury is too speculative to satisfy the wellestablished requirement that threatened injury must
be ‘certainly impending.’” Id. at 401 (quoting Whitmore
v. Arkansas, 495 U.S. 149, 158 (1990)).
Even if the majority is correct in its holding that this
is a sufficient showing of injury, petitioners’ claims
founder on the second step of the standing analysis.
That is, even if petitioners have established that they
suffer injury-in-fact, they have not established that
the injury-in-fact is caused by the act of respondent.
Both this court and the Supreme Court have held that
when the establishment of injury depends on the
volitional act of a third party, the claimant has not
established standing as against the respondent.

32a
Again, I would follow the teachings of the Supreme
Court. In Clapper the Court stated, “[w]e decline to
abandon our usual reluctance to endorse standing
theories that rest on speculation about the decisions of
independent actors.” 568 U.S. at 414.
To summarize, as the Supreme Court did in Clapper,
petitioners “bear the burden of pleading and proving
concrete facts showing that the defendant’s actual action
has caused the substantial risk of harm. Plaintiffs cannot rely on speculation about ‘the unfettered choices
made by independent actors not before the court.’” Id.
at 414 n.5 (quoting Lujan, 504 U.S. at 562).
Therefore, rather than deny the petition, I would
dismiss it for want of jurisdiction.

33a
APPENDIX D
SECURITIES AND EXCHANGE COMMISSION
Federal Register/Vol. 80, No. 250/
Wednesday, December 30, 2015/Notices
[Release No. 34–76767;
File No. SR–FINRA–2015–056]
Self-Regulatory Organizations; Financial
Industry Regulatory Authority, Inc.;
Notice of Filing of a Proposed Rule Change
To Adopt FINRA Rule 2030 and
FINRA Rule 4580 To Establish
“Pay-To-Play” and Related Rules
December 24, 2015
Pursuant to Section 19(b)(1) of the Securities
Exchange Act of 1934 (“Act,” “Exchange Act” or
“SEA”)1 and Rule 19b–4 thereunder,2 notice is hereby
given that on December 16, 2015, Financial Industry
Regulatory Authority, Inc. filed with the Securities
and Exchange Commission (“SEC” or “Commission”)
the proposed rule change as described in Items I, II,
and III below, which Items have been substantially
prepared by FINRA. The Commission is publishing
this notice to solicit comments on the proposed rule
change from interested persons.
I. Self-Regulatory Organization’s Statement of
the Terms of Substance of the Proposed Rule
Change
FINRA is proposing to adopt FINRA Rules 2030
(Engaging in Distribution and Solicitation Activities
1

15 U.S.C. 78s(b)(1).

2

17 CFR 240.19b–4.

34a
with Government Entities)3 and 4580 (Books and
Records Requirements for Government Distribution
and Solicitation Activities) to establish “pay-to-play”4
and related rules that would regulate the activities of
member firms that engage in distribution or solicitation activities for compensation with government
entities on behalf of investment advisers.
The text of the proposed rule change is available on
FINRA’s Web site at http://www.finra.org, at the
principal office of FINRA and at the Commission’s
Public Reference Room.
II. Self-Regulatory Organization’s Statement of
the Purpose of, and Statutory Basis for, the
Proposed Rule Change
In its filing with the Commission, FINRA included
statements concerning the purpose of and basis for the
proposed rule change and discussed any comments it
received on the proposed rule change. The text of these
statements may be examined at the places specified
in Item IV below. FINRA has prepared summaries,
set forth in sections A, B, and C below, of the most
significant aspects of such statements.

3

FINRA published the proposed rule change as FINRA Rule
2390 in Regulatory Notice 14–50 (Nov. 2014) (“Regulatory Notice
14–50”). FINRA has determined that the proposed rule change is
more appropriately categorized under the FINRA Rule 2000
Series relating to “Duties and Conflicts.”
4

“Pay-to-play” practices typically involve a person making
cash or in-kind political contributions (or soliciting or coordinating others to make such contributions) to help finance the election
campaigns of state or local officials or bond ballot initiatives as a
quid pro quo for the receipt of government contracts.

35a
A. Self-Regulatory Organization’s Statement of
the Purpose of, and Statutory Basis for, the
Proposed Rule Change
1. Purpose
Background & Discussion
In July 2010, the SEC adopted Rule 206(4)–5 under
the Investment Advisers Act of 1940 (“Advisers Act”)
addressing pay-to-play practices by investment advisers
(the “SEC Pay-to-Play Rule”).5
The SEC Pay-to-Play Rule prohibits an investment
adviser from providing advisory services for compensation to a government entity for two years after the
adviser or its covered associates make a contribution
to an official of the government entity, unless an exception or exemption applies. In addition, it prohibits an
investment adviser from soliciting from others, or
coordinating, contributions to government entity officials
or payments to political parties where the adviser is
providing or seeking to provide investment advisory
services to a government entity.
The SEC Pay-to-Play Rule also prohibits an investment adviser and its covered associates from providing
or agreeing to provide, directly or indirectly, payment
to any person to solicit a government entity for investment advisory services on behalf of the investment
5

See Advisers Act Release No. 3043 (July 1, 2010), 75 FR 41018
(July 14, 2010) (Political Contributions by Certain Investment
Advisers) (“SEC Pay-to-Play Rule Adopting Release”). See also
Advisers Act Release No. 3221 (June 22, 2011), 76 FR 42950 (July
19, 2011) (Rules Implementing Amendments to the Investment
Advisers Act of 1940); Advisers Act Release No. 3418 (June 8,
2012), 77 FR 35263 (June 13, 2012) (Political Contributions by
Certain Investment Advisers; Ban on Third Party Solicitation;
Extension of Compliance Date).

36a
adviser unless the person is a “regulated person.” A
“regulated person” includes a member firm, provided
that: (a) FINRA rules prohibit member firms from engaging in distribution or solicitation activities if political
contributions have been made; and (b) the SEC finds,
by order, that such rules impose substantially equivalent or more stringent restrictions on member firms
than the SEC Pay-to-Play Rule imposes on investment
advisers and that such rules are consistent with the
objectives of the SEC Pay-to-Play Rule.6 The SEC
stated that this SEC ban on third-party solicitations
would be effective nine months after the compliance
date of a final rule adopted by the SEC by which
municipal advisors must register under the Exchange
Act.7 The SEC adopted such a final rule on September
20, 2013, with a compliance date of July 1, 2014.8
6

See SEC Pay-to-Play Rule 206(4)–5(f)(9). A “regulated person”
also includes SEC registered investment advisers and SECregistered municipal advisors, subject to specified conditions.
7

See Advisers Act Release No. 3418 (June 8, 2012), 77 FR
35263 (June 13, 2012).
8

See Exchange Act Release No. 70462 (Sept. 20, 2013), 78 FR
67468 (Nov. 12, 2013) (Registration of Municipal Advisors). On
June 25, 2015, the SEC issued notice of the compliance date for
its third party solicitation ban as July 31, 2015. See Advisers Act
Release No. 4129 (June 25, 2015), 80 FR 37538 (July 1, 2015). In
addition, staff of the Division of Investment Management added
Question I.4 to its Staff Responses to Questions About the Pay to
Play Rule stating, among other things, that until the later of (i)
the effective date of a FINRA pay-to-play rule or (ii) the effective
date of an MSRB pay-to-play rule, the Division of Investment
Management would not recommend enforcement action to the
Commission against an investment adviser or its covered associates under SEC Pay-to-Play Rule 206(4)–5(a)(2)(i) for the payment
to any person to solicit a government entity for investment
advisory services. See https://www.sec.gov/divisions/investme
nt/pay-to-play-faq.htm. See also infra Effective Date, for a more

37a
Based on this regulatory framework, FINRA is
proposing a pay-to-play rule, Rule 2030, modeled on
the SEC Pay-to-Play Rule that would impose substantially equivalent restrictions on member firms engaging
in distribution or solicitation activities to those the
SEC Pay-to-Play Rule imposes on investment advisers.
FINRA is also proposing rules that would impose recordkeeping requirements on member firms in connection
with political contributions.9
The proposed rules would establish a comprehensive
regime to regulate the activities of member firms that
engage in distribution or solicitation activities with
government entities on behalf of investment advisers.
FINRA believes that establishing requirements for
member firms that are modeled on the SEC’s Pay-toPlay-Rule is a more effective regulatory response to
the concerns the SEC identified in the SEC Pay-toPlay Rule Adopting Release regarding third-party
solicitations than an outright ban on such activity.
For example, in the SEC Pay-to-Play Rule Adopting
Release, the SEC stated that solicitors 10 or “placement
agents”11 have played a central role in actions that it

detailed discussion regarding the effective date of FINRA Rules
2030 and 4580.
9

In connection with the adoption of the SEC Pay-to-Play Rule,
the Commission also adopted recordkeeping requirements related
to political contributions by investment advisers and their covered
associates. See Advisers Act Rule 204–2(a)(18) and (h)(1).
10

“Solicitors” typically locate investment advisory clients on
behalf of an investment adviser. See Advisers Act Release No.
2910 (Aug. 3, 2009), 74 FR 39840, 39853 n.137 (Aug. 7, 2009)
(Political Contributions by Certain Investment Advisers).
11

“Placement agents” typically specialize in finding investors
(often institutional investors or high net worth investors) that are

38a
and other authorities have brought involving pay-toplay schemes.12 The SEC noted that in several instances,
advisers allegedly made significant payments to placement agents and other intermediaries to influence the
award of advisory contracts.13 The SEC also acknowledged the difficulties that advisers face in monitoring
or controlling the activities of their third-party solicitors.14 Accordingly, the proposed rules are intended to
enable member firms to continue to engage in distribution and solicitation activities with government entities
on behalf of investment advisers while at the same
time deterring member firms from engaging in pay-toplay practices.15
willing and able to invest in a private offering of securities on
behalf of the issuer of such privately offered securities. See id.
12

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41037 (discussing the reasons for proposing a ban on using third
parties to solicit government business).
13

See id.

14

See id.

15

In response to a request from SEC staff, FINRA previously
indicated its intent to prepare rules for consideration by the SEC
that would prohibit its member firms from soliciting advisory
business from a government entity on behalf of an adviser unless
the member firms comply with requirements prohibiting pay-toplay practices. See Letter from Andrew J. Donohue, Director,
Division of Investment Management, SEC, to Richard G. Ketchum,
Chairman & CEO, FINRA (Dec. 18, 2009), available at http://
www.sec.gov/comments/s7-18-09/s71809-252.pdf
(requesting
whether FINRA would consider adopting a rule preventing payto-play activities by registered broker-dealers acting as legitimate placement agents on behalf of investment advisers).
See also Letter from Richard G. Ketchum, Chairman & CEO,
FINRA, to Andrew J. Donohue, Director, Division of Investment
Management, SEC (Mar. 15, 2010), available at http://www.sec.
gov/comments/s7-18-09/s71809-260.pdf (stating “[w]e believe
that a regulatory scheme targeting improper pay to play practices

39a
FINRA sought comment on the proposed rule change
in Regulatory Notice 14–50.16 As discussed further in
Item II.C below, commenters were generally supportive of the proposed rule change, but also expressed
some concerns. In considering the comments, FINRA
has engaged in discussions with SEC staff. In addition,
as discussed in Item II.B below, FINRA has engaged
in an analysis of the potential economic impacts of the
proposed rule change. As a result, FINRA has revised
the proposed rule change as published in Regulatory
Notice 14–50. In particular, as discussed in more detail
in Item II.C, FINRA has determined not to propose a
disclosure requirement for government distribution
and solicitation activities at this time. In addition,
FINRA has determined not to propose a disgorgement
requirement as part of the pay-to-play rule. FINRA
believes that these revisions will more closely align
FINRA’s proposed pay-to-play rule with the SEC Payto-Play Rule and help reduce cost and compliance
burden concerns raised by commenters.
The proposed rule change, as revised in response to
comments on Regulatory Notice 14–50, is set forth in
further detail below.
Proposed Pay-to-Play Rule
A. Two-Year Time Outcourt of appeals
Proposed Rule 2030(a) would prohibit a covered
member from engaging in distribution17 or solicitaby broker-dealers acting on behalf of investment advisers is . . . a
viable solution to a ban on certain private placement agents
serving a legitimate function”).
16
17

See supra note 3.

As discussed in Item II.C below, FINRA is not eliminating
the term “distribution” from the proposed rule as suggested by
some commenters. Thus, subject to the limitations discussed in

40a
tion activities for compensation with a government
entity on behalf of an investment adviser that provides
or is seeking to provide investment advisory services
to such government entity within two years after a
contribution to an official of the government entity is
made by the covered member or a covered associate
(including a person who becomes a covered associate
within two years after the contribution is made). As
discussed in more detail below, the terms and scope of
this prohibition are modeled on the SEC Pay-to-Play
Rule.19
18

Item II.C, the proposed rule would apply to covered members
engaging in distribution (as well as solicitation) activities with
government entities. Specifically, the proposed rule would apply
to distribution activities involving unregistered pooled investment vehicles such as hedge funds, private equity funds, venture
capital funds, and collective investment trusts, and registered
pooled investment vehicles such as mutual funds, but only if
those registered pools are an investment option of a participantdirected plan or program of a government entity.
18

Consistent with the SEC Pay-to-Play Rule, proposed Rule
2030(g)(11) defines the term “solicit” to mean: “(A) With respect
to investment advisory services, to communicate, directly or
indirectly, for the purpose of obtaining or retaining a client for, or
referring a client to, an investment adviser; and (B) With respect
to a contribution or payment, to communicate, directly or indirectly, for the purpose of obtaining or arranging a contribution or
payment.” The determination of whether a particular communication would be a solicitation would depend on the facts and
circumstances relating to such communication. As a general proposition, any communication made under circumstances reasonably
calculated to obtain or retain an advisory client would be considered a solicitation unless the circumstances otherwise indicate
that the communication does not have the purpose of obtaining
or retaining an advisory client. See also infra note 40.
19

See SEC Pay-to-Play Rule 206(4)–5(a)(1).

41a
The proposed rule would not ban or limit the amount
of political contributions a covered member or its
covered associates could make. Instead, it would impose
a two-year time out on engaging in distribution or
solicitation activities for compensation with a government entity on behalf of an investment adviser after
the covered member or its covered associates make a
contribution to an official of the government entity.
Consistent with the two-year time out in the SEC Payto-Play Rule, the two-year time out in the proposed
rule is intended to discourage covered members from
participating in pay-to-play practices by requiring a
cooling-off period during which the effects of a political
contribution on the selection process can be expected
to dissipate.
1. Covered Members
Proposed Rule 2030(g)(4) defines a “covered member”
to mean “any member except when that member is
engaging in activities that would cause the member to
be a municipal advisor as defined in Exchange Act
Section 15B(e)(4), SEA Rule 15Ba1–1(d)(1) through (4)
and other rules and regulations thereunder.” As noted
above, the SEC Pay-to-Play Rule includes within its
definition of “regulated person” SEC-registered municipal advisors, subject to specified conditions.20 Specifically,
the SEC Pay-to-Play Rule prohibits an investment
adviser from providing or agreeing to provide, directly
or indirectly, payment to an SEC-registered municipal
advisor unless the municipal advisor is subject to a
Municipal Securities Rulemaking Board (“MSRB”)
pay-to-play rule.21
20
21

See supra note 6.

See SEC Pay-to-Play Rule 206(4)–5(a)(2)(i)(A) and 206(4)–
5(f)(9).

42a
A member firm that solicits a government entity
for investment advisory services on behalf of an
unaffiliated investment adviser may be required to
register with the SEC as a municipal advisor as a
result of such activity.22 Under such circumstances,
MSRB rules applicable to municipal advisors, including any pay-to-play rule adopted by the MSRB, would
apply to the member firm.23 On the other hand, if the
member firm solicits a government entity on behalf of
an affiliated investment adviser, such activity would
not cause the firm to be a municipal advisor. Under
such circumstances, the member firm would be a
22

See Exchange Act Section 15B(e)(9) and Rule 15Ba1–1(n)
thereunder (defining “solicitation of a municipal entity or obligated person” to mean “a direct or indirect communication with a
municipal entity or obligated person made by a person, for direct
or indirect compensation, on behalf of a broker, dealer, municipal
securities dealer, municipal advisor, or investment adviser . . .
that does not control, is not controlled by, or is not under common
control with the person undertaking such solicitation for the
purpose of obtaining or retaining an engagement by a municipal
entity or obligated person of a broker, dealer, municipal securities
dealer, or municipal advisor for or in connection with municipal
financial products, the issuance of municipal securities, or of an
investment adviser to provide investment advisory services to or
on behalf of a municipal entity.”)
23

On August 18, 2014, the MSRB issued a Regulatory Notice
requesting comment on draft amendments to MSRB Rule G–37,
on political contributions made by brokers, dealers and municipal
securities dealers and prohibitions on municipal securities business, to extend the rule to cover municipal advisors. See MSRB
Regulatory Notice 2014–15 (Aug. 2014). MSRB Rule G–37 was
approved by the Commission in 1994 and, since that time, has
prohibited brokers, dealers and municipal securities dealers
engaging in municipal securities business from participating in
pay-to-play practices. See Exchange Act Release No. 33868 (Apr.
7, 1994), 59 FR 17621 (Apr. 13, 1994) (Order Approving File No.
SR–MSRB–94–2).

43a
“covered member” subject to the requirements of
proposed Rule 2030.24
2. Investment Advisers
The proposed rule would apply to covered members
acting on behalf of any investment adviser registered
(or required to be registered) with the SEC, or unregistered in reliance on the exemption available under
Section 203(b)(3) of the Advisers Act for foreign private advisers, or that is an exempt reporting adviser
under Advisers Act Rule 204–4(a).25 Thus, it would not
apply to member firms acting on behalf of advisers
that are registered with state securities authorities
instead of the SEC, or advisers that are unregistered
in reliance on exemptions other than Section 203(b)(3)
of the Advisers Act. The proposed rule’s definition of
“investment adviser” is consistent with the definition
of “investment adviser” in the SEC Pay-to-Play Rule.26
3. Official of a Government Entity
An official of a government entity would include
an incumbent, candidate or successful candidate for
24

FINRA notes that a person that is registered under the
Exchange Act as a broker-dealer and municipal advisor, and
under the Advisers Act as an investment adviser could potentially be a “regulated person” for purposes of the SEC Pay-to-Play
Rule. Such a regulated person would be subject to the rules that
apply to the services the regulated person is performing. See also
supra note 23 (noting that brokers, dealers and municipal securities dealers engaging in municipal securities business are subject
to MSRB Rule G–37).
25
26

See proposed Rule 2030(g)(7).

See SEC Pay-to-Play Rule 206(4)–5(a)(1). FINRA notes that,
consistent with the SEC Pay-to-Play Rule, the proposed rule
would not apply to state-registered investment advisers as few of
these smaller firms manage public pension plans or other similar
funds. See also infra note 98 and accompanying text.

44a
elective office of a government entity if the office is
directly or indirectly responsible for, or can influence
the outcome of, the hiring of an investment adviser or
has authority to appoint any person who is directly or
indirectly responsible for, or can influence the outcome
of, the hiring of an investment adviser.27 Government
entities would include all state and local governments,
their agencies and instrumentalities, and all public
pension plans and other collective government funds,
including participant-directed plans such as 403(b),28
457,29 and 529 plans.30
27

Consistent with the SEC Pay-to-Play Rule, proposed Rule
2030(g)(8) defines an “official” to mean “any person (including any
election committee for the person) who was, at the time of the
contribution, an incumbent, candidate or successful candidate for
elective office of a government entity, if the office: (A) Is directly
or indirectly responsible for, or can influence the outcome of,
the hiring of an investment adviser by a government entity; or
(B) Has authority to appoint any person who is directly or
indirectly responsible for, or can influence the outcome of, the
hiring of an investment adviser by a government entity.”
28

A 403(b) plan is a tax-deferred employee benefit retirement
plan established under Section 403(b) of the Internal Revenue
Code of 1986 (26 U.S.C. 403(b)).
29

A 457 plan is a tax-deferred employee benefit retirement
plan established under Section 457 of the Internal Revenue Code
of 1986 (26 U.S.C. 457).
30

A 529 plan is a “qualified tuition plan” established under
Section 529 of the Internal Revenue Code of 1986 (26 U.S.C. 529).
Consistent with the SEC Pay-to-Play Rule, proposed Rule 2030(g)(6)
defines a “government entity” to mean “any state or political
subdivision of a state, including: (A) Any agency, authority or
instrumentality of the state or political subdivision; (B) A pool of
assets sponsored or established by the state or political subdivision or any agency, authority or instrumentality thereof, including
but not limited to a “defined benefit plan” as defined in Section
414(j) of the Internal Revenue Code, or a state general fund;
(C) A plan or program of a government entity; and (D) Officers,

45a
Thus, the two-year time out would be triggered by
contributions, not only to elected officials who have
legal authority to hire the adviser, but also to elected
officials (such as persons with appointment authority)
who can influence the hiring of the adviser. As noted
in the SEC Pay-to-Play Rule Adopting Release, a person appointed by an elected official is likely to be
subject to that official’s influences and recommendations. It is the scope of authority of the particular office
of an official, not the influence actually exercised by
the individual that would determine whether the
individual has influence over the awarding of an
investment advisory contract under the definition.31
4. Contributions
The proposed rule’s time out provisions would be
triggered by contributions made by a covered member
or any of its covered associates. A contribution would
include a gift, subscription, loan, advance, deposit of
money, or anything of value made for the purpose of
influencing the election for a federal, state or local
office, including any payments for debts incurred in
such an election. It would also include transition or
inaugural expenses incurred by a successful candidate
for state or local office.32

agents or employees of the state or political subdivision or any
agency, authority or instrumentality thereof, acting in their official
capacity.”
31

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41029 (discussing the terms “official” and “government entity”).
32

Consistent with the SEC Pay-to-Play Rule, proposed Rule
2030(g)(1) defines a “contribution” to mean “any gift, subscription, loan, advance, or deposit of money or anything of value made
for: (A) The purpose of influencing any election for federal, state
or local office; (B) Payment of debt incurred in connection with

46a
Consistent with the SEC Pay-to-Play Rule, FINRA
would not consider a donation of time by an individual
to be a contribution, provided the covered member has
not solicited the individual’s efforts and the covered
member’s resources, such as office space and telephones, are not used.33 Similarly, FINRA would not
consider a charitable donation made by a covered member to an organization that qualifies for an exemption
from federal taxation under the Internal Revenue
Code,34 or its equivalent in a foreign jurisdiction, at the
request of an official of a government entity to be a
contribution for purposes of the proposed rule.35
5. Covered Associates
As stated in the SEC Pay-to-Play Rule Adopting
Release, contributions made to influence the selection
process are typically made not by the firm itself, but
any such election; or (C) Transition or inaugural expenses of the
successful candidate for state or local office.”
33

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41030. The SEC also noted that a covered associate’s donation of
his or her time generally would not be viewed as a contribution if
such volunteering were to occur during non-work hours, if the
covered associate were using vacation time, or if the adviser is
not otherwise paying the employee’s salary (e.g., an unpaid leave
of absence). See SEC Pay-to-Play Rule Adopting Release, 75 FR
41018, 41030 n.157. FINRA would take a similar position in
interpreting the proposed rule.
34

Section 501(c)(3) of the Internal Revenue Code (26 U.S.C.
501(c)(3)) contains a list of charitable organizations that are
exempt from Federal income tax.
35

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41030 (discussing the scope of the term “contribution” under the
SEC Pay-to-Play Rule). Note, however, proposed Rule 2030(e)
providing that it shall be a violation of Rule 2030 for any covered
member or any of its covered associates to do anything indirectly
that, if done directly, would result in a violation of the rule.

47a
by officers and employees of the firm who have a direct
economic stake in the business relationship with the
government client.36 Accordingly, consistent with the
SEC Pay-to-Play Rule, under the proposed rule, contributions by each of these persons, which the proposed
rule describes as “covered associates,” would trigger
the two-year time out.37
Contributions by an executive officer of a covered
member would trigger the two-year time out. As discussed in Item II.C below, commenters requested that
FINRA define the term “executive officer” for purposes
of the proposed pay-to-play rule. Accordingly, consistent with the SEC Pay-to-Play Rule, proposed Rule
2030(g)(5) defines an “executive officer of a covered
member” to mean: “(A) The president; (B) Any vice
president in charge of a principal business unit,
division or function (such as sales, administration or
finance); (C) Any other officer of the covered member
who performs a policy-making function; or (D) Any
other person who performs similar policy-making
functions for the covered member.” Whether a person
is an executive officer would depend on his or her
function or activities and not his or her title. For
36

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41031.
37

Consistent with the SEC Pay-to-Play Rule, proposed Rule
2030(g)(2) defines a “covered associate” to mean: “(A) Any general
partner, managing member or executive officer of a covered member, or other individual with a similar status or function; (B) Any
associated person of a covered member who engages in distribution or solicitation activities with a government entity for such
covered member; (C) Any associated person of a covered member
who supervises, directly or indirectly, the government entity
distribution or solicitation activities of a person in subparagraph
(B) above; and (D) Any political action committee controlled by a
covered member or a covered associate.”

48a
example, an officer who is a chief executive of a
covered member but whose title does not include
“president” would nonetheless be an executive officer
for purposes of the proposed rule.
In addition, a covered associate would include a
political action committee, or PAC, controlled by the
covered member or any of its covered associates as a
PAC is often used to make political contributions.38
Under the proposed rule, FINRA would consider a
covered member or its covered associates to have
“control” over a PAC if the covered member or covered
associate has the ability to direct or cause the direction
of governance or operations of the PAC.
6. “Look Back”
Consistent with the SEC Pay-to-Play Rule, the
proposed rule would attribute to a covered member
contributions made by a person within two years (or,
in some cases, six months) of becoming a covered
associate. This “look back” would apply to any person
who becomes a covered associate, including a current
employee who has been transferred or promoted to a
position covered by the proposed rule. A person would
become a “covered associate” for purposes of the proposed rule’s “look back” provision at the time he or she
is hired or promoted to a position that meets the
definition of a “covered associate.”
Thus, when an employee becomes a covered associate, the covered member must “look back” in time to
that employee’s contributions to determine whether
the time out applies to the covered member. If, for
example, the contributions were made more than two
years (or, pursuant to the exception described below
38

See id.

49a
for new covered associates, six months) prior to the
employee becoming a covered associate, the time out
has run. If the contribution was made less than two
years (or six months, as applicable) from the time the
person becomes a covered associate, the proposed rule
would prohibit the covered member that hires or promotes the contributing covered associate from receiving
compensation for engaging in distribution or solicitation activities on behalf of an investment adviser from
the hiring or promotion date until the two-year period
has run.
In no case would the prohibition imposed be longer
than two years from the date the covered associate
made the contribution. Thus, if, for example, the
covered associate becomes employed (and engages in
solicitation activities) one year and six months after
the contribution was made, the covered member would
be subject to the proposed rule’s prohibition for the
remaining six months of the two-year period. This
“look back” provision, which is consistent with the
SEC Pay-to-Play Rule, is designed to prevent covered
members from circumventing the rule by influencing
the selection process by hiring persons who have made
political contributions.39
39

Similarly, consistent with the SEC Pay-to-Play Rule, to
prevent covered members from channeling contributions through
departing employees, covered members must “look forward” with
respect to covered associates who cease to qualify as covered
associates or leave the firm. The covered associate’s employer at
the time of the contribution would be subject to the proposed
rule’s prohibition for the entire two-year period, regardless of
whether the covered associate remains a covered associate or
remains employed by the covered member. Thus, dismissing a
covered associate would not relieve the covered member from the
two-year time out. See SEC Pay-to-Play Rule Adopting Release,
75 FR 41018, 41033 (discussing the “look back” in that rule).

50a
B. Prohibition on Soliciting and Coordinating
Contributions
Proposed Rule 2030(b) would prohibit a covered member or covered associate from coordinating or soliciting40
any person or PAC to make any: (1) Contribution to an
official of a government entity in respect of which the
covered member is engaging in, or seeking to engage in,
distribution or solicitation activities on behalf of an

40

Proposed Rule 2030(g)(11)(B) defines the term “solicit” with
respect to a contribution or payment as “to communicate, directly
or indirectly, for the purpose of obtaining or arranging a contribution or payment.” This provision is consistent with a similar
provision in the SEC Pay-to-Play Rule. See SEC Pay-to-Play Rule
206(4)–5(f)(10)(ii). Consistent with the SEC Pay-to-Play Rule,
whether a particular activity involves a solicitation or coordination of a contribution or payment for purposes of the proposed
rule would depend on the facts and circumstances. A covered
member that consents to the use of its name on fundraising
literature for a candidate would be soliciting contributions for
that candidate. Similarly, a covered member that sponsors a
meeting or conference which features a government official as an
attendee or guest speaker and which involves fundraising for the
government official would be soliciting contributions for that
government official. Expenses incurred by the covered member
for hosting the event would be a contribution by the covered
member, thereby triggering the two-year ban on the covered
member receiving compensation for engaging in distribution or
solicitation activities with the government entity over which that
official has influence. Such expenses may include, but are not
limited to, the cost of the facility, the cost of refreshments, any
expenses paid for administrative staff, and the payment or reimbursement of any of the government official’s expenses for the
event. The de minimis exception under proposed Rule 2030(c)(1)
would not be available with respect to these expenses because
they would have been incurred by the firm, not by a natural
person. See also SEC Pay-to-Play Rule Adopting Release, 75
FR 41018, 41043 n.328, 329 (discussing the term “solicit” with
respect to a contribution or payment).

51a
investment adviser; or (2) payment41 to a political
party of a state or locality of a government entity with
which the covered member is engaging in, or seeking
to engage in, distribution or solicitation activities on
behalf of an investment adviser. This provision is
modeled on a similar provision in the SEC Pay-to-Play
Rule 42 and is intended to prevent covered members or
covered associates from circumventing the proposed
rule’s prohibition on direct contributions to certain
elected officials such as by “bundling” a large number
of small employee contributions to influence an election, or making contributions (or payments) indirectly
through a state or local political party.43
In addition, as discussed in Item II.C below, in
response to a request for clarification from a commenter regarding the application of this provision of
the proposed rule, FINRA notes that, consistent with
41

Consistent with the SEC Pay-to-Play Rule, proposed Rule
2030(g)(9) defines the term “payment” to mean “any gift, subscription, loan, advance or deposit of money or anything of value.”
This definition is similar to the definition of “contribution,” but is
broader, in the sense that it does not include limitations on the
purposes for which such money is given (e.g., it does not have to
be made for the purpose of influencing an election). Consistent
with the SEC Pay-to-Play Rule FINRA is including the broader
term “payments,” as opposed to “contributions,” to deter a covered
member from circumventing the proposed rule’s prohibitions by
coordinating indirect contributions to government officials by
making payments to political parties. See SEC Pay-to-Play Rule
Adopting Release, 75 FR 41018, 41043 n.331 and accompanying
text (discussing a similar approach with respect to restrictions on
soliciting and coordinating contributions and payments).
42
43

See SEC Pay-to-Play Rule 206(4)–5(a)(2).

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41043 (discussing restrictions on soliciting and coordinating
contributions and payments).

52a
guidance provided by the SEC in connection with SEC
Pay-to-Play Rule 206(4)–5(a)(2), a direct contribution
to a political party by a covered member or its covered
associates would not violate the proposed rule unless
the contribution was a means for the covered member
to do indirectly what the rule would prohibit if done
directly (for example, if the contribution was earmarked
or known to be provided for the benefit of a particular
government official).
C. Direct or Indirect Contributions or Solicitations
Proposed Rule 2030(e) further provides that it shall
be a violation of Rule 2030 for any covered member or
any of its covered associates to do anything indirectly
that, if done directly, would result in a violation of the
rule. This provision is consistent with a similar provision in the SEC Pay-to-Play Rule44 and would prevent
a covered member or its covered associates from funneling payments through third parties, including, for
example, consultants, attorneys, family members, friends
or companies affiliated with the covered member as a
means to circumvent the proposed rule.45 In addition,
as discussed in Item II.C below, in response to a
request for clarification from a commenter regarding
44
45

See SEC Pay-to-Play Rule 206(4)–5(d).

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41044 (discussing direct and indirect contributions or solicitations). This provision would also cover, for example, situations in
which contributions by a covered member are made, directed or
funded through a third party with an expectation that, as a result
of the contributions, another contribution is likely to be made by
a third party to “an official of the government entity,” for the
benefit of the covered member. Contributions made through
gatekeepers thus would be considered to be made “indirectly” for
purposes of the rule.

53a
the application of this provision of the proposed rule,
FINRA notes that, consistent with guidance provided
by the SEC in connection with SEC Pay-to-Play Rule
206(4)–5(d), proposed Rule 2030(e) would require a
showing of intent to circumvent the rule in order for
such persons to trigger the two-year time out.
D. Covered Investment Pools
Proposed Rule 2030(d)(1) provides that a covered
member that engages in distribution or solicitation
activities with a government entity on behalf of a covered investment pool46 in which a government entity
invests or is solicited to invest shall be treated as
though the covered member was engaging in or seeking to engage in distribution or solicitation activities
with the government entity on behalf of the investment adviser to the covered investment pool directly.47
46

Consistent with the SEC Pay-to-Play Rule, proposed Rule
2030(g)(3) defines a “covered investment pool” to mean: “(A) Any
investment company registered under the Investment Company
Act that is an investment option of a plan or program of a government entity, or (B) Any company that would be an investment
company under Section 3(a) of the Investment Company Act but
for the exclusion provided from that definition by either Section
3(c)(1), 3(c)(7) or 3(c)(11) of that Act.” Thus, the definition
includes such unregistered pooled investment vehicles as hedge
funds, private equity funds, venture capital funds, and collective
investment trusts. It also includes registered pooled investment
vehicles, such as mutual funds, but only if those registered pools
are an investment option of a participant-directed plan or
program of a government entity.
47

Consistent with the SEC Pay-to-Play Rule, under the proposed rule, if a government entity is an investor in a covered
investment pool at the time a contribution triggering a two-year
time out is made, the covered member must forgo any compensation related to the assets invested or committed by the government
entity in the covered investment pool. See SEC Pay-to-Play Rule
Adopting Release, 75 FR 41018, 41047.

54a
Proposed Rule 2030(d)(2) provides that an investment
adviser to a covered investment pool in which a government entity invests or is solicited to invest shall
be treated as though that investment adviser were
providing or seeking to provide investment advisory
services directly to the government entity.48
Proposed Rule 2030(d) is modeled on a similar
prohibition in the SEC Pay-to-Play Rule 49 and would
apply the prohibitions of the proposed rule to situations in which an investment adviser manages assets
of a government entity through a hedge fund or other
type of pooled investment vehicle. Thus, the provision
would extend the protection of the proposed rule to
public pension plans that access the services of investment advisers through hedge funds and other types of
pooled investment vehicles sponsored or advised by
investment advisers as a funding vehicle or investment option in a government-sponsored plan, such as
a “529 plan.”50
E. Exceptions and Exemptions
As discussed in more detail below, the proposed rule
contains exceptions that are modeled on similar exceptions in the SEC Pay-to-Play Rule for de minimis

48

As discussed in Item II.C below, FINRA has added proposed
Rule 2030(d)(2) in response to comments on Regulatory Notice
14–50 to clarify, for purposes of the proposed rule, the relationship between an investment adviser to a covered investment pool
and a government entity that invests in the covered investment
pool.
49
50

See SEC Pay-to-Play Rule 206(4)–5(c).

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41044 (discussing the applicability of the SEC Pay-to-Play Rule
to covered investment pools).

55a
contributions, new covered associates and returned
contributions.51
In addition, proposed Rule 2030(f) includes an exemptive provision for covered members that is modeled on
the exemptive provision in the SEC Pay-to-Play Rule52
that would allow covered members to apply to FINRA
for an exemption from the proposed rule’s two-year
time out. Under this provision, FINRA would be able
to exempt covered members from the proposed rule’s
time out requirement where the covered member discovers contributions that would trigger the compensation
ban after they have been made, and when imposition
of the prohibition would be unnecessary to achieve the
rule’s intended purpose. This provision would provide
covered members with an additional avenue by which
to seek to cure the consequences of an inadvertent
violation by the covered member or its covered associates that falls outside the limits of one of the proposed
rule’s exceptions. In determining whether to grant
an exemption, FINRA would take into account the
varying facts and circumstances that each application
presents.
1. De Minimis Contributions
Proposed Rule 2030(c)(1) would except from the
rule’s restrictions contributions made by a covered
associate who is a natural person to government entity
officials for whom the covered associate was entitled to
vote 53 at the time of the contributions, provided the
51

See SEC Pay-to-Play Rule 206(4)–5(b).

52

See SEC Pay-to-Play Rule 206(4)–5(e).

53

Consistent with the SEC Pay-to-Play Rule, for purposes of
proposed Rule 2030(c)(1), a person would be “entitled to vote” for
an official if the person’s principal residence is in the locality in
which the official seeks election. For example, if a government

56a
contributions do not exceed $350 in the aggregate to
any one official per election. If the covered associate
was not entitled to vote for the official at the time of
the contribution, the contribution must not exceed
$150 in the aggregate per election. Consistent with the
SEC Pay-to-Play Rule, under both exceptions, primary
and general elections would be considered separate
elections.54 These exceptions are based on the theory
that such contributions are typically made without the
intent or ability to influence the selection process of
the investment adviser.
2. New Covered Associates
Proposed Rule 2030(c)(2) would provide an exception from the proposed rule’s restrictions for covered
members if a natural person made a contribution more
than six months prior to becoming a covered associate
of the covered member unless the covered associate
engages in, or seeks to engage in, distribution or solicitation activities with a government entity on behalf of
the covered member. This provision is consistent with
a similar provision in the SEC Pay-to-Play Rule.55 As
official is a state governor running for re-election, any covered
associate who resides in that state may make a de minimis
contribution to the official without causing a ban on the covered
member being compensated for engaging in distribution or solicitation activities with that government entity on behalf of an
investment adviser. If the government official is running for
president, any covered associate in the country would be able to
contribute the de minimis amount to the official’s presidential
campaign. See SEC Pay-to-Play Rule Adopting Release, 75 FR
41018, 41034 (discussing the applicability in the SEC Pay-to-Play
Rule of the exception for de minimis contributions).
54

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41034.
55

See SEC Pay-to-Play Rule 206(4)–5(b)(2).

57a
stated in the SEC Pay-to-Play Rule Adopting Release,
the potential link between obtaining advisory business
and contributions made by an individual prior to his
or her becoming a covered associate who is uninvolved
in distribution or solicitation activities is likely more
attenuated than for a covered associate who engages
in distribution or solicitation activities and, therefore,
should be subject to a shorter look-back period.56 This
exception is also intended to balance the need for
covered members to be able to make hiring decisions
with the need to protect against individuals marketing
to prospective employers their connections to, or influence over, government entities the employer might be
seeking as clients.57
3. Certain Returned Contributions
Proposed Rule 2030(c)(3) would provide an exception from the proposed rule’s restrictions for covered
members if the restriction is due to a contribution
made by a covered associate and: (1) The covered member discovered the contribution within four months of
it being made; (2) the contribution was less than $350;
and (3) the contribution is returned within 60 days of
the discovery of the contribution by the covered member.
Consistent with the SEC Pay-to-Play Rule, this
exception would allow a covered member to cure the
consequences of an inadvertent political contribution
to an official for whom the covered associate is not
entitled to vote. As the SEC stated in the SEC Pay-toPlay Rule Adopting Release, the exception is limited
to the types of contributions that are less likely to raise
56

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41034 (discussing the applicability of the “look back” in the SEC
Pay-to-Play Rule).
57

See id.

58a
pay-to-play concerns. The prompt return of the
contribution provides an indication that the contribution would not affect a government entity official’s
decision to award business. The 60-day limit is designed
to give contributors sufficient time to seek the contribution’s return, but still require that they do so in a
timely manner. In addition, the relatively small amount
of the contribution, in conjunction with the other
conditions of the exception, suggests that the contribution was unlikely to have been made for the purpose of
influencing the selection process. Repeated triggering
contributions suggest otherwise. Thus, the proposed
rule would provide that covered members with 150 or
fewer registered representatives would be able to rely
on this exception no more than two times per calendar
year. All other covered members would be permitted
to rely on this exception no more than three times per
calendar year. In addition, a covered member would
not be able to rely on an exception more than once with
respect to contributions by the same covered associate
regardless of the time period. These limitations are
consistent with similar provisions in the SEC Pay-toPlay Rule.59
58

Proposed Recordkeeping Requirements
Proposed Rule 4580 would require covered members
that engage in distribution or solicitation activities
with a government entity on behalf of any investment
adviser that provides or is seeking to provide investment
58

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41035.
59

See SEC Pay-to-Play Rule 206(4)–5(b)(3). The SEC Pay-toPlay Rule includes different allowances for larger and smaller
investment advisers based on the number of employees they
report on Form ADV.

59a
advisory services to such government entity to maintain books and records that would allow FINRA to
examine for compliance with its pay-to-play rule. This
provision is consistent with similar recordkeeping
requirements imposed on investment advisers in
connection with the SEC Pay-to-Play Rule.60 The
proposed rule would require covered members to
maintain a list or other record of:
• The names, titles and business and residence
addresses of all covered associates;
• the name and business address of each investment adviser on behalf of which the covered
member has engaged in distribution or solicitation activities with a government entity within
the past five years (but not prior to the rule’s
effective date);
• the name and business address of all government entities with which the covered member
has engaged in distribution or solicitation activities for compensation61 on behalf of an investment adviser, or which are or were investors in
any covered investment pool on behalf of which
the covered member has engaged in distribution
or solicitation activities with the government
entity on behalf of the investment adviser to the
covered investment pool, within the past five
years (but not prior to the rule’s effective date);
and
60
61

See Advisers Act Rule 204–2(a)(18) and (h)(1).

As discussed in Item II.C below, FINRA has added “for
compensation” to proposed Rule 4580(a)(3) to clarify that, consistent with the SEC recordkeeping requirements, FINRA’s proposed
recordkeeping requirements would apply only to government
entities that become clients.

60a
• all direct or indirect contributions made by the
covered member or any of its covered associates
to an official of a government entity, or direct or
indirect payments to a political party of a state
or political subdivision thereof, or to a PAC.
The proposed rule would require that the direct
and indirect contributions or payments made by the
covered member or any of its covered associates be
listed in chronological order and indicate the name
and title of each contributor and each recipient of the
contribution or payment, as well as the amount and
date of each contribution or payment, and whether the
contribution was the subject of the exception for
returned contributions in proposed Rule 2030.
Effective Date
If the Commission approves the proposed rule
change, FINRA will announce the effective date of the
proposed rule change in a Regulatory Notice to be
published no later than 60 days following Commission
approval. FINRA intends to establish an effective date
that is no sooner than 180 days following publication
of the Regulatory Notice announcing Commission
approval of the proposed rule change, and no later
than 365 days following Commission approval of the
proposed rule change. This transition period will provide member firms with time to identify their covered
associates and government entity clients and to
modify their compliance programs to address new
obligations under the rules.
Proposed Rule 2030(a)’s prohibition on engaging in
distribution or solicitation activities for compensation
with a government entity on behalf of an investment
adviser that provides or is seeking to provide investment advisory services to such government entity

61a
within two years after a contribution is made to the
government entity, will not be triggered by contributions made prior to the effective date. Similarly, the
prohibition will not apply to contributions made prior
to the effective date by new covered associates to
which the two years or, as applicable, six months “look
back” applies.
As of the effective date, member firms must begin
to maintain books and records in compliance with
proposed Rule 4580. Member firms will not be required,
however, to look back for the five years prior to
the effective date of the proposed rule to identify
investment advisers and government entity clients in
accordance with proposed Rule 4580(a)(2) and (a)(3).
2. Statutory Basis
FINRA believes that the proposed rule change is
consistent with the provisions of Section 15A(b)(6) of
the Act,62 which requires, among other things, that
FINRA rules must be designed to prevent fraudulent
and manipulative acts and practices, to promote just
and equitable principles of trade, and, in general, to
protect investors and the public interest.
FINRA believes that the proposed rule change
establishes a comprehensive regime to allow member
firms to continue to engage in distribution or solicitation activities for compensation with government
entities on behalf of investment advisers following
the compliance date for the SEC’s ban on third-party
solicitations while deterring member firms from engaging in pay-to-play practices. In the absence of a FINRA
pay-to-play rule, covered members will be prohibited
from receiving compensation for engaging in distribution
62

15 U.S.C. 78o–3(b)(6).

62a
and solicitation activities with government entities
on behalf of investment advisers. FINRA believes
that establishing a pay-to-play rule modeled on the
SEC Pay-to-Play Rule is a more effective regulatory
response to the concerns identified by the SEC regarding third-party solicitations than an outright ban on
such activity. At the same time, FINRA believes that
the proposed two-year time out will deter member
firms from engaging in pay-to-play practices and,
thereby, protect investors and the public interest.
B. Self-Regulatory Organization’s Statement on
Burden on Competition
FINRA does not believe that the proposed rule
change will result in any burden on competition that
is not necessary or appropriate in furtherance of the
purposes of the Act.
As discussed above, FINRA published Regulatory
Notice 14–50 to request comment on the proposed rule
change.63 Regulatory Notice 14–50 included an analysis of the economic impacts of the proposed rule change
and requested comment regarding the analysis. The
assessment below includes a summary of the comments received regarding the economic impact of the
proposed rule change as set forth in Regulatory Notice
14–50 as well as FINRA’s responses to the comments.64
Economic Impact Assessment
A. Need for the Rule
As discussed above, the SEC Pay-to-Play Rule prohibits an investment adviser and its covered associates
63
64

See supra note 3.

All references to commenters are to comment letters as listed
in Exhibit 2b and as further discussed in Item II.C of this filing.

63a
from providing or agreeing to provide, directly or
indirectly, payment to any person to solicit a government entity for investment advisory services on behalf
of the investment adviser unless the person is a
“regulated person.” A “regulated person” includes a
member firm, provided that: (a) FINRA rules prohibit
member firms from engaging in distribution or solicitation activities if political contributions have been
made; and (b) the SEC finds, by order, that such rules
impose substantially equivalent or more stringent
restrictions on member firms than the SEC Pay-toPlay Rule imposes on investment advisers and that
such rules are consistent with the objectives of the
SEC Pay-to-Play Rule. Thus, FINRA must propose its
own pay-to-play rule to enable member firms to continue to engage in distribution and solicitation activities
for compensation with government entities on behalf
of investment advisers.
B. Regulatory Objective
The proposed rule change would establish a comprehensive regime to regulate the activities of member
firms that engage in distribution or solicitation activities with government entities on behalf of investment
advisers. FINRA aims to enable member firms to
continue to engage in such activities for compensation
while at the same time deterring member firms from
engaging in pay-to-play practices.
C. Economic Baseline
The baseline used to evaluate the impact of the
proposed rule change is the regulatory framework
under the SEC Pay-to-Play Rule and the MSRB payto-play rules.65 In the absence of the proposed rules,
65

See supra note 23 (discussing MSRB Rule G–37).

64a
some member firms currently engaging in distribution
or solicitation activities with government entities on
behalf of investment advisers may not be able to
receive payments from investment advisers for engaging in such activities. Since a “regulated person” also
includes SEC-registered investment advisers and SECregistered municipal advisors that would be subject to
MSRB pay-to-play rules, member firms dually-registered
with the SEC as investment advisers or municipal
advisors may be able to engage in distribution or solicitation activities for compensation with government
entities on behalf of investment advisers.66
The member firms that would have to cease their
distribution or solicitation activities for compensation
with government entities on behalf of investment
advisers may bear direct losses as a result of the loss
of this business. In addition, the absence of a FINRA
pay-to-play rule that the SEC finds by order is substantially equivalent to or more stringent than the
SEC Pay-to-Play Rule may impact investment advisers
and public pension plans.
Specifically, without such a rule, there could be a
decrease in the number of third-party solicitors which
may reduce the competition in the market for solicitation services. Some investment advisers may need to
search for and hire new solicitors as a result of the
absence of a FINRA pay-to-play rule to continue their
solicitation activities. Due to the potentially limited
capacity of third-party solicitors, investment advisers
may encounter difficulties in retaining solicitors or
66

See supra note 24 (noting that a regulated person that is
registered under the Exchange Act as a broker-dealer and municipal advisor, and under the Advisers Act as an investment
adviser would be subject to the rules that apply to the services
the regulated person is performing).

65a
delays in solicitation services. These changes would
likely increase the costs to investment advisers that
rely on third-party solicitors to obtain government
clients.
To the extent that higher costs may reduce the
number of investment advisers competing for government business, public pension plans may face more
limited investment opportunities. In such an instance,
there may be an opportunity cost to a government
entity either as it may not invest its assets optimally,
or when seeking capital due to limitations on its access
to funding.
D. Economic Impacts
1. Benefits
The proposed rule change would enable member
firms to continue to engage in distribution or solicitation activities for compensation with government
entities on behalf of investment advisers within the
regulatory boundaries of the proposed rule change.
The proposed rule change would prevent a potentially
harmful disruption in the member firms’ solicitation
business, and accordingly may help member firms
avoid some of the likely losses associated with the
absence of such a rule change. The proposed rule change
may also help promote competition by allowing more
third-party solicitors to participate in the market for
solicitation services, which may in turn reduce costs
to investment advisers and improve competition for
advisory services.
The proposed rule change is intended to establish a
comprehensive regime to allow member firms to continue to engage in distribution or solicitation activities
with government entities on behalf of investment
advisers while deterring member firms from engaging

66a
in pay-to-play practices. FINRA believes the proposed
rules would curb fraudulent conduct resulting from
pay-to-play practices and, therefore, help promote fair
competition in the market and protect public pension
funds and investors. FINRA also believes the proposed
rules would likely reduce the search costs of government entities and increase their ability to efficiently
allocate capital, and thereby would promote capital
formation.
2. Costs
FINRA recognizes that covered members that
engage in distribution or solicitation activities with
government entities on behalf of investment advisers
would incur costs to comply with the proposed rules on
an initial and ongoing basis. Member firms would need
to establish and maintain policies and procedures to
monitor contributions the firm and its covered associates make and to ensure compliance with the proposed
requirements. In addition, member firms that wish to
engage in distribution or solicitation activities with
government entities may face hiring constraints as a
result of the two-year (or, in some cases, six months)
“look back” provision.67
The compliance costs would likely vary across
member firms based on a number of factors such as
the number of covered associates, business models of
member firms and the extent to which their compliance procedures are automated, whether the covered
member is (or is affiliated with) an investment adviser
subject to the SEC Pay-to-Play Rule, and whether the
67

FINRA notes, however, the availability of the exemptive
provision in proposed Rule 2030(f) that would allow covered
members to apply to FINRA for an exemption from the proposed
rule’s two-year time out.

67a
covered member is a registered municipal securities
dealer and thus subject to MSRB pay-to-play rules.68
A small covered member with fewer covered associates
may expend fewer resources to comply with the proposed rules than a large covered member. Covered
members subject to (or affiliated with entities subject
to) the SEC Pay-to-Play Rule or MSRB pay-to-play
rules may be able to borrow from or build upon compliance procedures already in place. For example, FINRA
estimates that approximately 400 member firms are
currently subject to the MSRB pay-to-play rules.
The potential burden arising from compliance costs
associated with the proposed rules can be initially
gauged from the SEC’s cost estimates for the SEC Payto-Play Rule. The SEC has estimated that investment
advisers would spend between 8 and 250 hours to
establish policies and procedures to comply with the
SEC Pay-to-Play Rule.69 The SEC further estimated
that ongoing compliance would require between 10 and
1,000 hours annually.70 The SEC estimated compliance
costs for firms of different sizes. The SEC assumed
that a “smaller firm” would have fewer than five
covered associates that would be subject to the SEC
Pay-to-Play Rule, a “medium firm” would have between
five and 15 covered associates, and a “larger firm”
would have more than 15 covered associates.71 The
SEC estimated that the initial compliance costs associated with the SEC Pay-to-Play Rule would be
68

See supra note 23 (discussing MSRB Rule G–37).

69

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41056.
70
71

See id.

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41055.

68a
approximately $2,352 per smaller firm, $29,407 per
medium firm, and $58,813 per larger firm.72 It also
estimated that the annual, ongoing compliance expenses
would be approximately $2,940 per smaller firm,
$117,625 per medium firm, and $235,250 per larger
firm.73
In addition, the SEC estimated the costs for investment advisers to engage outside legal services to assist
in drafting policies and procedures. It estimated that
75 percent of larger advisory firms, 50 percent of
medium firms, and 25 percent of smaller firms subject
to the SEC Pay-to-Play Rule would engage such
services.74 The estimated cost included fees for approximately 8 hours of outside legal review for a smaller
firm, 16 hours for a medium firm and 40 hours for a
larger firm, at a rate of $400 per hour.75
The SEC estimated that the recordkeeping requirements of the SEC Pay-to-Play Rule would increase an
investment adviser’s burden by approximately 2 hours
per year,76 which would cost the adviser $118 per year
based on the SEC’s assumption of a compliance clerk’s
hourly rate of $59.77 In addition, the SEC estimated
that some small and medium firms would incur onetime start-up costs, on average, of $10,000, and larger
firms would incur, on average, $100,000 to establish or
72

See supra note 69.

73

See id.

74

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41057.
75

See id.

76

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41063.
77

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41061 n.541.

69a
enhance current systems to assist in their compliance
with the recordkeeping requirements.78
FINRA requested comment on the economic impacts
of the proposed rule change as set forth in Regulatory
Notice 14–50, including on whether the proposed rule
change would impose similar compliance costs on member firms as the SEC estimated for investment advisers.
Several commenters raised cost and compliance burden
concerns in connection with the disclosure requirements set forth in Regulatory Notice 14–50, stating
among other things, that the disclosure requirements
are “overly burdensome and create difficult compliance challenges”79 and that FINRA’s cost estimates in
Regulatory Notice 14–50 “do not accurately reflect the
true compliance costs associated with the Proposed
Rules, and particularly the costs associated with the
disclosure requirements . . . .”80
Monument Group stated that the vast majority of
independent placement agents that would be subject
to the proposed rules are small businesses, many of
which are minority- or women-owned. Monument
Group stated that these firms operate with focused
staff and no revenues from other lines of business.
Accordingly, Monument Group stated that incremental regulatory requirements that have little impact on
larger firms can create significant resource and cost
issues for these smaller firms. Specifically, Monument
Group stated that the disclosure requirements would
place significant and unique burdens on independent
third-party private fund placement agents. Another
commenter, 3PM, stated that the proposed rule
78

See supra note 76.

79

Monument Group.

80

SIFMA.

70a
change would add a new and significant burden on
small firms in terms of the disclosure and recordkeeping requirements. 3PM also stated that not only
would small firms be impacted by cost, but also by
their limited personnel resources who would have to
take on additional responsibilities to comply with the
proposed rule change.
Monument Group requested that FINRA consider
the already existing state, municipal and local lobbying registration, disclosure and reporting requirements
and pay-to-play regimes in calculating the cost and
competitive impact of the proposed rule change. Monument Group stated that the proposed rule change
disproportionately affects FINRA-registered placement
agents (as compared with other broker-dealers) and
has the largest economic and anti-competitive effect
on small independent firms.
As discussed above and in more detail in Item II.C
below, after considering the comments, FINRA has
determined not to propose a disclosure requirement
for government distribution and solicitation activities
at this time. FINRA believes that this determination
will reduce substantially the cost and compliance
burden concerns raised by commenters regarding the
proposed rule change. FINRA however may consider a
disclosure requirement for government distribution
and solicitation activities as part of a future rulemaking and would consider the economic impact of any
such revised proposed disclosure requirement as part
of that rulemaking.
Although FINRA has determined to retain a
recordkeeping requirement, FINRA notes that, in
response to commenter concerns to Regulatory Notice
14–50 regarding the significant costs associated with

71a
maintaining lists of unsuccessful solicitations,81 FINRA
has modified the proposed rule such that covered
members would only be required to maintain lists of
government entities that become clients.82
Since the scope of the proposed rule after the
modifications is substantially equivalent to the SEC
Pay-to-Play Rule, FINRA believes that the SEC’s cost
estimates serve as a reasonable reference for the potential compliance costs on member firms. In response to
the question on the costs of engaging outside legal
services to assist in drafting policies and procedures to
comply with the proposed rule, 3PM estimated that
the majority of member firms would spend between
$1,500 and $2,500 or approximately five to 10 hours of
a professional consultant’s time. In addition, 3PM
estimated that a member firm would exert approximately 10 to 20 additional hours of compliance oversight
in connection with the proposed rule each year. These
estimates are slightly lower than the SEC’s estimates
discussed above.
The proposed rule is not expected to have competitive effects among member firms engaging in
distribution or solicitation activities, since all member
firms will be subject to the same prohibitions. Moreover,
because the restrictions imposed by the proposed rule
are substantially equivalent to the restrictions imposed
by the SEC Pay-to-Play Rule, the proposed rule is not
expected to create an uneven playing field between
member firms and investment advisers. There may be
a potential impact on the competition between member
firms and municipal advisors depending on the differences between the proposed rule and the finalized
81

See, e.g., 3PM.

82

See proposed Rule 4580(a)(3).

72a
MSRB rules regulating similar activities of municipal
advisors.83
E. Regulatory Alternatives
Since the SEC requires that FINRA impose “substantially equivalent or more stringent restrictions” on
member firms that wish to act as “regulated persons”
than the SEC Pay-to-Play Rule imposes on investment
advisers, FINRA believes it is appropriate (and
achieves the right balance between the costs and
benefits) to model the proposed rule change on the
SEC Pay-to-Play Rule rather than impose a regulatory
alternative, including a more stringent regulatory
alternative, on such member firms.
C. Self-Regulatory Organization’s Statement on
Comments on the Proposed Rule Change
Received From Members, Participants, or
Others
In November 2014, FINRA published the proposed
rule change for comment in Regulatory Notice 14–50.
FINRA received 10 comment letters in response to
Regulatory Notice 14–50. A copy of Regulatory Notice
14–50 is attached as Exhibit 2a to the proposed rule
change that was filed with the Commission. A list of
the comment letters received in response to Regulatory
Notice 14–50 is attached as Exhibit 2b.84 Copies of the
comment letters received in response to Regulatory
Notice 14–50 are attached as Exhibit 2c.
Most commenters expressed appreciation or support
for FINRA’s decision to propose a pay-to-play rule,
noting the potential disruption of an SEC ban on third
83
84

See supra note 23.

All references to commenters are to the comment letters as
listed in Exhibit 2b to the proposed rule change.

73a
party solicitations if FINRA were not to propose
and adopt a pay-to-play rule. The commenters raised,
however, a number of concerns with the proposed payto-play rule, as well as the related proposed disclosure
and recordkeeping requirements. A summary of the
comments and FINRA’s responses are discussed below.85
First Amendment Concerns
CCP expressed First Amendment concerns with the
proposed rule change. Among other things, CCP raised
vagueness and over-breadth concerns with a number
of the provisions in the proposed rule change,86 and
asserted that the prohibition on soliciting and coordinating contributions is a ‘‘grave infringement of the
basic ‘right to associate for the purpose of speaking.”’
In light of CCP raising these constitutional concerns, FINRA notes that the proposed pay-to-play rule
does not impose any restrictions on making independent expenditures, ban political contributions, or attempt
to regulate State and local elections. FINRA acknowledges that the two-year time out provision may affect
the propensity of covered members and their covered
associates to make political contributions.87 As discussed
85

Comments that speak to the economic impacts of the proposed rule change are addressed in Item II.B above.
86

See CCP (discussing, among other things, the proposed
definitions of the terms ‘‘official of a government entity,” ‘‘solicit”
and ‘‘contribution,” as well as the provision prohibiting any covered member or any of its covered associates from doing anything
indirectly that, if done directly, would result in a violation of the
proposed pay-to-play rule).
87

CCP requested that FINRA state explicitly whether the
proposed rule would permit contributions in support of independent expenditures. FINRA notes that, consistent with the SEC
Pay-to-Play Rule, the proposed rule would not in any way
impinge on a wide range of expressive conduct in connection with

74a
in Regulatory Notice 14–50 and as recognized by CCP,
however, establishing requirements to regulate the
activities of member firms that engage in distribution
or solicitation activities with government entities on
behalf of investment advisers is a more effective
response to the requirements of the SEC
Pay-to-Play Rule than an outright ban on such
activity. If FINRA were not to have a pay-to-play rule,
the result would be a ban on member firms soliciting
government entities for investment advisory services
for compensation on behalf of investment advisers.
Moreover, for an investment adviser and its covered
associates to provide or agree to provide, directly or
indirectly, payment to a member firm to solicit a
government entity for investment advisory services on
behalf of the investment adviser, the SEC must find
that FINRA’s pay-to-play rule imposes substantially
equivalent or more stringent restrictions on member
firms than the SEC Pay-to-Play Rule imposes on
investment advisers and that FINRA’s rule is
consistent with the objectives of the SEC Pay-to-Play
Rule. CCP suggested alternative approaches to the
proposed pay-to-play rule that it argued would be ‘‘less
restrictive,” but FINRA does not believe that CCP’s
suggested less restrictive alternatives would meet the
SEC’s requirements. Accordingly, FINRA has crafted

elections. For example, the rule would not impose any restrictions
on activities such as making independent expenditures to express
support for candidates, volunteering, making speeches, and other
conduct. See also SEC Pay-to-Play Rule Adopting Release, 75 FR
41018, 41024 (discussing independent expenditures).

75a
its proposal such that it is substantially similar to the
SEC’s Pay-to-Play Rule.88
FINRA notes that the SEC modeled the SEC Pay-toPlay Rule on similarly designed MSRB Rule G–37,
which the United States Court of Appeals for the
District of Columbia Circuit upheld against a First
Amendment challenge in Blount v. SEC.89 As stated
in the SEC Pay-to-Play Rule Adopting Release, the
Blount opinion served as an important guidepost in
helping the SEC shape the SEC Pay-to-Play Rule.90
Similar to MSRB Rule G–37 and the SEC Pay-to-Play
Rule, FINRA believes it has closely drawn its proposal
to accomplish the goal of preventing quid pro quo
arrangements while avoiding unnecessary burdens
on the protected speech and associational rights of
covered members and their covered associates. This
analysis is further supported by the Court of Appeals
for the District of Columbia Circuit’s recent unanimous en banc decision in Wagner v. FEC, which relied
on Blount to uphold against a First Amendment challenge a law barring campaign contributions by federal
contractors.91
As detailed below, the proposed rule is closely drawn
in terms of the conduct it prohibits, the persons who
88

In addition, FINRA notes that, to the extent there are interpretive questions regarding the application and scope of the
provisions and terms used in its pay-to-play rule, FINRA will
work with the industry to understand the interpretive questions
and provide additional guidance where warranted.
89

61 F.3d 938 (D.C. Cir. 1995), cert. denied, 517 U.S. 1119
(1996).
90

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41023.
91

Wagner v. FEC, No. 13–5162, 2015 U.S. App LEXIS 11625
(D.C. Cir. July 7, 2015).

76a
are subject to its restrictions, and the circumstances in
which it is triggered.
Proposed Pay-to-Play Rule
A. Two-Year Time Out
Consistent with Regulatory Notice 14–50, proposed
Rule 2030(a) would impose a two-year time out on
engaging in distribution or solicitation activities for
compensation with a government entity on behalf of
an investment adviser after the covered member or its
covered associates make a contribution to an official of
the government entity. NASAA stated that member
firms should be prohibited from engaging in distribution or solicitation activities on behalf of an investment
adviser directed at any government entity for a period
of four years following any qualifying contribution by
the member firm. In addition, NASAA stated that if a
member firm has engaged in solicitation or distribution activities with a government entity on behalf of
an investment adviser, the member firm should be
prohibited from making any qualifying contributions
to that government entity for a period of four years
following the conclusion of the solicitation or distribution activities. FINRA has declined to make NASAA’s
suggested changes. The proposed two-year time out is
consistent with the time-out period in the SEC’s Payto-Play Rule, and FINRA believes that a two-year time
out from the date of a contribution is sufficient to
discourage covered members from engaging in pay-toplay practices.
1. Government Entity
Government entities would include all state and
local governments, their agencies and instrumentalities, and all public pension plans and other collective
government funds, including participant-directed plans

77a
such as 403(b), 457, and 52994 plans. CAI urged
FINRA or the SEC to provide additional guidance as
to the criteria for determining whether an entity is an
‘‘instrumentality” under the proposed rule. CAI noted
that its members have struggled to understand the
contours of this term in the context of the SEC Pay-toPlay Rule. As stated in Regulatory Notice 14–50
and above, the definition of a ‘‘government entity” is
consistent with the definition of that term in the
SEC Pay-to-Play Rule. The SEC has not provided
additional guidance regarding the meaning of the
term “instrumentality” in connection with its Pay-toPlay Rule. Thus, at this time, FINRA declines to provide
additional guidance as part of the proposed rule. FINRA
recognizes, however, the concerns raised by CAI and
will continue to discuss with the industry interpretive
questions relating to the proposed rule change.
92

93

2. Solicitation
Consistent with Regulatory Notice 14–50, the proposed pay-to-play rule defines the term “solicit” to
mean, with respect to investment advisory services,
“to communicate, directly or indirectly, for the purpose
of obtaining or retaining a client for, or referring a
client to, an investment adviser” and, with respect to
a contribution or payment, “to communicate, directly
or indirectly, for the purpose of obtaining or arranging
a contribution or payment.”95 CAI sought confirmation
that the proposed rule would not apply when a covered
member communicates with a third party and has no
intent to obtain a client for, or refer a client to, an
92

See supra note 28.

93

See supra note 29.

94

See supra note 30.

95

Proposed Rule 2030(g)(11).

78a
investment adviser (in the context of investment
advisory services) and there is no intent to obtain or
arrange a contribution or payment (in the context of
contributions to officials of government entities and
payments to political parties).
As stated in Regulatory Notice 14–50 and above, the
determination of whether a particular communication
is a solicitation for investment advisory services or a
contribution or payment would be dependent upon the
specific facts and circumstances relating to such communication. As a general proposition, if there is no
intent to obtain a client for, or refer a client to, an
investment adviser (in the context of investment advisory services) or to obtain or arrange a contribution or
payment (in the context of contributions to officials of
government entities and payments to political parties),
FINRA would not consider the communication to be a
solicitation.96
3. Investment Advisers
The proposed pay-to-play rule would apply to
covered members acting on behalf of any investment
adviser registered (or required to be registered) with
the SEC, or unregistered in reliance on the exemption
available under Section 203(b)(3) of the Advisers Act
for foreign private advisers, or that is an exempt
reporting adviser under Advisers Act Rule 204–4(a).97
NASAA and 3PM suggested that FINRA expand the
definition of “investment adviser” to include stateregistered investment advisers, stating, among other
things, that it would further reduce the disruptions
created by pay-to-play schemes. To remain consistent
96

See supra notes 18 and 40.

97

See proposed Rule 2030(g)(7).

79a
with the SEC Pay-to-Play Rule, FINRA has determined not to expand the scope of the proposed rule as
suggested by commenters. FINRA notes that the SEC
declined to make a similar change to its proposed rule,
stating that it is their understanding that few of these
smaller firms manage public pension plans or other
similar funds.98
4. Covered Associates/Executive Officers
A “covered associate” includes any general partner,
managing member or executive officer of a covered
member, or other individual with a similar status or
function.99 SIFMA requested that FINRA define the
term “executive officer” for purposes of the proposed
rule. Consistent with the SEC Pay-to-Play Rule and
for purposes of the FINRA pay-to-play rule only,
FINRA has added proposed Rule 2030(g)(5) to define
an “executive officer of a covered member” to mean:
“(A) The president; (B) Any vice president in charge of
a principal business unit, division or function (such as
sales, administration or finance); (C) Any other officer
of the covered member who performs a policy-making
function; or (D) Any other person who performs similar
policy-making functions for the covered member.”
A covered associate also would include a PAC
controlled by the covered member or any of its covered
associates. FSI asserted that the restrictions on PAC
contributions, and the definition of “control” with
respect to covered associates are vague and potentially
over-broad. For example, FSI stated that ‘‘[i]t is unclear
whether an employee or executive of a member firm
that holds a position on a PAC board of directors or
98

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41026.
99

See supra note 37 (defining the term “covered associate”).

80a
other advisory committee would have ‘control’ of the
PAC under the Proposed Rules. It would also cover
PACs that are not connected to the employee or
executive’s member firm.” As stated in Regulatory
Notice 14–50 and above, FINRA would consider a
covered member or its covered associates to have
“control” over a PAC if the covered member or covered
associate has the ability to direct or cause the direction
of governance or operations of the PAC.
This position is consistent with the position taken
by the SEC in connection with the SEC Pay-to-Play
Rule.100
5. Distribution
a. Inclusion of Distribution Activities
Consistent with Regulatory Notice 14–50, proposed
Rule 2030(a) would impose a two-year time out on
engaging in distribution or solicitation activities for
compensation with a government entity on behalf of
an investment adviser after the covered member or its
covered associates makes a contribution to an official
of the government entity. Some commenters questioned the meaning of the term “distribution” in the
context of the proposed rule. For example, SIFMA
stated that it is their understanding “that the phrase
‘distribution and solicitation,’ as used in the SEC Payto-Play Rule, is interpreted to mean ‘the solicitation
of investment advisory services.”’ CAI stated that
“[s]ince the term ‘distribution’ has no meaning in the
context of an investment adviser and is inconsistent
with the personal nature of the services provided by
investment advisers, [it] strongly recommends that
100

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41032 (discussing PACs).

81a
FINRA eliminate each and every reference to the word
‘distribution’ throughout the Notice and the Proposed
Rules. . . . [I]t is not clear what activity the term
‘distribution’ is meant to cover that is not captured by
the term ‘solicitation.”’
The SEC Pay-to-Play Rule prohibits an investment
adviser and its covered associates from providing or
agreeing to provide, directly or indirectly, payment to
any person to solicit a government entity for investment advisory services on behalf of the investment
adviser unless the person is a “regulated person.”101
The SEC Pay-to-Play Rule defines a “regulated person”
to include a member firm, provided that FINRA rules
prohibit member firms from engaging in distribution
or solicitation activities if political contributions have
been made.102 Thus, the SEC Pay-to-Play Rule requires
FINRA to have a rule that prohibits member firms
from engaging in distribution (as well as solicitation)
activities if political contributions have been made.
Language in the SEC Pay-to-Play Rule Adopting
Release further supports the inclusion of distribution
activities by broker-dealers in a FINRA pay-to-play
rule. For example, when discussing comments related
to its proposed ban on using third parties to solicit
government business, the SEC addressed commenters’
concerns that the provision would interfere with traditional distribution arrangements of mutual funds and
private funds by broker-dealers, by clarifying under
what circumstances distribution payments would violate
the SEC’s Pay-to-Play Rule.103
101

See SEC Pay-to-Play Rule 206(4)–5(a)(2).

102

See SEC Pay-to-Play Rule 206(4)–5(f)(9)(ii)(A).

103

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41040 n.298 (stating that “[m]utual fund distribution fees are

82a
Based on the SEC’s definition of “regulated person”
as well as its discussion regarding the treatment of
distribution fees paid pursuant to a 12b–1 plan, FINRA
believes its proposed rule must apply to member firms
engaging in distribution activities. Accordingly, FINRA
has not revised the proposed rule to remove references
to the term “distribution.”104
b. Scope of Distribution Activities
ICI requested confirmation that, with respect to
mutual funds, the proposed rule would be triggered
only when a member firm solicits a government entity
to include a mutual fund in a government entity’s plan
or program and not when the member is selling
mutual fund shares to a government entity. FSI asked
for clarification with respect to the treatment of
traditional brokerage activities by a financial advisor
as “distribution or solicitation activities” in the context
of government entity plans.
As discussed above, the proposed pay-to-play rule
would apply to distribution activities by covered
typically paid by the fund pursuant to a 12b–1 plan, and therefore
generally would not constitute payment by the fund’s adviser. As
a result, such payments would not be prohibited [under the SEC
Pay-to-Play Rule] by its terms. Where an adviser pays for the
fund’s distribution out of its ‘legitimate profits,’ however, the rule
would generally be implicated. . . . For private funds, third parties
are often compensated by the adviser or its affiliated general
partner and, therefore, those payments are subject to the rule.”)
104

In addition, FINRA notes that many of the concerns raised
by commenters in connection with including distribution activities
in the proposed rule related to the additional burden associated
with the proposed disclosure requirements and such activities.
As discussed further below, FINRA has determined not to
propose a disclosure rule relating to government distribution and
solicitation activities.

83a
members. FINRA notes, however, that based on the
definition of a “covered investment pool,” the proposed
rule would not apply to distribution activities related
to registered investment companies that are not
investment options of a government entity’s plan or
program.105 Thus, the proposed rule would apply to
distribution activities involving unregistered pooled
investment vehicles such as hedge funds, private
equity funds, venture capital funds, and collective
investment trusts, and registered pooled investment
vehicles such as mutual funds, but only if those registered pools are an investment option of a participantdirected plan or program of a government entity.106
CAI requested clarification that “compensation” in
the context of covered investment pools does not
include conventional compensation arrangements for
the distribution of mutual funds, variable annuity
contracts and other securities included within the
definition of “covered investment pool.” Consistent
with the SEC Pay-to-Play Rule, to the extent the
mutual fund distribution fees are paid by the fund
pursuant to a 12b–1 plan, such payments would not be
prohibited under the proposed rule as they would not
105

Proposed Rule 2030(g)(3) defines a “covered investment
pool” to mean: “(A) Any investment company registered under the
Investment Company Act that is an investment option of a plan
or program of a government entity, or (B) Any company that
would be an investment company under Section 3(a) of the
Investment Company Act but for the exclusion provided from that
definition by either Section 3(c)(1), 3(c)(7) or 3(c)(11) of that Act.”
106

Although the proposed rule would not apply to distribution
activities relating to all registered pooled investment vehicles,
FINRA notes the language of proposed Rule 2030(e) that “[i]t
shall be a violation of this Rule for any covered member or any of
its covered associates to do anything indirectly that, if done
directly, would result in a violation of this Rule.”

84a
constitute payments by the fund’s investment adviser.
If, however, the adviser pays for the fund’s distribution out of its “legitimate profits,” the proposed rule
would generally be implicated.107 For private funds,
third parties are often compensated by the investment
adviser or its affiliated general partner. Thus, such
payments would be subject to the proposed rule. In
addition, FINRA notes that structuring such a payment to come from the private fund for purposes of
evading the rule would violate the rule.108
B. Prohibitions as Applied to Covered Investment Pools
1. General
In Regulatory Notice 14–50, proposed Rule 2390(e)
(now proposed as Rule 2030(d)) provided that a covered member that engages in distribution or solicitation
107

For a discussion of a mutual fund adviser’s ability to use
“legitimate profits” for fund distribution, see Investment Company
Act of 1940 Release No. 11414 (Oct. 28, 1980), 45 FR 73898 (Nov.
7, 1980) (Bearing of Distribution Expenses by Mutual Funds)
(explaining, in the context of the prohibition on the indirect use
of fund assets for distribution, unless pursuant to a 12b–1 plan,
“[h]owever, under the rule there is no indirect use of fund assets
if an adviser makes distribution related payments out of its own
resources. . . . Profits which are legitimate or not excessive are
simply those which are derived from an advisory contract which
does not result in a breach of fiduciary duty under section 36 of
the [Investment Company] Act.”).
108

See also SEC Pay-to-Play Rule Adopting Release, 75 FR
41018, 41040 n.298 and accompanying text. CAI also asked
FINRA to consider afresh the SEC’s position in its Pay-to-Play
Rule that payments originating with an investment adviser
should be treated as a payment for solicitation, regardless of
the purpose or context for the payment. As discussed above, for
purposes of the proposed rule, FINRA is taking a position
consistent with the SEC’s position in its Pay-to-Play Rule.

85a
activities with a government entity on behalf of an
investment adviser to a covered investment pool in
which a government entity invests or is solicited to
invest shall be treated as though the covered member
was engaging in or seeking to engage in distribution
or solicitation activities with the government entity on
behalf of the investment adviser directly. CAI raised
concerns regarding the application of the prohibitions
of the proposed rule to covered investment pools
stating, among other things, “that a broker-dealer that
offers and sells interests in a mutual fund or private
fund cannot be characterized as soliciting on behalf of
the investment adviser to a covered investment pool.”
CAI reasoned that “[t]here is no basis for this notion
given the [SEC] staff’s interpretation in the Mayer
Brown no-action letter and the Goldstein case . . ., as
well as the lack of any relationship between the selling
firm and the investment adviser.”109
109

See Goldstein v. SEC, 451 F.3d 873 (D.C. Cir. 2006) and
Mayer Brown LLP, SEC No-Action Letter (“Mayer Brown letter”),
available at https://www.sec.gov/divisions/investment/noaction/
2008/ mayerbrown072808-206.htm#P15_323. In Goldstein, the
court held that the SEC’s “Hedge Fund Rule,” which would have
given the SEC greater oversight over hedge funds, was invalid
because it was arbitrary and in conflict with the purpose of the
underlying statute in which the new rule was included. The court
concluded that hedge fund investors are not clients of fund advisers
for the purpose of the Adviser’s Act registration requirement.
In the Mayer Brown letter, SEC staff stated that Rule 206(4)–
3 generally does not apply to a registered investment adviser’s
cash payment to a person solely to compensate that person for
soliciting investors or prospective investors for, or referring investors or prospective investors to, an investment pool managed by
the adviser. The letter distinguishes between a person referring
other persons to the adviser where the adviser manages only
investment pools and is not seeking to enter into advisory relationships with these other persons (but rather the other persons

86a
After considering CAI’s concerns, FINRA has modified
the language of the proposed rule to recognize the
relationship between the selling member and the
covered investment pool, but also to clarify that for
purposes of the proposed rule, a covered member
engaging in distribution or solicitation activities on
behalf of a covered investment pool in which a government entity invests or is solicited to invest shall be
treated as though the covered member was engaging
in, or seeking to engage in, distribution or solicitation
activities with the government entity on behalf of the
investment adviser to the covered investment pool
directly.110
As stated in Regulatory Notice 14–50, proposed Rule
2390(e) (now proposed as Rule 2030(d)) was modeled
on a similar provision in the SEC Pay-to-Play Rule,
Rule 206(4)–5(c),111 and was intended to extend the
protections of the proposed rule to government entities
that access the services of investment advisers through
hedge funds and other types of pooled investment vehicles sponsored or advised by investment advisers.112 As
will be investors or prospective investors in one or more of the
investment pools managed by the adviser), versus referring other
persons as prospective advisory clients. The letter notes that whether
the rule applies will depend on the facts and circumstances.
110

See proposed Rule 2030(d).

111

SEC Pay-to-Play Rule 206(4)–5(c) provides that “an
investment adviser to a covered investment pool in which a
government entity invests or is solicited to invest shall be treated
as though that investment adviser were providing or seeking to
provide investment advisory services directly to the government
entity.’’
112

In adopting this provision, the SEC noted a commenter’s
questioning of its authority to apply the rule in the context of
covered investment pools in light of the opinion of the Court of
Appeals for the District of Columbia Circuit in the Goldstein case.

87a
noted by CAI, however, FINRA recognizes that without
a provision corresponding more closely to SEC Pay-toPlay Rule 206(4)–5(c), there is nothing in the proposed
rule that deems an investment adviser to a covered
investment pool to have a direct investment advisory
relationship with government entities investing in the
pool. CAI noted that: “Without such a provision, proposed rule 2390(e) would not apply the two year time
out restriction in proposed rule 2390(a) to advisers to
[covered investment pools]. This is because proposed
Rule 2390(a) would only apply where an investment
adviser ‘provides or is seeking to provide investment
advisory services to such government entity.’”
Accordingly, FINRA has modified the proposed
rule to include proposed Rule 2030(d)(2) that provides
that for purposes of the proposed rule “an investment
adviser to a covered investment pool in which a government entity invests or is solicited to invest shall
be treated as though that investment adviser were
providing or seeking to provide investment advisory
services directly to the government entity.’’
2. Two-Tiered Investment Products
CAI sought confirmation from FINRA that the proposed pay-to-play rule would not apply in the context
of two-tiered investment products, such as variable
annuities. CAI asserted, among other things, that
“[o]rdinarily, there is no investment adviser providing
investment advisory services to the separate account
See supra note 109. The SEC concluded, however, that it has
authority to adopt rules proscribing fraudulent conduct that is
potentially harmful to investors in pooled investment vehicles
pursuant to Section 206(4) of the Advisers Act and, therefore,
adopted SEC Pay-to-Play Rule 206(4)–5(c) as proposed. See SEC
Pay-to-Play Rule Adopting Release, 75 FR 41018, 41045 n.355.

88a
supporting the variable annuity contract, although
there are investment advisers providing investment
advisory services to the underlying mutual funds or
unregistered investment pools.’’ CAI requested clarification that a covered member selling two-tiered
investment products is not engaging in solicitation
activities on behalf of the investment adviser and
sub-advisers managing the underlying funds. FINRA
notes that the SEC did not exclude specific products
from the SEC Pay-to-Play Rule and, therefore, FINRA
has determined not to exclude specific products from
its proposed rule.
C. Disgorgement
In Regulatory Notice 14–50, FINRA proposed a
“disgorgement’’ provision that, among other things,
would have required that the covered member pay, in
the order listed, any compensation or other remuneration received by the covered member pertaining to, or
arising from, distribution or solicitation activities during the two-year time out to: (A) A covered investment
pool in which the government entity was solicited
to invest, as applicable; (B) the government entity;
(C) any appropriate entity designated in writing by
the government entity if the government entity or
covered investment pool cannot receive such payments; or (D) the FINRA Investor Education Foundation,
if the government entity or covered investment pool
cannot receive such payments and the government
entity cannot or does not designate in writing any
other appropriate entity.
NASAA expressed support for FINRA’s inclusion of
a disgorgement provision for violations of the proposed rule. Most commenters, however, opposed the

89a
requirement. SIFMA stated that “[w]hile disgorgement is the almost universal remedy for violations
of various pay-to-play rules, . . . making application
of the remedy mandatory could have the deleterious
effect of dissuading covered members from voluntary
disgorgement of fees where such members discover
pay-to-play violations themselves.’’ ICI stated that
“including disgorgement as a penalty is not necessary
given that the SEC and FINRA both have full
authority to require disgorgement of fees, and indeed,
disgorgement has been the penalty universally applied
(along with additional penalties) in enforcement actions
under existing pay-to-play rules, such as MSRB Rule
G–37 and SEC Rule 206(4)–5.’’
113

After considering the comments and, in particular,
that FINRA has authority to require disgorgement of
fees in enforcement actions, FINRA has determined
not to include a disgorgement requirement in the proposed rule.
D. Prohibition on Soliciting and Coordinating
Contributions
Consistent with Regulatory Notice 14–50, proposed
Rule 2030(b) would prohibit a covered member or
covered associate from coordinating or soliciting any
person or PAC to make any: (1) Contribution to an
official of a government entity in respect of which the
covered member is engaging in, or seeking to engage
in, distribution or solicitation activities on behalf of
an investment adviser; or (2) payment to a political
party of a state or locality of a government entity with
which the covered member is engaging in, or seeking
to engage in, distribution or solicitation activities
on behalf of an investment adviser. As stated in
113

See, e.g., SIFMA, CAI and ICI.

90a
Regulatory Notice 14–50 and above, this provision is
modeled on a similar provision in the SEC Pay-to-Play
Rule.114
CAI sought confirmation that the proposed prohibition on soliciting and coordinating contributions would
not apply when a contribution is made to a political
action committee, political party or other third party,
where there is no knowledge or indication of how such
contribution will be used. Similar to guidance provided
in the context of SEC Pay-to-Play Rule 206(4)–5(a)(2),
FINRA notes that a direct contribution to a political
party by a covered member or its covered associates
would not violate the proposed rule unless the contribution was a means for the covered member to do
indirectly what the rule would prohibit if done directly
(for example, if the contribution was earmarked or
known to be provided for the benefit of a particular
government official).115
E. Direct or Indirect Contributions or Solicitations
Consistent with Regulatory Notice 14–50, proposed
Rule 2030(e) provides that it shall be a violation of the
proposed pay-to-play rule for any covered member or
any of its covered associates to do anything indirectly
that, if done directly, would result in a violation of the
rule. CAI requested that FINRA incorporate a knowledge and support requirement into this provision of
the proposed rule so that it would be violated only if a
covered member has direct knowledge of, and takes
measures to aid and support, activities undertaken by
its affiliates. As stated in Regulatory Notice 14–50 and
114
115

See SEC Pay-to-Play Rule 206(4)–5(a)(2).

See also SEC Pay-to-Play Rule Adopting Release, 75 FR
41018, 41044 n.337.

91a
above, this provision is modeled on SEC Pay-to-Play
Rule 206(4)–5(d). Consistent with guidance provided
by the SEC in connection with that provision, FINRA
has clarified that it would require a showing of intent
to circumvent the rule for a covered member or its
covered associates funneling payments through a
third party to trigger the two-year time out.116
F. Exceptions
In Regulatory Notice 14–50, FINRA included
exceptions to the prohibition in the proposed pay-toplay rule for de minimis contributions and returned
contributions. CAI and CCP stated that they believe
that the $350 and $150 de minimis contribution limits
are unreasonably low. CAI stated that it believes the
$350 amount for returned contributions is unnecessary because “[i]f the contribution is returned as is
required under the exception, then no harm will result
as both the contributor and contributee are placed in
the same position they would have been in had no
contribution been made.”
FINRA has determined not to modify the proposed
exceptions. As stated in Regulatory Notice 14–50 and
above, the exceptions are modeled on similar exceptions
in the SEC Pay-to-Play Rule for de minimis contributions and returned contributions.117 Moreover, FINRA
believes that it is necessary to keep the amounts at the
levels as proposed in Regulatory Notice 14–50 to meet
the requirement in the SEC Pay-to-Play Rule that the
restrictions in FINRA’s rule must be substantially

116

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41044 n.340.
117

See SEC Pay-to-Play Rule 206(4)–5(b).

92a
equivalent to, or more stringent than, the restrictions
in the SEC Pay-to-Play Rule.
Proposed Recordkeeping Requirements
A. Unsuccessful Solicitations
Proposed Rule 4580 would require covered members
that engage in distribution or solicitation activities
with a government entity on behalf of any investment
adviser that provides or is seeking to provide investment advisory services to such government entity to
maintain books and records that would allow FINRA
to examine for compliance with its proposed pay-toplay rule. SIFMA requested that FINRA not extend
the recordkeeping requirements to unsuccessful solicitations where the covered member does not receive
compensation because maintaining such records would
impose significant costs on covered members with
little corresponding benefit. 118
FINRA intends that the recordkeeping requirements of proposed Rule 4580 be consistent with similar
recordkeeping requirements imposed on investment
advisers in connection with the SEC Pay-to-Play Rule.119
The SEC does not require investment advisers to maintain lists of government entities that do not become
clients.120 Accordingly, FINRA has added the term “for
compensation” to proposed Rule 4580(a)(3) to clarify
that the proposed Rule would not apply to unsuccessful solicitations.
118

See also CAI, 3PM and FSI (requesting that FINRA not
apply the proposed recordkeeping requirements to unsuccessful
solicitations of government entities).
119
120

See Advisers Act Rule 204–2(a)(18) and (h)(1).

See SEC Pay-to-Play Rule Adopting Release, 75 FR 41018,
41050.

93a
B. Indirect Contributions
Consistent with Regulatory Notice 14–50, proposed
Rule 4580(a)(4) would require a covered member to
maintain books and records of all direct and indirect
contributions made by the covered member or any of
its covered associates to an official of a government
entity, or direct or indirect payments to a political
party of a state or political subdivision thereof or to a
PAC. 3PM requested that FINRA eliminate the requirement to maintain a list of indirect contributions,
arguing that “requiring firms to . . . track and monitor
indirect contributions could become extremely time
consuming and costly for firms.” CAI asserted that not
all payments to political parties or PACs should have
to be maintained. Instead, CAI stated that only payments to political parties or PACs where the covered
member or covered associate: (i) Directs the political
party or PAC to make a contribution to an official of
a government entity which the covered member is
soliciting on behalf of an investment adviser, or
(ii) knows that the political party or PAC is going to
make a contribution to an official of a government
entity which the covered member is soliciting on behalf
of an investment adviser, should have to be maintained.
As stated in the Regulatory Notice and above, the
proposed recordkeeping requirements are intended to
allow FINRA to examine for compliance with its proposed pay-to-play rule. Thus, the reference to indirect
contributions in proposed Rule 4580(a)(4) is intended
to include records of contributions or payments a
covered member solicits or coordinates another person
or PAC to make under proposed Rule 2030(b) (Prohibition

94a
on Soliciting and Coordinating Contributions).121 In
addition, payments to political parties or PACs can be
a means for a covered member or covered associate to
funnel contributions to a government official without
directly contributing. Thus, FINRA is proposing to
require a covered member to maintain a record of all
payments to political parties or PACs as such records
would assist FINRA in identifying situations that
might suggest an intent to circumvent the rule.122
Proposed Disclosure Requirements
In Regulatory Notice 14–50, FINRA proposed Rule
2271 to require a covered member engaging in
distribution or solicitation activities for compensation
with a government entity on behalf of one or more
investment advisers to make specified disclosures to
the government entity regarding each investment
121

This interpretation is consistent with the SEC’s interpretation of a similar provision in Advisers Act Rule 204–2(a)(18)(i).
122

ICI stated that if FINRA applies the requirements of
proposed Rule 4580(a)(4) to a member firm holding an omnibus
account on behalf of another broker-dealer that solicited a government entity, and the omnibus dealer is unaware of the brokerdealer’s solicitation activities, the omnibus dealer will likely be
unable to maintain records required by proposed Rule 4580. As a
potential way in which to address this concern, ICI referenced an
SEC staff no-action relief letter that addresses a similar concern
regarding the recordkeeping requirements related to the SEC
Pay-to-Play Rule. See ICI referencing Investment Company
Institute, SEC No-Action Letter dated September 12, 2011,
available at http://www.sec.gov/divisions/investment/noaction/
2011/ici091211–204-incoming.pdf. FINRA recognizes the concern
raised by ICI and will address interpretive questions as needed
regarding the application of the proposed recordkeeping requirements to covered members holding omnibus accounts on behalf of
other broker-dealers that engage in distribution or solicitation
activities with government entities.

95a
adviser. Several commenters raised concerns regarding the proposed disclosure requirements.123 For example,
commenters raised concerns regarding the scope and
timing of the disclosure requirements 124and that the
requirements would be duplicative of existing federal
and state investor protection-related disclosure requirements.125 In addition, commenters raised concerns
regarding the costs and compliance burdens associated with the proposed disclosure requirements.126
After considering the comments, FINRA has determined not to propose a disclosure rule at this time.
FINRA will continue to consider whether such a rule
would be appropriate. If FINRA determines to propose
a disclosure rule at a later date, it would do so pursuant to FINRA’s notice and comment rulemaking process.
III. Date of Effectiveness of the Proposed Rule
Change and Timing for Commission Action
Within 45 days of the date of publication of this
notice in the Federal Register or within such longer
period (i) as the Commission may designate up to 90
days of such date if it finds such longer period to be
appropriate and publishes its reasons for so finding or
(ii) as to which the self-regulatory organization
consents, the Commission will:
(A) By order approve or disapprove such proposed
rule change, or

123

See, e.g., SIFMA, Monument Group, ICI, IAA, FSI, CAI and

3PM.
124

See, e.g., SIFMA, Monument Group, ICI, IAA, CAI and 3PM.

125

See, e.g., SIFMA, Monument Group and FSI.

126

See, e.g., SIFMA, Monument Group and 3PM.

96a
(B) institute proceedings to determine whether the
proposed rule change should be disapproved.
IV. Solicitation of Comments
Interested persons are invited to submit written
data, views and arguments concerning the foregoing,
including whether the proposed rule change is
consistent with the Act. Comments may be submitted
by any of the following methods:
Electronic Comments
• Use the Commission’s Internet comment form
(http://www.sec.gov/rules/sro.shtml); or
• Send an email to rule-comments@sec.gov.
Please include File Number SR–FINRA–2015–
056 on the subject line.
Paper Comments
• Send paper comments in triplicate to Secretary,
Securities and Exchange Commission, 100 F
Street NE., Washington, DC 20549–1090.
All submissions should refer to File Number SR–
FINRA–2015–056. This file number should be included
on the subject line if email is used. To help the
Commission process and review your comments more
efficiently, please use only one method. The Commission will post all comments on the Commission’s
Internet Web site (http://www.sec.gov/rules/sro.shtml).
Copies of the submission, all subsequent amendments,
all written statements with respect to the proposed
rule change that are filed with the Commission, and
all written communications relating to the proposed
rule change between the Commission and any person,
other than those that may be withheld from the public
in accordance with the provisions of 5 U.S.C. 552, will
be available for Web site viewing and printing in the

97a
Commission’s Public Reference Room, 100 F Street,
NE., Washington, DC 20549, on official business days
between the hours of 10:00 a.m. and 3:00 p.m. Copies
of such filing also will be available for inspection and
copying at the principal office of FINRA. All comments
received will be posted without change; the Commission does not edit personal identifying information
from submissions. You should submit only information
that you wish to make available publicly. All submissions should refer to File Number SR–FINRA–2015–
056 and should be submitted on or before January 20,
2016.
For the Commission, by the Division of Trading and
Markets, pursuant to delegated authority.127
Brent J. Fields,
Secretary.
[FR Doc. 2015–32894 Filed 12–29–15; 8:45 am]
BILLING CODE 8011–01–P

127

17 CFR 200.30–3(a)(12).

98a
APPENDIX E
SECURITIES AND EXCHANGE COMMISSION
[Release No. 34–77465;
File No. SR–FINRA–2015–056]
Self-Regulatory Organizations; Financial
Industry Regulatory Authority, Inc.;
Order Instituting Proceedings To
Determine Whether to Approve or
Disapprove Proposed Rule Change To
Adopt FINRA Rule 2030 and
FINRA Rule 4580 to Establish
“Pay-To-Play” and Related Rules
March 29, 2016
I. Introduction
On December 16, 2015, Financial Industry Regulatory
Authority, Inc. (“FINRA”) filed with the Securities and
Exchange Commission (“SEC” or “Commission”), pursuant to Section 19(b)(1) of the Securities Exchange
Act of 1934 (“Act,” “Exchange Act” or “SEA”)1 and Rule
19b–4 thereunder,2 a proposed rule change to adopt
FINRA Rules 2030 (Engaging in Distribution and Solicitation Activities with Government Entities) and 4580
(Books and Records Requirements for Government
Distribution and Solicitation Activities) to establish
“pay-to-play”3 and related rules that would regulate
the activities of member firms that engage in distribu1

15 U.S.C. 78s(b)(1).

2

17 CFR 240.19b–4.

3

“Pay-to-play” practices typically involve a person making
cash or in-kind political contributions (or soliciting or coordinating others to make such contributions) to help finance the election
campaigns of state or local officials or bond ballot initiatives as a
quid pro quo for the receipt of government contracts.

99a
tion or solicitation activities for compensation with
government entities on behalf of investment advisers.
The proposed rule change was published for comment in the Federal Register on December 30, 2015.4
The Commission received ten comment letters, from
nine different commenters, in response to the proposed rule change.5 On February 8, 2016, FINRA
extended the time period in which the Commission
must approve the proposed rule change, disapprove
the proposed rule change, or institute proceedings to
determine whether to approve or disapprove the
proposed rule change to March 29, 2016.6 On March
4

See Exchange Act Rel. No. 76767 (Dec. 24, 2015), 80 FR 81650
(Dec. 30, 2015) (File No. SR–FINRA–2015–056) (“Notice”).
5

See Letters from David Keating, President, Center for
Competitive Politics (“CCP”), dated Jan. 20, 2016 (“CCP Letter”);
Clifford Kirsch and Michael Koffler, Sutherland Asbill & Brennan
LLP, for the Committee of Annuity Insurers (“CAI”), dated Jan.
20, 2016 (“CAI Letter No. 1”); Clifford Kirsch and Michael Koffler,
Sutherland Asbill & Brennan LLP, for the CAI, dated Feb. 5,
2016 (“CAI Letter No. 2”); David T. Bellaire, Executive Vice
President and General Counsel, Financial Services Institute
(“FSI”), dated Jan. 20, 2016 (“FSI Letter”); Tamara K. Salmon,
Assistant General Counsel, Investment Company Institute (“ICI”),
dated Jan. 20, 2016 (“ICI Letter”); Patrick J Moran, Esq., dated
Dec. 29, 2015 (“Moran Letter”); Gary A. Sanders, Counsel and
Vice President, National Association of Insurance and Financial
Advisors (“NAIFA”), dated Jan. 20, 2016 (“NAIFA Letter”); Judith
M. Shaw, President, North American Securities Administrators
Association, Inc. (“NASAA”), dated Jan. 20, 2016 (“NASAA Letter”);
Hugh D. Berkson, President, Public Investors Arbitration Bar
Association (“PIABA”), dated Jan. 20, 2016 (“PIABA Letter”); and
H. Christopher Bartolomucci and Brian J. Field, Bancroft PLLC,
for the New York Republican State Committee and the Tennessee
Republican Party (“State Parties”), dated Jan. 20, 2016 (“State
Parties Letter”).
6

See Letter from Victoria Crane, Associate General Counsel,
FINRA, to Lourdes Gonzalez, Assistant Director, Sales Practices,

100a
28, 2016, FINRA filed a letter with the Commission
stating that it has considered the comments received
by the Commission, and that FINRA is not intending
to make changes to the proposed rule text in response
to the comments.7 The Commission is publishing this
order to institute proceedings pursuant to Exchange
Act Section 19(b)(2)(B)8 to determine whether to
approve or disapprove the proposed rule change.
Institution of proceedings does not indicate that the
Commission has reached any conclusions with respect
to the proposed rule change, nor does it mean that the
Commission will ultimately disapprove the proposed
rule change. Rather, as discussed below, the Commission
seeks additional input on the proposed rule change
and issues presented by the proposal.
II. Description of the Proposed Rule Change9
As described more fully in the Notice, FINRA is
proposing a pay-to-play rule, Rule 2030,10 that FINRA
states is modeled on the Commission’s Rule 206(4)–5
Division of Trading and Markets, Securities and Exchange
Commission, dated Feb. 8, 2016.
7

See Letter from Victoria Crane, Associate General Counsel,
FINRA, to Brent J. Fields, Secretary, Securities and Exchange
Commission, dated Mar. 28, 2016 (“FINRA Response Letter”).
The FINRA Letter is available on FINRA’s Web site at http://
www.finra.org, at the principal office of FINRA, and at the
Commission’s Public Reference Room.
8

15 U.S.C. 78s(b)(2)(B).

9

The proposed rule change, as described in this Item II, is
excerpted, in part, from the Notice, which was substantially
prepared by FINRA. See supra note 4.
10

See Notice, 80 FR at 81650–51 (citing Advisers Act Release
No. 3043 (July 1, 2010), 75 FR 41018 (July 14, 2010) (Political
Contributions by Certain Investment Advisers) (“SEC Pay-toPlay Rule Adopting Release”)).

101a
under the Investment Advisers Act of 1940 (“Advisers
Act”), which addresses pay-to-play practices by investment advisers (the “SEC Pay-to-Play Rule”).11 The
SEC Pay-to-Play Rule, among other things, prohibits
an investment adviser and its covered associates from
providing or agreeing to provide, directly or indirectly,
payment to any person to solicit a government entity
for investment advisory services on behalf of the
investment adviser unless the person is a “regulated
person.”12 A “regulated person,” as defined in the SEC
Pay-to-Play Rule, includes a FINRA member firm,
provided that: (a) FINRA rules prohibit member firms
from engaging in distribution or solicitation activities
if political contributions have been made; and (b) the
SEC finds, by order, that such rules impose substantially equivalent or more stringent restrictions on
member firms than the SEC Pay-to-Play Rule imposes
on investment advisers and that such rules are consistent with the objectives of the SEC Pay-to-Play
Rule.13 Therefore, based on this regulatory framework,
FINRA is proposing its own pay-to-play rule to enable
11

FINRA also published the proposed rule change in Regulatory
Notice 14–50 (Nov. 2014) (“Regulatory Notice 14–50”) and sought
comment on the proposal. FINRA states that commenters were
generally supportive of the proposed rule change, but also expressed
some concerns. As such, FINRA revised the proposed rule change
as published in Regulatory Notice 14–50 in response to those
comments. As described more fully in the Notice, FINRA believes
that the revisions it made more closely align FINRA’s proposed
rule with the SEC Pay-to-Play Rule and help reduce cost and
compliance burden concerns raised by commenters See Notice, 80
FR at 81651, n. 16.
12

See Notice, 80 FR at 81650, 81656. See also SEC Pay-to-Play
Rule 206(4)–5(a)(2)(i)(A).
13

See Notice, 80 FR at 81650, n. 6 (citing SEC Pay-to-Play Rule
206(4)–5(f)(9)).

102a
its member firms to continue to engage in distribution
and solicitation activities for compensation with
government entities on behalf of investment advisers,
while at the same time deterring its member firms
from engaging in pay-to-play practices.14 FINRA also
believes that its proposed rule would establish a
comprehensive regime to regulate the activities of its
member firms that engage in distribution or solicitation activities with government entities on behalf of
investment advisers and would impose substantially
equivalent restrictions on FINRA member firms engaging in distribution or solicitation activities to those the
SEC Pay-to-Play Rule imposes on investment advisers.15
Furthermore, FINRA is proposing Rule 4580, which
would impose recordkeeping requirements on FINRA
member firms in connection with its pay-to-play rule
that would allow examination of member firms’ books
and records for compliance with the pay-to-play
rule.16 FINRA believes that its proposed Rule 4580 is
consistent with similar recordkeeping requirements
imposed on investment advisers in connection with the
SEC Pay-to-Play Rule.17
The following is an overview of some of the key
provisions in FINRA’s proposed rules.
A. Proposed Rule 2030(a): Limitation
Distribution and Solicitation Activities

on

Proposed Rule 2030(a) would prohibit a covered
member from engaging in distribution or solicitation
14

See Notice, 80 FR at 81651, 81656.

15

See id. at 81651, 81656.

16

See id. at 81651, 81655–56.

17

See id. at 81655, n. 60 (citing Advisers Act Rule 204–2(a)(18)
and (h)(1)).

103a
activities for compensation with a government entity
on behalf of an investment adviser that provides or is
seeking to provide investment advisory services to
such government entity within two years after a
contribution to an official of the government entity is
made by the covered member or a covered associate,
including a person who becomes a covered associate
within two years after the contribution is made.18
FINRA states that the terms and scope of the prohibitions in proposed Rule 2030(a) are modeled on the
SEC Pay-to-Play Rule.19
FINRA explains that proposed Rule 2030(a) would
not ban or limit the amount of political contributions
a covered member or its covered associates could
make.20 Rather, FINRA states that, consistent with
the SEC Pay-to-Play Rule, the proposed rule would
impose a two-year “time out” on engaging in distribution or solicitation activities for compensation with a
government entity on behalf of an investment adviser
after the covered member or its covered associates
make a contribution to an official of the government
entity.21 According to FINRA, the two-year time out
period is intended to discourage covered members from
participating in pay-to-play practices by requiring a
cooling-off period during which the effects of a political
contribution on the selection process can be expected
to dissipate.22

18

See Notice, 80 FR at 81651.

19

See id. (citing SEC Pay-to-Play Rule 206(4)–5(a)(1)).

20

See Notice, 80 FR at 81651.

21

See id.

22

Id.

104a
1. Distribution Activities
FINRA states that, based on the definition of “regulated person” in the SEC Pay-to-Play Rule, it is
required to adopt a rule that prohibits its member
firms from engaging in distribution activities (as well
as solicitation activities) with government entities if
political contributions have been made.23 FINRA also
notes that certain language in the SEC Pay-to-Play
Rule Adopting Release further supports the inclusion
of distribution activities by broker-dealers in a FINRA
pay-to-play rule.24
However, FINRA also explains that, based on the
definition of a “covered investment pool” in proposed
Rule 2030(g)(3),25 the proposed rule would not apply to
distribution activities related to registered investment
companies that are not investment options of a

23

See id. at 81660–61 (explaining that FINRA believes its
proposed rule must apply to member firms engaging in distribution activities and that FINRA did not revise the proposed rule to
remove references to the term distribution as requested by
comments received in response to Regulatory Notice 14–50).
24

See id. at 81660–61 (citing SEC Pay-to-Play Rule Adopting
Release, 75 FR 41018, 41040 n. 298 where, according to FINRA,
the Commission “clarif[ied] under what circumstances distribution payments would violate the SEC’s Pay-to-Play Rule”).
25

See id. at 81654, n. 46 (proposed Rule 2030(g)(3) defines a
“covered investment pool” to mean: “(A) Any investment company
registered under the Investment Company Act that is an investment option of a plan or program of a government entity, or
(B) Any company that would be an investment company under
Section 3(a) of the Investment Company Act but for the exclusion
provided from that definition by either Section 3(c)(1), 3(c)(7) or
3(c)(11) of that Act”).

105a
government entity’s plan or program.26 Therefore, the
proposed rule would apply to distribution activities
involving unregistered pooled investment vehicles such
as hedge funds, private equity funds, venture capital
funds, and collective investment trusts, and registered
pooled investment vehicles such as mutual funds, but
only if those registered pools are an investment option
of a participant-directed plan or program of a government entity.27 FINRA also notes that, consistent with
the SEC Pay-to-Play Rule, to the extent mutual fund
distribution fees are paid by the fund pursuant to a
12b–1 plan, such payments would not be prohibited
under the proposed rule as they would not constitute
payments by the fund’s investment adviser.28 However,
if the adviser pays for the fund’s distribution out of its
“legitimate profits,” the proposed rule would generally
be implicated.29
2. Solicitation Activities
FINRA also states that, consistent with the SEC
Pay-to-Play Rule, proposed Rule 2030(g)(11) defines
the term “solicit” to mean: “(A) With respect to investment advisory services, to communicate, directly or
indirectly, for the purpose of obtaining or retaining a
client for, or referring a client to, an investment adviser;
and (B) With respect to a contribution or payment, to
26

See Notice, 80 FR at 81661, nn. 105–106 (explaining that the
proposed rule would not apply to distribution activities relating
to all registered pooled investment vehicles).
27

See id. at 81661. See also id. at 81651, n. 17 and 81654,
n. 46.
28
29

See id. at 81661.

See id. (noting, among other things, that “for private funds,
third parties are often compensated by the investment adviser or
its affiliated general partner”).

106a
communicate, directly or indirectly, for the purpose of
obtaining or arranging a contribution or payment.”30
FINRA also notes that, although the determination of
whether a particular communication would be a solicitation would depend on the facts and circumstances
relating to such communication, as a general proposition FINRA believes that any communication made
under circumstances reasonably calculated to obtain
or retain an advisory client would be considered a
solicitation unless the circumstances otherwise indicate
that the communication does not have the purpose of
obtaining or retaining an advisory client.31
B. Proposed Rule 2030(b): Prohibition on Soliciting and Coordinating Contributions
Proposed Rule 2030(b) would also prohibit a covered
member or covered associate from coordinating or soliciting any person or political action committee (PAC) to
make any: (1) Contribution to an official of a government entity in respect of which the covered member
is engaging in, or seeking to engage in, distribution
or solicitation activities on behalf of an investment
adviser; or (2) payment to a political party of a state or
locality of a government entity with which the covered
member is engaging in, or seeking to engage in,
distribution or solicitation activities on behalf of an
investment adviser.32 FINRA states that this provision
is modeled on a similar provision in the SEC Pay-toPlay Rule 33 and is intended to prevent covered members or covered associates from circumventing the
proposed rule’s prohibition on direct contributions to
30

See id. at 81651, n. 18. See also id. at 81653, n. 40.

31

See id.

32

See id. at 81654. See also id. at 81662.

33

See id. at 81654 (citing SEC Pay-to-Play Rule 206(4)–5(a)(2)).

107a
certain elected officials such as by “bundling” a large
number of small employee contributions to influence
an election, or making contributions (or payments)
indirectly through a state or local political party.34
C. Proposed Rule 2030(c): Exceptions
FINRA’s proposed pay-to-play rule contains three
exceptions from the proposed rule’s prohibitions: (1)
De minimis contributions, (2) new covered associates,
and (3) certain returned contributions.35 FINRA states
that these exceptions are modeled on similar
exceptions in the SEC Pay-to-Play Rule.36
1. De Minimis Contribution Exception
Proposed Rule 2030(c)(1) would except from the
rule’s restrictions contributions made by a covered
associate who is a natural person to government entity
officials for whom the covered associate was entitled
to vote at the time of the contributions, provided the
contributions do not exceed $350 in the aggregate to
any one official per election.37 However, if the covered
associate was not entitled to vote for the official at the
time of the contribution, the contribution must not
exceed $150 in the aggregate per election.38 FINRA
states that, consistent with the SEC Pay-to-Play Rule,
under this exception, primary and general elections
would be considered separate elections.39 FINRA also
explains that this exception is based on the theory that
34

See Notice, 80 FR at 81654.

35

See id.

36

See id. (citing SEC Pay-to-Play Rule 206(4)–5(b)).

37

See Notice, 80 FR at 81655.

38

See id.

39

See id. (citing SEC Pay-to-Play Rule Adopting Release, 75
FR 41018, 41034).

108a
such contributions are typically made without the
intent or ability to influence the selection process of
the investment adviser.40
2. Exception for Certain New Covered
Associates
The proposed rule would attribute to a covered
member contributions made by a person within two
years (or, in some cases, six months) of becoming a
covered associate. However, proposed Rule 2030(c)(2)
would provide an exception from the proposed rule’s
restrictions for covered members if a natural person
made a contribution more than six months prior to
becoming a covered associate of the covered member
unless the covered associate engages in, or seeks to
engage in, distribution or solicitation activities with a
government entity on behalf of the covered member.41
FINRA states that this exception is consistent with
the SEC Pay-to-Play Rule 42 and is intended to balance
the need for covered members to be able to make
hiring decisions against the need to protect against
individuals marketing to prospective employers their
connections to, or influence over, government entities
the employer might be seeking as clients.43 FINRA also
provides, with respect to the “look back” provisions in
the proposed rules generally, the following illustrations of how the “look back” provisions work: if, for
example, the contributions were made more than two
years (or six months for new covered associates) prior
to the employee becoming a covered associate, the time

40

See Notice, 80 FR at 81655.

41

See id.

42

See id. (citing SEC Pay-to-Play Rule 206(4)–5(b)(2)).

43

See Notice, 80 FR at 81655.

109a
out has run. According to FINRA, however, if the
contribution was made less than two years (or six
months, as applicable) from the time the person becomes
a covered associate, the proposed rule would prohibit
the covered member that hires or promotes the contributing covered associate from receiving compensation
for engaging in distribution or solicitation activities on
behalf of an investment adviser from the hiring or
promotion date until the applicable period has run.45
FINRA also states that the “look back” provisions are
designed to prevent covered members from circumventing the rule by influencing the selection process by
hiring persons who have made political contributions.46
44

3. Exception for Certain Returned Contributions
Proposed Rule 2030(c)(3) would provide an exception from the proposed rule’s restrictions for covered
members if the restriction is due to a contribution
made by a covered associate and: (1) The covered member discovered the contribution within four months of
it being made; (2) the contribution was less than $350;
and (3) the contribution is returned within 60 days
of the discovery of the contribution by the covered
member.47 FINRA explains that, consistent with the
SEC Pay-to-Play Rule, this exception would allow a
covered member to cure the consequences of an inadvertent political contribution.48 The proposed rule would
also provide that covered members with 150 or fewer
44

See id.

45

See id.

46

See id. at 81653, 81655.

47

See id. at 81655.

48

See id.

110a
registered representatives would be able to rely on this
exception no more than two times per calendar year,
while covered members with more than 150 registered
representatives would be permitted to rely on this
exception no more than three times per calendar
year.49 Furthermore, a covered member would not be
able to rely on an exception more than once with
respect to contributions by the same covered associate
regardless of the time period, which is consistent with
similar provisions in the SEC Pay-to-Play Rule.50
D. Proposed Rule 2030(d): Prohibitions as
Applied to Covered Investment Pools
Proposed Rule 2030(d)(1) provides that a covered
member that engages in distribution or solicitation
activities with a government entity on behalf of a
covered investment pool51 in which a government
entity invests or is solicited to invest shall be treated
as though the covered member was engaging in or
seeking to engage in distribution or solicitation activities with the government entity on behalf of the
49

See id. FINRA notes that these limitations are consistent
with similar provisions in the SEC Pay-to-Play Rule 206(4)–
5(b)(3), although the SEC Pay-to-Play Rule includes different
allowances for larger and smaller investment advisers based on
the number of employees they report on Form ADV. See id. at
81655, n. 59.
50
51

See Notice, 80 FR at 81655.

See id. at 81654, n. 46 (proposed Rule 2030(g)(3) defines a
“covered investment pool” to mean: “(A) Any investment company
registered under the Investment Company Act that is an investment option of a plan or program of a government entity, or
(B) Any company that would be an investment company under
Section 3(a) of the Investment Company Act but for the exclusion
provided from that definition by either Section 3(c)(1), 3(c)(7) or
3(c)(11) of that Act”).

111a
investment adviser to the covered investment pool
directly.52 Proposed Rule 2030(d)(2) provides that an
investment adviser to a covered investment pool in
which a government entity invests or is solicited to
invest shall be treated as though that investment
adviser were providing or seeking to provide investment advisory services directly to the government
entity.53 FINRA states that proposed Rule 2030(d) is
modeled on a similar prohibition in the SEC Pay-toPlay Rule and would apply the prohibitions of the
proposed rule to situations in which an investment
adviser manages assets of a government entity through
a hedge fund or other type of pooled investment
vehicle.54 Therefore, according to FINRA, the provision
would extend the protection of the proposed rule to
public pension plans that access the services of investment advisers through hedge funds and other types of
pooled investment vehicles sponsored or advised by
investment advisers as a funding vehicle or investment

52

See Notice, 80 FR at 81654, n. 47 (FINRA notes that,
consistent with the SEC Pay-to-Play Rule, under the proposed
rule, if a government entity is an investor in a covered investment
pool at the time a contribution triggering a two-year time out is
made, the covered member must forgo any compensation related
to the assets invested or committed by the government entity
in the covered investment pool) (citing SEC Pay-to-Play Rule
Adopting Release, 75 FR 41018, 41047).
53

See Notice, 80 FR at 81654, n. 48 (FINRA states that it added
proposed Rule 2030(d)(2) in response to comments on Regulatory
Notice 14–50 to clarify, for purposes of the proposed rule, the
relationship between an investment adviser to a covered investment pool and a government entity that invests in the covered
investment pool).
54

See id. at 81654 (citing SEC Pay-to-Play Rule 206(4)–5(c)).

112a
option in a government-sponsored plan, such as a 529
plan.55
E. Proposed Rule 2030(e): Prohibition
Indirect Contributions or Solicitations

on

Proposed Rule 2030(e) provides that it shall be a
violation of Rule 2030 for any covered member or any
of its covered associates to do anything indirectly that,
if done directly, would result in a violation of the rule.56
FINRA states that this provision is consistent with a
similar provision in the SEC Pay-to-Play Rule57 and
would prevent a covered member or its covered associates from funneling payments through third parties,
including, for example, consultants, attorneys, family
members, friends or companies affiliated with the
covered member as a means to circumvent the proposed rule.58 FINRA also notes that, consistent with
guidance provided by the SEC in connection with SEC
Pay-to-Play Rule 206(4)–5(d), proposed Rule 2030(e)
would require a showing of intent to circumvent the
rule in order for such persons to trigger the two-year
“time out.”59

55

See Notice, 80 FR at 81654 (citing SEC Pay-to-Play Rule
Adopting Release, 75 FR 41018, 41044, which discusses the
applicability of the SEC Pay-to-Play Rule to covered investment
pools).
56

See Notice, 80 FR at 81654.

57

See id. (citing SEC Pay-to-Play Rule 206(4)–5(d)).

58

See Notice, 80 FR at 81654 (citing SEC Pay-to-Play Rule
Adopting Release, 75 FR 41018, 41044, which discusses direct
and indirect contributions or solicitations).
59

See Notice, 80 FR at 81654.

113a
F. Proposed Rule 2030(f): Exemptions
Proposed Rule 2030(f) includes an exemptive provision for covered members, modeled on the exemptive
provision in the SEC Pay-to-Play Rule, that would
allow covered members to apply to FINRA for an exemption from the proposed rule’s two-year time out.60 As
proposed, FINRA states that this provision would
allow FINRA to exempt covered members, either conditionally or unconditionally, from the proposed rule’s
time out requirement where the covered member discovers contributions that would trigger the compensation
ban after they have been made, and when imposition
of the prohibition would be unnecessary to achieve the
rule’s intended purpose.61 In determining whether to
grant an exemption, FINRA would take into account
varying facts and circumstances, outlined in the
proposed rule, that each application presents (e.g., the
timing and amount of the contribution, the nature of
the election, and the contributor’s apparent intent or
motive in making the contribution).62 FINRA notes
that this provision would provide covered members
with an additional avenue by which to seek to cure the
consequences of an inadvertent violation by the covered
member or its covered associates that falls outside the
limits of one of the proposed rule’s exceptions.63
G. Proposed Rule 2030(g): Definitions
The following is an overview of some of the key
definitions in FINRA’s proposed rules.

60

See id. at 81654–55.

61

See id. at 81655.

62

See id.

63

See id.

114a
1. Contributions
Proposed Rule 2030(g)(1) defines “contribution” to
mean any gift, subscription, loan, advance, deposit of
money, or anything of value made for the purpose of
influencing the election for a federal, state or local
office, and includes any payments for debts incurred
in such an election or transition or inaugural expenses
incurred by a successful candidate for state or local
office.64 FINRA states that this definition is consistent
with the SEC Pay-to-Play Rule.65 FINRA also states
that it would not consider a donation of time by an
individual to be a contribution, provided the covered
member has not solicited the individual’s efforts and
the covered member’s resources, such as office space
and telephones, are not used.66 FINRA further states
that it would not consider a charitable donation made
by a covered member to an organization that qualifies
for an exemption from federal taxation under the
Internal Revenue Code, or its equivalent in a foreign
jurisdiction, at the request of an official of a government entity to be a contribution for purposes of the
proposed rule.67
2. Covered Associates
Proposed Rule 2030(g)(2) defines the term ‘‘covered
associates” to mean: ‘‘(A) Any general partner, managing
member or executive officer of a covered member,
or other individual with a similar status or function;
(B) Any associated person of a covered member who
64

See id. at 81652.

65

See id.

66

See id. (citing SEC Pay-to-Play Rule Adopting Release, 75
FR 41018, 41030).
67

See Notice, 80 FR at 81652.

115a
engages in distribution or solicitation activities with a
government entity for such covered member; (C) Any
associated person of a covered member who supervises, directly or indirectly, the government entity
distribution or solicitation activities of a person in
subparagraph (B) above; and (D) Any political action
committee controlled by a covered member or a covered associate.”68 FINRA states that, as also noted in
the SEC Pay-to-Play Rule Adopting Release, contributions made to influence the selection process are typically
made not by the firm itself, but by officers and employees of the firm who have a direct economic stake in the
business relationship with the government client.69
For example, contributions by an ‘‘executive officer
of a covered member” (as defined in proposed Rule
2030(g)(5)) would trigger the two-year time out.70 FINRA
also notes that whether a person is an executive officer
would depend on his or her function or activities and
not his or her title.71 In addition, FINRA states that a
covered associate would include a PAC controlled by
the covered member or any of its covered associates,
as a PAC is often used to make political contributions.72 FINRA explains that it would consider a
‘‘covered member” (as defined in proposed Rule 2030(g)(4))
or its covered associates to have ‘‘control” over a PAC
if the covered member or covered associate has the

68

Id. at 81653, n. 37.

69

See id. (citing SEC Pay-to-Play Rule Adopting Release, 75
FR 41018, 41031).
70

See Notice, 80 FR at 81653.

71

See id.

72

See id.

116a
ability to direct or cause the direction of governance or
operations of the PAC.73
3. Official of a Government Entity
FINRA explains that an ‘‘official” (as defined in
proposed Rule 2030(g)(8)) of a ‘‘government entity” (as
defined in proposed Rule 2030(g)(7))—both of which
FINRA states are consistent with the SEC Pay-to-Play
Rule definitions—would include an incumbent, candidate
or successful candidate for elective office of a government entity if the office is directly or indirectly
responsible for, or can influence the outcome of, the
hiring of an investment adviser or has authority to
appoint any person who is directly or indirectly responsible for, or can influence the outcome of, the hiring of
an investment adviser.74 FINRA also explains that
government entities would include all state and local
governments, their agencies and instrumentalities, and
all public pension plans and other collective government funds, including participant-directed plans such
as 403(b), 457, and 529 plans.75
FINRA further states that the two-year time out
would be triggered by contributions, not only to elected
officials who have legal authority to hire the adviser,
but also to elected officials (such as persons with
appointment authority) who can influence the hiring
of the adviser.76 FINRA notes that it is the scope of
authority of the particular office of an official, not the
influence actually exercised by the individual that
would determine whether the individual has influence
73

See id.

74

See id. at 81652.

75

See id.

76

See id.

117a
over the awarding of an investment advisory contract
under the definition.77
H. Proposed Rule 4580: Recordkeeping Requirements
Proposed Rule 4580 would require covered members
that engage in distribution or solicitation activities
with a government entity on behalf of any investment
adviser that provides or is seeking to provide investment advisory services to such government entity to
maintain books and records that would allow FINRA
to examine for compliance with its pay-to-play rule.78
FINRA states that this provision is consistent with
similar recordkeeping requirements imposed on investment advisers in connection with the SEC Pay-to-Play
Rule.79 The proposed rule would also require covered
members to maintain a list or other record of certain
specific information.80 FINRA states that the proposed
rule would, among other things, require that the direct
and indirect contributions or payments made by the
covered member or any of its covered associates be
listed in chronological order and indicate the name
and title of each contributor and each recipient of the
contribution or payment, as well as the amount and
date of each contribution or payment, and whether the
contribution was the subject of the exception for
returned contributions in proposed Rule 2030.81

77

See id. (citing SEC Pay-to-Play Rule Adopting Release, 75
FR 41018, 41029 (discussing the terms ‘‘official” and ‘‘government
entity”).
78

See Notice, 80 FR at 81655.

79

See id. (citing Advisers Act Rule 204–2(a)(18) and (h)(1)).

80

See Notice, 80 FR at 81655–56.

81

See id.

118a
III. Summary of Comments
As noted above, the Commission received ten
comment letters, from nine different commenters, on
the proposed rule change.82 Six commenters generally
expressed support for FINRA’s proposal.83 However,
five of those commenters, while generally expressing
support for the goals of the proposal, also raised certain concerns regarding various aspects of the proposal
as drafted and recommended amendments to the
proposal.84 The other three commenters did not support
the proposed rule as drafted based largely on concerns
involving the First Amendment to the U.S. Constitution.85 These comments are summarized below.86 On
March 28, 2016, FINRA filed a letter with the Commission stating that it has considered the comments
received by the Commission, and that FINRA is not
intending to make changes to the proposed rule text in
response to the comments.87

82

See supra note 5. CAI submitted two separate comment
letters. See CAI Letter No. 1 and CAI Letter No. 2.
83

See CAI Letter No. 1; CAI Letter No. 2; FSI Letter; ICI
Letter; NAIFA Letter; NASAA Letter; and PIABA Letter.
84

See CAI Letter No. 1; CAI Letter No. 2; FSI Letter; NAIFA
Letter; NASAA Letter; and PIABA Letter. ICI did not raise
additional concerns, but states that it is satisfied with FINRA’s
revisions and responses to the proposal as drafted in Regulatory
Notice 14–50. See ICI Letter.
85

See CCP Letter; Moran Letter; and State Parties Letter.

86

For further detail, the comments that the Commission
received on the Notice are available on the Commission’s Web site
at http://www.sec.gov/comments/sr-finra-2015–056/finra2015
056.shtml.
87

See FINRA Response Letter, supra note 7.

119a
A. First Amendment Comments
As noted above, three commenters oppose the proposed rule as drafted based on First Amendment
concerns.88 One commenter simply noted that he thinks
FINRA may have some First Amendment issues and
suggested that FINRA consider raising the amount
and restricted political donations limitations to Congressional committee members that might influence
government decision-making in the relevant area.89
Another commenter urged the Commission to reject
FINRA’s proposal because, according to that commenter, it impermissibly restricts core political speech
in violation of the First Amendment.90 As more fully
explained in the commenter’s letter, this commenter
makes the following general arguments in support of
its position: (1) That FINRA’s proposal is not narrowly
tailored to achieve a compelling government interest
and thus cannot survive First Amendment scrutiny
and (2) that the Commission should examine FINRA’s
proposal on its own merits and should not take comfort
from the opinion of the United States Court of Appeals
for the DC Circuit in Blount v. SEC, 61 F.3d 938 (D.C.
Cir. 1995), which upheld MSRB’s Rule G–37 against a
First Amendment challenge.91 More specifically, this
commenter also makes the following arguments regarding FINRA’s proposal, including that: (i) The proposed
contributions limits are too low to allow citizens to
exercise their constitutional right to participate in the
political process; (ii) the rule discriminates between
88

See CCP Letter; Moran Letter; and State Parties Letter.

89

See Moran Letter.

90

See CCP Letter (also urging rejection of MSRB’s proposed
amendments to its pay-to-play rules, MSRB Rule G–37).
91

See CCP Letter.

120a
contributions to a candidate for whom an individual
is entitled to vote and other candidates and cannot
be squared with the Supreme Court’s decision in
McCutcheon v. FEC, 134 S. Ct. 1434 (2014); (iii) FINRA
did not consider less restrictive alternatives; (iv) the
“look-back” provisions are overbroad and insufficiently
tailored to support the governmental interest claimed
to be served by these rules; (v) the rules are preempted, with respect to federal elections, by the
Federal Election Campaign Act; (vi) the rules are
impermissibly vague and overbroad; and (vii) the rules
are overbroad as applied to independent brokerdealers and their registered representatives who operate
as independent contractors because they are not are
tailored to the manner in which services are provided
by financial advisors in the independent broker-dealer
model.92
Similarly, another commenter opposes FINRA’s proposed rule, stating that the proposal is unlawful and
unconstitutional.93 This commenter makes the following general arguments in support of its position. First,
the commenter claims that the proposal is unlawful as
it is ultra wires because Congress did not empower
entities like FINRA—nor agencies like the SEC—to
regulate federal political contributions and the proposal is a direct effort to deter member firms and their
employee from engaging in conduct that is protected
by the First Amendment and permitted by federal
statute.94 As more fully explained in the commenter’s
92

See id.

93

See State Parties Letter (attaching its opening and reply
appellate briefs filed in the Republican State Committee v. SEC,
No. 14–1194 on Dec. 22, 2014 and Feb. 4, 2015, respectively).
94

See State Parties Letter.

121a
letter, this commenter makes the following claims in
support of its argument, including that: (i) Campaign
finance regulation has long been the exclusive province of Congress and the Federal Election Commission;
(ii) Congress’ comprehensive regime of political contribution limits forecloses FINRA’s effort to regulate
the same conduct; and (iii) even assuming Congress’
contribution limits regime does not preclude FINRA
from enacting its own rules, the proposal exceeds
FINRA’s authority to issue rules “designed to prevent
fraudulent and manipulative acts and practices[.]”95
Second, the commenter also claims that the proposal
violates the First Amendment.96 In support of this
argument, the commenter states that FINRA cannot
show that the proposal’s restrictions are necessary to
further a sufficiently important interest, and do so in
a sufficient tailored manner.97 As more fully explained
in the commenter’s letter, this commenter makes the
following claims in support of its argument, including
that: (i) The proposal severely burdens First Amendment
rights and, therefore, FINRA bears an exceedingly
high burden in establishing the constitutionality of the
proposal; (ii) FINRA openly acknowledges that its
proposal is a broad prophylactic measure that deters
constitutionally protected conduct even when the government has no legitimate interest in doing so; (iii) the
Blount opinion overlooked the disparate impact that a
restriction like the FINRA proposal has on candidates;
and (iv) the Blount opinion also did not discuss the
constitutionality of anything comparable to the FINRA
proposal’s prohibition on coordinating or soliciting
contributions “to a political party of a State or locality
95

See id. (quoting 15 U.S.C. 78o–3(b)(6)).

96

See State Parties Letter.

97

See id.

122a
where the investment adviser is providing or seeking
to provide investment advisory services to a government entity.”98
Although not expressly opposing the proposed rules
on First Amendment grounds, two other commenters
also raise First Amendment comments.99 One of these
commenters submits that Rule 2030 is not closely
drawn in terms of the conduct it prohibits, the persons
who are subject to its restrictions, and the circumstances in which it is triggered.100 This commenter
claims that the proposed rule’s ambiguity may contravene one of the “key animating principles of the
Commission in crafting the [SEC Pay-to-Play Rule]”
which, according to the commenter, was to ensure its
rule was narrowly tailored to serve a compelling
governmental interest, namely, the elimination of payto-play practices by investment advisers by preventing
fraudulent acts and practices in the market for the
provision of investment advisory services to government entities.101 Another commenter states that the
proposed rules may “inadvertently capture activity
that does not present the risk of quid pro quo
corruption,” and this commenter believes that FINRA
must “define the contours of its proposal as clearly and
98

See id.

99

See CAI Letter No. 1 and FSI Letter.

100

See CAI Letter No. 1 (arguing that “[f]ailing to meet this
objective of the [SEC Pay-to-Play Rule] would appear to be fatal
to Rule 2030 inasmuch as the [SEC Pay-to-Play Rule] requires
the Commission to find, by order, that Rule 2030 meets the
objectives of the [SEC Pay-to-Play Rule]”).
101

See CAI Letter No. 1 (stating that in adopting the SEC Payto-Play Rule, “the Commission demonstrated its sensitivity to,
and careful consideration of, potential First Amendment concerns
because of the Rule’s potential impact on political contributions”).

123a
distinctly as possible to avoid an unnecessary limitation on one’s First Amendment rights, especially in the
area of political speech.”102
B. Variable Annuity-Related Comments
Two commenters raised concerns regarding the application of the proposed rules to variable annuities.103
Both of these commenters requested, as a threshold
matter, that FINRA confirm that Rule 2030 would not
apply to variable annuities.104 In support of one of
these commenter’s request that the proposed rule should
not apply to the sales of variable annuity contracts
which are supported by a separate account that invests
in mutual funds, the commenter argues that the
nature of variable annuities and the way investment
options are selected does not implicate the investment
advisory solicitation activities contemplated by the
SEC Pay-to-Play Rule.105 This same commenter claims
that the relationship between a variable annuity contract holder and the investment adviser to a mutual
fund supporting the variable annuity does not rise to
a level such that it should implicate a pay-to-play
obligation.106 Another one of these commenter’s claims,
in support of its argument that Rule 2030 should not
apply to variable annuities, is that compliance with
102

FSI Letter.

103

See CAI Letter No. 1 and FSI Letter. See also CAI Letter
No. 2 (reflecting CAI’s suggested revisions to the certain language
in some of FINRA’s proposed rules).
104

See CAI Letter No. 1 and FSI Letter.

105

See FSI Letter (claiming that applying the proposed rule to
variable annuities will significantly increase the compliance
burden and as such may limit the options our members make
available to 403(b) and 457 plans).
106

See FSI Letter.

124a
Rule 2030 would be impractical for broker-dealers
selling variable annuities in the government market.107
This commenter also argues, for example, that a
covered member selling a variable annuity, particularly where the separate account is a registered as a
unit investment trust, cannot fairly be seen to be
engaging in solicitation activities on behalf of all of the
investment advisers and sub-advisers that manage
the covered investment pools available as investment
options under the separate account and subaccounts.108
One of these commenters also requests that proposed Rule 2030 be modified to, among other things,
clarify that the distribution of a two-tiered product
such as a variable annuity is not solicitation activity
for an investment adviser and sub-advisers managing
the funds available as investment options.109 Furthermore, this same commenter states that if FINRA
or the Commission determines that broker-dealers
selling variable annuities constitute solicitation activities for purposes of Rule 2030, that determination
raises a host of interpretive questions that, in this
commenter’s view, will require further guidance from
FINRA or the Commission.110
C. Comments Regarding the Scope of the
Proposed Rule
Two commenters also expressed concern that proposed rule 2030(d) would, in their view, re-characterize
“ordinary” or “customary” distribution activities for
covered investment pools as the solicitation of clients
107

See CAI Letter No. 1.

108

See id.

109

See id.

110

See id.

125a
on behalf of the investment adviser to the covered
investment pools.111 One of these commenters requests
that such customary distribution activity by member
firms for covered investment pools sold to government
entities not be treated as solicitation activity for an
investment adviser for purposes of Rule 2030 simply
because an investment adviser provides advisory
services to a covered investment pool that is available
as an investment option.112 As more fully explained
in the commenter’s letter, the commenter claims, for
example, that proposed Rule 2030(d) would recast
“traditional” broker-dealer activity (i.e., the offer and
sale of covered investment pool securities pursuant
to a selling or placement agent agreement) into
something it is not: The solicitation of investment
advisory services on behalf of an investment adviser.113
This commenter also claims that the decision in
Goldstein v. SEC, 451 F.3d 873 (D.C. Cir. 2006) and
the Commission staff’s interpretive position under
Advisers Act Rule 206(4)–3 make proposed Rule
2030(d) impractical, as it would put selling firms in a
contradictory position under FINRA rules and Advisers
Act rules.114 This commenter states that a brokerdealer that offers and sells interests in a mutual fund
or private fund cannot be characterized as soliciting
on behalf of the investment adviser to a covered
investment pool.115
Similarly, another commenter expressed concern
with the apparent application of proposed Rule 2030(d)
111

See CAI Letter No. 1 and FSI Letter.

112

See CAI Letter No. 1.

113

See id.

114

See id.

115

See id.

126a
to traditional brokerage sales of mutual funds and
variable annuities to participant-directed governmentsponsored retirement plans.116 As more fully explained
in the commenter’s letter, this commenter states that
it continues to be concerned that the provisions in
proposed Rule 2030(d) “go beyond that which is required
under Rule 206(4)–5(a)(2)(i) and Rule 206(4)–5(c) to
the detriment of investors.”117 This same commenter
also claims that mutual fund sales, as well as variable
annuity sales, should be excluded, claiming that the
proposed rules serve to redefine the sale of mutual
funds as solicitation by a broker-dealer on behalf of an
investment adviser and also conflicts with the realities
of conventional mutual fund selling agreements.118
D. Comments Regarding the Inclusion of
Distribution Activity in the Proposed Rule
One commenter generally expressed concern that
Rule 2030 is unnecessarily ambiguous regarding the
term distribution activities in Rule 2030(a).119 This
commenter claims that it is unclear what distribution
activities “with” a government entity would be prohibited, what compensation is covered by the proposed
rule and who must pay it, and when a member firm
might be deemed to be acting “on behalf of” an
investment adviser.120 For example, this commenter
states that the ambiguity of Rule 2030 may result in
its misapplication in a variety of contexts.

116

See FSI Letter.

117

FSI Letter.

118

See id.

119

See CAI Letter No. 1.

120

See id.

127a
This commenter also claims that, while the SEC
Pay-to-Play Rule requires regulated persons to be
subject to rules that prohibit them from engaging in
certain distribution activities if certain political contributions have been made, Rule 206(4)–5 does not
mandate the use of the term “distribution” in describing the conduct prohibited by the proposed rule, and
suggested revised rule text reflecting that assertion.121
The commenter believes that its suggested revisions
would, among other things, eliminate the potential
concern that a selling firm might violate Rule 2030
unknowingly due to being deemed to be acting on
behalf of investment advisers or sub-advisers of
underlying funds with which it has no relationship.122
E. Comments Regarding Defined Terms Used in
the Proposed Rules
Two commenters requested clarification of certain
defined terms used in the proposed rules.123 One commenter urged FINRA, or the Commission, to clarify
the meaning of the term ‘‘instrumentality” as it is
used in the definition of ‘‘government entity.”124 This
commenter claims that, without additional guidance,
covered members will continue to struggle with whether
a contribution to a given entity should be treated as a
121

See CAI Letter No. 1 and CAI Letter No. 2 (reflecting CAI’s
suggested revisions to certain language in some of FINRA’s proposed rules).
122

See CAI Letter No. 1 (claiming that the commenter’s suggested revisions would not result in any inappropriate narrowing
of the scope of Rule 2030).
123
124

See CAI Letter No. 1 and NAIFA Letter.

See CAI Letter No. 1 (claiming that CAI’s members have
struggled to understand the contours of this term in the context
of the SEC Pay-to-Play Rule).

128a
contribution to an instrumentality of a state or state
agency, thus triggering the two-year time out.125 This
same commenter also asked for clarification as to
whether each and every ‘‘contribution” (as defined in
proposed Rule 2030(g)(1)) is, by definition, also a
‘‘payment” (as defined in proposed Rule 2030(g)(9)).126
Another commenter requests that FINRA clarify the
definition of a ‘‘covered associate” and clarify and
delineate the positions that would qualify someone as
a covered ‘‘official.”127 This commenter clams that, in
response to the same definition of ‘‘covered associate”
as used in the SEC Pay-to-Play Rule, many investment advisers and broker dealers have classified all of
their representatives as covered associates regardless
of whether they actually engage in the solicitation
activity specified in the definition.128 This commenter
believes that additional clarification on when an associated person of a covered member would (or would
not) qualify as a ‘‘covered associate” would ease compliance burdens, curtail overly broad limits on legitimate
political activity, and increase the consistency of procedures amongst member firms who seek to comply
with both the letter and the spirit of the proposed
rule.129 This same commenter requests additional details
or guidance from the Commission with respect to this
125

See id.

126

See CAI Letter No. 1 (discussing Notice, 80 FR at 81654,
n. 41: ‘‘Consistent with the SEC Pay-to-Play Rule, FINRA is
including the broader term ‘‘payments,” as opposed to ‘‘contributions,” to deter a cover member from circumventing the proposed
rule’s prohibitions by coordinating indirect contributions to
government officials by making payments to political parties”).
127

See NAIFA Letter.

128

See id.

129

See id.

129a
definition of ‘‘official” because, according to that commenter, that definition has caused, and will continue
to spark confusion over exactly what offices subject the
holder to be classified as an ‘‘official” given that the
term is defined the same way in the SEC Pay-to-Play
Rule.130
F. Comments Regarding PAC Contributions
That Trigger the Anti-Circumvention Provision of the Proposed Rule
This commenter also claims that statements made
by FINRA in the Notice regarding the proposed rule’s
anti-circumvention provision, proposed Rule 2030(e),
combined with statements made in SEC staff guidance
concerning whether contributions through PACs would
violate the SEC Pay-to-Play Rule and section 208(d) of
the Advisers Act, have the ability to chill contributions
to PACs.131 This commenter claims, for example, that
prospective contributors who simply want to donate to
a PAC have been hesitant to or restricted from doing
so out of fear that they may be making an indirect
contribution in violation of the SEC Pay-to-Play Rule.132
Accordingly, this commenter requests further guidance
from the Commission on the factors by which contributions to PACs would or would not trigger the
anti-circumvention provision of the proposed rule.133
G. Comments Regarding the De Minimis
Exception Under Proposed Rule 2030(c)
Several commenters raised concerns regarding the
de minimis contribution exception under proposed
130

See id.

131

See id.

132

See id.

133

See id.

130a
Rule 2030(c)(1). One commenter requested that the
$350 and $150 amounts ‘‘be raised substantially” in
both SEC Pay-to-Play Rule and in proposed Rule
2030(c)(1), and further requested that the $350 limitation
on the proposed exception for returned contributions
under proposed Rule 2030(c)(3), be eliminated in both
the SEC Pay-to-Play Rule and in FINRA’s proposed
rule.134
H. Comments Regarding the Grandfathering of
Existing Accounts and Contracts
One commenter requested that FINRA clarify the
application of the proposed rule to existing government entity accounts or contracts.135 This commenter
requests that, in the event that FINRA does not
amend the application of its proposed rule to covered
investment pools (as requested by this same commenter), FINRA apply the proposed rule only to accounts
and variable contracts opened after the effective date.136
I. Comments Regarding Application of the
Proposed Rules to the Independent Business
Model
One commenter claims that its members will face
difficulties in attempting to comply with the proposed
rules, and that these difficulties stem, primarily, from
a requirement for independent firms to implement
a rule that is premised on the notion that solicitation
of clients is performed pursuant to a centralized
process controlled by the management of a registered

134

See CAI Letter No. 1.

135

See FSI Letter.

136

See id.

131a
investment adviser. This same commenter claims
that the lack of clarity as to the application of the SEC
Pay-to-Play Rule to its members’ business model, and
the scope of government officials that trigger the
requirements, has led some firms to adopt aggressive
compliance programs that prohibit political contributions.138 Accordingly, this commenter claims that absent
clarity concerning the application of the proposed rule
to the brokerage services provided to 403(b) and 457
plans, its members will be faced with the choice of
either adopting similarly aggressive policies or prohibiting sales to government-sponsored retirement
plans.139
137

J. Comments Regarding Proposed Rule 4580:
Books and Records Requirements
One commenter claims that it continues to believe
that not all payments to political parties or PACs
should have to be maintained under the books and
records requirements of proposed Rule 4580.140 Rather,
this commenter believes that only payments to
political parties or PACs where the covered member or
a covered associate (i) directs the political party or
PAC to make a contribution to an official of a government entity which the covered member is soliciting on
behalf of an investment adviser or (ii) knows that the
political party or PAC is going to make a contribution
to an official of a government entity which the covered
member is soliciting on behalf of an investment adviser,
137

See FSI Letter (claiming FSI believes that the SEC Pay-toPlay Rule has inadvertently captured non-corrupting activity and
it fears that the proposed rule may do the same).
138

See id.

139

See id.

140

See CAI Letter No. 1.

132a
should have to be maintained.141 This commenter
states that, while it appreciates FINRA’s rationale for
proposed Rule 4580, it believes the costs and burdens
associated with the request far outweigh the benefits
to FINRA in ensuring compliance with the rule and
will lead to periodic “fishing expeditions” by FINRA
examiners.142
K. Comments Requesting More Stringent Requirements in the Proposed Rules
Two commenters suggested including more stringent
requirements in FINRA’s proposed rule.143 First, both
commenters request that FINRA expand the applicability of its proposed rules to include state-registered
investment advisers.144 More specifically, one of these
commenters suggests that FINRA include stateregistered investment advisers in its definition of
“investment adviser” for the purposes of its proposed
rule.145 These commenters note, for example, that
FINRA states in the Notice that relatively few stateregistered investment advisers manage public pension
plans.146 However, one of these commenters believes
that this alone does not justify permitting FINRAmember firms that do manage public pension plans,
but happen to work with smaller investment advisers,
to engage in pay-to-play activities with no repercussions.147 One of these commenters also claims that
141

See id.

142

See id.

143

See NASAA Letter and PIABA Letter.

144

See NASAA Letter and PIABA Letter.

145

See NASAA Letter.

146

See NASAA Letter and PIABA Letter.

147

See PIABA Letter.

133a
state-registered investment advisers now include
larger firms and, therefore, it is much more likely that
state-registered investment advisers advise or manage
public pension plans or similar funds.148
Second, these same two commenters request that
FINRA include a mandatory disgorgement provision
for violations of its proposed rule.149 These commenters
state that they are disappointed that FINRA removed
the mandatory disgorgement provisions from the
proposal as outlined in FINRA’s Regulatory Notice 14–
50.150 These commenters believe that a mandatory
disgorgement provision would act as a significant
deterrent to engaging in pay-to-play schemes, and it
should remain in FINRA’s final rule.151
Finally, one of these commenters believes that the
current two-year cooling-off period in the proposal
should be at least four years.152 This commenter
believes that the two-year cooling-off period does not
adequately reduce the incentive for FINRA member
firms to make political contributions in order to obtain
pay-to-play advantages.153 This commenter states
FINRA should start with the most comprehensive
rule, and that it would welcome the deterrent effect of
a four-year cooling off period.154

148

See NASAA Letter.

149

See NASAA Letter and PIABA Letter.

150

See NASAA Letter and PIABA Letter.

151

See NASAA Letter and PIABA Letter.

152

See PIABA Letter.

153

See id.

154

See id.

134a
IV. Proceedings To Determine Whether To Approve
or Disapprove SR–FINRA–2015–056 and
Grounds for Disapproval Under Consideration
The Commission is instituting proceedings pursuant to Exchange Act Section 19(b)(2)(B) to determine
whether the proposed rule change should be approved
or disapproved.155 Institution of proceedings appears
appropriate at this time in view of the legal and
policy issues raised by the proposal. As noted above,
institution of proceedings does not indicate that the
Commission has reached any conclusions with respect
to any of the issues involved. Rather, the Commission
seeks and encourages interested persons to comment
on the proposed rule change, including the comments
received, and provide the Commission with additional
comment to inform the Commission’s analysis as to
whether to approve or disapprove the proposal.
Pursuant to Exchange Act Section 19(b)(2)(B),156 the
Commission is providing notice of the grounds for
disapproval under consideration. The Commission is
instituting proceedings to allow for additional analysis
of, and input from, commenters with regard to the
proposed rule change’s consistency with Section 15A of
the Exchange Act, and in particular Sections 15A(b)(6)

155

15 U.S.C. 78s(b)(2). Exchange Act Section 19(b)(2)(B) provides that proceedings to determine whether to disapprove a
proposed rule change must be concluded within 180 days of the
date of publication of notice of the filing of the proposed rule
change. The time for conclusion of the proceedings may be
extended for up to an additional 60 days if the Commission finds
good cause for such extension and publishes its reasons for so
finding or if the self-regulatory organization consents to the
extension.
156

15 U.S.C. 78s(b)(2)(B).

135a
and 15A(b)(9). Exchange Act Section 15A(b)(6)157 requires,
among other things, that FINRA rules must be
designed to prevent fraudulent and manipulative acts
and practices, to promote just and equitable principles
of trade, and, in general, to protect investors and the
public interest. In addition, Exchange Act Section
15A(b)(9)158 requires that FINRA rules not impose any
unnecessary or inappropriate burden on competition.
V. Request for Written Comments
The Commission requests that interested persons
provide written submissions of their views, data, and
arguments with respect to the issues raised by the
proposed rule change. In particular, the Commission
invites the written views of interested persons on
whether the proposed rule change is inconsistent with
Sections 15A(b)(6) and 15A(b)(9), or any other provision, of the Exchange Act, or the rules and regulations
thereunder.
Although there do not appear to be any issues
relevant to approval or disapproval that would be
facilitated by an oral presentation of views, data, and
arguments, the Commission will consider, pursuant to
Rule 19b–4, any request for an opportunity to make an
oral presentation.159

157

15 U.S.C. 78o–3(b)(6).

158

15 U.S.C. 78o–3(b)(9).

159

Exchange Act Section 19(b)(2), as amended by the Securities
Acts Amendments of 1975, Pub. L. 94–29, 89 Stat. 97 (1975),
grants the Commission flexibility to determine what type of
proceeding—either oral or notice and opportunity for written
comments—is appropriate for consideration of a particular
proposal by a self-regulatory organization. See Securities Acts
Amendments of 1975, Report of the Senate Committee on

136a
Interested persons are invited to submit written
data, views, and arguments by April 25, 2016 concerning whether the proposed rule change should be
approved or disapproved. Any person who wishes to
file a rebuttal to any other person’s submission must
file that rebuttal by May 19, 2016. Comments may be
submitted by any of the following methods:
Electronic Comments
• Use the Commission’s Internet comment form
(http://www.sec.gov/rules/sro.shtml); or
• Send an email to rule-comments@sec.gov.
Please include File Number SR–FINRA–2015–
056 on the subject line.
Paper Comments
• Send paper comments in triplicate to Secretary,
Securities and Exchange Commission, 100 F
Street NE., Washington, DC 20549–1090.
All submissions should refer to File Number SR–
FINRA–2015–056. This file number should be included
on the subject line if email is used. To help the
Commission process and review your comments more
efficiently, please use only one method. The Commission will post all comments on the Commission’s
Internet Web site (http://www.sec.gov/rules/sro.shtml).
Copies of the submission, all subsequent amendments,
all written statements with respect to the proposed
rule change that are filed with the Commission, and
all written communications relating to the proposed
rule change between the Commission and any person,
other than those that may be withheld from the public
Banking, Housing and Urban Affairs to Accompany S. 249,
S. Rep. No. 75, 94th Cong., 1st Sess. 30 (1975).

137a
in accordance with the provisions of 5 U.S.C. 552, will
be available for Web site viewing and printing in the
Commission’s Public Reference Room, 100 F Street
NE., Washington, DC 20549, on official business days
between the hours of 10:00 a.m. and 3:00 p.m. Copies
of such filing also will be available for inspection and
copying at the principal office of FINRA. All comments
received will be posted without change. The Commission does not edit personal identifying information
from submissions. You should submit only information
that you wish to make publicly available.
All submissions should refer to File Number SR–
FINRA–2015–056 and should be submitted on or
before April 25, 2016. If comments are received, any
rebuttal comments should be submitted by May 19,
2016.
For the Commission, by the Division of Trading and
Markets, pursuant to delegated authority.160
Robert W. Errett,
Deputy Secretary.
[FR Doc. 2016–07513 Filed 4–1–16; 8:45 am]
BILLING CODE 8011–01–P

160

17 CFR 200.30–3(a)(12); 17 CFR 200.30–3(a)(57).

138a
APPENDIX F
SECURITIES AND EXCHANGE COMMISSION
(Release No. 34-78683;
File No. SR-FINRA-2015-056)
Self-Regulatory Organizations; Financial
Industry Regulatory Authority, Inc.;
Order Approving a Proposed Rule Change to
Adopt FINRA Rule 2030 and FINRA Rule 4580 to
Establish “Pay-To-Play” and Related Rules
August 25, 2016
I. Introduction
On December 16, 2015, Financial Industry Regulatory Authority, Inc. (“FINRA”) filed with the Securities
and Exchange Commission (“SEC” or “Commission”),
pursuant to Section 19(b)(1) of the Securities Exchange Act of 1934 (“Act” or “Exchange Act”)1 and Rule
19b-4 thereunder,2 a proposed rule change to adopt
FINRA Rules 2030 (Engaging in Distribution and
Solicitation Activities with Government Entities) and
4580 (Books and Records Requirements for Government
Distribution and Solicitation Activities) to establish
“pay-to-play”3 and related rules that would regulate
the activities of member firms that engage in distribution or solicitation activities for compensation with
1

15 U.S.C. 78s(b)(1).

2

17 CFR 240.19b-4.

3

“Pay-to-play practices,” “play-to-play arrangements” or “playto-play activities,” as referred to throughout this order, typically
involve a person making cash or in-kind political contributions
(or soliciting or coordinating others to make such contributions)
to help finance the election campaigns of state or local officials or
bond ballot initiatives as a quid pro quo for the receipt of
government contracts.

139a
government entities on behalf of investment advisers.
Member firms serving this role—sometimes referred
to as “placement agents” or “solicitors” (collectively
referred to herein as “placement agents”)—assist
investment advisers with obtaining advisory business
from such entities. In this context, pay-to-play has
historically presented a problem, including when
investment advisers retain placement agents who
have made contributions to government officials who
are responsible for, or can influence the outcome of,
the selection process for investment advisers. When
investment advisers are chosen on the basis of a
placement agent’s political contributions, rather than
on, for example, the adviser’s merit, performance, or
costs, the market and selection process for advisers
becomes distorted. Ultimately, pay-to-play harms investors and the public interest if government entities,
including public pension plans, and their beneficiaries
receive inferior services or pay higher fees.
The proposed rule change was published for comment in the Federal Register on December 30, 2015.4
The Commission received ten comment letters, from
nine different commenters, in response to the Notice.5
4

See Exchange Act Rel. No. 76767 (Dec. 24, 2015), 80 FR 81650
(Dec. 30, 2015) (File No. SR-FINRA-2015-056) (“Notice”).
5

See Letters from David Keating, President, Center for
Competitive Politics (“CCP”), dated Jan. 20, 2016 (“CCP Letter
1”); Clifford Kirsch and Michael Koffler, Sutherland Asbill &
Brennan LLP, for the Committee of Annuity Insurers (“CAI”),
dated Jan. 20, 2016 (“CAI Letter 1”); Clifford Kirsch and Michael
Koffler, Sutherland Asbill & Brennan LLP, for the CAI, dated
Feb. 5, 2016 (“CAI Letter 2”); David T. Bellaire, Executive Vice
President and General Counsel, Financial Services Institute
(“FSI”), dated Jan. 20, 2016 (“FSI Letter 1”); Tamara K. Salmon,
Assistant General Counsel, Investment Company Institute
(“ICI”), dated Jan. 20, 2016 (“ICI Letter”); Patrick J Moran, Esq.,

140a
On February 8, 2016, FINRA extended the time period
by which the Commission must approve the proposed
rule change, disapprove the proposed rule change, or
institute proceedings to determine whether to approve
or disapprove the proposed rule change to March 29,
2016.6 On March 28, 2016, FINRA filed a letter with
the Commission stating that it considered the comments received by the Commission in response to the
Notice, and that FINRA is not intending to make
changes to the proposed rule text in response to the
comments.7
On March 29, 2016, pursuant to delegated authority,
the Commission issued an order instituting proceedings pursuant to Section 19(b)(2)(B) of the Act8 to
determine whether to approve or disapprove the prodated Dec. 29, 2015 (“Moran Letter”); Gary A. Sanders, Counsel
and Vice President, National Association of Insurance and
Financial Advisors (“NAIFA”), dated Jan. 20, 2016 (“NAIFA
Letter”); Judith M. Shaw, President, North American Securities
Administrators Association, Inc. (“NASAA”), dated Jan. 20, 2016
(“NASAA Letter”); Hugh D. Berkson, President, Public Investors
Arbitration Bar Association (“PIABA”), dated Jan. 20, 2016
(“PIABA Letter”); and H. Christopher Bartolomucci and Brian J.
Field, Bancroft PLLC, for the New York Republican State
Committee and the Tennessee Republican Party (“State Parties”),
dated Jan. 20, 2016 (“State Parties Letter 1”). The comment
letters filed with the Commission in connection with the proposed
rule change are available at: http://www.sec.gov/comments/srfinra-2015-056/finra2015056.shtml.
6

See Letter from Victoria Crane, Associate General Counsel,
FINRA, to Lourdes Gonzalez, Assistant Chief Counsel—Sales
Practices, Division of Trading and Markets, Commission, dated
Feb. 8, 2016.
7

See Letter from Victoria Crane, Associate General Counsel,
FINRA, to Brent J. Fields, Secretary, Commission, dated Mar.
28, 2016 (“FINRA Response Letter 1”).
8

15 U.S.C. 78s(b)(2)(B).

141a
posed rule change, and solicited additional comment.9
The Commission received an additional four comments
regarding the proceedings,10 including two letters
requesting an opportunity to make an oral presentation in the proceedings.11 On July 6, 2016, FINRA
submitted a letter responding to all comments and to
the Order Instituting Proceedings.12 On June 21, 2016,
FINRA extended the time period by which the
Commission must determine whether to approve or
disapprove the proposed rule change to August 26,
2016.13
9

See Securities Exchange Act Release No. 77465 (Mar. 29, 2016),
81 FR 19260 (Apr. 4, 2016) (“Order Instituting Proceedings”).
10

See Letters from David T. Bellaire, Executive Vice President
and General Counsel, FSI, dated Apr. 27, 2016 (“FSI Letter 2”);
Jason Torchinsky, Holtzman Vogel Josefiak Torchinsky PLLC, on
behalf of the Georgia Republican Party and the State Parties,
dated April 12, 2016, filed April 21, 2016 (“State Parties Letter
2”); Allen Dickerson, Legal Director, CCP, dated April 21, 2016
(“CCP Letter 2”); Allen Dickerson, Legal Director, CCP, dated
April 15, 2016 (“CCP Letter 3”).
11

See CCP Letter 2; State Parties Letter 2. The Commission
denied both requests. See Letter from Brent J. Fields, Secretary,
Commission, to Allen Dickerson, Legal Director, CCP dated
July 11, 2016; Brent J. Fields, Secretary, Commission, to Jason
Torchinsky, Holtzman Vogel Josefiak Torchinsky PLLC, on
behalf the State Parties, dated July 11, 2016.
12

See Letter from Victoria Crane, Associate General Counsel,
FINRA, to Brent J. Fields, Secretary, Commission, dated July 6,
2016 (“FINRA Response Letter 2”). Both of FINRA’s Responses
Letters are available on FINRA’s website at http://www.finra.org,
at the principal office of FINRA, and at the Commission’s Public
Reference Room.
13

See Letter from Victoria Crane, Associate General Counsel,
FINRA, to Lourdes Gonzalez, Assistant Chief Counsel—Sales
Practices, Division of Trading and Markets, Commission, dated
June 21, 2016.

142a
This order approves the rule change as proposed.
Section II provides an overview of the rule and summarizes the rule as described by FINRA in its filing
and as published in the Notice, Section III is a
summary of the comments received and FINRA’s
responses, and Section IV contains the Commission’s
findings in approving the proposal.
II. Description of the Proposed Rule Change14
As described more fully in the Notice, FINRA
modeled proposed Rule 203015 on the Commission’s
Rule 206(4)-5 under the Investment Advisers Act of
1940 (“Advisers Act”), which addresses pay-to-play
practices by investment advisers (the “SEC Pay-toPlay Rule”).16

14

The proposed rule change, as described in Item II, is
excerpted, in part, from the Notice, which was substantially prepared by FINRA. See supra note 4. A more detailed description of
the proposed rule change is in the Notice.
15

See Notice, 80 FR at 81650–51 (citing Advisers Act Release
No. 3043 (July 1, 2010), 75 FR 41018 (July 14, 2010) (Political
Contributions by Certain Investment Advisers) (“SEC Pay-toPlay Rule Adopting Release”)).
16

FINRA also published the proposed rule change in Regulatory Notice 14-50 (Nov. 2014) (“Regulatory Notice 14-50”) and
sought comment on the proposal. FINRA states that commenters
were generally supportive of the proposed rule change, but also
expressed some concerns. As such, FINRA revised the proposed
rule change as published in Regulatory Notice 14-50 in response
to those comments. As described more fully in the Notice, FINRA
believes that the revisions it made more closely align FINRA’s
proposed rule with the SEC Pay-to-Play Rule and should help
reduce cost and compliance burden concerns raised by commenters. See Notice, 80 FR at 81651 n.16.

143a
The SEC Pay-to-Play Rule, in part, prohibits any
investment adviser covered under the rule17 or any of
its covered associates from providing or agreeing to
provide, directly or indirectly, payment to any person
to solicit a government entity for investment advisory
services on behalf of such investment adviser unless
such person is a “regulated person,”18 as defined under
the rule, or an executive officer, general partner, managing member, or employee of the investment adviser.19
A “regulated person,” as defined in the SEC Pay-toPlay Rule, includes a registered broker-dealer, provided that: (a) FINRA rules prohibit member firms
from engaging in distribution or solicitation activities
if certain political contributions have been made to
certain public officials; and (b) the Commission finds,
by order, that such rules impose substantially equivalent or more stringent restrictions on member firms
than the SEC Pay-to-Play Rule imposes on investment
advisers and that such rules are consistent with the
objectives of the SEC Pay-to-Play Rule.20
17

The SEC Pay-to-Play Rule applies to investment advisers
registered or required to be registered with the Commission,
foreign private advisers that are unregistered in reliance on
Section 203(b)(3) of the Advisers Act, and exempt reporting
advisers as defined in Rule 204-4(a) under the Advisers Act. See
17 CFR 275.206(4)-5(a)(2).
18

See Notice, 80 FR at 81650 n.6, 81656. See also 17 CFR
275.206(4)-5(a)(2)(i)(A).
19

See 17 CFR 275.206(4)-5(a)(2)(i)(B) (or, in each case, a person
with a similar status or function to an executive officer, general
partner, or managing member of the investment adviser).
20

See Notice, 80 FR at 81650 n.6 (citing 17 CFR 275.206(4)5(f)(9)). The definition of “regulated person” also includes SECregistered investment advisers and SEC-registered municipal
advisors, subject to specified conditions. The Commission amended
the SEC Pay-to-Play Rule to add SEC-registered municipal

144a
In light of this regulatory framework, FINRA proposed its own pay-to-play rule to enable its member
firms to continue to engage in distribution and solicitation activities for compensation with government entities
on behalf of investment advisers, while subjecting its
member firms to appropriate safeguards that will discourage them from engaging in pay-to-play practices.21
Because one of the objectives of FINRA’s proposal is to
satisfy the “regulated person” definition in the SEC
Pay-to-Play Rule, the elements of and terms used in
FINRA’s proposal are substantially equivalent to and
consistent with the objectives of the SEC Pay-to-Play
Rule.22 As discussed below, this threshold objective
precludes many of the modifications proposed by commenters given that a more permissive FINRA proposal
would not meet the stringency requirements of the
SEC Pay-to-Play Rule. FINRA believes that its proposed rule would establish a comprehensive regime to
regulate the activities of its member firms that engage
in distribution or solicitation activities with government entities on behalf of investment advisers, and
would impose substantially equivalent restrictions
on FINRA member firms engaging in distribution or

advisors to the definition of “regulated persons.” See Rules
Implementing Amendments to the Investment Advisers Act of
1940, Investment Advisers Act Rel. No. 3221 (June 22, 2011), 76
FR 42950 (July 19, 2011).
21
22

See Notice, 80 FR at 81651, 81656.

On August 25, 2016, the Commission issued a notice stating
that it intends to issue an order pursuant to Section 206 of the
Advisers Act and SEC Pay-to-Play Rule 206(4)-5 finding that
FINRA’s proposed Rule 2030 (i) imposes substantially equivalent
or more stringent restrictions on broker-dealers than the SEC
Pay-to-Play Rule imposes on investment advisers and (ii) is
consistent with the objectives of the SEC Pay-to-Play Rule.

145a
solicitation activities to those that the SEC Pay-toPlay Rule imposes on investment advisers.23
Furthermore, FINRA’s proposed Rule 4580 would
impose recordkeeping requirements on FINRA member
firms in connection with its pay-to-play rule that
would allow examination of member firms’ books and
records for compliance with Rule 2030.24 FINRA believes
that proposed Rule 4580 is consistent with similar
recordkeeping requirements imposed on investment
advisers in connection with the SEC Pay-to-Play Rule.25
The following is an overview of the key provisions in
FINRA’s proposed rules, as described by FINRA in the
Notice.
A. Proposed Rule 2030(a): Limitation on Distribution and Solicitation Activities
Proposed Rule 2030(a) would prohibit a covered
member from engaging in distribution or solicitation
activities for compensation with a government entity
on behalf of an investment adviser that provides or is
seeking to provide investment advisory services to
such government entity within two years after a
contribution to an official of the government entity is
made by the covered member or a covered associate,
including a person who becomes a covered associate
within two years after the contribution is made.26
FINRA states that the terms and scope of the
prohibitions in proposed Rule 2030(a) are modeled on

23

See Notice, 80 FR at 81651, 81656.

24

See id. at 81651, 81655–56.

25

See id. at 81655 n.60 (citing Advisers Act Rule 204-2(a)(18)
and (h)(1)).
26

See Notice, 80 FR at 81651.

146a
the SEC Pay-to-Play Rule.27 According to FINRA, the
two-year time-out period is intended to discourage
covered members from participating in pay-to-play
practices by requiring a cooling-off period during
which the effects of a political contribution on the
selection process can be expected to dissipate.28
The following is an overview of some of the key
terms used in FINRA’s proposed Rule 2030, as
discussed by FINRA in its filing and published in the
Notice or as defined in proposed Rule 2030(g).
1. Covered Members
The SEC Pay-to-Play Rule includes within its definition of “regulated person” SEC-registered municipal
advisors, subject to specified conditions.29 Specifically,
the SEC Pay-to-Play Rule prohibits an investment
adviser from providing or agreeing to provide, directly
or indirectly, payment to an SEC-registered municipal
advisor unless the municipal advisor is subject to a
Municipal Securities Rulemaking Board (“MSRB”)
pay-to-play rule.30
FINRA addresses the interplay between its proposed rule and the application of the MSRB’s municipal
advisor pay-to-play rule by exempting from the definition of “covered member” a member when it is “engaging
in activities that would cause the member to be a
municipal advisor as defined in Exchange Act Section
15B(e)(4), SEA Rule 15Ba1-1(d)(1) through (4) and
27

See id. at 81651. See also id. at 81651 n.19 (citing 17 CFR
275.206(4)-5(a)(1)).
28

Notice, 80 FR at 81651, 81659.

29

See 17 CFR 275.206(4)-5(a)(2)(i)(A) and 17 CFR 275.206(4)5(f)(9).
30

See supra note 29.

147a
other rules and regulations thereunder.”31 FINRA
states that a member firm that solicits a government
entity for investment advisory services on behalf of an
unaffiliated investment adviser may be required to
register with the SEC as a municipal advisor as a
result of such activity.32 Under such circumstances,
FINRA notes that the MSRB rules applicable to
municipal advisors, including the pay-to-play rule
adopted by the MSRB,33 would apply to the member
firm.34 On the other hand, if the member firm solicits
a government entity on behalf of an affiliated investment adviser, such activity would not cause the firm
to be a municipal advisor.35 Under such circumstances,
the member firm would be a “covered member” subject

31

Proposed Rule 2030(g)(4). See also Notice, 80 FR at 81652
(explaining that the SEC Pay-to-Play Rule includes within its
definition of “regulated person” SEC-registered municipal advisors,
subject to specified conditions, and prohibits an investment adviser
from providing or agreeing to provide, directly or indirectly,
payment to an SEC-registered municipal advisor unless the
municipal advisor is subject to a MSRB pay-to-play rule).
32

See Notice, 80 FR at 81652.

33

On February 17, 2016, the MSRB published a regulatory
notice announcing that its pay-to-play rule was deemed approved
pursuant to section 19(b)(2)(D) of the Exchange Act on February
13, 2016 and that the effective date of the rule is August 17, 2016.
See Amendments to MSRB Rule G-37 on Political Contributions
and Prohibitions on Municipal Securities Business and Related
Amendments are Deemed Approved under the Securities Exchange
Act of 1934, Regulatory Notice 2016-06, dated February 17, 2016
(the “MSRB Regulatory Notice”), available at http://www.msrb.
org/~/media/Files/Regulatory-Notices/Announcements/2016-06.as
hx?n=1.
34

See Notice, 80 FR at 81652.

35

See id.

148a
to the requirements of proposed Rule 2030.36 This
distinction is the result of the definitions of “municipal
advisor” and “solicitation of a municipal entity or
obligated person” in the Exchange Act, which only
covers a person who is not affiliated with the broker,
dealer, municipal securities dealer, municipal advisor,
or investment adviser for whom the person is
soliciting.37
2. Distribution Activities
With respect to the triggering activities for FINRA’s
proposed Rule 2030(a), FINRA states that, based on
the definition of “regulated person” in the SEC Pay-to36

See id. FINRA also notes that a person that is registered
under the Exchange Act as a broker-dealer and municipal advisor,
and under the Advisers Act as an investment adviser could
potentially be a “regulated person” for purposes of the SEC Payto-Play Rule and that such a regulated person would be subject
to the rules that apply to the services the regulated person is
performing. See id. at n.24.
37

Exchange Act Section 15B(e)(4) provides that a “municipal
advisor” includes a person that undertakes solicitation of a municipal entity or obligated person. 15 U.S.C. 78o-4(e)(4). Exchange
Act Section 15B(e)(9) provides that the term “solicitation of a
municipal entity or obligated person” means “a direct or indirect
communication with a municipal entity or obligated person made
by a person, for direct or indirect compensation, on behalf of a
broker, dealer, municipal securities dealer, municipal advisor, or
investment adviser (as defined in section 202 of the Investment
Advisers Act of 1940) that does not control, is not controlled by,
or is not under common control with the person undertaking such
solicitation for the purpose of obtaining or retaining an engagement by a municipal entity or obligated person of a broker, dealer,
municipal securities dealer, or municipal advisor for or in connection with municipal financial products, the issuance of municipal
securities, or of an investment adviser to provide investment
advisory services to or on behalf of a municipal entity.” 15 U.S.C.
78o-4(e)(9).

149a
Play Rule, it is proposing a rule that prohibits its
member firms from engaging in distribution activities
(as well as solicitation activities) for compensation
with government entities for two years after certain
political contributions have been made to certain
officials.39 FINRA also notes, in response to certain
comments discussed below, that certain language in
the SEC Pay-to-Play Rule Adopting Release further
supports the inclusion of distribution activities by
broker-dealers in FINRA’s proposed Rule 2030.40
38

FINRA explains that the proposed rule would not
apply to distribution activities related to registered
investment companies that are not investment options
of a government entity’s plan or program because in
these circumstances a member firm is not providing or
seeking to provide investment advisory services to a
38

A “regulated person,” as defined in the SEC Pay-to-Play
Rule, includes a FINRA member firm, provided that: (a) FINRA
rules “prohibit member firms from engaging in distribution or
solicitation activities if certain political contributions have been
made;” and (b) “[t]he Commission finds, by order, that such rules
impose substantially equivalent or more stringent restrictions on
broker-dealers than [the SEC Pay-to-Play Rule] imposes on
investment advisers and that such rules are consistent with the
objectives of [the SEC Pay-to-Play Rule].” 17 CFR 275.206(4)5(f)(9)(ii).
39

See Notice, 80 FR at 81660–61 (explaining that FINRA
believes its proposed rule must apply to member firms engaging
in distribution activities and that FINRA did not revise the
proposed rule to remove references to the term “distribution” as
requested by comments received in response to Regulatory Notice
14-50).
40

See Notice, 80 FR at 81660. See also id. at 81661 n.103 (citing
SEC Pay-to-Play Rule Adopting Release, 75 FR at 41040 n.298
where, according to FINRA, the Commission “clarif[ied] under
what circumstances distribution payments would violate the
SEC’s Pay-to-Play Rule”).

150a
government entity. Therefore, the proposed rule
would apply to distribution activities involving unregistered pooled investment vehicles such as hedge funds,
private equity funds, venture capital funds, collective
investment trusts, and registered pooled investment
vehicles such as mutual funds, but only if those registered pools are an investment option of a participantdirected plan or program of a government entity.42
FINRA also notes that, consistent with the SEC Payto-Play Rule, to the extent mutual fund distribution
fees are paid by the fund using fund assets pursuant
to a 12b-1 plan, such payments generally would not
constitute payments by the fund’s investment adviser.43
However, if the adviser pays for the fund’s distribution
out of its “legitimate profits,” the proposed rule would
generally be implicated.44
41

41

See Notice, 80 FR at 81661 n.106 (explaining that, although
the proposed rule would not apply to distribution activities
relating to all registered pooled investment vehicles, pursuant to
proposed Rule 2030(e) “[i]t shall be a violation of this Rule for any
covered member or any of its covered associates to do anything
indirectly that, if done directly, would result in a violation of this
Rule”).
42

See id. at 81661. See also id. at 81651 n.17 and 81654 n.46.

43

See id. at 81661 n.103. See also SEC Pay-to-Play Rule
Adopting Release, 75 FR at 41040 n.298 (discussing how brokerdealers may be compensated by advisers according to distribution
arrangements and noting that “[m]utual fund distribution fees
are typically paid by the fund pursuant to a 12b-1 plan, and
therefore generally would not constitute payment by the fund’s
adviser. As a result, such payments would not be prohibited
[under the SEC Pay-to-Play Rule] by its terms”).
44

See Notice, 80 FR at 81661 n.103 (noting, among other
things, that “for private funds, third parties are often compensated by the investment adviser or its affiliated general partner”).
For a discussion of a mutual fund adviser’s ability to use “legitimate profits” for fund distribution, see Investment Company Act

151a
3. Solicitation Activities
FINRA states that, consistent with the SEC Pay-toPlay Rule, proposed Rule 2030(g)(11) defines the term
“solicit” to mean:
(A) With respect to investment advisory
services, to communicate, directly or indirectly,
for the purpose of obtaining or retaining a
client for, or referring a client to, an investment adviser; and (B) With respect to a
contribution or payment, to communicate,
directly or indirectly, for the purpose of obtaining or arranging a contribution or payment.45
FINRA notes that, although the determination of
whether a particular communication would be a solicitation would depend on the facts and circumstances
relating to such communication, as a general proposition FINRA believes that any communication made
under circumstances reasonably calculated to obtain
or retain an advisory client would be considered a
solicitation unless the circumstances otherwise indicate
that the communication does not have the purpose of
obtaining or retaining an advisory client.46
4. Investment Advisers
Proposed Rule 2030 would apply to covered members
acting on behalf of (as defined in proposed Rule 2030(g)(7))
any investment adviser registered (or required to be
registered) with the Commission, or unregistered in reliance on the exemption available under Section 203(b)(3)
of the Advisers Act for foreign private advisers, or that
of 1940 Release No. 11414 (Oct. 28, 1980), 45 FR 73898 (Nov. 7,
1980) (Bearing of Distribution Expenses by Mutual Funds).
45

Notice, 80 FR at 81651 n.18. See also id. at 81653–54 n.40.

46

See id. at 81651 n.18. See also id. at 81653–54 n.40.

152a
is an exempt reporting adviser under Advisers Act
Rule 204-4(a).47 Thus, proposed Rule 2030 would not
apply to member firms acting on behalf of advisers
that are registered with state securities authorities
instead of the SEC, or advisers that are unregistered
in reliance on exemptions other than Section 203(b)(3)
of the Advisers Act or Advisers Act Rule 204-4(a). The
proposed rule’s definition of “investment adviser” is
consistent with the definition of “investment adviser”
in the SEC Pay-to-Play Rule.48
5. Official of a Government Entity
FINRA explains that an “official” (as defined in
proposed Rule 2030(g)(8)) of a “government entity” (as
defined in proposed Rule 2030(g)(7))—both of which
FINRA states are consistent with the SEC Pay-to-Play
Rule definitions—would include an incumbent, candidate or successful candidate for elective office of a
government entity if the office is directly or indirectly
responsible for, or can influence the outcome of, the
hiring of an investment adviser or has authority to
appoint any person who is directly or indirectly responsible for, or can influence the outcome of, the hiring of
an investment adviser.49 FINRA also notes that it is
the scope of authority of the particular office of an
official, not the influence actually exercised by the individual, that would determine whether the individual
has influence over the awarding of an investment
advisory contract under the definition.50 FINRA also
47

See Proposed Rule 2030(g)(7).

48

See 17 CFR 275.206(4)-5(a)(1).

49

See Notice, 80 FR at 81652.

50

See id. (citing SEC Pay-to-Play Rule Adopting Release, 75
FR at 41029 (discussing the terms “official” and “government
entity”).

153a
explains that government entities would include all
state and local governments, their agencies and instrumentalities, and all public pension plans and other
collective government funds, including participantdirected plans such as 403(b), 457, and 529 plans.51
6. Contributions
Proposed Rule 2030(g)(1) defines “contribution” to
mean any gift, subscription, loan, advance, deposit of
money, or anything of value made for the purpose of
influencing the election for a federal, state or local
office, and includes any payments for debts incurred
in such an election or transition or inaugural expenses
incurred by a successful candidate for state or local
office.52 FINRA states that this definition is consistent
with the SEC Pay-to-Play Rule.53 FINRA also states
that it would not consider a donation of time by an
individual to be a contribution, provided the covered
member has not solicited the individual’s efforts and
the covered member’s resources, such as office space
and telephones, are not used.54 FINRA further states
that it would not consider a charitable donation made
by a covered member to an organization that qualifies
for an exemption from federal taxation under the
Internal Revenue Code, or its equivalent in a foreign
jurisdiction, at the request of an official of a government entity to be a contribution for purposes of the
proposed rule.55

51

See Notice, 80 FR at 81652.

52

See id. at 81652.

53

See id. at 81652 n.32. See also id. at 81653.

54

See id. at 81653 n.33 (citing SEC Pay-to-Play Rule Adopting
Release, 75 FR at 41030).
55

See Notice, 80 FR at 81653.

154a
7. Covered Associates
Proposed Rule 2030(g)(2) defines the term “covered
associates” to mean:
(A) Any general partner, managing member
or executive officer of a covered member, or
other individual with a similar status or function; (B) Any associated person of a covered
member who engages in distribution or solicitation activities with a government entity for
such covered member; (C) Any associated person of a covered member who supervises,
directly or indirectly, the government entity
distribution or solicitation activities of a person
in subparagraph (B) above; and (D) Any political action committee controlled by a covered
member or a covered associate.56
FINRA states that, as also noted in the SEC Pay-toPlay Rule Adopting Release, contributions made to
influence the selection process are typically made not
by the firm itself, but by officers and employees of the
firm who have a direct economic stake in the business
relationship with the government client.57 For example,
contributions by an “executive officer of a covered
member” (as defined in proposed Rule 2030(g)(5))
would trigger the two-year “time-out.”58 FINRA also
notes that whether a person is an executive officer
would depend on his or her function or activities and
not his or her title.59 In addition, FINRA states that a
56

Id. at 81653 n.37.

57

See id. (citing SEC Pay-to-Play Rule Adopting Release, 75
FR at 41031).
58

See Notice, 80 FR at 81653.

59

See id.

155a
covered associate would include a PAC controlled by
the covered member or any of its covered associates.60
FINRA explains that it would consider a “covered
member” (as defined in proposed Rule 2030(g)(4)) or
its covered associates to have “control” over a PAC if
the covered member or covered associate has the
ability to direct or cause the direction of governance or
operations of the PAC.61
B. Proposed Rule 2030(b): Prohibition on
Soliciting and Coordinating Contributions
Proposed Rule 2030(b) also would prohibit a covered
member or covered associate from soliciting or coordinating any person or political action committee (“PAC”)
to make any: (1) contribution to an official of a government entity in respect of which the covered member is
engaging in, or seeking to engage in, distribution or
solicitation activities on behalf of an investment adviser;
or (2) payment to a political party of a state or locality
of a government entity with which the covered member
is engaging in, or seeking to engage in, distribution or
solicitation activities on behalf of an investment
adviser.62 FINRA states that this provision is modeled
on a similar provision in the SEC Pay-to-Play Rule63
and is intended to prevent covered members or covered
associates from circumventing the proposed rule’s
two-year “time-out” by “bundling,” either by soliciting
a large number of contributions by employees, or by
soliciting payments to a State or local political party.64
60

See id.

61

See id.

62

See id. at 81653–54. See also id. at 81662.

63

See id. at 81654 n.42 (citing 17 CFR 275.206(4)-5(a)(2)).

64

See Notice, 80 FR at 81654.

156a
C. Proposed Rule 2030(c): Exceptions
FINRA’s proposed pay-to-play rule contains three
exceptions from the proposed rule’s prohibitions: (1) de
minimis contributions; (2) new covered associates; and
(3) certain returned contributions.65 FINRA states
that these exceptions are modeled on similar exceptions in the SEC Pay-to-Play Rule.66
1. De Minimis Contribution Exception
Proposed Rule 2030(c)(1) would except from the
rule’s restrictions contributions made by a covered
associate who is a natural person to government entity
officials for whom the covered associate was entitled to
vote at the time of the contributions, provided the
contributions do not exceed $350 in the aggregate to
any one official per election.67 If the covered associate
was not entitled to vote for the official at the time of
the contribution, the contribution must not exceed
$150 in the aggregate per election.68 FINRA states
that, consistent with the SEC Pay-toPlay Rule, under
this exception, primary and general elections would be
considered separate elections.69 FINRA also explains
that this exception is based on the theory that such
contributions are typically made without the intent or
ability to influence the selection process of the investment adviser.70

65

See id.

66

See id. at n.51 (citing 17 CFR 275.206(4)-5(b)).

67

See Notice, 80 FR at 81655.

68

See id.

69

See id. at 81655 n.54 (citing SEC Pay-to-Play Rule Adopting
Release, 75 FR at 41034).
70

See Notice, 80 FR at 81655.

157a
2. Exception for Certain New Covered
Associates
The proposed rule would attribute to a covered
member contributions made by a person within two
years (or, in some cases, six months) of becoming a
covered associate. However, proposed Rule 2030(c)(2)
would provide an exception from the proposed rule’s
restrictions for covered members if a natural person
made a contribution more than six months prior to
becoming a covered associate of the covered member
unless the covered associate engages in, or seeks to
engage in, distribution or solicitation activities with a
government entity on behalf of the covered member.71
FINRA states that this exception is consistent with
the SEC Pay-to-Play Rule72 and is intended to balance
the need for covered members to be able to make
hiring decisions against the need to protect against
individuals marketing to prospective employers their
connections to, or influence over, government entities
the employer might be seeking as clients.73 FINRA also
provides, with respect to the “look back” provisions in
the proposed rules generally, the following illustrations of how the “look back” provisions will work: if,
for example, the contributions were made more than
two years (or six months for new covered associates)
prior to the employee becoming a covered associate,
the “time-out” has run.74 According to FINRA, however,
if the contribution was made less than two years (or
six months, as applicable) from the time the person
becomes a covered associate, the proposed rule would
71

See id.

72

See id. at 81655 n.55 (citing 17 CFR 275.206(4)-5(b)(2)).

73

See Notice, 80 FR at 81655.

74

See id. at 81656.

158a
prohibit the covered member that hires or promotes
the contributing covered associate from receiving compensation for engaging in distribution or solicitation
activities on behalf of an investment adviser from the
hiring or promotion date until the applicable period
has run.75
3. Exception for Certain Returned Contributions
Proposed Rule 2030(c)(3) would provide an exception
from the proposed rule’s restrictions for covered members if the restriction is due to a contribution made
by a covered associate and: (1) the covered member
discovered the contribution within four months of it
being made; (2) the contribution was less than $350;
and (3) the contribution is returned within 60 days
of the discovery of the contribution by the covered
member.76 FINRA explains that, consistent with the
SEC Pay-to-Play Rule, this exception would allow a
covered member to cure the consequences of an inadvertent political contribution.77 The proposed rule also
would provide that covered members with 150 or fewer
registered representatives would be able to rely on this
exception no more than two times per calendar year,
while covered members with more than 150 registered
representatives would be permitted to rely on this
exception no more than three times per calendar
year.78 Furthermore, a covered member would not be
75

See id. at 81655–56.

76

See id. at 81655.

77

See id.

78

See id. FINRA notes that these limitations are consistent
with similar provisions in the SEC Pay-to-Play Rule 206(4)5(b)(3), although the SEC Pay-to-Play Rule includes different
allowances for larger and smaller investment advisers based on

159a
able to rely on an exception more than once with
respect to contributions by the same covered associate
regardless of the time period, which is consistent with
similar provisions in the SEC Pay-to-Play Rule.79
D. Proposed Rule 2030(d): Prohibitions as
Applied to Covered Investment Pools
Proposed Rule 2030(d)(1) provides that a covered
member that engages in distribution or solicitation
activities with a government entity on behalf of a
covered investment pool,80 in which a government
entity invests or is solicited to invest, shall be treated
as though the covered member was engaging in or
seeking to engage in distribution or solicitation activities with the government entity on behalf of the
investment adviser to the covered investment pool
directly.81 Proposed Rule 2030(d)(2) provides that an
investment adviser to a covered investment pool in
the number of employees they report on Form ADV. See id. at
81655 n.59.
79

See Notice, 80 FR at 81655.

80

See id. at 81654 n.46 (proposed Rule 2030(g)(3) defines a
“covered investment pool” to mean: “(A) Any investment company
registered under the Investment Company Act that is an investment option of a plan or program of a government entity; or
(B) Any company that would be an investment company under
Section 3(a) of the Investment Company Act but for the exclusion
provided from that definition by either Section 3(c)(1), 3(c)(7) or
3(c)(11) of that Act”).
81

See Notice, 80 FR at 81654 n.47 (FINRA notes that, consistent with the SEC Pay-to-Play Rule, under the proposed rule,
if a government entity is an investor in a covered investment pool
at the time a contribution triggering a two-year time-out is made,
the covered member must forgo any compensation related to the
assets invested or committed by the government entity in the
covered investment pool) (citing SEC Pay-to-Play Rule Adopting
Release, 75 FR at 41047).

160a
which a government entity invests or is solicited to
invest shall be treated as though that investment
adviser were providing or seeking to provide investment advisory services directly to the government
entity.82 FINRA states that proposed Rule 2030(d) is
modeled on a similar prohibition in the SEC Pay-toPlay Rule and would apply the prohibitions of the
proposed rule to situations in which an investment
adviser manages assets of a government entity through
a hedge fund or other type of pooled investment
vehicle.83 Therefore, according to FINRA, the provision
would extend the protection of the proposed rule to
public pension plans that access the services of investment advisers through hedge funds and other types of
pooled investment vehicles sponsored or advised by
investment advisers as a funding vehicle or investment option in a government-sponsored plan, such as
a 529 plan.84
As noted above, the proposed rule would not apply
to distribution activities related to registered investment companies that are not investment options of a
government entity’s plan or program because in these
circumstances a member firm is not providing or
seeking to provide investment advisory services to a
82

See Notice, 80 FR at 81654 n.48 (FINRA states that it added
proposed Rule 2030(d)(2) in response to comments on Regulatory
Notice 14-50 to clarify, for purposes of the proposed rule, the
relationship between an investment adviser to a covered investment pool and a government entity that invests in the covered
investment pool).
83

See Notice, 80 FR at 81654 n.49 (citing 17 CFR 275.206(4)5(c)).
84

See Notice, 80 FR at 81654 n.50 (citing SEC Pay-to-Play Rule
Adopting Release, 75 FR at 41044, which discusses the applicability of the SEC Pay-to-Play Rule to covered investment pools).

161a
government entity. The proposed rule would apply to
distribution activities involving unregistered pooled
investment vehicles such as hedge funds, private
equity funds, venture capital funds, collective investment trusts, and registered pooled investment vehicles
such as mutual funds, but only if those registered
pools are an investment option of a participantdirected plan or program of a government entity.86
85

E. Proposed Rule 2030(e): Prohibition
Indirect Contributions or Solicitations

on

Proposed Rule 2030(e) provides that it shall be a
violation of Rule 2030 for any covered member or any
of its covered associates to do anything indirectly that,
if done directly, would result in a violation of the rule.87
FINRA states that this provision is consistent with a
similar provision in the SEC Pay-to-Play Rule88 and
would prevent a covered member or its covered associates from funneling payments through third parties,
including, for example, consultants, attorneys, family
members, friends, or companies affiliated with the
covered member as a means to circumvent the proposed rule.89 FINRA also notes that, consistent with
guidance provided by the Commission in connection
with SEC Pay-to-Play Rule 206(4)-5(d), proposed Rule
2030(e) requires a showing of intent to circumvent the

85

See Notice, 80 FR at 81661.

86

See id.

87

See Notice, 80 FR at 81654.

88

See id. at n.44 (citing 17 CFR 275.206(4)-5(d)).

89

See Notice, 80 FR at 81654 n.45 (citing SEC Pay-to-Play Rule
Adopting Release, 75 FR at 41044, which discusses direct and
indirect contributions or solicitations).

162a
rule for such persons to trigger the two-year “timeout.”90
F. Proposed Rule 2030(f): Exemptions
Proposed Rule 2030(f) includes an exemptive provision for covered members, modeled on the exemptive
provision in the SEC Pay-to-Play Rule, that would
allow covered members to apply to FINRA for an
exemption from the proposed rule’s two-year “timeout.”91 As proposed, FINRA states that this provision
would allow FINRA to exempt covered members, either
conditionally or unconditionally, from the proposed
rule’s time-out requirement where the covered member
discovers contributions that would trigger the compensation ban after they have been made, and when
imposition of the prohibition would be unnecessary to
achieve the rule’s intended purpose.92 In determining
whether to grant an exemption, FINRA would take
into account varying facts and circumstances, outlined
in the proposed rule, that each application presents93
(e.g., the timing and amount of the contribution, the
nature of the election, and the contributor’s apparent
intent or motive in making the contribution).94 FINRA
90

See Notice, 80 FR at 81654. See also SEC Pay-to-Play Rule
Adopting Release, 75 FR at 41044 n.340 (explaining that like
MSRB Rule G-37(d), SEC Pay-to-Play Rule 206(4) 5(d) “requires
a showing of intent to circumvent the rule for such persons to
trigger the time out”) (citing Blount, 61 F.3d at 948 (“In short,
according to the SEC, the rule restricts such gifts and contributions only when they are intended as end-runs around the direct
contribution limitations.”)).
91

See Notice, 80 FR at 81654–55.

92

See id. at 81655.

93

See id.

94

See Order Instituting Proceedings, 81 FR at 19263.

163a
notes that this provision would provide covered
members with an additional avenue by which to seek
to cure the consequences of an inadvertent violation by
the covered member or its covered associates that
falls outside the limits of one of the proposed rule’s
exceptions.95
G. Proposed Rule 4580: Recordkeeping Requirements
Proposed Rule 4580 would require covered members
that engage in distribution or solicitation activities
with a government entity on behalf of any investment
adviser that provides or is seeking to provide investment advisory services to such government entity to
maintain books and records that would allow FINRA
to examine for compliance with its pay-to-play rule.96
FINRA states that this provision is consistent with
similar recordkeeping requirements imposed on investment advisers in connection with the SEC Pay-to-Play
Rule.97 The proposed rule also would require covered
members to maintain a list or other record of certain
specific information.98 FINRA states that the proposed
rule would require, among other things, that the direct
and indirect contributions or payments made by the
covered member or any of its covered associates be
listed in chronological order and indicate the name
and title of each contributor and each recipient of the
contribution or payment, as well as the amount and
date of each contribution or payment, and whether the

95

See Notice, 80 FR at 81655.

96

See id.

97

See id. (citing 17 CFR 275.204-2(a)(18) and (h)(1)).

98

See Notice, 80 FR at 81655–56.

164a
contribution was the subject of the exception for
returned contributions in proposed Rule 2030.99
III. Summary of Comments and FINRA’s Responses
In response to the Notice, the Commission received
ten comment letters, from nine different commenters.100 Six commenters generally express support for
FINRA’s proposal.101 However, five of those commenters, while generally expressing support for the goals of
the proposal, also raise certain concerns regarding
various aspects of the proposal as drafted and recommended amendments to the proposal.102 The other
three commenters did not support the proposed rule
as drafted based largely on concerns involving the
First Amendment to the U.S. Constitution.103 FINRA
responded, stating that it considered the comments
received by the Commission in response to the Notice,
and that FINRA is not intending to make changes to
the proposed rule text in response to the comments.104

99

See id.

100

See supra note 5. CAI submitted two separate comment
letters in response to the Notice. See CAI Letter 1 and CAI
Letter 2.
101

See CAI Letter 1; CAI Letter 2; FSI Letter 1; ICI Letter;
NAIFA Letter; NASAA Letter; and PIABA Letter.
102

See CAI Letter 1; CAI Letter 2; FSI Letter 1; NAIFA Letter;
NASAA Letter; and PIABA Letter. ICI did not raise additional
concerns, but states that it is satisfied with FINRA’s revisions
and responses to the proposal as drafted in Regulatory Notice 1450. See ICI Letter.
103

See CCP Letter 1; Moran Letter; and State Parties Letter 1.
Other commenters also raise certain First Amendment-related
concerns. See FSI Letter 1; and CAI Letter 1.
104

See FINRA Response Letter 1.

165a
The Commission received an additional four comments in response to the Order Instituting Proceedings.105
On July 6, 2016, FINRA submitted a letter responding
to all comments and to the Order Instituting Proceedings.106 The comments, as well as FINRA’s responses,
are summarized below.107
A. First Amendment Comments and FINRA’s
Responses
As noted above, five commenters either oppose
the proposed rule108 or raise certain issues regarding
the proposed rule as drafted based largely on First
Amendment concerns.109 As a general matter, these
commenters argue that FINRA’s proposed rule is not
narrowly tailored to serve a compelling government
interest. While acknowledging that the D.C. Circuit
upheld the constitutionality of a comparable MSRB
pay-to-play rule in Blount v. SEC, 61 F.3d 938 (D.C.
Cir. 1995), which also used analogous restrictions to
discourage pay-to-play practices, these commenters
105

See supra note 10. See also Memorandum from the Division
of Trading and Markets regarding a May 10, 2016 conference call
with representatives of CAI; Memorandum from the Division of
Trading and Markets regarding a May 19, 2016 conference call
with representatives of FSI.
106

See supra note 12.

107

The comments received in response to the Notice were
summarized when the Commission instituted proceedings. See
supra note 9. For further detail, the comments that the Commission received on both the Notice and the Order Instituting
Proceedings are available on the Commission’s website at http://
www.sec.gov/comments/sr-finra-2015-056/finra2015056.shtml.
108

See CCP Letter 1; and State Parties Letter 1. See also CCP
Letter 2; CCP Letter 3; and State Parties Letter 2.
109

See CAI Letter 1; FSI Letter 1; FSI Letter 2; and Moran
Letter.

166a
believe that Supreme Court precedent has changed
since Blount was decided.
In response to these comments, FINRA states that
the points raised by the commenters do not warrant
changes to, or disapproval of, its proposed rule change.110
FINRA notes that the Commission has already reviewed
and rejected these arguments in a nearly identical
context.111 As FINRA explains, the State Parties filed
an unsuccessful lawsuit in 2014 challenging the SEC
Pay-to-Play Rule on First Amendment grounds.112
FINRA explains that the State Parties’ comments
opposing FINRA’s proposed rule reiterate the arguments advanced in their suit against the Commission
and, although the court of appeals decided the challenge on jurisdictional grounds, the brief that the
Commission filed in the D.C. Circuit is persuasive in
demonstrating that the State Parties’ arguments lack
merit.113 FINRA also notes that the SEC Pay-to-Play
Rule, upon which FINRA’s proposed rule change is
based, was modeled on pay-to-play rules that the
MSRB drafted, that the Commission approved, and

110

See FINRA Response Letter 2 at 3 (noting that FINRA’s
responses to the First Amendment arguments raised by the State
Parties and CCP also address the concerns raised by CAI, FSI
and Moran). A copy of FINRA Response Letter 2 is available at:
https://www.sec.gov/comments/sr-finra-2015-056/finra2015056-18.
pdf.
111

See id. (citing N.Y. Republican State Comm. v. SEC, 799
F.3d 1126 (D.C. Cir. 2015) (affirming dismissal of the petition for
lack of subject matter jurisdiction and also dismissing the
petition as time-barred).
112

See FINRA Response Letter 2 at 3.

113

See id. at 3–4.

167a
that the D.C. Circuit upheld against a constitutional
challenge in Blount.114
Furthermore, FINRA states that the proposed rule
change is justified by a sufficiently important governmental interest to withstand constitutional scrutiny.
For example, FINRA explains that, as in Blount, the
Commission’s interest in preventing fraud and in
protecting market actors from “unfair, corrupt market
practices,” are “not only substantial, but . . . compelling.”115 FINRA also notes that the Commission’s interest
in “clean advisory markets is equally important.”116
FINRA acknowledges the D.C. Circuit’s observation in
Blount that “the link between eliminating pay-to-play
practices and the Commission’s goals of ‘perfecting the
mechanism of a free and open market’ and promoting
‘just and equitable principles of trade’ is self-evident.”117
In addition to noting the important interests served
by its proposal, FINRA also notes that, as explained
in Blount, the proposed rule change advances this
government interest by seeking to halt an existing
pay-to-play problem, even though, in terms of a record,
“no smoking gun is needed;” however, “here, the con-

114

See id. at 5 (citing Blount, 61 F.3d at 944).

115

See, e.g., FINRA Response Letter 2 at 5 (quoting Blount, 61
F.3d at 944).
116

See, e.g., FINRA Response Letter 2 at 5 (quoting an observation made in Blount that the Commission’s interest “in clean bond
markets” is just as important as a legislature’s interest “in clean
elections”) (quoting Blount, 61 F.3d at 944)).
117

See, e.g., FINRA Response Letter 2 at 5 (quoting Blount, 61
F.3d at 945).

168a
flict of interest is apparent, the likelihood of stealth
great, and the [Commission’s] purpose prophylactic.”118
FINRA further believes that the proposed rule
change also is “closely drawn” to avoid unnecessary
abridgment of associational freedoms.119 FINRA
explains that, like the pay-to-play rule upheld in
Blount, its proposed rule change only “restricts a
narrow range of . . . activities for a relatively short
period of time,” and leaves available the “vast majority
of political activities.”120 For example, FINRA notes
that the proposal does not attempt to regulate State
and local elections, nor does it impose restrictions on
independent expenditures or ban political contributions, and that each of those significant avenues for
political expression remains unaffected by the proposed
rule change.121 FINRA also does not agree with arguments made by a commenter that FINRA did not
consider less restrictive alternatives in drafting its
proposal and that aspects of the proposal are vague or
overbroad. FINRA notes that, because the Commission
must find that FINRA’s proposal imposes substantially equivalent or more stringent restrictions on its
member firms as the SEC Pay-to-Play Rule imposes
on investment advisers for FINRA members to be
“regulated persons” under the SEC Pay-to-Play Rule,
the provisions and definitions to which the commenter
118

See, e.g., FINRA Response Letter 2 at 6 (quoting Blount, 61
F.3d at 945).
119

See, e.g., FINRA Response Letter 2 at 6.

120

See, e.g., id. (quoting Blount, 61 F.3d at 947–48).

121

See, e.g., FINRA Response Letter 2 at 4. See also SEC Payto-Play Rule Adopting Release, 75 FR at 41024 n.71 (explaining
that the SEC Pay-to-Play rule “imposes no restrictions on activities such as making independent expenditures to express support
for candidates, volunteering, making speeches, and other conduct”).

169a
objects are modeled on and substantially similar to
provisions in the SEC Pay-to-Play Rule.122 FINRA
also states that it will work with the industry and
Commission to address interpretive questions and provide additional guidance, as needed, to the extent that
questions arise regarding the application and scope of
the provisions and terms used in the proposed rule
change.123
B. Comments Regarding FINRA’s Authority To
Propose a Pay-To-Play Rule and FINRA’s
Responses
Several commenters contend that FINRA does not
have the authority to adopt a pay-to-play rule because
only Congress or the Federal Election Commission
may regulate contributions for federal elections.
In response, FINRA states that the proposed rule
change is consistent with the authority Congress granted
a registered national securities association like FINRA
under Section 15A(b)(6) of the Act to adopt rules that
are designed, among other things, to prevent fraudulent and manipulative acts and practices, to promote
just and equitable principles of trade, to perfect the
mechanism of a free and open market and a national
market system and, in general, to protect investors
and the public interest.124 FINRA believes that the
proposed rule change accomplishes the goals of Section
15A(b)(6) by, for example, allowing member firms to
continue to engage in distribution or solicitation activities for compensation with governmental entities on
behalf of investment advisers, while at the same time
122

See, e.g., FINRA Response Letter 2 at 7.

123

See, e.g., id.

124

See id.

170a
deterring member firms from engaging in pay-to-play
practices.125 FINRA also believes that the proposed
rule change is reasonably designed to address the distortion of the investment advisory market and collective
action problems created by pay-to-play practices.126
Although FINRA acknowledges that the proposed
rule’s two-year “time-out” provision might result in
fewer covered members and their covered associates
making certain political contributions to certain officials,
FINRA notes that if it did not adopt a pay-to-play rule,
the SEC Pay-to-Play Rule would prohibit member
firms from soliciting government entities for investment advisory services for compensation on behalf of
investment advisers.127 FINRA explains that the SEC
Pay-to-Play Rule provides that the rules of a selfregulatory organization (“SRO”), like FINRA, must
impose “substantially equivalent or more stringent
restrictions” on its member firms that wish to act as
“regulated persons” as the SEC Pay-to-Play Rule
imposes on investment advisers.128 Therefore, unless
FINRA imposes sufficiently stringent restrictions,
investment advisers and covered associates will be
barred from providing or agreeing to provide, directly
125

See id.

126

See id. at 9. As outlined in the SEC Pay-to-Play Adopting
Release, pay-to-play activities create a “collective action” problem
in two respects. First, government officials who participate in
such activities may have an incentive to continue to accept
contributions to support their campaigns for fear of being
disadvantaged relative to their opponents. Second, advisers may
have an incentive to participate out of concern that they may be
overlooked if they fail to make a contribution. See SEC Pay-toPlay Rule Adopting Release, 75 FR at 40122.
127

See FINRA Response Letter 2 at 4–5.

128

See id. at 4.

171a
or indirectly, payment to FINRA member firms to
solicit a government entity for investment advisory
services on behalf of the investment adviser.129 FINRA
believes that the proposed rule change is a more
effective response to the issues addressed in the SEC
Pay-to-Play Rule than a complete ban on solicitation,130 and notes throughout its response that the
proposal imposes substantially equivalent restrictions
on FINRA member firms as the SEC Pay-to-Play Rule
imposes on investment advisers.131
C. Variable Annuity-Related Comments and
FINRA’s Responses
Two commenters raise concerns regarding the application of the proposed rules to variable annuities.132
Both of these commenters request, as a threshold
matter, that FINRA confirm that Rule 2030 would not
apply to variable annuities.133 One of these commenters requests that the proposed rule not apply to the
sales of variable annuity contracts supported by a
separate account that invests in mutual funds,
arguing that the nature of variable annuities and the
way investment options are selected does not implicate the investment advisory solicitation activities
contemplated by the SEC Pay-to-Play Rule.134 This

129

See id. See also Notice, 80 FR at 81659.

130

See FINRA Response Letter 2 at 4.

131

See, e.g., id. at 4, 7.

132

See CAI Letter 1 and FSI Letter 1. See also CAI Letter 2
(reflecting CAI’s suggested revisions to the certain language in
some of FINRA’s proposed rules).
133
134

See CAI Letter 1 and FSI Letter 1.

See FSI Letter 1 (claiming that applying the proposed rule
to variable annuities will significantly increase the compliance

172a
commenter claims that the relationship between a
variable annuity contract holder and the investment
adviser to a mutual fund supporting the variable
annuity does not rise to a level such that it should
implicate the proposed pay-to-play rule’s restrictions.135
The other commenter claims, in support of its argument that Rule 2030 should not apply to variable
annuities, that compliance with Rule 2030 would be
impractical for broker-dealers selling variable annuities in the government market.136 This commenter also
argues, for example, that a covered member selling
a variable annuity, particularly where the separate
account is registered as a unit investment trust,
cannot fairly be seen to be engaging in solicitation
activities on behalf of all of the investment advisers
and sub-advisers that manage the covered investment
pools available as investment options under the separate account and subaccounts.137
This commenter also requests that proposed Rule
2030 be modified to, among other things, clarify that
the distribution of a two-tiered product such as a
variable annuity is not solicitation activity for an investment adviser and sub-advisers managing the funds
available as investment options.138 Furthermore, this
same commenter states that if FINRA or the Commission
burden and as such may limit the options their members make
available to 403(b) and 457 plans).
135

See FSI Letter 1.

136

See CAI Letter 1 (claiming that the dynamics and structure
of variable annuities, particularly those with separate accounts
registered as a unit investment trust, and the number of advisers
and sub-advisers to the funds underlying sub-accounts, makes
compliance with proposed Rule 2030 impractical).
137

See id.

138

See id.

173a
determines that broker-dealers selling variable annuities constitute solicitation activities for purposes
of Rule 2030, that determination raises a host of
interpretive questions that, in this commenter’s view,
would require further guidance from FINRA or the
Commission.139
In response, FINRA states that its proposed rules
must impose substantially equivalent or more stringent
restrictions on member firms as the SEC Pay-to-Play
Rule imposes on investment advisers.140 Therefore,
because the Commission did not exclude specific products from the SEC Pay-to-Play Rule, such as variable
annuities, FINRA does not believe that excluding
specific products from its proposed rule would satisfy
the Commission’s stringency requirements.141 FINRA
notes, however, that to the extent interpretive questions arise regarding the application and scope of the
provisions and terms used in its proposed rules,
FINRA will work with the industry and Commission

139

See id. For example, CAI requests guidance on the following
questions: Is the selling broker-dealer deemed to be soliciting on
behalf of the adviser of each of the underlying funds or only of
advisers and sub-advisers of funds underlying investment options
that are selected by contract holders? If an underlying fund is
managed by an adviser that uses multiple sub-advisers, is the
selling firm deemed to be soliciting on behalf of all of the subadvisers? How does the rule apply when a contract holder on his
or her own allocates funds in the variable annuity to an option
at a point of time (for example, five years) subsequent to the
purchase of the variable annuity without any involvement of the
selling firm? See id.
140

See FINRA Response Letter 2 at 16.

141

See id.

174a
to address those interpretive questions and provide
additional guidance as needed.142
D. Comments Regarding the Scope of the
Proposed Rule and FINRA’s Responses
Two commenters also express concern that proposed
Rule 2030(d) would, in their view, re-characterize
“ordinary” or “customary” distribution activities for
covered investment pools as the solicitation of clients
on behalf of the investment adviser to the covered
investment pools.143 One of these commenters requests
that such customary distribution activity by member
firms for covered investment pools sold to government
entities not be treated as solicitation activity for an
investment adviser for purposes of Rule 2030 simply
because an investment adviser provides advisory services to a covered investment pool that is available as
an investment option.144 As more fully explained in the
commenter’s letter, the commenter claims, for example,
that proposed Rule 2030(d) would recast “traditional”
broker-dealer activity (i.e., the offer and sale of covered
investment pool securities pursuant to a selling or
placement agent agreement) into something it is not:
the solicitation of investment advisory services on
behalf of an investment adviser.145 This commenter
also claims that the decision in Goldstein v. SEC, 451
F.3d 873 (D.C. Cir. 2006) and the Commission staff’s
interpretive position under Advisers Act Rule 206(4)3 suggest that proposed Rule 2030(d) would be

142

See id.

143

See CAI Letter 1 and FSI Letter 1.

144

See CAI Letter 1.

145

See id.

175a
impractical. This commenter also notes that Rule
206(4)-3 puts selling firms in a contradictory position
under FINRA rules and Advisers Act rules.147 This
commenter further states that, in its view, a brokerdealer that offers and sells interests in a mutual fund
or private fund cannot be characterized as soliciting
on behalf of the investment adviser to a covered
investment pool.148
146

Similarly, another commenter expresses concern with
the apparent application of proposed Rule 2030(d) to
“traditional” brokerage sales of mutual funds and
variable annuities to participant-directed governmentsponsored retirement plans.149 As more fully explained
in the commenter’s letter, this commenter continues to
be concerned that the provisions in proposed Rule
2030(d) go beyond that which is required under Rule
206(4)-5(a)(2)(i) and Rule 206(4) 5(c) to the detriment
of investors.150 This same commenter also claims that
mutual fund sales, as well as variable annuity sales,
should be excluded, claiming that the proposed rules
serve to redefine the sale of mutual funds as solicitation by a broker-dealer on behalf of an investment
adviser and also conflict with the realities of conventional mutual fund selling agreements.151
146

See id. (claiming that “[i]t would create significant confusion
in the industry and undermine settled practices and understandings, while creating doubt as to the application of the Goldstein
case and the Commission staff’s guidance in the Mayer Brown
no-action letter”).
147

See id.

148

See id.

149

See FSI Letter 1. See also FSI Letter 2

150

See FSI Letter 1. See also FSI Letter 2.

151

See FSI Letter 1. See also FSI Letter 2.

176a
In response, FINRA explains that, in proposing
FINRA Rule 2030(d), it did not intend to re-characterize broker-dealers’ selling interests in variable annuities,
mutual funds and private funds as soliciting an
investment advisory relationship with investors who
invest in those products.152 Rather, FINRA states that
the purpose of proposed Rule 2030(d) is to clarify that
the prohibition of proposed Rule 2030(a) would apply
when the covered member is engaging in distribution
or solicitation activities with a government entity on
behalf of a covered investment pool.153 FINRA further
explains that proposed Rule 2030(d) is modeled on a
similar provision in the SEC Pay-to-Play Rule, Rule
206(4)-5(c).154 As such, and consistent with SEC Payto-Play Rule 206(4)-5(c), proposed Rule 2030(d) is
intended to extend the protections of the proposed rule
to government entities that access the services of
investment advisers through hedge funds and other
types of pooled investment vehicles sponsored or advised
by investment advisers.155 Finally, FINRA notes that
the applicability of proposed Rule 2030(d) is for purposes of FINRA’s pay-to-play rule only and, as such,
would not impact or otherwise affect other FINRA

152

See FINRA Response Letter 2 at 14.

153

See id.

154

See id.

155

See id. at 15 (noting that when adopting SEC Pay-to-Play
Rule 206(4)-5(c), the Commission stated that although “an investment in a pooled investment vehicle may not involve a direct
advisory relationship with a government sponsored plan [that]
does not change the nature of the fraud or the harm that may be
inflicted as a consequence of the adviser’s pay-to-play activity”)
(quoting SEC Pay-to-Play Rule Adopting Release, 75 FR at
41044–45)).

177a
rules or guidance. Therefore, FINRA has determined
not to make the changes suggested by the commenters.156
E. Comments Regarding the Inclusion of
Distribution Activity in the Proposed Rule
and FINRA’s Responses
One commenter generally expresses concern that
proposed Rule 2030 is unnecessarily ambiguous regarding the term “distribution” activities in Rule 2030(a).157
This commenter claims that it is unclear what distribution activities “with” a government entity would
be prohibited, what compensation is covered by the
proposed rule and who must pay it, and when a
member firm might be deemed to be acting “on behalf
of” an investment adviser.158 This commenter states
that the ambiguity of proposed Rule 2030 may result
in its misapplication in a variety of contexts, such
as: where a selling firm is affiliated with one, but
not all, underlying fund advisers and none of the
sub-adviser(s) to any underlying funds, or none of
the underlying fund advisers, but some of the subadvisers.159
This commenter also claims that, while the SEC
Pay-to-Play Rule requires regulated persons to be
subject to rules that prohibit them from engaging in
certain distribution activities if certain political contributions have been made, SEC Pay-to-Play Rule 206(4)-5
does not mandate the use of the term “distribution”
in describing the conduct prohibited by the proposed
rule, and suggested revised rule text reflecting that
156

See FINRA Response Letter 2 at 15.

157

See CAI Letter 1.

158

See id.

159

See id.

178a
assertion.
The commenter believes that its suggested revisions would eliminate, among other things,
the potential concern that a selling firm might violate
proposed Rule 2030 unknowingly due to being deemed
to be acting on behalf of investment advisers or subadvisers of underlying funds with which it has no
relationship.161
160

In response, FINRA states that it continues to
maintain the position, outlined in the Notice, that
it will not remove references to the term “distribution.”162 FINRA explains that the Notice pointed to
language in the SEC Pay-to-Play Rule Adopting
Release supporting the inclusion of distribution activities
by broker-dealers in FINRA’s proposed Rule 2030.163
Specifically, FINRA pointed to the Commission’s discussion regarding under what circumstances distribution
payments would violate the SEC’s Pay-to-Play Rule.164
FINRA also notes that based on the Commission’s
definition of “regulated person”165 in the SEC’s Pay-to160

See CAI Letter 1 and CAI Letter 2 (reflecting CAI’s suggested revisions to certain language in some of FINRA’s proposed
rules).
161

See CAI Letter 1 (claiming that the commenter’s suggested
revisions would not result in any inappropriate narrowing of the
scope of Rule 2030).
162

See FINRA Response Letter 2 at 12.

163

See id. at 11–12 (citing Notice, 80 FR at 81660–61).

164

See FINRA Response Letter 2 at 12 n.52 (citing SEC Payto-Play Rule Adopting Release, 75 FR at 4104 n.298).
165

See FINRA Response Letter 2 at 12 (explaining that the
SEC Pay-to-Play Rule defines a “regulated person” to include a
member firm, provided that FINRA rules prohibit member firms
from engaging in distribution or solicitation activities if political
contributions have been made) (citing 17 CFR 275. 206(4)5(f)(9)(ii)(A)) (emphasis in original).

179a
Play Rule, as well as the Commission’s discussion
regarding the treatment of distribution fees paid
pursuant to a 12b-1 plan as compared to legitimate
profits, FINRA believes that its proposed rule must
apply to member firms engaging in distribution activities.166 FINRA mentioned previously, to the extent
that interpretive questions arise regarding the application and scope of the provisions and terms used in
the proposed rule change, FINRA will work with the
industry and Commission to address the interpretive
questions and provide additional guidance as needed.167
F. Comments Regarding Defined Terms Used
in the Proposed Rules and FINRA’s Responses
Two commenters request clarification of certain
defined terms used in the proposed rules.168 One commenter urged FINRA, or the Commission, to clarify
the meaning of the term “instrumentality” as it is used
in the definition of “government entity.”169 This commenter claims that, “[w]ithout additional guidance,
covered members will continue to struggle with whether
a contribution to a given entity should be treated as a
contribution to an ‘instrumentality’ of a state or state
agency, thus triggering the two-year time out. . . .”170
This same commenter also asked for clarification as to
whether each and every “contribution” (as defined in
166

See FINRA Response Letter 2 at 12 (citing Notice, 80 FR at
81660–61).
167

See id.

168

See CAI Letter 1 and NAIFA Letter.

169

See CAI Letter 1 (claiming that CAI’s members have struggled to understand the contours of this term in the context of the
SEC Pay-to-Play Rule).
170

See id.

180a
proposed Rule 2030(g)(1)) is, by definition, also a
“payment” (as defined in proposed Rule 2030(g)(9)).171
Another commenter requests that FINRA clarify the
definition of a “covered associate” and clarify and
delineate the positions that would qualify someone as
a covered “official.”172 This commenter claims that, in
response to the same definition of “covered associate”
as used in the SEC Pay-to-Play Rule, many investment advisers and broker-dealers have classified all of
their representatives as covered associates regardless
of whether they actually engage in the solicitation
activity specified in the definition.173 This commenter
believes that additional clarification on when an associated person of a covered member would (or would
not) qualify as a “covered associate” would ease
compliance burdens, curtail overly broad limits on
legitimate political activity, and increase the consistency of procedures amongst member firms who
seek to comply with both the letter and the spirit of
the proposed rule.174 This same commenter requests
additional details or guidance from the Commission
with respect to this definition of “official” because,
according to that commenter, that definition has
caused, and will continue to spark confusion over
exactly what offices subject the holder to be classified

171

See CAI Letter 1 (discussing Notice, 80 FR at 81654 n.41:
“Consistent with the SEC Pay-to-Play Rule, FINRA is including
the broader term ‘payments,’ as opposed to ‘contributions,’ to
deter a cover member from circumventing the proposed rule’s
prohibitions by coordinating indirect contributions to government
officials by making payments to political parties”).
172

See NAIFA Letter.

173

See id.

174

See id.

181a
as an “official” given that the term is defined the same
way in the SEC Pay-to-Play Rule.175
In response, FINRA states that it recognizes, as did
the commenters, that these terms are defined in the
SEC Pay-to-Play Rule and that FINRA modeled the
definitions in its proposal on those in the SEC Pay-toPlay Rule.176 With respect to CAI’s request for clarification as to whether each and every “contribution”
(as defined in proposed FINRA Rule 2030(g)(1)) is,
by definition, also a “payment” (as defined in proposed
FINRA Rule 2030(g)(9)), FINRA states that the
definition of “payment” is similar to the definition of
“contribution,” but is broader because it does not include
limitations on the purposes for which such money is
given (e.g., it does not have to be made for the purpose
of influencing an election).177 Finally, FINRA also
acknowledges the concerns raised by the commenters
and the requests for clarification and additional guidance from the Commission and FINRA as to certain
terms.178 FINRA again states that to the extent that
interpretive questions arise regarding the application
and scope of the provisions and terms used in the proposed rule change, FINRA will work with the industry
and Commission to address the interpretive questions
and provide additional guidance as needed.179

175

See id.

176

See FINRA Response Letter 2 at 18.

177

See id. at 17.

178

See id. at 19.

179

See id.

182a
G. Comments Regarding PAC Contributions
and FINRA’s Responses
One commenter claims that statements made by
FINRA in the Notice regarding the proposed rule’s
anti-circumvention provision, proposed Rule 2030(e),
combined with statements made in Commission staff
guidance concerning whether contributions through
PACs would violate the SEC Pay-to-Play Rule and
Section 208(d) of the Advisers Act, have the ability to
chill contributions to PACs.180 This commenter claims,
for example, that prospective contributors who simply
want to donate to a PAC have been hesitant to or
restricted from doing so out of fear that they may be
making an indirect contribution in violation of the
SEC Pay-to-Play Rule.181 Accordingly, this commenter
requests further guidance from the Commission on the
factors by which contributions to PACs would or would
not trigger the anti-circumvention provision of the
proposed rule.182
In response, FINRA again acknowledges the concerns raised by the commenter and the requests
for clarification and additional guidance from the
Commission and FINRA.183 FINRA states that, to the
extent that interpretive questions arise regarding the
application and scope of the provisions and terms used
in the proposed rule change, FINRA will work with the
industry and Commission to address the interpretive
questions and provide additional guidance as needed.184
180

See NAIFA Letter.

181

See id.

182

See id.

183

See FINRA Response Letter 2 at 19.

184

See id. at 18.

183a
Another commenter claims that it continues to
believe that not all payments to political parties or
PACs should have to be maintained under the books
and records requirements of proposed Rule 4580.185
Rather, this commenter believes that only payments
to political parties or PACs where the covered member
or a covered associate: (i) directs the political party or
PAC to make a contribution to an official of a government entity which the covered member is soliciting on
behalf of an investment adviser; or (ii) knows that the
political party or PAC is going to make a contribution
to an official of a government entity which the covered
member is soliciting on behalf of an investment adviser,
should have to be maintained.186 This commenter
states that, while it appreciates FINRA’s rationale for
proposed Rule 4580, it believes the costs and burdens
associated with the request far outweigh the benefits
to FINRA in ensuring compliance with the rule and
would lead to periodic “fishing expeditions” by FINRA
examiners.187
In response, FINRA states that it disagrees with
these comments and has determined to retain the
recordkeeping requirements as proposed in FINRA
Rule 4580.188 FINRA notes that, as discussed in the
Notice, payments to political parties or PACs can be a
means for a covered member or covered associate to
funnel contributions to a government official without
directly contributing.189 Therefore, FINRA states that
185

See CAI Letter 1.

186

See id.

187

See id.

188

See FINRA Response Letter 2 at 20.

189

See id. As FINRA explains in the Notice, a covered associate
would include a PAC controlled by the covered member or any of

184a
it is proposing to require a covered member to maintain a record of all payments to political parties or
PACs as such records would assist FINRA in identifying situations that might suggest an intent to
circumvent the rule.190
H. Comments Regarding the De Minimis Exception under Proposed Rule 2030(c) and
FINRA’s Responses
As discussed above, certain commenters raise concerns regarding the exception for de minimis contributions under proposed Rule 2030(c)(1) on First
Amendment grounds.191 In addition, one commenter
requests that the $350 and $150 amounts “be raised
substantially” in both the SEC Pay-to-Play Rule and
in proposed Rule 2030(c)(1), and further requests that
the $350 limitation on the proposed exception for
returned contributions under proposed Rule 2030(c)(3)

its associates. FINRA states that it would consider a covered
member or its covered associates to have “control” over a PAC if
the covered member or covered associate has the ability to direct
or cause the direction of governance or operations of the PAC. See
Notice, 80 FR at 81653, 81660 (noting that this position is
consistent with the position taken by the SEC in connection with
the SEC Pay-to-Play Rule) (citing SEC Pay-to-Play Adopting
Release, 75 FR at 41032).
190

See FINRA Response Letter 2 at 20–21. FINRA states in the
Notice that the proposed recordkeeping requirements are intended
to allow FINRA to examine for compliance with its proposed payto-play rule, and the reference to indirect contributions in
proposed Rule 4580(a)(4) is intended to include records of contributions or payments a covered member solicits or coordinates
another person or PAC to make under proposed Rule 2030(b). See
Notice, 80 FR at 81663.
191

For a discussion of these First Amendment comments and
FINRA’s responses, see Section III.A, supra.

185a
be eliminated in both the SEC Pay-to-Play Rule and in
FINRA’s proposed rule.192
In response, FINRA explains that its proposed rules
must impose substantially equivalent or more stringent
restrictions on member firms as the SEC Pay-to-Play
Rule imposes on investment advisers.193 Therefore,
FINRA has proposed exceptions for de minimis contributions and returned contributions that are consistent
with similar exceptions in the SEC Pay-to-Play Rule.194
FINRA does not believe that raising the limits for
the de minimis exception or eliminating the limit for
returned contributions would impose substantially
equivalent or more stringent restrictions on member
firms as the SEC Pay-to-Play Rule imposes on investment advisers.195
I. Comments Regarding the Grandfathering
of Existing Accounts and Contracts and
FINRA’s Responses
One commenter requests that FINRA clarify the
application of the proposed rule to existing government entity accounts or contracts.196 FSI requests that,
in the event that FINRA does not amend the application of its proposed rule to covered investment pools
(as requested by this same commenter), FINRA apply

192

See CAI Letter 1 (claiming that these contribution amounts
fail to take inflation into consideration and are “unreasonably
low”).
193

See FINRA Response Letter 2 at 19.

194

See id.

195

See id.

196

See FSI Letter 1.

186a
the proposed rule only to accounts and variable
contracts opened after the effective date.197
In response, FINRA explains that, as discussed
above, its proposed rules must impose substantially
equivalent or more stringent restrictions on member
firms as the SEC Pay-to-Play Rule imposes on investment advisers.198 The Commission did not apply its
rule only to contracts or accounts opened after the
effective date of the rule.199 FINRA also explains in the
Notice that, if the Commission approves the proposed
rule change, proposed Rule 2030(a) will not be triggered by contributions made prior to the rule’s
effective date, and that the rule will not apply to
contributions made prior to the effective date by new
covered associates to which the two years or, as
applicable, six months “look back” applies.200 FINRA
states that the transition period—the time between
the Commission approving the proposal and FINRA
announcing the effective date of the rule—will provide
member firms with time to identify their covered
associates and government entity clients and to modify
their supervisory systems to address new obligations
under the rules.201 Therefore, FINRA does not believe
that limiting the application of its rule in the way
suggested by FSI would impose substantially equivalent
197

See id.

198

See FINRA Response Letter 2 at 16.

199

See id. See also Notice, 80 FR at 81656.

200

See Notice, 80 FR at 81656.

201

See id. (“FINRA intends to establish an effective date that
is no sooner than 180 days following publication of the Regulatory
Notice announcing Commission approval of the proposed rule
change, and no later than 365 days following Commission approval
of the proposed rule change.”).

187a
or more stringent restrictions on member firms as the
SEC Pay-to-Play Rule imposes on investment advisers.202
J. Comments Regarding Application of the
Proposed Rules to the Independent Business
Model and FINRA’s Responses
One commenter claims that its members “will face
difficulties” in attempting to comply with the proposed
rules, and that these difficulties stem, primarily, from
a requirement for independent firms to implement a
rule that is premised on the notion that solicitation of
clients is performed pursuant to a centralized process
controlled by the management of a registered investment adviser.203 This same commenter claims that the
“lack of clarity” as to the application of the SEC Payto-Play Rule to its members’ independent business
model, and the scope of government officials that
trigger the requirements, has led some firms to adopt
aggressive compliance programs that prohibit political
contributions.204
In response, FINRA states that, consistent with the
SEC Pay-to-Play Rule, it has determined not to except
from its proposed pay-to-play rule member firms
engaged in the independent business model.205 FINRA,
however, states that, to the extent that interpretive
202

See FINRA Response Letter 2 at 16.

203

See FSI Letter 1 (claiming FSI believes that the SEC Payto-Play Rule has inadvertently captured non-corrupting activity
and fears that the proposed rule may do the same).
204

See id. (claiming that, absent clarity concerning the application of the proposed rule to the brokerage services provided to
403(b) and 457 plans, FSI’s members will be faced with the choice
of either adopting similarly aggressive policies or prohibiting
sales to government-sponsored retirement plans).
205

See FINRA Response Letter 2 at 18.

188a
questions arise regarding the application and scope of
the provisions and terms used in the proposed rule
change, FINRA will work with the industry and
Commission to address the interpretive questions and
provide additional guidance as needed.206
K. Comments Requesting More Stringent
Requirements in the Proposed Rules and
FINRA’s Responses
Two commenters suggested that proposed Rule
2030 include more stringent requirements in certain
respects.207 First, both commenters request that FINRA
expand the applicability of its proposed rules to
include state-registered investment advisers.208 More
specifically, one of these commenters suggests that
FINRA include state-registered investment advisers
in its definition of “investment adviser” for the purposes of its proposed rule.209 Although FINRA states in
the Notice that relatively few state-registered investment advisers manage public pension plans,210 one
commenter believes that this alone does not justify
permitting FINRA-member firms that do manage
public pension plans, but happen to work with smaller
investment advisers, to engage in pay-to-play activities with no repercussions.211 Another commenter claims
206

See id.

207

See NASAA Letter and PIABA Letter.

208

See NASAA Letter and PIABA Letter.

209

See NASAA Letter.

210

See NASAA Letter and PIABA Letter.

211

See PIABA Letter. Unless the commenter is discussing
dually-registered intermediaries, we do not understand the
commenter’s reference to “FINRA-member firms that do manage
public pension plans” as those plans are managed by investment
advisers, not broker-dealers.

189a
that state-registered investment advisers now include
larger firms and, therefore, it is much more likely that
state-registered investment advisers will manage or
advise public pension plans or similar funds.212
In response, FINRA states that, as discussed in the
Notice,213 to remain consistent with the SEC Pay-toPlay Rule, FINRA has determined not to expand the
scope of the proposed rule as suggested by commenters
to include state-registered investment advisers in its
definition of “investment adviser” for the purposes of
its proposed rule.214 As discussed in the Notice, FINRA
explains that the Commission also declined to make a
similar change to its proposed rule, stating that it was
the Commission’s understanding that few of these
smaller firms manage public pension plans or other
similar funds.215
Second, these two commenters request that FINRA
include a mandatory disgorgement provision for violations of its proposed rule.216 These commenters state
that they are disappointed that FINRA removed the
mandatory disgorgement provisions from the proposal
as outlined in FINRA’s Regulatory Notice 14-50.217 These
commenters believe that a mandatory disgorgement
212

See NASAA Letter.

213

See Notice, 80 FR at 81652 n.26 (explaining that “consistent
with the SEC Pay-to-Play Rule, the proposed rule would not apply
to state-registered investment advisers as few of these smaller
firms manage public pension plans or other similar funds”). See
also id. at 81660 n.98 (citing SEC Pay-to-Play Rule Adopting
Release, 75 FR at 41026).
214

See FINRA Response Letter 2 at 10.

215

See Notice, 80 FR at 81652 n.26. See also id. at 81660 n.98.

216

See NASAA Letter and PIABA Letter.

217

See NASAA Letter and PIABA Letter.

190a
provision would act as a significant deterrent to
engaging in pay-to-play schemes, and it should remain
in FINRA’s final rule.218
In response, FINRA states that, after considering
similar comments made in response to its Regulatory
Notice 14-50, in particular, that FINRA has authority
to require disgorgement of fees in enforcement actions,
FINRA determined not to include a disgorgement
requirement in its proposal.219 For those same reasons,
which also are discussed in the Notice,220 FINRA also
has determined not to revise the proposal to include a
disgorgement requirement.221
Finally, one commenter believes that the cooling-off
period in the proposal should be at least four years.222
PIABA believes that the two-year cooling-off period
does not adequately reduce the incentive for FINRA
member firms to make political contributions to obtain
pay-toplay advantages.223 PIABA states FINRA should
start with the most comprehensive rule, and that it

218

See NASAA Letter and PIABA Letter.

219

See FINRA Response Letter 2 at 19–20.

220

See Notice, 80 FR at 81662 (noting, for example, ICI’s
comment made in connection with Regulatory Notice 14-50 that
“including disgorgement as a penalty is not necessary given that
the SEC and FINRA both have full authority to require disgorgement of fees, and indeed, disgorgement has been the penalty
universally applied (along with additional penalties) in enforcement actions under existing pay-to-play rules, such as MSRB
Rule G-37 and SEC Rule 206(4)-5”).
221

See FINRA Response Letter 2 at 20.

222

See PIABA Letter.

223

See id.

191a
would welcome the deterrent effect of a four-year
cooling off period.224
FINRA declines to make PIABA’s suggested
change.225 FINRA explains that the proposed two-year
time-out is consistent with the time-out period in the
SEC’s Pay-to-Play Rule and, FINRA believes that a
two-year time-out period from the date of a contribution is sufficient to discourage covered members from
engaging in pay-to-play practices.226 As FINRA explains
in the Notice, the two-year time-out in the proposed
rule is intended to discourage covered members from
participating in pay-to-play practices by requiring a
cooling-off period during which the effects of a quid pro
quo political contribution on the selection process can
be expected to dissipate.227
IV. Discussion and Commission Findings
After carefully considering the proposed rule change,
the comments submitted, and FINRA’s responses
thereto, the Commission finds that the proposed rule
change is consistent with the requirements of the Act
and the rules and regulations thereunder applicable to
a registered national securities association.228
224

See id.

225

See FINRA Response Letter 2 at 10.

226

See id.

227

See Notice, 80 FR at 81651. As the Commission explained,
the two-year “cooling-off period’” is not a penalty but, rather, is
intended to be a period during which any effects of a quid pro quo
are expected to dissipate. See SEC Pay-to-Play Adopting Release,
75 FR at 41026 n.104.
228

In approving this proposed rule change, the Commission has
considered the proposed rule change’s impact on efficiency, competition, and capital formation. In this regard, the Commission
considered FINRA’s extensive discussion of these effects in its

192a
In particular, the Commission finds that the proposed rule change is consistent with Section 15A(b)(6)
of the Act.229 Section 15A(b)(6), which governs registered national securities associations like FINRA,
requires, among other things, that the association’s
rules be “designed to prevent fraudulent and manipulative acts and practices, to promote just and equitable principles of trade, . . . to remove impediments to
and perfect the mechanism of a free and open market
and a national market system and, in general, to
protect investors and the public interest.”230 As discussed in more detail below, we believe that FINRA’s
proposal is consistent with Section 15A(b)(6). FINRA’s
proposed rule will address the regulatory concerns
that underlie, and thus support the objectives of, the
SEC Pay-to-Play Rule, discussed below, by discouraging FINRA member firms and certain of their covered
associates from engaging in quid pro quo corruption
that may create market distortions—when, for example,
an investment adviser is chosen on the basis of a
placement agent’s political contributions rather than
the adviser’s merit. Such conduct impedes a free
and open market, and may harm investors and the
public interest if government entities, including public
pension plans, and their beneficiaries receive inferior

Notice and FINRA’s response to comments on that discussion.
Moreover, the Commission observes that, in response to the
Commission’s Notice, no commenter suggested that FINRA’s
analysis was incorrect or incomplete, or that the proposed rule
change would have a negative effect on efficiency, competition, or
capital formation. See 15 U.S.C. 78c(f).
229

15 U.S.C. 78o-3(b)(6).

230

Id.

193a
services or pay higher fees.231 FINRA’s proposed rule
also promotes a free and open market and the protection of investors and the public interest by avoiding
the outright ban on distribution and solicitation activity that would result if FINRA member firms were not
“regulated person[s]” under the SEC Pay-to-Play
Rule.232 The fact that FINRA’s proposed rule may have
implications for a small subset of political contributions made by certain covered associates to certain
elected officials does not somehow eliminate FINRA’s
ability to adopt rules pursuant to the Act, or the
Commission’s authority to approve such rules under
Section 19(b)(2) of the Act.233
As support for the need for the proposed rule,
FINRA outlined certain regulatory concerns in the
Notice that also were identified by the Commission in
connection with its adoption of the SEC Pay-to-Play
Rule.234 These concerns, which also implicate the
investor and public interest protections described in
231

See FINRA Response Letter 2 at 8. See also Notice, 80 FR
at 81651, 81656 (discussing the regulatory objectives of and
statutory basis for the proposal).
232

See FINRA Response Letter 2 at 5 (“FINRA believes that
the proposed rule change is a more effective response to the issues
addressed in the SEC Pay-to-Play Rule than a complete ban on
solicitation.”). See also Notice, 80 FR at 81652, 81656 (discussing
the regulatory objectives of and statutory basis for the proposal).
233

While FINRA’s proposed rule does not bar member firms
and their covered associates from making contributions, it may
affect the propensity of member firms and certain employees to
make the subset of contributions that would trigger the two-year
time-out. FINRA’s rule does not impose a requirement that
member firms publicly disclose political contributions.
234

See Notice, 80 FR at 81651, nn.12–14 (discussing concerns
the Commission identified in the SEC Pay-to-Play Rule Adopting
Release, 75 FR at 41037).

194a
Section 15A(b)(6) of the Act, recognize the central
role intermediaries, such as “solicitors” or “placement
agents,” have played in actions that the Commission
and other authorities have brought involving payto-play schemes.235 FINRA also acknowledges the
Commission’s observation of how investment advisers,
in several instances, allegedly made significant payments to placement agents and other intermediaries
to influence the award of advisory contracts.236 Moreover,
FINRA points out the difficulties that investment
advisers face in monitoring or controlling the activities
of their third-party solicitors.237
As we explained in adopting the SEC Pay-to-Play
Rule, public pension plans are particularly vulnerable
to pay-to-play practices, and we have been particularly
concerned that the engagement of placement agents
who have made political contributions to key officials
is viewed by investment advisers as a necessary step

235

See Notice, 80 FR at 81651. See also id. at nn.10–11 (explaining that “solicitors” typically locate investment advisory
clients on behalf of an investment adviser, and that “placement
agents” typically specialize in finding investors, often institutional investors or high net worth investors, that are willing and
able to invest in a private offering of securities on behalf of the
issuer of such privately offered securities) (citing Advisers Act
Release No. 2910 (Aug. 3, 2009), 74 FR 39840, 39853 n.137
(Aug. 7, 2009) (Political Contributions by Certain Investment
Advisers)).
236

See Notice, 80 FR at 81651. See also e.g., SEC Pay-to-Play
Adopting Release, 75 FR at 41037.
237

See Notice, 80 FR at 81651. See also SEC Pay-to-Play
Adopting Release, 75 FR at 41032 n.182, 40137 n.266 (acknowledging commenters’ concerns regarding the difficulties that
advisers may have when monitoring the activities of their thirdparty solicitors).

195a
to securing a contract with a public pension plan.238 In
connection with the SEC Pay-to-Play Rule, we initially
proposed a complete bar on investment advisers engaging third parties to solicit government clients on their
behalf because of concerns about investment advisers’
use of third-party solicitors and placement agents to
engage in pay-to-play activities.239 However, persuaded
by commenters, we revised the proposed SEC Pay-toPlay Rule to permit advisers to make payments to
certain “regulated persons” to solicit government clients
on their behalf, provided that they are themselves
subject to prohibitions against participating in pay-toplay practices, are subject to Commission oversight
and, in the case of broker-dealers, the oversight of
a registered national securities association such as
FINRA.240 FINRA agreed and informed us that it
would prepare rules for our consideration that would
prohibit its members from soliciting advisory business
from a government entity on behalf of an adviser
unless they comply with pay-to-play restrictions.241
238

See SEC Pay-to-Play Adopting Release, 75 FR at 41019–20,
nn.16–25 (collecting examples of SEC litigation releases as well
as state and federal criminal actions with pay-to-play schemes
involving placement agents among other intermediaries). See
also id. at 40137, n.262 (collecting examples of state and local
legislative actions undertaken to prohibit or regulate pay-to-play
practices involving placement agents in response to concerns
about pay-to-play activities in their jurisdictions).
239

See id. at 41037 nn.259–68 (discussing the Commission’s
observations in the SEC Pay-to-Play Rule proposing release).
240
241

See id. at 41041.

See Notice, 80 FR at 81651 n.15 (citing a letter from Richard
G. Ketchum, Chairman and Chief Executive Officer, FINRA, to
Andrew J. Donohue, Director, Division of Investment Management, Commission (Mar. 15, 2010) (“Ketchum Letter”), available
at http://www.sec.gov/comments/s7-18-09/s71809-260.pdf (stating

196a
Pay-to-play practices are harmful. They create an
impediment to a free and open market by, for example,
distorting the investment adviser selection process
from one that is based on merit, performance and
cost, to one that is influenced by a placement agent’s
contributions to the campaigns of government officials
who are responsible for, or can influence the outcome
of, selecting an investment adviser.242 As a result of
this distortion, government entities, including pension
funds, and their citizen beneficiaries may be harmed
by receiving inferior services or paying higher fees.243
Investors and the public interest ultimately suffer,
including taxpayers, residents who rely on municipal
services, and the beneficiaries of public pension funds,
such as firemen, police officers, teachers, and other
civil servants.244 Investment advisers also are harmed
because their ability to participate in the market is
that FINRA “believe[s] that a regulatory scheme targeting
improper pay to play practices by broker-dealers acting on behalf
of investment advisers is . . . a viable solution to a ban on certain
private placement agents serving a legitimate function”)). FINRA
also notes that in developing its proposal it intended to draw
closely upon all the substantive and technical elements of the
Commission’s rule as well as FINRA’s regulatory expertise in
examining and enforcing the MSRB rules, upon which the SEC
Pay-to-Play Rule is based. See Ketchum Letter. See also SEC Payto-Play Adopting Release, 75 FR at 41042 n.317 (discussing
same).
242

See, e.g., SEC Pay-to-Play Adopting Release, 75 FR at
41023, 41039.
243
244

SEC Pay-to-Play Adopting Release, 75 FR at 41019.

SEC Pay-to-Play Adopting Release, 75 FR at 41019 (noting
that the management of public pension plans “most significantly
. . . affects taxpayers and the beneficiaries of these funds,
including the millions of present and future State and municipal
retirees who rely on the funds for their pensions and other
benefits”).

197a
impeded unless they are willing to engage in pay-toplay practices by, for example, hiring placement agents
that make certain political contributions.245
The Commission also believes that the stealth in
which pay-to-play practices occur and the inability of
markets to properly address these practices argue
strongly for rules like the SEC Pay-to-Play Rule and
FINRA’s proposal.246 Pay-to-play practices create a “collective action” problem in two respects: (1) government
officials who participate in such activities have an
incentive to continue to accept contributions to support
their campaigns for fear of being disadvantaged relative to their opponents; and (2) investment advisers
have an incentive to participate out of concern that
they may be overlooked if they fail to make a contribution.247
We believe that application of FINRA’s proposed
pay-to-play rules will effectively discourage covered
members and their covered associates who act as placement agents for investment advisers from participating
in pay-to-play practices because their political contributions or payments will be subject to restrictions
245

See, e.g., SEC Pay-to-Play Adopting Release, 75 FR at
41023, 41039 (explaining that “pay to play practices may hurt
smaller advisers that cannot afford the required contributions.
Curtailing pay to play arrangements enables advisory firms,
particularly smaller advisory firms, to compete on merit, rather
than their ability or willingness to make contributions”).
246

See SEC Pay-to-Play Adopting Release, 75 FR at 40122–23.
See also FINRA Response Letter at 6 (noting that, as explained
in Blount, “no smoking gun is needed;” however, “where, as here,
the conflict of interest is apparent, the likelihood of stealth great,
and the [Commission’s] purpose prophylactic”).
247

See FINRA Response Letter at 9; SEC Pay-to-Play Adopting
Release, 75 FR at 40122.

198a
similar to those imposed on investment advisers under
the SEC Pay-to-Play Rule.248 The Commission therefore believes that FINRA’s proposed rule change will
help address the concerns identified in the SEC Payto-Play Rule
Adopting Release regarding the distortion of the
investment advisory market.249 As a result, like the
SEC Pay-to-Play rule, FINRA’s proposal should help
protect investors and the public interest by, among
other things, reducing the costs to plans and their
beneficiaries of inferior asset management services
arising from adviser selection based on a placement
agent’s political contributions rather than prudential
investment considerations.250 Further, in the Commission’s view, FINRA’s proposed rule strikes an appropriate
balance in addressing these regulatory concerns by
providing for FINRA member firms to be “regulated
person[s]” under the SEC Pay-to-Play Rule.251 As a
248

See Notice, 80 FR at 81651.

249

See FINRA Response Letter at 9 (stating that “[f]or example, the proposed rule change is reasonably designed to address
the distortion of the investment advisory market and collective
action problems created by pay-to-play practices”). As the Commission has explained, by addressing distortions in the process
by which investment advisers are selected regarding public
investments, pay-to-play rules provide important protections to
public pension plans and their beneficiaries, as well as participants in other important plans or programs sponsored by government entities. See SEC Pay-to-Play Adopting Release, 75 FR at
41023, 41054.
250
251

See SEC Pay-to-Play Adopting Release, 75 FR at 41039.

See, e.g., FINRA Response Letter at 5 (“FINRA believes that
the proposed rule change is a more effective response to the issues
addressed in the SEC Pay-to-Play Rule than a complete ban on
solicitation.”) See also Notice, 80 FR at 81652, 81656 (discussing
the regulatory objectives of and statutory basis for the proposal).

199a
result, investment advisers will be able to continue to
benefit from the use of placement agents in obtaining
investment advisory business with government entities
without political contributions distorting the process
by which a government entity, such as a public pension fund, selects an adviser.252 The two-year time-out
period imposed by the proposed rule change is not a
penalty but, rather, is intended to discourage participation in pay-to-play practices by requiring a
“cooling-off period” during which the effects of a quid
pro quo political contribution on the selection process
are expected to dissipate.253 This time-out will help
promote fair competition in the market and protect
public pension funds and investors by curbing fraudulent conduct resulting from pay-to-play practices.254 In
addition, according to FINRA, the proposal can be
expected to help promote competition by allowing
more third-party solicitors to participate in the market
for solicitation services, which in turn may reduce
costs to investment advisers and improve competition
for advisory services.255 For these reasons and as
discussed throughout, the Commission finds that the
proposed rule change is consistent with Section 15A(b)(6)
of the Act.256
252

See, e.g., FINRA Response Letter 2 at 8 (“The proposed rule
change accomplishes these goals by allowing member firms to
continue to engage in distribution or solicitation activities for
compensation with governmental entities on behalf of investment
advisers, while at the same time deterring member firms from
engaging in pay-to-play practices.”).
253

See Notice, 80 FR at 81651. See also SEC Pay-to-Play
Adopting Release, 75 FR at 41026 n.104.
254

See Notice, 80 FR at 81657.

255

See id.

256

See 15 U.S.C. 78o-3(b)(6).

200a
The Commission notes that most commenters to the
Notice257 and some of the commenters responding to
the Order Instituting Proceedings258 generally express
support for FINRA’s proposal. For example, one commenter states that it is pleased that, like the SEC
and the MSRB, FINRA is adopting rules to govern
the activities of its members that solicit government
clients on behalf of an investment adviser and also is
pleased that FINRA’s proposal is designed to complement, and be consistent with, the SEC’s pay-to-play
rule.259 Similarly, another commenter states that,
although it requests certain revisions, it also supports
FINRA’s attempt to deter pay-to-play activity among
covered members and supports the regulatory objectives underlying the Proposed Rules.260
The Commission acknowledges the concerns and
questions raised by some commenters, which are
outlined in further detail above in Section III. As
discussed below, the Commission believes, however,
that FINRA has responded to the commenters’ concerns and questions in light of, among other things,
the regulatory framework established by the SEC Payto-Play Rule, which provides that FINRA’s proposed
rules must impose substantially equivalent or more
stringent restrictions on its members than the SEC
257

See CAI Letter 1; CAI Letter 2; FSI Letter 1; ICI Letter;
NAIFA Letter; NASAA Letter; and PIABA Letter.
258

See FSI Letter 2 (claiming that the proposal creates
“compliance uncertainties” for FSI’s members, but noting that
FSI “support[s] regulatory efforts to combat pay-to-play corruption activity”).
259
260

See ICI Letter.

See CAI Letter 1 (recognizing “the challenges in crafting the
Proposed Rules so that they reach all of the activity sought to be
eliminated without also prohibiting activity that is harmless”).

201a
Pay-to-Play Rule imposes on investment advisers for
FINRA members to be “regulated persons” under the
SEC Pay-to-Play Rule.
A. Comments Concerning the First Amendment and Related Concerns
Several commenters express the view that FINRA’s
proposed rule violates the First Amendment.261 The
Commission is sensitive to the constitutional concerns
raised by the commenters, but after careful consideration of their arguments, for the reasons discussed
below, concludes that FINRA’s rule is consistent with
the First Amendment.
FINRA’s rule, which focuses on covered members
who serve as placement agents, tracks the SEC Payto-Play Rule for investment advisers, which, in turn,
tracks the MSRB’s pay-to-play rule, Rule G-37, which
the D.C. Circuit upheld against First Amendment
challenge in 1995.262 The Supreme Court has issued
several decisions regarding political speech since Blount
was decided,263 and none of these decisions call into
261

See CCP Letter 1; FSI Letter 1; FSI Letter 2; and State
Parties Letter 1. See also CCP Letter 2; CCP Letter 3; Moran
Letter and State Parties Letter 2.
262

Blount v. SEC, 61 F.3d 938 (D.C. Cir. 1995), cert. denied,
517 U.S. 1119 (1996). One significant difference between the
MSRB rule, on one hand, and the SEC’s and FINRA’s rules, on
the other, is that the MSRB rule requires the public disclosure
of political contributions whereas the SEC’s and FINRA’s rules
do not.
263

See, e.g., McCutcheon v. FEC, 134 S. Ct. 1434 (2014);
Citizens United v. FEC, 558 U.S. 310 (2010); Davis v. FEC, 554
U.S. 724 (2008); FEC v. Wisc. Right To Life, Inc., 51 U.S. 449
(2007); Randall v. Sorrell, 548 U.S. 230 (2006); FEC v. Beaumont,
539 U.S. 146 (2003); Nixon v. Shrink Mo. Gov’t PAC, 528 U.S. 377
(2000).

202a
question Blount’s holding that a tailored pay-to-play
rule, which is nearly identical in purpose and form to
FINRA’s proposed rule and which also furthers an
important public interest, is constitutional. Indeed,
the en banc D.C. Circuit recently and unanimously
upheld a broader pay-to-play restriction—a bar on
all contributions to federal candidates by federal
contractors—in its decision in Wagner that analyzed
the post-Blount Supreme Court decisions and cited
Blount with approval.264 Various pay-to-play restrictions
imposed by other jurisdictions also have withstood
First Amendment challenge in recent years.265
Decisions like Wagner confirm that even an outright
limitation on contributions—as opposed to FINRA’s
rule, which may indirectly discourage contributions—
is permissible if it is justified by a sufficiently
important government interest and is closely drawn to
avoid unnecessary abridgement of the type of political
speech represented by a political contribution.266
264

Wagner v. FEC, 793 F.3d 1 (D.C. Cir. 2015) (en banc), cert.
denied sub nom., Miller v. FEC, 136 S. Ct. 895 (2016).
265

See, e.g., Yamada v. Snipes, 786 F.3d 1182 (9th Cir.), cert.
denied, 136 S. Ct. 569 (2015); Preston v. Leake, 660 F.3d 726, 729–
30, 736 (4th Cir. 2011); Ognibene v. Parkes, 671 F.3d 174, 179–80
(2d Cir. 2011); Green Party of Connecticut v. Garfield, 616 F.3d
189, 200 (2d Cir. 2010).
266

Wagner, 793 F.3d at 6–8. We note that FINRA’s rule is not
an absolute bar on contributions, but the two-year time-out may
have the effect of discouraging member firms and certain covered
associates who may act as placement agents for investment
advisers from making certain contributions to certain covered
officials. To the extent that the commenters suggest that such an
indirect limitation on contributions would be reviewed by a court
under strict scrutiny, they misstate applicable Supreme Court
precedent, which has maintained that limitations on contributions are reviewed under a more intermediate form of scrutiny

203a
We believe that FINRA’s proposed rule serves a
vitally important governmental interest: discouraging
a specific type of quid pro quo corruption in which
political contributions made by placement agents may
influence the award of investment advisory business
by government entities. The Supreme Court has
long held that halting quid pro quo corruption is an
important government interest that justifies limitations—
or outright bans—on contributions.267
We do not understand FINRA to be engaging in
broad electoral reform or trying to clean up the
electoral process. Rather, to avoid the outright ban on
placement agent activity resulting from FINRA member
firms not being “regulated person[s]” under the SEC
Pay-to-Play Rule, the two-year time-out in FINRA’s
proposal, like the SEC Pay-to-Play Rule, discourages
quid pro quos that affect government entities, including public pension funds, served by investment advisers.
Quid pro quos involving placement agents, who make
contributions to certain elected officials and then
assist investment advisers in obtaining business from
the government entities those officials serve may be:
fraudulent, run counter to just and equitable principles of trade, impede a free and open market, and
harm investors and the public interest.268 When payto-play is a factor in the selection or retention of an
investment adviser—when the adviser is chosen on
because “[c]ontribution limits impose a lesser restraint on political speech” that permits “‘symbolic expression of support evidence
by a contribution” but do not “‘in any way infringe the contributor’s freedom to discuss candidates and issues.’” McCutcheon, 134
S. Ct. at 1444, quoting Buckley v. Valeo, 424 U.S. 1, 21 (1976).
267

McCutcheon, 134 S. Ct. at 1452; Buckley, 424 U.S. at 27–28
(1976).
268

Blount, 61 F.3d at 944–48. See also 15 U.S.C. 78o-3(b)(6).

204a
the basis of a placement agent’s political contributions
rather than its merit—the most qualified adviser may
not be hired, which may lead to inferior performance
and payment of higher fees.269 Ultimately, taxpayers
and fund beneficiaries suffer the harm. Moreover, payto-play distorts free and open markets by requiring
investment advisers and their placement agents to
“play the game” or risk being left out.270 In short, while
FINRA’s rule resembles other contribution limitations
by serving a government interest in discouraging quid
quo pro corruption, it is a targeted effort that should
protect investors and the public by promoting the
integrity of the investment advisory market.
FINRA’s proposed rule advances this important
governmental interest because the two-year time-out
discourages pay-to-play. As explained above, pay-toplay has been and is a serious problem when placement agents assist investment advisers in obtaining
advisory business from government entities.271 Placement
agents “played a central role in actions that [the
Commission] and other authorities have brought involving pay-to-play schemes,” and, in several instances,
advisers used placement agents, who had made campaign contributions to elected officials, to influence
the award of investment advisory contracts.272 Most
notably, Alan Hevesi, the Comptroller of New York
269

SEC Pay-to-Play Adopting Release, 75 FR at 41022, 41053–

54.
270

Id. at 41019, 41022, 41053. See also Blount, 61 F.3d at 945–

46.
271

SEC Pay-to-Play Adopting Release, 75 FR at 41019–20.
Pay-to-play that affects State and local pension funds is not
limited to the investment advisory context.
272

SEC Pay-to-Play Adopting Release, 75 FR at 41019–20,
41037.

205a
State who was responsible for investment of state
pension funds, accepted campaign contributions from
a placement agent and steered over $250 million in
pension funds to investment advisers that had retained
the placement agent.273
In response to these incidents, the Commission
proposed a ban on the use of placement agents by
investment advisers and ultimately adopted a final
rule that permitted use of placement agents so long as
they were “regulated persons” governed by the type of
pay-to-play rule that FINRA has proposed here.274
FINRA is not alone in addressing these issues. For
example, several State and local governments have
barred or restricted placement agents from playing a
role in the contracting process.275 Although the Supreme
Court has never required a certain amount of past
quid pro quo corruption to sustain a contribution
limitation, there is more than sufficient evidence of
pay-to-play practices to support FINRA’s rule.276
The contours of FINRA’s proposed rule reflect how
pay-to-play practices involving placement agents affect
the hiring and retention of investment advisers by
State and local pension funds. One scenario implicated
by FINRA’s rule (and reflected in the Hevesi matter)
involves an investment adviser that seeks business
from a State pension fund and retains a firm, or an
individual at a firm, that has made contributions to an
elected official responsible for selecting investment

273

Id. at 41019–20.

274

Id. at 41037–42.

275

Id. at 41037 n. 262.

276

McCutcheon, 134 S. Ct. at 1445, 1458; Nixon, 528 U.S. at
390–91; Buckley, 424 U.S. at 29-30.

206a
advisers. The elected officials who participate have
no incentive to stop accepting contributions for fear
of being disadvantaged relative to their opponents.
Similarly neither the placement agents that make the
contributions nor the investment advisers that hire
the placement agents have an incentive to stop out of
concern that if they abstain, their competitors will continue to engage in the practice profitably and without
adverse consequences.278 FINRA’s rule should resolve
this collective-action problem by interposing a time-out
that creates a disincentive to engage in pay-to-play.
277

The proposed FINRA rule, like the SEC Pay-to-Play
Rule that it is modeled on, is a tailored solution to a
particularly pernicious form of quid pro quo corruption
that affects the beneficiaries of public pension funds,
such as teachers, law enforcement officers, firefighters, and other public servants, as well as the beneficiaries of other collective government funds, includeing participant-directed plans such as 403(b), 457 and
529 plans. The proposed FINRA rule would affect a
small segment of the electorate: in general, member
firms acting as placement agents for investment
advisers seeking to obtain advisory business from
government entities. And the proposed FINRA rule
would affect only a small number of elected officials—
those who are responsible for or have authority to
277

SEC Pay-to-Play Adopting Release, 75 FR at 41019–20 &
nn.18–20 (citing examples).
278

Id. at 41022, 41040, 41053. See also Blount, 61 F.3d at 945–
46. Even if the public is aware of the quid pro quo relationship,
there is little that can be done because the official is compromised
by the receipt of the contribution, and beneficiaries of a pension
fund cannot easily shift their assets out of the fund, reverse the
hiring decision, or remove the official. Id. at 41027. See also id. at
41053 n.459.

207a
appoint any person who is responsible for or can
influence the outcome of the hiring of an investment
adviser by a government entity—and has no bearing
on the vast majority of elections where the elected
office’s scope of authority does not encompass the
awarding of investment advisory contracts. Moreover,
the proposed FINRA rule’s de minimis exception permits some campaign contributions to be made in all
instances without triggering the time-out—thus allowing “the symbolic expression of support evidenced by a
contribution”—and it does not restrict other forms of
political speech, such as independent expenditures.279
B. Comments Regarding the
Coverage of the Proposal

Scope

and

As discussed in detail above, the commenters raise
several concerns regarding the scope and coverage
of the proposed rules, including with respect to: the
inclusion of variable annuities and mutual funds;280
the inclusion of distribution activities;281 the application
279

McCutcheon, 134 S. Ct. at 1444, quoting Buckley, 424 U.S.
at 21 (internal quotation marks omitted).
280

See CAI Letter 1 and FSI Letter 1. See also CAI Letter 2
(reflecting CAI’s suggested revisions to certain language in some
of FINRA’s proposed rules). In FINRA’s view, because the Commission did not exclude specific products from the SEC Pay-toPlay Rule, such as variable annuities or mutual funds, excluding
specific products from its proposed rule would not satisfy the
Commission’s stringency requirements. See FINRA Response
Letter 2 at 16.
281

See CAI Letter 1. See also CAI Letter 2 (reflecting CAI’s
suggested revisions to certain language in some of FINRA’s proposed rules). FINRA notes that, among other things, language in
the SEC Pay-to-Play Rule Adopting Release supports the inclusion of “distribution” activities by broker-dealers in FINRA’s
proposed Rule 2030(a). See Notice, 80 FR at 81660–61 (citing SEC
Pay-to-Play Rule Adopting Release, 75 FR at 41040 n.298 where,

208a
to covered investment pools;282 the level of the de
minimis contribution exception and the returned

according to FINRA, the Commission “clarif[ied] under what
circumstances distribution payments would violate the SEC’s
Pay-to-Play Rule”). FINRA believes that based on the Commission’s definition of “regulated person” in the SEC’s Pay-to-Play
Rule, as well as the Commission’s discussion regarding the treatment of distribution fees paid pursuant to a 12b-1 plan as
compared to legitimate profits, its proposed rule must apply to
member firms engaging in distribution activities. See FINRA
Response Letter 2 at 12 (citing Notice, 80 FR at 81660–61) and
FINRA Response Letter 2 at 12 n.53 (explaining that the SEC
Pay-to-Play Rule defines a “regulated person” to include a
member firm, provided that FINRA rules prohibit member firms
from engaging in distribution or solicitation activities if political
contributions have been made, and citing SEC Pay-to-Play Rule
206(4)-5(f)(9)(ii)(A)) (emphasis in original).
282

See CAI Letter 1; FSI Letter 1; FSI Letter 2. FINRA clarifies
that it is not intending in this proposal to re-characterize brokerdealers’ selling interests in variable annuities, mutual funds, and
private funds as soliciting an investment advisory relationship
with investors who invest in those products. See FINRA Response
Letter 2 at 14–15 (noting, for example, that the applicability of
proposed FINRA Rule 2030(d) is for purposes of FINRA’s pay-toplay rule only). FINRA also explains that FINRA Rule 2030(d) is
modeled on a similar provision in the SEC Pay-to-Play Rule,
Rule 206(4)-5(c) and, as such, proposed FINRA Rule 2030(d) is
intended to extend the protections of the proposed rule to government entities that access the services of investment advisers
through hedge funds and other types of pooled investment vehicles
sponsored or advised by investment advisers. See FINRA Response
Letter 2 at 15 (noting that when adopting SEC Pay-to-Play Rule
206(4)-5(c), the Commission stated that although “an investment
in a pooled investment vehicle may not involve a direct advisory
relationship with a government sponsored plan [that] does not
change the nature of the fraud or the harm that may be inflicted
as a consequence of the adviser’s pay-to-play activity”) (quoting
SEC Pay-to-Play Rule Adopting Release, 75 FR at 41044–45).
Finally, FINRA notes that the applicability of proposed FINRA

209a
contribution exception;
the inclusion of the inde284
pendent business model;
and the application to
existing contracts or accounts.285 FINRA generally
responded that its proposed rules are designed to be at
least as stringent as the SEC Pay-to-Play Rule so that
FINRA’s member firms will meet the definition of
283

Rule 2030(d) is for purposes of FINRA’s pay-to-play rule only. See
FINRA Response Letter 2 at 15.
283

See CAI Letter 1. In response, FINRA explains that it has
proposed exceptions for de minimis contributions and returned
contributions that are consistent with similar exceptions in the
SEC Pay-to-Play Rule as FINRA’s proposed rules must impose
substantially equivalent or more stringent restrictions on member
firms as the SEC Pay-to-Play Rule imposes on investment
advisers. FINRA does not believe that raising the limits for the
de minimis exception or eliminating the limit for returned contributions would satisfy the Commission’s stringency requirements
set forth in the SEC Pay-to-Play Rule.
284

See FSI Letter and FSI Letter 2. FINRA explains that the
Commission did not exempt application of the rule for firms
engaged in the independent business model. See FINRA Response
Letter 2 at 16. As a result, in FINRA’s view, excluding independent business model firms from its proposed rule would not satisfy
the Commission’s stringency requirements, although FINRA is
willing to work with the industry and Commission to address the
interpretive questions and provide additional guidance as needed.
285

See FSI Letter 1. In response, FINRA explains that the
Commission did not apply its rule only to contracts or accounts
opened after the effective date of the rule; therefore, FINRA does
not believe that limiting the application of its rule in the way
suggested by FSI would satisfy the Commission’s stringency
requirements set forth in the SEC Pay-to-Play Rule. However,
FINRA also explains that, if the Commission approves the proposed rule change, proposed Rule 2030(a) will not be triggered by
contributions made prior to the rule’s effective date, and that the
rule will not apply to contributions made prior to the effective
date by new covered associates to which the two years or, as
applicable, six months “look back” applies. See Notice, 80 FR at
81656.

210a
“regulated persons” such that they are subject to rules
that impose substantially equivalent or more stringent
restrictions on its members than the SEC Pay-to-Play
Rule imposes on investment advisers.286
As noted above, the SEC Pay-to-Play Rule, in part,
prohibits any investment adviser covered under the
rule or any of its covered associates from providing or
agreeing to provide, directly or indirectly, payment to
any person to solicit a government entity for investment advisory services on behalf of the investment
adviser unless such person is a “regulated person,” as
defined under the rule.287 The definition of “regulated
person” includes a FINRA member firm, provided
that: (a) FINRA rules prohibit member firms from
engaging in distribution or solicitation activities if
political contributions have been made; and (b) the
Commission finds, by order, that such rules impose
substantially equivalent or more stringent restrictions
on member firms than the SEC Pay-to-Play Rule
imposes on investment advisers and that such rules
are consistent with the objectives of the SEC Pay-toPlay Rule.288 Thus, any changes to the proposed rules
that would result in FINRA’s rules not being found to
impose at least substantially equivalent restrictions
on its member firms and to be otherwise consistent
with the objectives of the SEC Pay-to-Play Rule would
result in a ban on such activity.

286

See, e,g., FINRA Response Letter 2 at 4, 16.

287

See Notice, 80 FR at 81650 n.6, 81656. See also 17 CFR
275.206(4)-5(a)(2)(i)(A).
288

See Notice, 80 FR at 81650 n.6. See also SEC Pay-to-Play
Rule 206(4)-5(f)(9). The definition of “regulated person” also
includes SEC-registered investment advisers and SEC-registered
municipal advisors, subject to specified conditions.

211a
The Commission believes that it is appropriate and
consistent with Section 15A(b)(6) of the Act for FINRA
to design its proposed rules to have the same scope
and provisions as the SEC Pay-to-Play Rule. If the
Commission were unable to make the required stringency finding, this would result in FINRA member
firms not being a “regulated person” under the SEC
Pay-to-Play Rule and therefore prohibited from receiving compensation for engaging in distribution and
solicitation activities with government entities on
behalf of investment advisers.289
One commenter states that the proposal is ambiguous regarding the term “distribution” activities in Rule
2030(a).290 This term in FINRA’s proposed rule is
taken directly from the definition of “regulated person”
in the SEC Pay-to-Play Rule.291 Although the term
“distribution” is not defined specifically in the SEC
Pay-to-Play Rule, to preserve the identified benefits of
the rule, the Commission interprets the term broadly
in the context of the SEC Pay-to-Play Rule to mean
generally engaging in any activity that is primarily
intended to result in the sale of securities.292 In view
289

See Notice, 80 FR at 81650 n.6. See also id. at 81651, 81656
(discussing the regulatory objectives of and statutory basis for the
proposal).
290

See CAI Letter 1.

291

A “regulated person,” as defined in the SEC Pay-to-Play
Rule, includes a FINRA member firm, provided that, among other
things, FINRA rules “prohibit member firms from engaging in
distribution or solicitation activities if certain political contributions have been made.” 17 CFR 275.206(4)-5(f)(9)(ii) (emphasis
added).
292

By way of example in other contexts, the Commission has
recognized that, because new distribution activities may continuously evolve in the future, it would be impracticable to develop,
for example, an all-inclusive definition or list of such activities

212a
of the Commission’s prior statements regarding the
term, including those contained in the SEC Pay-toPlay Rule Adopting Release,293 we believe the term
is not ambiguous and could be applied by FINRA
members for purposes of the proposed rule in a way
that is consistent with the prophylactic nature of the
proposal. However, we note that in connection with
adopting the SEC Pay-to-Play Rule, the Commission
did clarify under what circumstances distribution
payments would violate the SEC’s Pay-to-Play Rule.294
For example, the Commission explained that mutual
fund distribution fees are typically paid by the
fund from fund assets pursuant to a 12b-1 plan and
generally would not constitute payment by the fund’s
adviser; therefore, such payments would not be
prohibited under Rule 206(4)-5.295 The Commission
also explained that where an adviser pays for the
fund’s distribution out of its “legitimate profits,” the
and related expenses, and declined to do so when it adopted the
SEC Pay-to-Play Rule. See Bearing of Distribution Expenses by
Mutual Funds, Investment Company Act Release No. 11414 (Oct.
28, 1980), 45 FR 73898, 73903 (Nov. 7, 1980) (“Rule 12b-1
Adopting Release”). See also 17 CFR.12b-1(a)(2) (explaining, in
the context of registered open-end funds, that one will be deemed
to be acting as a distributor of securities if they engage in “any
activity which is primarily intended to result in the sale of shares
issued by such [fund], including, but not necessary limited to, the
compensation of underwriters, dealers and other sales personnel,
the printing and mailing of prospectuses to other than current
shareholders, and the printing and mailing of sales literature”).
293

See infra notes 294–296 and accompanying text.

294

See SEC Pay-to-Play Rule Adopting Release, 75 FR at 41040
n.298. See also FINRA Response Letter 2 at 12 (citing Notice, 80
FR at 81660–61).
295

See SEC Pay-to-Play Rule Adopting Release, 75 FR at 41040
n.298 (citing Rule 12b-1 Adopting Release).

213a
rule would generally be implicated.296 Based on the
foregoing, we believe it is appropriate for FINRA not
to have specifically defined the term “distribution”
activities for purposes of its proposal.
One commenter claims that, among other things,
the “lack of clarity as to the application of the SEC
Pay-to-Play Rule to [its] members’ business model,
and the scope of government officials that trigger the
requirements, has led some firms to adopt aggressive
compliance programs that prohibit political contributions.”297 As discussed above, FINRA states that,
consistent with the SEC Pay-to-Play Rule, it has
determined not to except from its proposed pay-to-play
rule member firms that use an independent business
model.298 We note that FINRA’s rules and the federal
securities laws do not distinguish so-called independent business model firms from other broker-dealer
business models.299 Rather, although a broker-dealer
may organize its operations under a variety of
business models, and different business models may
296

See SEC Pay-to-Play Rule Adopting Release, 75 FR at 41040
(citing Rule 12b-1 Adopting Release).
297

See FSI Letter 1 (claiming FSI believes that the SEC Payto-Play Rule has inadvertently captured non-corrupting activity
and it fears that the proposed rule may do the same).
298
299

See FINRA Response Letter 2 at 18.

While a firm may accept independent contractor status for
purposes other than the federal securities laws, such treatment
does not alter such person’s status as a person associated with a
broker or dealer or the firm’s responsibility to supervise under
the federal securities laws. See, e.g., Hollinger v. Titan Capital
Corp., 914 F.2d 1564, 1572–76 (9th Cir. 1990) (en banc) (explaining that, even if a broker-dealer and registered representative
contractually agree that a representative is an independent
contractor, the broker-dealer is still required to supervise its
representatives).

214a
present unique compliance challenges, it is up to the
broker-dealer to sufficiently discharge its regulatory
obligations in light of the business model it has
elected, and to tailor its supervisory system appropriately so that it is reasonably designed300 to achieve
compliance with applicable federal securities laws and
regulations and FINRA rules.301
We also note that FINRA has committed to working
with the industry and the Commission to address
interpretive questions that may arise regarding the
application and scope of the provisions and terms used
in the proposed rule change and to provide additional
guidance as needed.302
300

See FINRA Rule 3110(a) (“Each member shall establish and
maintain a system to supervise the activities of each associated
person that is reasonably designed to achieve compliance with
applicable securities laws and regulations and with applicable
FINRA rules.”) and Exchange Act Section 15(b)(4)(E), 15 U.SC.
78o(b)(4)(E) (authorizing the Commission to sanction a brokerdealer that “has failed reasonably to supervise, with a view to
preventing violations of” the federal securities laws and rules and
regulations thereunder).
301

Giving guidance on its supervision rule, FINRA (thenNASD) noted that to fulfill its obligations to establish and
maintain a supervisory system, a member firm must determine
the types of business it conducts, how the firm is organized and
operated, and the current regulatory requirements. See NASD
Notice to Members 99-45 (NASD Provides Guidance on Supervisory
Responsibilities) (June 1999) (stating that this analysis will
enable the member to design a supervisory system that is current
and appropriately tailored to its specific attributes and structure). See also FINRA Regulatory Notice 14-10 (SEC Approves
New Supervision Rules) (Mar. 2014), at 17 n.4 (discussing NASD
Notice to Members 99-45).
302

See FINRA Response Letter 2 at 18. We note that the
proposed rule does contain a provision—modeled on an analogous
provision in the SEC Pay-to-Play Rule—allowing member firms

215a
C. Comments Requesting Clarification
Terms and Provisions in the Proposal

of

Commenters asked for clarification of certain defined
terms and provisions in the proposed rule, including
clarification with respect to: the term “instrumentality” as it is used in the definition of “government
entity;”303 the definition of “covered associate” and
the positions that would qualify someone as a covered
“official;”304 whether a “contribution” is also a “payment;”305 and the factors by which contributions to a
PAC would trigger the proposed anti-circumvention
rule.306 In response to these comments, FINRA generally acknowledges, as did the commenters, that these
terms are defined in the SEC Pay-to-Play Rule and
that FINRA modeled the definitions in its proposal on
those in the SEC Pay-to-Play Rule.307
The Commission believes that FINRA’s definition of
“covered associate” in proposed Rule 2030(g) is functionally identical to the definition of the same term in
the SEC Pay-to-Play Rule.308 The definition brings
within the ambit of the rule—and its two-year “timeout”—only those contributions made by employees of
a member firm who, by virtue of their position or
to apply to FINRA for an exemption, conditional or unconditional,
from the proposed rule’s two-year “time-out,” and enumerates
factors for FINRA to consider in deciding whether to grant such
an exemption. See Proposed Rule 2030(f).
303

See CAI Letter 1.

304

See NAIFA Letter.

305

See CAI Letter 1.

306

See NAIFA Letter.

307

See FINRA Response Letter 2 at 17, 18.

308

Compare Proposed Rule 2030(g)(2), with 17 CFR 275.206(4)5(f)(2).

216a
responsibilities, are best positioned to engage in
pay-to-play activities as placement agents. It includes
“[a]ny general partner, managing member or executive officer of a covered member,” any “associated
person of a covered member who engages in distribution or solicitation activities with a government entity
for such covered member,” any associated person who
supervises such an employee, and any “political action
committee controlled by a covered member or a covered
associate.” FINRA’s rule also adopts the Commission’s
definition of “executive officer,” which was designed
to tailor the trigger for the time-out to those officers
whose position is most likely to incentivize them to
engage in solicitation or distribution activities—and
thus most likely to incentivize them to engage in payto-play.309
FINRA’s definition of “official” also tracks the
Commission’s definition of that same term in the SEC
Pay-to-Play Rule and, therefore, limits the rule so that
a time-out is triggered only by contributions to certain
officials.310 Under FINRA’s proposed rule, the time-out
for a placement agent is not triggered by a contribution to every public official running for office; it is
triggered only by contributions to a person “who was,
at the time of the contribution, an incumbent, candi309

At least one commenter points out that some entities have
precluded all employees from making contributions as a result of
the Commission’s pay-to-play rule and that FINRA’s rule will
have the same effect. See FSI Letter 2. However, under FINRA’s
rule (and the SEC Pay-to-Play Rule), only certain employees’
contributions will trigger the time-out and the rules on their face
do not cover contributions by all employees. See SEC Pay-to-Play
Rule Adopting Release, 75 FR at 40131–32.
310

Compare Proposed Rule 2030(g)(8), with 17 CFR 275.206(4)5(f)(6).

217a
date or successful candidate for elective office of a
government entity, if the office . . . [i]s directly or
indirectly responsible for, or can influence the outcome
of, the hiring of an investment adviser by a government entity” or a person with authority to appoint
someone whose office had the hiring responsibility.311
FINRA’s definition, like the Commission’s, is flexible
enough to accommodate the myriad State and local
political structures while still limiting the reach of the
rule to those officials who are responsible for or have
authority to appoint any person who is responsible for
or can influence the outcome of the hiring of an
investment adviser by a government entity.312
Additionally, FINRA’s definitions of “contribution”
and “payment” are functionally identical to those same
definitions in the SEC Pay-to-Play Rule.313 We note
that under FINRA’s rule, the time-out is not triggered
by direct contributions to political parties. Therefore,
a member firm will not violate the time-out if it
receives compensation for solicitation and distribution
activities in the wake of contributions that it or its
covered associates make to a political party. Instead,
311

See supra note 310.

312

If FINRA were to define “official” by reference to a particular
title, such as “Comptroller,” the definition would be both overand under- inclusive. Some officials who have hiring responsibility for investment advisers do not hold the title of “Comptroller,”
and some officials with the title of “Comptroller” do not have
hiring responsibility for investment advisers. Because we understand FINRA’s definition to track the definition that we adopted
in the SEC Pay-to-Play Rule, we note that it is the scope of
authority of the office, not de facto influence, that determines
whether a contribution will trigger the time-out. See SEC Pay-toPlay Adopting Release, 75 FR at 41029.
313

Compare Proposed Rules 2030(g)(8)-(9), with 17 CFR
275.206(4)-5(f)(1), 206(4)-5(f)(7).

218a
FINRA’s proposed rule only precludes a covered
member from soliciting or coordinating payments to a
political party of a State or locality of a government
entity with which the covered member is engaging in
distribution or solicitation activities on behalf of an
investment adviser.314 FINRA notes in response to a
commenter’s request for clarification as to whether
each and every “contribution” (as defined in proposed
FINRA Rule 2030(g)(1)) is, by definition, also a “payment” (as defined in proposed FINRA Rule 2030(g)(9)),
that the definition of “payment” is similar to the
definition of “contribution,” but is broader in the sense
that it does not include limitations on the purposes for
which such money is given (e.g., it does not have to be
made for the purpose of influencing an election).315

314

See Proposed Rule 2030(b). This aspect of the rule serves an
anti-circumvention function, along with proposed Rule 2030(e),
which makes it a violation of the rule “for any covered member or
any of its covered associates to do anything indirectly that, if done
directly, would result in a violation of this Rule.” As FINRA notes,
Rule 2030(e) precludes only intentional efforts to circumvent the
time-out and a covered member would not violate the rule’s prohibition on the receipt of compensation unless there is a showing
that the covered member intended to evade the time-out. Thus, a
contribution to a PAC—other than a PAC controlled by the
covered member, which would be a “covered associate” for purposes of the time-out—would not trigger the time-out and the
receipt of compensation in the wake of that contribution would
not violate the rule unless it can be shown that the covered
member or covered associate who made the contribution intended
to circumvent the time-out provision. This provision, which is
analogous to a provision in the Commission’s Pay-to-Play Rule,
precludes a member or its covered associates from, for example,
funneling contributions or payments through third parties, such
as attorneys, family members, or friends, to complete a pay-toplay arrangement without triggering the time-out.
315

See FINRA Response Letter 2 at 17.

219a
The Commission believes that FINRA’s definitions,
which mirror or are functionally equivalent to similar
definitions in the SEC’s Pay-to-Play Rule, will help to
achieve the objectives of the SEC Pay-to-Play Rule
and, as described above, the requirements governing
the rules of a registered national securities association.316 The Commission believes that it is appropriate
and consistent with the Act for FINRA to encompass
in its rule the same definitions and discussion regarding its pay-to-play rules as the Commission did in
adopting the SEC Payto-Play Rule. The Commission
emphasizes that FINRA has committed to working
with the industry and the Commission to address interpretive questions and provide additional guidance as
needed.317

316

See SEC Pay-to-Play Rule Adopting Release, 75 FR at
41042–44.
317

There are several ways for industry members to obtain
guidance from FINRA about the application of its rules. Such
guidance may include FINRA’s publication of Notices to Members
and Regulatory Notices, as well as interpretative and exemptive
letters. Although FINRA can address interpretive questions with
respect to its own rules, for its member firms to satisfy the
“regulated person” definition in the SEC Pay-to-Play Rule, the
Commission must find that FINRA’s pay-to-play rule (i) imposes
substantially equivalent or more stringent restrictions on member
firms than the SEC Pay-to-Play Rule imposes on investment
advisers and (ii) that such rule is consistent with the objectives
of the SEC Pay-to-Play Rule. See supra note 22 (discussing the
Commission’s notice of stringency findings dated August 25,
2016). Given the stringency requirements of the SEC Pay-to-Play
Rule, we expect our staff to work closely with FINRA regarding
interpretive questions about the application and scope of the
provisions and terms used in FINRA’s rule to the extent those
interpretations do not otherwise require FINRA to file a proposed
rule change with the Commission pursuant to Section 19(b) of the
Act and the rules and regulations thereunder.

220a
D. Comments Regarding
Records Requirements

the

Books

and

One commenter claims that not all payments to
political parties or PACs should have to be maintained
under the books and records requirements of proposed
Rule 4580.318 In response, FINRA states that it has
determined to retain the recordkeeping requirements
as proposed in the Notice.319 FINRA notes that, as
discussed in the Notice, payments to political parties
or PACs can be a means for a covered member or
covered associate to funnel contributions to a government official without directly contributing.320 FINRA
states that it proposed requiring a covered member to
maintain a record of all payments to political parties
or PACs because such records would assist FINRA in
identifying situations that might suggest an intent to
circumvent the rule.321

318

See CAI Letter 1.

319

See FINRA Response Letter 2 at 20–21.

320

See id. As FINRA explains in the Notice, a covered associate
would include a PAC controlled by the covered member or any of
its associates. FINRA states that it would consider a covered
member or its covered associates to have “control” over a PAC if
the covered member or covered associate has the ability to direct
or cause the direction of governance or operations of the PAC. See
Notice, 80 FR at 81653, 81660 (noting that this position is consistent with the position taken by the Commission in connection
with the SEC Pay-to-Play Rule) (citing SEC Pay-to-Play Adopting
Release, 75 FR at 41032).
321

See FINRA Response Letter 2 at 20. FINRA states in the
Notice that the proposed recordkeeping requirements are intended
to allow FINRA to examine for compliance with its proposed
pay-to-play rule, and the reference to indirect contributions in
proposed Rule 4580(a)(4) is intended to include records of contributions or payments a covered member solicits or coordinates

221a
The Commission acknowledges the comment, but
agrees, as noted by FINRA, that payments to political
parties or PACs can be a means for a covered member
or covered associate to contribute indirectly to a government official in contravention of the proposed rule.
The Commission also agrees that requiring FINRA
members to maintain a record of all payments to
political parties or PACs would assist FINRA in
identifying situations that might suggest an intent to
violate proposed Rules 2030(b) and 2030(e).322 The
Commission therefore believes that it is appropriate
and consistent with the Act for FINRA to require its
members to keep records of all such payments to assist
FINRA in carrying out its regulatory responsibilities
to enforce compliance with the Act and with FINRA’s
rules.323

another person or PAC to make under proposed Rule 2030(b). See
Notice, 80 FR at 81663.
322

We note that proposed Rule 2030(e) would require a showing of intent to circumvent the rule for such persons to trigger the
two-year “time-out.” See Notice, 80 FR at 81654. See also SEC
Pay-to-Play Rule Adopting Release, 75 FR at 41044 n.340
(explaining that like MSRB Rule G-37(d), SEC Pay-to-Play Rule
206(4)-5(d) also “requires a showing of intent to circumvent the
rule for such persons to trigger the time out”) (citing Blount, 61
F.3d at 948 (“In short, according to the SEC, the rule restricts
such gifts and contributions only when they are intended as endruns around the direct contribution limitations.”)).
323

Section 15A(b)(2) of the Act requires, among other things,
that a registered national securities association, such as FINRA,
has the capacity to enforce compliance by its members and
persons associated with its members with the provisions of the
Act, the rules and regulations thereunder, and the rules of the
association. See 15 U.S.C. 78o-3(b)(2).

222a
E. Additional Comments
Certain commenters also suggested that FINRA
should include more stringent requirements in its
proposed rule.324 Both commenters suggested that
FINRA expand the applicability of its proposed rules
to include state-registered investment advisers.325 In
response, FINRA explains that to remain consistent
with the SEC Pay-to-Play Rule, FINRA has determined not to expand the scope of the proposed rule as
suggested by commenters to include state-registered
investment advisers.326
The Commission acknowledges this comment but
believes that it is appropriate for FINRA to determine
to provide for the same scope of its pay-to-play rule as
that of the SEC Pay-to-Play Rule. As FINRA notes, the
Commission previously declined to make a similar
change to the SEC Pay-to-Play Rule stating, among
other things, that it was the Commission’s understanding that few of these smaller state-registered
firms manage public pension plans or other similar
funds.327
These same commenters suggest that FINRA include
a mandatory disgorgement provision for violations of
324

See NASAA Letter and PIABA Letter.

325

See NASAA Letter and PIABA Letter.

326

See FINRA Response Letter 2 at 10.

327

See Notice, 80 FR at 81652 n.26, 81660 n.98. See also SEC
Pay-to-Play Rule Adopting Release, 75 FR at 41026, 41060. The
Commission also explained in connection with the SEC Pay-toPlay Rule that we do not have regulatory authority to oversee the
activities of state-registered advisers through examination and
our recordkeeping rules, nor does the Commission have authority
over the states to oversee their enforcement of their rules. See
SEC Pay-to-Play Rule Adopting Release, 75 FR at 41026, 41060.

223a
its proposed rule. In response, FINRA explains that
it determined not to include a disgorgement requirement in its proposal because it has existing authority
to require disgorgement of fees in enforcement
actions.329 The Commission believes that it is appropriate and consistent with the Act for FINRA not to
separately require mandatory disgorgement for violations of its proposed rules.
328

Finally, one of these commenters suggests that the
current two-year cooling-off period in the proposal
should be at least four years.330 In response, FINRA
states that it believes a two-year time-out from the
date of a contribution is sufficient to discourage covered members from participating in pay-to-play practices
by requiring a cooling-off period during which the
effects of a quid pro quo political contribution on the
selection process can be expected to dissipate.331 In
addition, FINRA explains that the proposed two-year
time-out is consistent with the time-out period in the
SEC’s Pay-to-Play Rule. The Commission believes that
it is appropriate and consistent with the Act for
FINRA to determine that a two-year time-out is
sufficient to support the objective of the rule to deter
pay-to-play activity among its covered members. The
Commission notes that the same time period applies
in the SEC’s Pay-to-Play Rule.

328

See NASAA Letter and PIABA Letter.

329

See FINRA Response Letter 2 at 19–20.

330

See PIABA Letter.

331

See FINRA Response Letter 2 at 10. As the Commission
explained, the two-year “cooling-off period” is not a penalty but,
rather, is intended to be a period during which any effects of a
quid pro quo are expected to dissipate. See SEC Pay-to-Play
Adopting Release, 75 FR at 41026 n.104.

224a
The Commission recognizes these commenters
suggest that the rule could have a broader scope. The
Commission, however, must evaluate the proposed
rule before it and approve a proposed rule if it finds
that the proposed rule is consistent with the requirements of the Act and the applicable rules and
regulations thereunder. As discussed above, because
the rule is consistent with the Act, the Commission is
required to approve the FINRA rule.
V. Conclusion
Accordingly, for the reasons discussed above, the
Commission finds that the proposed rule change is
consistent with the Act and the rules and regulations
thereunder applicable to such organization.
IT IS THEREFORE ORDERED, pursuant to
Section 19(b)(2) of the Act,332 that the proposed rule
change (SR-FINRA-2015-056) be, and hereby is,
approved.
By the Commission.
Brent J. Fields
Secretary

332

15 U.S.C. 78s(b)(2).

225a
APPENDIX G
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
————
Nos. 18-1111
————
NEW YORK REPUBLICAN STATE COMMITTEE AND
TENNESSEE REPUBLICAN PARTY,
v.

Petitioners,

UNITED STATES SECURITIES AND
EXCHANGE COMMISSION,
————

Respondent.

Petition for Review of Final Rule of the Financial
Industry Regulatory Authority, Inc., Approved by the
United States Securities and Exchange Commission
————
AFFIDAVIT OF EDWARD COX
————
JASON TORCHINSKY
SHAWN SHEEHY
HOLTZMAN VOGEL
JOSEFIAK TORCHINSKY
45 North Hill Drive,
Suite 100
Warrenton, VA 20186
(540) 341-8808
jtorchinsky@hvjt.law

H. CHRISTOPHER
BARTOLOMUCCI
Counsel of Record
EDMUND G. LACOUR JR.
KIRKLAND & ELLIS LLP
655 Fifteenth Street, NW
Washington, DC 20005
(202) 879-5000
cbartolomucci@kirkland.com

Counsel for Petitioners
July 25, 2018

226a
I, Edward F. Cox, pursuant to 28 U.S.C. § 1746,
declare as follows under penalty of perjury:
1. My name is Edward F. Cox. I have personal knowledge of the facts set forth herein and am otherwise
competent to testify.
2. I am a United States Citizen, and I reside in
Westhampton Beach, New York.
3. I am the chairman of the New York Republican
State Committee (“NYGOP” or the “Party”).
4. The NYGOP is the entity constituted under
Article 2 of the New York State Election Law that
represents the interests and manages the affairs of the
Republican Party in the State of New York.
5. The NYGOP’s chief purpose is to support Republican candidates for local, state, and federal offices who
will promote the Party’s goals and policies.
6. To fulfill this purpose, the Party assists Republican candidates for office in their election campaigns.
The Party raises its own funds, which it uses to
promote the Party in general through political messaging and organizing volunteers to spread the Party’s
message and generate interest among voters. The
Party also uses its funds to assist candidates in their
campaigns.
7. The Party also supports its candidates by assisting them in their efforts to raise funds for their
campaigns. A key aspect of those operations is advising
candidates about various campaign finance regulations that apply to them and the candidates’ potential
donors.
8. For example, N.Y. Election Law § 14-114 sets
various contribution limits for primary and general
elections for every state and local office, and those

227a
limits can vary based on factors including how many
enrolled active voters are eligible to vote for the candidate, how many of those voters are members of the
candidate’s party, and whether the potential donor is
a family member of the candidate. Some local governments also have campaign finance boards that can
impose additional limitations on donations.
9. Each election cycle, the NYGOP fields candidates
who run for local, state, and federal elected offices. In
2018, the NYGOP has candidates in hundreds of races
across the state from statewide offices, both houses of
the state legislature, congressional races, local legislatures and local offices.
10. One of the NYGOP’s main purposes is to continue to field candidates to run for and secure these
offices so the Party can more effectively pursue its
policy goals. As such, the NYGOP will continue to
assist candidates not just in the 2018 election, but in
elections in 2019 and beyond.
11. The NYGOP has over 2,800,000 registered
Republicans statewide. In 2014, 2016 and 2018, the
Party’s candidates for state and local office have
received hundreds of thousands of contributions from
their supporters in New York and elsewhere. In 2016,
the Republican nominee for President received over
2.8 million votes from New York residents.
12. As chairman, it is my duty to ensure that the
NYGOP is successful in convincing the voters of New
York to elect Republican candidates.
13. Included in this duty is the ability to raise the
funds needed to spread the NYGOP’s message to the
public, and to assist local, state, and federal candidates with their fundraising efforts. I thus have
knowledge about the NYGOP’s fundraising operations.

228a
14. Since Financial Industry Regulatory Authority’s
(“FINRA”) Rule 2030 took effect on August 20, 2017, I
have had conversations with numerous potential
contributors who are currently covered by Rule 2030.
15. Just one example is Francis J. Calcagno, a
FINRA-registered broker (FINRA CRD#: 1344774)
who serves as a Managing Director at Pickwick Capital
Partners, LLC (FINRA CRD#: 130672). Pickwick is a
FINRA member located at 445 Hamilton Avenue,
Suite 1102, White Plains, NY 10601.
16. Pickwick serves and seeks to serve as a
placement agent for investment advisers that provide
or are seeking to provide investment advisory services
to government entities, including public pensions.
Thus, as part of its placement advisory business,
Pickwick has engaged in distribution and solicitation
activities with government entities’ public pension
funds. Pickwick thus is a “covered member” under
Rule 2030.
17. Because Calcagno is a Managing Director at
Pickwick, he is a “covered associate” under Rule 2030,
which defines “covered associate” to include any “general partner, managing member or executive officer of
a covered member, or other individual with a similar
status or function.” Rule 2030(g)(2)(A). Calcagno has
contributed to NYGOP candidates in the past.
18. Calcagno informed me that he wants to make
further political contributions to NYGOP candidates
who are “covered officials” under Rule 2030. Specifically,
he would contribute more than $350 to Marcus Molinaro,
the Duchess County Executive who is the NYGOP
candidate for governor.
19. But he—like many other Party members—
has declined to make such contributions because of

229a
Rule 2030, which would prevent his entire firm from
receiving compensation for its work on behalf of
any investment adviser that provides or is seeking to
provide investment advisory services to state or local
government entities associated with these covered officials’ current offices or the offices they seek. Calcagno
also informed me that he would contribute more than
$350 to other Party candidates in elections beyond
2018 if not for Rule 2030.
20. Additionally, Calcagno—like many other Party
members—informed me that he would solicit contributions for these candidates from his friends, family, and
other contacts but for the restrictions placed on him
and his employer by Rule 2030.
21. Similarly, Calcagno—like many other Party
members—informed me that he would solicit contributions for the NYGOP from his friends, family, and
contacts but for the restrictions placed on him and his
employer by Rule 2030.
22. Thus, Calcagno and many other people have completely refrained from contributing or have decreased
their contribution amounts to NYGOP candidates
during the 2018 election cycle because of Rule 2030.
Calcagno and others likewise have refused to ask others
to contribute to NYGOP candidates or to the Party
itself because of Rule 2030. And Calcagno and others
will continue to limit their contributions to NYGOP
candidates and continue to refrain from soliciting
contributions to NYGOP candidates and the Party
itself after the November 6, 2018 election.
23. Thus, numerous NYGOP candidates running
for election this cycle have been harmed by having to
compete in competitive environments that have been
misshapen by Rule 2030’s regulations. Included among
these NYGOP candidates are Marcus Molinaro, the

230a
Duchess County Executive who is the NYGOP candidate for governor; Jerry Fremouw, the Mayor of Clyde,
who is running for state assembly; John Kennedy,
the Suffolk County Comptroller, who is running for
re-election; and James O’Donnell, an Orange County
legislator who is running to represent New York’s 18th
District in Congress. All of them face new obstacles
related to raising campaign funds and recruiting supporters to solicit contributions on their behalf.
24. And Rule 2030 places officials like James
O’Donnell at a particular disadvantage. As a legislator
for Orange County, Mr. O’Donnell can influence the
outcome of the hiring of an investment adviser by
Orange County, meaning that Rule 2030 imposes
additional restrictions on the ability of some of his
potential supporters to contribute to or solicit on
behalf of his campaign. Mr. O’Donnell is running for
Congress against incumbent Democratic Congressman
Sean Patrick Maloney, who is not a covered official
under Rule 2030. Thus, FINRA regulated placement
agents can give at most $350 to Mr. O’Donnell’s campaign, but can contribute up to $2700 to his competitor
for the same seat.
25. In addition to depressing contributions to the
Party and its candidates, Rule 2030 has also forced
the Party to divert scarce resources away from the
Party’s regular activities, such as promoting Republican
candidates and assisting them with their fundraising
efforts. FINRA’s new layer of campaign finance law
has frustrated the Party’s ordinary fundraising activities and forced to the Party to incur new operational
costs it would not have otherwise had to bear.
26. For example, a crucial part of the NYGOP’s
mission is to elect Republican candidates to office on
the local, state, and federal levels. The Party accom-

231a
plishes this mission through assisting in recruiting,
advising, and supporting Republican candidates for
office. One of the primary ways in which we assist
Republican candidates is by advising and supporting
these candidates in their fundraising efforts. We
regularly provide such assistance with fundraising to
candidates for local, state, and federal office, including
state and local officeholders who are running for
federal offices.
27. By imposing unlawful restrictions on contributions to candidates and solicitation of contributions to
the candidates and Party, Rule 2030 has frustrated
the NYGOP’s efforts to provide these services. Among
other things, Rule 2030 has forced the Party to expend
time and financial resources beyond those the Party
would normally expend to educate state and local
officeholders about FINRA’s additional layer of campaign finance and political speech restrictions.
28. It is important for our candidates to understand
these additional restrictions, both to ensure that their
supporters do not suffer negative consequences for
supporting their campaigns, and to protect against
receiving contributions that “covered associates” are
likely going to request to be returned. When a campaign has to return contributions, the process causes
disruption in a campaign’s ability to budget and
effectively allocate scarce resources. Thus, to respond
to Rule 2030, the NYGOP has provided new educational services to almost all of our federal and state
candidates about the Rule with whom we interact on
a regular basis and to our statewide and local party
officials with whom we discuss these rules and who in
turn interact with other federal, state and local
candidates.

232a
29. Rule 2030 has also frustrated the NYGOP’s
efforts to promote its candidates by forcing the Party
to expend time and financial resources beyond those
the Party would normally expend to help local officeholders find alternative sources of contributions to
counteract the negative impact of the Rule on the size
and number of contributions from covered associates
and those supporters who have refrained from political
activity because they may want or need to become a
covered associate within the next two years.
30. Rule 2030 has also frustrated the NYGOP’s
efforts to promote its candidates by forcing the Party
to expend time and financial resources beyond those
the Party would normally expend on advising the
Party’s supporters on the amount and types of contributions that they are allowed to make to local, state,
and federal candidates. Covered associates, for example,
need to know that they would violate Rule 2030 by
asking their friends to donate to covered officials or the
Party, and that even some in-kind contributions to
candidates can run afoul of the Rule.
31. The NYGOP would not have needed to expend
these resources if not for Rule 2030. And if it prevails
in this action, the NYGOP will no longer have to
expend as many resources on counteracting the negative impact of Rule 2030.
32. Moreover, one of the primary ways the NYGOP
identifies new supporters and donors is through
contributions from first-time donors. Thus, because
there are thousands of broker-dealers currently covered by Rule 2030, and countless more people who may
be refraining from making contributions to candidates
or soliciting on behalf of candidates or the NYGOP in
anticipation of becoming a covered placement agent
within the next two years, Rule 2030 has substantially

233a
increased the risk that the NYGOP and its candidatemembers will be deprived of (i) first-time contributions
from individuals who otherwise would have been firsttime donors to the NYGOP’s candidates as well as (ii)
the knowledge that these individuals are potential
supporters of the NYGOP and its candidates. Based on
the large number of placement agents and people who
will seek to become placement agents, this substantial
increase in the risk of harm to the NYGOP and its
numerous candidates for local, state, and federal
offices has created a substantial probability of harm to
the NYGOP and its members.
I declare under the penalty of perjury that the
foregoing is true and correct.
Executed this 24th day in July, 2018
New York, New York
/s/ Edward F. Cox
Edward F. Cox

234a
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
————
Nos. 18-1111
————
NEW YORK REPUBLICAN STATE COMMITTEE AND
TENNESSEE REPUBLICAN PARTY,
Petitioners,
v.
UNITED STATES SECURITIES AND
EXCHANGE COMMISSION,
Respondent.
————
Petition for Review of Final Rule of the Financial
Industry Regulatory Authority, Inc., Approved by the
United States Securities and Exchange Commission
————
AFFIDAVIT OF FRANCIS J. CALCAGNO
————
JASON TORCHINSKY
SHAWN SHEEHY
HOLTZMAN VOGEL
JOSEFIAK TORCHINSKY
45 North Hill Drive,
Suite 100
Warrenton, VA 20186
(540) 341-8808
jtorchinsky@hvjt.law

H. CHRISTOPHER
BARTOLOMUCCI
Counsel of Record
EDMUND G. LACOUR JR.
KIRKLAND & ELLIS LLP
655 Fifteenth Street, NW
Washington, DC 20005
(202) 879-5000
cbartolomucci@kirkland.com

Counsel for Petitioners
July 25, 2018

235a
I, Francis J. Calcagno, pursuant to 28 U.S.C. § 1746,
declare as follows under penalty of perjury:
1. My name is Francis J. Calcagno. I have personal
knowledge of the facts set forth herein and am otherwise competent to testify.
2. I am a United States Citizen, and I reside in
Basking Ridge, New Jersey.
3. I am a member in good standing of the New Jersey
Republican State Committee (“NJGOP” or the “Party”).
4. I am registered with the Financial Industry
Regulatory Authority (“FINRA”) as a broker (FINRA
CRD#: 1344774). I serve as a Managing Director at
Pickwick Capital Partners, LLC (FINRA CRD#: 130672).
Pickwick is a FINRA member located at 445 Hamilton
Avenue, Suite 1102, White Plains, NY 10601.
5. Pickwick serves and will continue to serve as a
placement agent for investment advisers that provide
or are seeking to provide investment advisory services
to government entities. Thus, as part of its placement
advisory business, Pickwick has engaged in and will
continue to engage in distribution and solicitation
activities with state and local government entities’
public pension funds. Pickwick thus is and will continue to be a “covered member” under Rule 2030.
6. Because I am a Managing Director at Pickwick, I
am a “covered associate” under Rule 2030.
7. I have contributed to NYGOP candidates in the
past, including to the NYGOP’ s nominee for governor
in 2014.
8. If Rule 2030 did not apply to me and my
employer, I would contribute more than $350 to
several NYGOP candidates for elected office including
Marcus Molinaro, the Duchess County Executive who

236a
is the NYGOP candidate for governor. But I have
declined to make such contributions because of Rule
2030, which would prevent Pickwick from receiving
compensation for its work on behalf of any investment
adviser that provides or is seeking to provide investment advisory services to Duchess County or the State
of New York.
9. Additionally, I would solicit contributions for
these candidates from my friends, family, and other
contacts but for the restrictions placed on me and my
employer by Rule 2030.
10. Similarly, I would solicit contributions for the
NYGOP from my friends, family, and other contacts
but for the restrictions placed on me and my employer
by Rule 2030.
11. Thus, I have decreased my contribution amounts
to the NYGOP candidates mentioned above because of
Rule 2030. And I have refrained from asking others to
contribute to NYGOP candidates or to the Party itself
because of Rule 2030. Moreover, I will continue to limit
my contributions to NYGOP candidates and refrain
from soliciting contributions to NYGOP candidates and
the Party itself after the November 6, 2018 election.
But if Rule 2030 were no longer in effect, I would
contribute more than $350/150 to NYGOP candidates,
including Marcus Molinaro, and other NYGOP candidates in future elections, and I would solicit contributions
for these candidates. I would also solicit contributions
for the NYGOP.
I declare under the penalty of perjury that the
foregoing is true and correct.
Executed this 25th day in July, 2018
Basking Ridge, New Jersey
/s/ Francis J. Calcagno
Francis J. Calcagno

237a
APPENDIX H
FINRA Rule 2030
No date in original
FINRA Rules
FINRA Rules 2000
DUTIES AND CONFLICTS
2030. Engaging in Distribution and Solicitation
Activities with Government Entities
(a) Limitation on Distribution and Solicitation Activities
No covered member shall engage in distribution or
solicitation activities for compensation with a government entity on behalf of an investment adviser that
provides or is seeking to provide investment advisory
services to such government entity within two years
after a contribution to an official of the government
entity is made by the covered member or a covered
associate (including a person who becomes a covered
associate within two years after the contribution is
made).
(b) Prohibition
Contributions

on

Soliciting

and

Coordinating

No covered member or covered associate may solicit or
coordinate any person or political action committee to
make any:
(1) Contribution to an official of a government
entity in respect of which the covered member is
engaging in, or seeking to engage in, distribution or
solicitation activities on behalf of an investment
adviser; or
(2) Payment to a political party of a state or locality
of a government entity with which the covered
member is engaging in, or seeking to engage in,

238a
distribution or solicitation activities on behalf of an
investment adviser.
(c) Exceptions
(1) De minimis Exception
Paragraph (a) shall not apply to contributions made
by a covered associate that is a natural person, to
officials for whom the covered associate was entitled
to vote at the time of the contributions and which in
the aggregate do not exceed $350 to any one official,
per election, or to officials for whom the covered
associate was not entitled to vote at the time of the
contributions and which in the aggregate do not
exceed $150 to any one official, per election.
(2) Exception for Certain New Covered Associates
The prohibitions of paragraph (a) shall not apply to
a covered member as a result of a contribution made
by a natural person more than six months prior to
becoming a covered associate of the covered member
unless such person, after becoming a covered associate, engages in, or seeks to engage in, distribution
or solicitation activities with a government entity on
behalf of the covered member.
(3) Exception for Certain Returned Contributions
(A) A covered member that is prohibited from
engaging in distribution or solicitation activities
with a government entity pursuant to paragraph
(a) as a result of a contribution made by a covered
associate is excepted from such prohibition, subject to subparagraphs (B) and (C) below, upon
satisfaction of the following requirements:
(i) The covered member must have discovered
the contribution that resulted in the prohibition

239a
within four months of the date of such
contribution;
(ii) Such contribution must not have exceeded
$350; and
(iii) The contributor must obtain a return of the
contribution within 60 calendar days of the date
of discovery of such contribution by the covered
member.
(B) In any calendar year, a covered member
that has reported on its annual Schedule I to Form
X-17A-5 that it has more than 150 registered
persons is entitled to no more than three exceptions pursuant to subparagraph (A), and a covered
member that has reported on its annual Schedule
I to Form X-17A-5 that it has 150 or fewer registered persons is entitled to no more than two
exceptions pursuant to subparagraph (A).
(C) A covered member may not rely on the exception provided in subparagraph (A) more than once
with respect to contributions by the same covered
associate of the covered member regardless of
time period.
(d) Prohibitions as Applied to Covered Investment
Pools For purposes of this Rule;
(1) A covered member that engages in distribution
or solicitation activities with a government entity on
behalf of a covered investment pool in which a
government entity invests or is solicited to invest
shall be treated as though that covered member was
engaging in or seeking to engage in distribution or
solicitation activities with the government entity on
behalf of the investment adviser to the covered
investment pool directly; and

240a
(2) An investment adviser to a covered investment
pool in which a government entity invests or is
solicited to invest shall be treated as though that
investment adviser were providing or seeking to
provide investment advisory services directly to the
government entity.
(e) Further Prohibitions
It shall be a violation of this Rule for any covered
member or any of its covered associates to do anything
indirectly that, if done directly, would result in a
violation of this Rule.
(f) Exemptions
FINRA, upon application, may conditionally or unconditionally exempt a covered member from the prohibition
described in paragraph (a). In determining whether
to grant an exemption, FINRA shall consider, among
other factors;
(1) Whether the exemption is necessary or appropriate in the public interest and consistent with the
protection of investors and the purposes fairly
intended by the policy and provisions of this Rule;
(2) Whether the covered member:
(A) Before the contribution resulting in the prohibition was made, adopted and implemented policies
and procedures reasonably designed to prevent
violations of this Rule;
(B) Prior to or at the time the contribution that
resulted in such prohibition was made, had no
actual knowledge of the contribution; and
(C) After learning of the contribution:
(i) Has taken all available steps to cause the
contributor involved in making the contribution

241a
that resulted in such prohibition to obtain a
return of the contribution; and
(ii) Has taken such other remedial or preventive measures as may be appropriate under the
circumstances;
(3) Whether, at the time of the contribution, the
contributor was a covered associate or otherwise an
associated person of the covered member, or was
seeking to become an associated person, or covered
associate of the covered member;
(4) The timing and amount of the contribution that
resulted in the prohibition;
(5) The nature of the election (e.g., federal, state or
local); and
(6) The contributor’s apparent intent or motive in
making the contribution that resulted in the prohibition, as evidenced by the facts and circumstances
surrounding such contribution.
(g) Definitions
For purposes of this Rule:
(1) “Contribution” means any gift, subscription,
loan, advance, or deposit of money or anything of
value made for:
(A) The purpose of influencing any election for
federal, state or local office;
(B) Payment of debt incurred in connection with
any such election; or
(C) Transition or inaugural expenses of the successful candidate for state or local office.
(2) “Covered associate” means:

242a
(A) Any general partner, managing member or
executive officer of a covered member, or other
individual with a similar status or function;
(B) Any associated person of a covered member
who engages in distribution or solicitation activities with a government entity for such covered
member;
(C) Any associated person of a covered member
who supervises, directly or indirectly, the government entity distribution or solicitation activities
of a person in subparagraph (B) above; and
(D) Any political action committee controlled by a
covered member or a covered associate.
(3) “Covered investment pool” means:
(A) Any investment company registered under
the Investment Company Act that is an investment option of a plan or program of a government
entity; or
(B) Any company that would be an investment
company under Section 3(a) of the Investment
Company Act but for the exclusion provided from
that definition by either Section 3(c)(1), 3(c)(7) or
3(c)(11) of that Act.
(4) “Covered member” means any member except
when that member is engaging in activities that
would cause the member to be a municipal advisor
as defined in Exchange Act Section 15B(e)(4), SEA
Rule 15Ba1-1(d)(1) through (4) and other rules and
regulations thereunder;
(5) “Executive officer of a covered member” means:
(A) The president;

243a
(B) Any vice president in charge of a principal
business unit, division or function (such as sales,
administration or finance);
(C) Any other officer of the covered member who
performs a policy-making function; or
(D) Any other person who performs similar policymaking functions for the covered member.
(6) “Government entity” means any state or political subdivision of a state, including;
(A) Any agency, authority or instrumentality of
the state or political subdivision;
(B) A pool of assets sponsored or established by
the state or political subdivision or any agency,
authority or instrumentality thereof, including
but not limited to a defined benefit plan as defined
in Section 414(j) of the Internal Revenue Code, or
a state general fund;
(C) A plan or program of a government entity; and
(D) Officers, agents or employees of the state or
political subdivision or any agency, authority or
instrumentality thereof, acting in their official
capacity.
(7) “Investment adviser” means any investment
adviser registered (or required to be registered) with
the Commission, or unregistered in reliance on the
exemption available under Section 203(b)(3) of the
Investment Advisers Act, or that is an exempt reporting adviser, as defined in Rule 204-4(a) of that Act.
(8) ‘Official” means any person (including any
election committee for the person) who was, at the
time of the contribution, an incumbent, candidate or

244a
successful candidate for elective office of a government entity, if the office:
(A) Is directly or indirectly responsible for, or can
influence the outcome of, the hiring of an investment adviser by a government entity; or
(B) Has authority to appoint any person who is
directly or indirectly responsible for or can influence the outcome of, the hiring of an investment
adviser by a government entity.
(9) “Payment” means any gift, subscription, loan,
advance or deposit of money or anything of value.
(10) “Plan” or “program” or a “government entity”
means any participant-directed investment program or plan sponsored or established by a state
or political subdivision or any agency, authority or
instrumentality thereof, including but not limited to
a qualified tuition plan authorized by Section 529
of the Internal Revenue Code, a retirement plan
authorized by Section 403(b) or 457 of the Internal
Revenue Code, or any similar program or plan.
(11) “Solicit” means:
(A) With respect to investment advisory services,
to communicate, directly or indirectly, for the
purpose of obtaining or retaining a client for, or
referring a client to, an investment adviser; and
(B) With respect to a contribution or payment, to
communicate, directly or indirectly, for the purpose of obtaining or arranging a contribution or
payment.
Adopted by SR-FINRA-2015-056 eff. Aug. 20, 2017.

